                                                                                                                                                                                               sigar
        SIGAR




                                                                                                                   SIGAR | Quarterly Report to the United States Congress | January 30, 2014
        Special Inspector General                                                                                                                                                                               Special Inspector General for    JAN 30
        for Afghanistan Reconstruction
                                                                                                                                                                                                                Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                                Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By Web Submission: www.sigar.mil/investigations/hotline/report-fraud.aspx
                               www.sigar.mil/investigations/hotline/




                                                                                                                   1
                                                                                    sigar
                                                                                    Report Fraud, Waste or Abuse




FINAL_Jan2014_Cover.indd 1                                                                                                                                                                                                                           1/15/2014 3:15:38 PM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:                                                                                      An American machine gunner keeps watch as his helicopter flies over the powerhouse and
                             An armored vehicle of the U.S. 9th Marine Regiment moves through the desert during a patrolling   reservoir of the Kajaki hydropower project about 40 miles northwest of Kandahar, Afghanistan.
                             operation in Helmand Province, Afghanistan, December 20, 2013. (USMC photo)                       (SIGAR photo by Jaryd Bern)




FINAL_Jan2014_Cover.indd 2                                                                                                                                                                                                     1/15/2014 3:15:40 PM
                                                                 JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                                               BALKH                    TAKHAR


                                                                                 SAMANGAN
                                                     FARYAB                                     BAGHLAN
                                                                 SAR-E PUL                          PANJSHIR
                                           BADGHIS                                                       NURISTAN
                                                                                         PARWAN   KAPISA      KUNAR
                                                                               BAMYAN                 LAGHMAN
                                                                                               KABUL
                     HERAT
                                                                                      WARDAK
                                                                                                        NANGARHAR
          Temporarily closed for repairs             GHOR                                    LOGAR
           after 2013 insurgent attack
                                                                  DAYKUNDI                              PAKTIYA
                                                                                     GHAZNI                 KHOWST

                                                               URUZGAN
                        FARAH
                                                                                              PAKTIKA
                                                                             ZABUL




                      NIMROZ                                                                                             Current SIGAR offices
                                           HELMAND
                                                            KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                                         audit, inspection, and investigation work




Jan2014_QR.indb 1                                                                                                                                         1/24/2014 11:08:02 AM
                                                SPECIAL INSPECTOR GENERAL            for

                                                AFGHANISTAN RECONSTRUCTION



                    I am pleased to submit to Congress, and to the Secretaries of State and Defense, SIGAR’s
                    22nd quarterly report on the status of the U.S. reconstruction effort in Afghanistan.
                        The United States plans to complete the withdrawal of most of its combat forces from
                    Afghanistan by the end of this critical transition year. However, the most expensive recon-
                    struction effort ever undertaken in a single country will continue. Achieving U.S. strategic
                    goals in Afghanistan now rests, more than ever, on the effective use of funds appropriated
                    to build competent Afghan security forces, foster a legitimate government, and promote
                    economic and social development.
                        This quarter, President Obama signed the National Defense Authorization Act for fis-
                    cal year (FY) 2014 and the FY 2014 Consolidated Appropriations Act, which pushes U.S.
                    support for Afghan reconstruction past the $100 billion mark. The FY 2014 appropriation,
                    which is significanlty less than the President had requested for the major reconstruction
                    funds, recognizes that implementing agencies still have about $14 billion in unspent funds
                    from prior years’ appropriations.
                        The legislation also includes provisions highlighted by SIGAR’s work, and is designed to bet-
                    ter safeguard taxpayer dollars, such as by expanding the prohibition on contracting with the
                    enemy, providing that U.S. assistance must be exempt from Afghan taxation, and establishing
                    conditions for on-budget assistance to the Afghan government.
                        During this reporting period, SIGAR issued 25 audit, inspection, and other reports iden-
                    tifying failures of oversight, construction deficiencies, and poor planning, as well as raising
                    concerns about a program to develop the capabilities of the Afghan security forces and
                    the capacity of Afghan ministries. Section 2 of this report summarizes our findings and
                    recommendations.
                        The United States and other donors have promised to provide at least 50% of their devel-
                    opment aid as on-budget assistance if the Afghan government makes progress towards
                    fighting corruption, improving public finance, and protecting women’s rights, among other
                    goals. The United States and other donors agree that increased on-budget aid would help
                    the Afghan government expand its ability to plan, budget, allocate, manage, and track
                    funds, thereby building its capacity and legitimacy. The issue is whether the Afghan govern-
                    ment can effectively use and account for increased on-budget assistance.
                        A SIGAR audit report published this quarter concluded that USAID has not fully imple-
                    mented measures designed to fix significant problems within Afghan ministries that will
                    receive over $1 billion in direct, government-to-government assistance. In addition, a
                    SIGAR Special Project report found that the Defense Department has committed more than
                    $4 billion to the Afghan Ministry of Defense and Ministry of Interior without conducting a
                    comprehensive risk assessment of the two ministries’ financial-management capabilities.
                        Since my last report to Congress, SIGAR has opened 51 new investigations and closed
                    39, bringing the total number of ongoing cases to 318. SIGAR investigations this quarter
                    saved the U.S. government some $1.7 million, while criminal fines and restitutions brought
                    about by SIGAR amounted to approximately $5.3 million. Based on evidence developed in
                    Afghanistan and the United States, SIGAR also referred 10 individuals and 24 companies
                    for possible suspension or debarment. SIGAR has increased its focus on money laundering,




                                              2530 Crystal Drive Arlington, Virginia 22202




Jan2014_QR.indb 2                                                                                                       1/24/2014 11:08:03 AM
                    and we are investing in information technology to enable our agents to better follow money
                    obtained illicitly from fraud, corruption, and narcotics.
                        On January 15 this year, I testified before the Senate Caucus on International Narcotics
                    Control about the perilous state of the U.S. counternarcotics effort in Afghanistan. The
                    United States has invested about $10 billion in programs intended, at least in part, to com-
                    bat narcotics. Yet, Afghan farmers are growing more opium poppies today than at any time
                    in their modern history. The drug trade is one of the biggest risk factors for the U.S. and
                    international donor investment in Afghanistan.
                        SIGAR began a new audit this quarter to assess the extent to which U.S. assistance has
                    helped build capable and sustainable provincial units of the Counter Narcotics Police of
                    Afghanistan. SIGAR also plans a comprehensive audit of the U.S. counternarcotics effort
                    to determine how U.S. funds have been spent, assess the degree to which U.S.-funded pro-
                    grams have achieved their purposes, and examine the extent to which these programs have
                    been integrated under a cohesive strategy.
                        I spent two weeks in Afghanistan this quarter visiting projects and talking to American and
                    international officials as well as Afghan citizens about the enormous challenges they face as
                    the U.S. and Coalition presence shrinks. Everyone I spoke with sees 2014 as a pivotal year that
                    will reveal the degree to which U.S. reconstruction efforts have established a foundation for a
                    responsible government and expanding economy in Afghanistan. SIGAR has identified critical
                    issues in security, governance, economic development, narcotics, and corruption as well as on-
                    budget assistance. We have ongoing and planned work in each of these areas.
                        SIGAR is also extremely concerned that oversight could suffer as the United States shrinks
                    its military and civilian footprint. For this reason, SIGAR, in collaboration with the United
                    States Institute of Peace, is hosting a symposium in February to identify best practices for
                    remote management and monitoring in insecure environments. SIGAR will publish its conclu-
                    sions as a reference tool for government agencies and nongovernment organizations.
                        This quarter, I again reiterate my concerns—which I raised in our last three quarterly
                    reports—about the policies of the U.S. Army’s suspension and debarment program. The
                    Army’s refusal to suspend or debar supporters of the insurgency from receiving govern-
                    ment contracts because the information supporting these recommendations is classified is
                    not only legally wrong but also contrary to sound public policy and national security goals.
                    I continue to urge Congress to change this faulty policy and enforce the rule of common
                    sense in the Army’s suspension and debarment program.
                        This quarterly report highlights the risks and uncertainties confronting the U.S. recon-
                    struction effort during this pivotal year. As the U.S. drawdown continues, implementing
                    agencies and oversight bodies will have far less visibility over the reconstruction programs
                    than in the past. Effective oversight has never been more important than now. I will con-
                    tinue to work with the implementing agencies and other oversight bodies as well as with
                    Congress to ensure that the enormous U.S. investment in the reconstruction of Afghanistan
                    is not wasted.

                    Respectfully,




                    John F. Sopko
                    Special Inspector General for Afghanistan Reconstruction


                                              2530 Crystal Drive Arlington, Virginia 22202




Jan2014_QR.indb 3                                                                                                     1/24/2014 11:08:04 AM
                                                    Executive Summary




        This report provides a summary of SIGAR’s oversight work and an update on developments in the
        three major sectors of Afghanistan’s reconstruction effort. It also includes a discussion of the
        risks and uncertainties facing the country as the Coalition withdraws most of its troops in this
        pivotal year of military and political transition. During this reporting period, SIGAR published 25
        audits, inspections, alert letters, and other reports assessing the U.S. efforts to build the Afghan
        security forces, improve governance, and facilitate economic and social development. These
        reports identified a number of problems, including weaknesses of management and oversight,
        poor planning, construction deficiencies, and other threats to health and safety. SIGAR investiga-
        tions saved the U.S. government some $1.7 million, while criminal fines and restitutions brought
        about by SIGAR amounted to approximately $5.3 million. SIGAR investigations also resulted in
        three criminal informations, five plea agreements, and six sentencings in the United States and
        two subjects being arrested and charged in Afghanistan.

        SIGAR overview
        Political and military transitions make 2014 a pivotal year      •	 Despite reported successes, concerns remain about
        for Afghanistan. National elections in April will be a test         the results, contract oversight, transition, and
        of government effectiveness and, if successful, could               sustainment of the Afghan National Security Forces
        ease ethnic tensions and increase public acceptance by              (ANSF) literacy programs.
        providing the first democratic and peaceful hand-off of          •	 The United States Agency for International
        executive power in the country’s history. Meanwhile, the            Development (USAID) has not fully implemented
        drawdown of foreign military forces continues. This year            measures designed to fix significant problems within
        will give Americans fresh indications of how well the               Afghan ministries that will receive over $1 billion in
        12-year, nearly $100 billion U.S. reconstruction effort—            direct, government-to-government assistance.
        running in parallel with America’s longest war—may have
        succeeded. SIGAR’s work, together with a broad survey                The financial audits identified more than $10.7 mil-
        of reports, analyses, and expert opinion, reveals uncer-         lion in questioned costs as a result of internal control
        tainties and risks surrounding many aspects of Afghan            deficiencies and noncompliance issues. These deficien-
        life and society, including but not confined to: security,       cies and noncompliance issues included, among other
        elections, governance, narcotics, corruption, economy,           things, reclassification of costs in excess of line item
        and international aid, including on-budget assistance. The       budgets, ineligible personnel costs, missing timesheets,
        most pressing questions are whether the Afghan security          failure to conduct vendor suspension and debarment
        forces can stand firm against the insurgency with increas-       checks, property loss due to theft and fire, poor record
        ingly limited international support, and whether the             retention, lack of supporting documentation, unap-
        Afghan government can hold open and honest elections             proved international travel and property purchases, and
        to facilitate a peaceful political transition and build public   failure to adhere to procurement procedures.
        acceptance of its legitimacy and effectiveness.                      The inspection reports of U.S.-funded facilities
                                                                         found the following problems:
        AUDITS                                                            •	 $5.4 million was spent for inoperable incinerators,
        SIGAR produced four performance audits, eight financial              prolonging the use of potentially hazardous open-air
        audits, and three inspections this quarter. The perfor-              burn pits at Forward Operating Base (FOB) Sharana.
        mance audits found:                                               •	 An education facility in Balkh remains unfinished
        •	 The Afghan central bank’s capacity to regulate                    and is unsafe to occupy after nearly five years.
           commercial banks remains weak.                                 •	 A lack of water and power and major construction
        •	 The State Department’s programs to support the                    deficiencies at Salang Hospital compromise Afghan
           Afghan justice sector need better management and                  citizens’ access to safe, reliable health care.
           stronger oversight.


                                                        iv                Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 4                                                                                                                      1/24/2014 11:08:04 AM
                                                  Executive Summary




                    NEW AUDITS                                                       and announcing that SIGAR has started a review of
                    This quarter, SIGAR initiated four new performance               the terminated plan to provide G-222 aircraft to the
                    audits and three new financial audits. The four perfor-          Afghan Air Force.
                    mance audits begun this quarter will assess:
                    •	 U.S. support for Afghanistan’s Information and             INVESTIGATIONS
                       Communication Technology Sector                            During this reporting period, a SIGAR investigation
                    •	 U.S. support for the Afghan Air Force                      saved the U.S. government approximately $1.7 million.
                    •	 Department of Defense (DOD) efforts to train, equip,       SIGAR investigations also resulted in three criminal
                       and sustain the National Engineer Brigade                  informations, five plea agreements, and six sentencings
                    •	 U.S. efforts to develop and strengthen the provincial      in the United States. In Afghanistan, two subjects were
                       units of the Counter Narcotics Police of Afghanistan       arrested and charged. Criminal fines and restitutions
                                                                                  brought about by SIGAR amounted to approximately
                       The three new financial audits will examine DOD-           $5.3 million. SIGAR initiated 51 new investigations and
                    funded contracts with combined incurred costs of              closed 39, bringing the total number of ongoing cases
                    approximately $500.6 million, bringing the total number       to 318. In addition, SIGAR’s suspension and debarment
                    of ongoing financial audits to 20, with more than $2.1 bil-   program referred 10 individuals and 24 companies for
                    lion in costs incurred.                                       suspension or debarment based on evidence devel-
                                                                                  oped as part of investigations conducted by SIGAR in
                    SPECIAL PROJECTS                                              Afghanistan and the United States.
                    During this reporting period, the Office of Special               Investigations highlights include:
                    Projects issued:                                               •	 a former U.S. Army staff sergeant sentenced after
                    •	 a special report on the safeguards created by DOD to           pleading guilty to conspiracy to commit mail fraud,
                       protect $4 billion provided directly to Afghanistan’s          theft, and conversion of government property
                       Ministries of Defense and Interior                          •	 a sting operation at FOB Ghazni resulting in two
                    •	 an alert letter concerning evidence that a contractor          arrests
                       identified as supporting the insurgency had gained          •	 a U.S. Army sergeant first class pleading guilty to
                       access to a Coalition-controlled facility                      bribery and theft schemes
                    •	 an alert letter concerning possible weaknesses              •	 a fraud investigation resulting in four criminal
                       in oversight provisions in a USAID agreement                   convictions
                       for providing direct, bilateral assistance funds to         •	 two sentenced for fuel theft
                       Afghanistan’s national power utility                        •	 a U.S. Army sergeant convicted for theft of
                    •	 a fact sheet identifying USAID’s largest implementing          government funds
                       partners
                    •	 a fact sheet identifying reconstruction projects that      Funding UPDATE
                       will not be readily accessible to oversight after the      The Consolidated Appropriations Act, 2014, provided
                       U.S. troop drawdown in 2014                                an additional $5.4 billion for relief and reconstruction
                    •	 letters to nongovernmental organizations working           in Afghanistan, increasing cumulative appropriations
                       with federal agencies in Afghanistan to identify           since FY 2002 to approximately $102 billion. This figure
                       best practices                                             excludes appropriations for State and USAID accounts,
                    •	 three letters to DOD: requesting information about         which had not been finalized when this report went
                       the Commanders’ Emergency Response Program;                to press. Approximately $19 billion of the amount
                       announcing that SIGAR is reopening its investigation       appropriated for the seven major reconstruction funds
                       of the decisions that led to the construction of a         highlighted in this report remained to be disbursed, as of
                       64,000-square-foot building at Camp Leatherneck            December 31, 2013.
                       in Helmand Province that the military will be using;



                    Report to the united states congress   I   October 30, 2013              v



Jan2014_QR.indb 5                                                                                                                   1/24/2014 11:08:04 AM
                    Table of Contents




                         Section 1
                         	 1	Afghanistan Overview
                         	3	 2014: A Pivotal Year of Risk and Uncertainty
                         	4	Security
                         	7	Elections
                         	8	Governance
                         	9	Narcotics
                         	10	Corruption
                         	11	Economy
                         	12	 International Aid, On- and Off-Budget
                         	15	Conclusion




                         Section 2
                         	 17	SIGAR Oversight Activities
                         	20	 SIGAR Testifies to Caucus about
                              Counternarcotics in Afghanistan
                         	21	 Congress Acts on Issues Highlighted by SIGAR
                         	22	Audits
                         	39	Inspections
                         	43	 Special Projects
                         	50	Investigations
                         	59	 SIGAR Budget
                         	59	 SIGAR Staff




                         Section 3
                         	 61	Reconstruction Update
                         	63	Overview
                         	65	 Quarterly Highlight: Concerns about LOTFA and
                               “Ghost Workers”
                         	66	 Funding for Afghanistan Reconstruction
                         	69	 Status of Funds
                         	83	Security
                         	111	Governance
                         	145	 Economic and Social Development




Jan2014_QR.indb 6                                                             1/24/2014 11:08:04 AM
                    Table of Contents




                          Section 4
                          	185	oTHER aGENCY Oversight
                          	187	 Completed Oversight Activities
                          	189	 Ongoing Oversight Activities




                          Appendices & Endnotes
                          	200	 Appendix A:	 Cross-Reference of Report
                                 		 to Statutory Requirements
                          	204	 Appendix B:	 U.S. Funds for Afghanistan
                                 		Reconstruction
                          	 206	 Appendix C:	 SIGAR Written Products
                          	210	 Appendix D:	 SIGAR Investigations and Hotline
                          	215	 Appendix E:	 Abbreviations and Acronyms
                          	 220	Endnotes




Jan2014_QR.indb 7                                                               1/24/2014 11:08:05 AM
                    “The longer this uncertainty about the
                     future international commitment to
                       Afghanistan continues, the more
                       anxiety will increase, potentially
                    dominating the upcoming presidential
                        elections, threatening to turn
                     these into a polarizing, rather than a
                     unifying, experience in the country.
                     Prolonged uncertainty over the BSA
                      will also erode larger international
                           support for Afghanistan.”
                         — Special Representative to Afghanistan
                                                 James Dobbins




                              Source: Testimony at the Senate Foreign Relations Hearing on The Transition in Afghanistan, December 10, 2013.




Jan2014_QR.indb 2                                                                                                                              1/24/2014 11:08:06 AM
                    1
                        2014: A Pivotal
                        year of risk
                        and uncertainty




                            1



Jan2014_QR.indb 1                    1/24/2014 11:08:06 AM
                                                      2014: A Pivotal Year




                                                      Contents
                                                      2014: A Pivotal Year Contents

                                                      Security	4
                                                      Elections	7
                                                      Governance	8
                                                      Narcotics	9
                                                      Corruption	10
                                                      Economy	11
                                                      International Aid, On- and Off-Budget	                        12
                                                      Conclusion	15




        Photo on previous page
        NATO foreign ministers and non-NATO participants in the International Security
        Assistance Force (ISAF) discuss Afghanistan security issues in a meeting at NATO
        headquarters in Brussels on December 4, 2013. Under United Nations Security
        Council resolutions, NATO leads the ISAF. The United States supplies about two-
        third of ISAF’s 57,000 troops in Afghanistan. (State Department photo)




                                                          2                   Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 2                                                                                                                          1/24/2014 11:08:06 AM
                                                 2014: A Pivotal Year




                    2014: A Pivotal Year Of Risk
                    And Uncertainty
                    Political and military transitions make 2014 a pivotal year for Afghanistan.
                    National elections in April will be a test of government effectiveness and,
                    if successful, could ease ethnic tensions and increase public acceptance by
                    providing the first democratic and peaceful handoff of executive power in
                    the country’s history. Meanwhile, the drawdown of foreign military forces
                    continues. About 39,000 U.S. military personnel remain in Afghanistan,
                    down from 66,000 at the start of 2013.1 Afghan forces formally took the lead
                    in combat operations in June, and most U.S. and other North Atlantic Treaty
                    Organization (NATO) troops will leave by the end of 2014.
                        Foreign troops are leaving, but Afghanistan’s social and economic
                    problems, a U.S. pledge of billions of dollars in aid for years to come, and
                    a tough and persistent insurgency all remain. This pivotal transition year
                    will give Americans fresh indications of how well the 12-year, more than
                    $100 billion U.S. reconstruction effort—running in parallel with America’s
                    longest war—may have succeeded. The stakes involve much more than
                    reckoning return on investment. As the Congressional Research Service
                    observed in its most recent report on Afghanistan:
                            This is a critical time for U.S. efforts in the war in
                            Afghanistan. … While troop levels tend to steal the head-
                            lines, more fundamentally at stake is what it would take
                            to ensure the long-term protection of U.S. interests in
                            Afghanistan and the region. Arguably, the United States may
                            have a number of different interests at stake in the region:
                            countering al Qaeda and other violent extremists; prevent-
                            ing nuclear proliferation; preventing nuclear confrontation
                            between nuclear-armed states; standing up for American
                            values, including basic human rights and the protection of
                            women; and preserving the United States’ ability to exercise
                            leadership on the world stage.2

                      SIGAR’s work, together with a broad survey of reports, analyses, and
                    expert opinion reveal uncertainties and risks surrounding many aspects of
                    Afghan life and society, including but not confined to:




                    Report to the united states congress   I   January 30, 2014            3



Jan2014_QR.indb 3                                                                                  1/24/2014 11:08:06 AM
                    2014: A Pivotal Year




                    •	   Security
                    •	   Elections
                    •	   Governance
                    •	   Narcotics
                    •	   Corruption
                    •	   Economy
                    •	   International aid, including on-budget assistance

                       The most pressing questions are whether the Afghan security forces can
                    stand firm against the insurgency with increasingly limited international
                    support, and whether the Afghan government can hold open and honest
                    elections to facilitate a peaceful political transition and build public accep-
                    tance of its legitimacy and effectiveness.


                    Security
                    More than half of all U.S. reconstruction dollars—$59 billion—have gone
                    toward building up the Afghan National Security Forces (ANSF) to pre-
                    vent al-Qaeda and other terrorist groups from establishing sanctuaries in
                    Afghanistan. Although the ANSF—composed of the Afghan National Army
                    and the Afghan National Police—assumed lead responsibility for security
                    operations in June 2013, the United States and its NATO allies have planned
                    to keep several thousand military personnel in Afghanistan to provide train-
                    ing and support to the Afghan security forces, as well as to conduct small
                    counter-terrorism operations after 2014.
                       Coalition officials say the ANSF will continue to need NATO mentor-
                    ing after most international combat troops have departed. Moreover, the
                    Afghan government does not have the financial resources to pay salaries,
                    purchase equipment, maintain facilities, and mount ANSF operations.
                    NATO has estimated that it could cost as much as $5 billion a year to sus-
                    tain the ANSF.
                       The post-2014 U.S. and NATO mission depends heavily on the Afghan gov-
                    ernment’s agreeing to a new U.S.-Afghan Bilateral Security Agreement (BSA)
                    that will define the role and legal status of foreign troops. A newly negotiated
                    BSA has been approved by a Loya Jirga consultative assembly convened by
                    President Hamid Karzai, but as of press time, he has refused to sign it.
                       U.S. Secretary of Defense Chuck Hagel warned that if Afghanistan does
                    not accept the BSA, a total U.S. withdrawal—the so-called “zero option”—
                    could occur at the end of 2014.3 “If we cannot conclude a BSA promptly,” a
                    State Department briefer said in January 2014, “then we will initiate plan-
                    ning for a post-2014 future in which there would be no U.S. and—or no
                    NATO troop presence in Afghanistan.” She added, “The further this slips
                    into 2014, the more likely such an outcome is.”4




                         4                Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 4                                                                                      1/24/2014 11:08:07 AM
                                                     2014: A Pivotal Year




                    Soldiers of the U.S. 133rd Infantry Regiment patrol near the mountain village of
                    Nengaresh, Afghanistan, in coordination with the Afghan 201st Corps. (U.S. Army photo)


                        NATO plans to leave an 8,000–12,000 soldier force in Afghanistan after
                    2014, but without a signed U.S.-Afghan BSA followed by a NATO-Afghan
                    pact, “We don’t have a proper legal framework in place and it will not be
                    possible to deploy a ‘train, advise, assist’ mission to Afghanistan,” said
                    NATO Secretary General Anders Fogh Rasmussen.5 At the same time,
                    the Chairman of the Joint Chiefs of Staff, General Martin Dempsey, has
                    warned that a full withdrawal could contribute to regional instability:
                    “All of us would be concerned about the possibility of ungoverned space
                    producing safe havens for terrorism, so stability in the region is in our
                    national interest.”6
                        The consequence of having no U.S. or other NATO troops in Afghanistan
                    after 2014 for training, advising, or limited counter-terror responses could
                    be dire for Afghan security. Rasmussen reported to the United Nations in
                    December 2013 that the ANSF “is well on the way to becoming a completely
                    fielded force, although its combat capability is not yet self-sustainable.” He
                    added, however, that “much work remains to be done” to develop and main-
                    tain a modern army and national police, and to build ministerial capacity in
                    military and police planning, budgets, program operation, acquisition, and
                    personnel processes.7
                        A Brookings Institution scholar, Vanda Felbab-Brown, has observed
                    that the Afghan security forces “continue to suffer from deeply inadequate
                    logistical, sustainment, and other support capabilities and are also deeply
                    pervaded by corruption, nepotism, and ethnic and patronage fissures.”8
                    Other challenges to ANSF effectiveness include widespread illiteracy, high
                    rates of casualties and desertion, and the tenacity and resilience of its
                    insurgent foes.




                    Report to the united states congress      I   January 30, 2014                   5



Jan2014_QR.indb 5                                                                                            1/24/2014 11:08:07 AM
                                                    2014: A Pivotal Year




                                                        Because the United States has committed so much to developing the
                                                    ANSF and views these forces as vital to the success of the U.S. mission,
                                                    SIGAR continues to focus audit, inspection, and investigative work on pro-
                                                    grams to build the Afghan security forces. This quarter SIGAR published an
                                                    audit report and a special project that raised concerns about the ANSF.
                                                        The NATO-led International Security Assistance Force (ISAF) has
                                                    used a number of systems over the years to assess progress in man-
                                                    ning, equipping, and training ANSF units. In July 2013, ISAF replaced the
                                                    Commander’s Unit Assessment Tool (CUAT) with the Regional Command/
                                                    ANSF Status Report (RASR).
                                                        The RASR is intended to yield more accurate, consistent, and useful
        A paratrooper of the U.S. 82nd Airborne     results than the CUAT system. A SIGAR audit now under way is examining
        Division takes tea with members of the      whether the disparities and inconsistencies that limited the value of the
        Afghan National Police. (U.S. Army photo)   CUAT persist under the RASR. Moreover, ISAF does not yet have a plan for
                                                    ensuring continued collection, analysis, validation, and reporting of ANSF
                                                    capability assessments as foreign forces draw down and the number of
                                                    advisor teams shrinks.9 (More detail on SIGAR oversight reports appears in
                                                    Section 2 of this Quarterly Report; full texts are posted on the SIGAR web-
                                                    site, www.sigar.mil)
                                                        Another SIGAR audit issued during this reporting period identified a
                                                    number of problems with three U.S.-funded contracts with a total value of
                                                    $200 million intended to increase ANSF literacy.
                                                        SIGAR found that not one of the contracts requires independent verifica-
                                                    tion of literacy test results. Further, a definitive measure of current, overall
                                                    literacy in the ANSF is unobtainable because the literacy-training program
                                                    does not facilitate tracking of graduates, many recruits have been sent to
                                                    the field with little or no training, and estimated attrition levels are 30–50%.
                                                    Meanwhile, the NATO Training Mission-Afghanistan and the Combined
                                                    Security Transition Command-Afghanistan (CSTC-A) have not yet devel-
                                                    oped a new transition and sustainment strategy defining Afghan ministries’
                                                    post-transition responsibilities, commitments, goals, milestones, metrics,
                                                    and timelines for literacy training.10
                                                        At a broader level, SIGAR has observed issues in CSTC-A’s commitment
                                                    of more than $4 billion to the Afghan Ministry of Defense and the Ministry
                                                    of Interior to sustain army and police forces. Although CSTC-A uses some
                                                    risk-mitigation tools, current practices focus on specific offices, providing
                                                    an incomplete view of ministry-wide budget processes, and only limited risk
                                                    assessments. The Office of the Secretary of Defense concurred with SIGAR’s
                                                    Office of Special Projects suggestion that it consider conducting a compre-
                                                    hensive assessment of the two ministries’ financial-management capacity.11
                                                        SIGAR remains extremely concerned about the ANSF capabilities and
                                                    the use of U.S. funding for the security forces. A forthcoming SIGAR audit
                                                    will examine U.S. support for developing the Afghan Air Force. DOD asked
                                                    for more than $1 billion in FY 2014 appropriations to buy new equipment for




                                                       6                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 6                                                                                                                      1/24/2014 11:08:07 AM
                                                 2014: A Pivotal Year




                    the Afghan Air Force; the bill passed by Congress in mid-January reduced
                    that amount by more than a third, reflecting DOD’s cancelling a plan to buy
                    more Russian-built helicopters for the Afghans. The audit will look at the
                    Afghan Air Force’s ability to operate and maintain the additional aircraft
                    and equipment. Another audit will examine DOD efforts to train, equip, and
                    sustain the Afghan National Army’s National Engineer Brigade, which is due
                    to receive large quantities of equipment to carry out its support functions.
                        Security concerns also affect oversight. Continuing oversight of security
                    progress is vital: Afghanistan’s pervasive insecurity hinders delivery of pub-
                    lic services, deters investment, encourages human and capital flight, and
                    undermines public confidence and support for the government.
                        The drawdown of U.S. military and civilian personnel, however, is impos-
                    ing new limits on security, movement, and medical support for in-country
                    oversight officials.12 SIGAR teams have already encountered difficulties
                                                                                                     Satellite photo shows 16 transport
                    traveling in Afghanistan, especially in rural or remote areas. Implementing
                                                                                                     aircraft sitting idle on the tarmac in Kabul
                    agencies’ and oversight officials’ visibility into Afghan reconstruction proj-   (Photo provided to SIGAR by U.S. State
                    ects—not only for security, but governance and economic development as           Department)
                    well—seems likely to continue to shrink.
                        To address this issue, SIGAR and the U.S. Institute of Peace (USIP)          American taxpayers provided nearly half a
                    are cosponsoring a symposium February 12–13, 2014, to examine ways to            billion dollars to buy and refit 20 transport
                    conduct effective program and project oversight in insecure environments         aircraft from Italy for the Afghan Air Force.
                    like Afghanistan. Participants will discuss best practices and innovations,      The planes may be scrapped or sold
                    including varieties of remote monitoring. SIGAR will report symposium            because vital parts needed to maintain
                    conclusions to Congress.                                                         them are unavailable, and because a
                                                                                                     sustainment contract might have cost
                                                                                                     an additional $200 million. The Italian-
                                                                                                     designed planes (known as the G-222 or
                    Elections                                                                        C-27A) were bought used. Sixteen of them
                    The Afghan presidential election scheduled for April 2014 could provide          now sit unused in Kabul; the other four
                    the first peaceful, democratic handover of power in the country’s history.       sit unused at a U.S. air base in Germany.
                    Balloting will also determine the makeup of the country’s 34 provincial          On December 5, 2013, SIGAR informed
                    councils. However, as in the past, Afghanistan faces problems with voter         the Secretary of Defense and two military
                    registration, female voter participation, voter identification, polling-place    commanders that its Office of Special
                    security, tampering, fraud, and insurgent interference.                          Projects was launching a review of the
                       Seth Jones, an author and RAND Corporation scholar, expects the presi-        G-222 purchase to determine what went
                    dential and council voting “will almost certainly be marred by violence          wrong and to extract lessons learned for
                    and corruption, as was the 2009 presidential election.” However, his main        future reference.
                    worry is that “the election could further weaken the state if substate actors,
                    especially power brokers from northern and western Afghanistan, lose faith
                    in the central government and accelerate efforts to rearm. These fissures
                    would undermine the cohesiveness of the Afghan National Army and other
                    security agencies, as well as affect the scope and degree of support from
                    neighboring states.”13
                       A USIP report on issues and concerns for the April voting listed the prin-
                    cipal obstacles to holding a successful election:




                    Report to the united states congress   I   January 30, 2014              7



Jan2014_QR.indb 7                                                                                                                         1/24/2014 11:08:07 AM
                                                          2014: A Pivotal Year




                                                          •	 lack of polling-place-specific voter registries to guard against fraud
                                                          •	 security challenges that could permit operation of “ghost polling
                                                             centers” that produce masses of fraudulent votes
                                                          •	 legally required scheduling that forces preparations and voting in the
                                                             spring, when weather hinders access to much of the country and when
                                                             rural voters must prepare their farms for new crops
                                                          •	 a requirement for a new vote if any presidential candidate dies before
                                                             vote results are announced—an invitation to insurgents to plan
                                                             assassinations
                                                          The USIP report reflects the widely held view that “a failure of the 2014
                                                          elections would have catastrophic consequences for peace and stability, not
                                                          only in Afghanistan but also across the entire region.”14
         Preparations are under way for Afghan
         presidential and provincial-council elections
         in April. Here, observers monitor balloting in
         an earlier election. (USAID photo)
                                                          Governance
                                                          Security is an essential, but not a sufficient condition to establish
                                                          Afghanistan as a modern bureaucratic state. As Clare Lockhart, director of
                                                          the Institute for State Effectiveness, has said:
                                                                  A well-functioning army is insufficient to govern a country.
                                                                  Vital state functions include maintaining a public-finance
                                                                  system; providing health services and education; planning
                                                                  infrastructure for transportation, communications, irriga-
                                                                  tion, and energy; and managing sources of revenue, including
                                                                  municipalities, tenders, and licenses.15

                                                             Although official U.S. policy recognizes that improved governance must
                                                          accompany efforts to build the Afghan security forces, some analysts have
                                                          expressed concern that not enough attention has been paid to helping Afghans
                                                          build enduring governing institutions. For example, Pauline Baker, president
                                                          emeritus of the Fund for Peace, wrote after a 2013 visit to Afghanistan:
                                                                  Over the past dozen years, ISAF has created a virtual state
                                                                  within a state that will shrink dramatically once combat
                                                                  forces depart. This will leave a much weakened, highly mili-
                                                                  tarized and deeply corrupt narco-state that could descend
                                                                  into outright civil war and, possibly, partition. The central
                                                                  question is not whether the Western-trained, supplied and
                                                                  financed Afghan security forces will be able to contain the
                                                                  Taliban insurgency, as is commonly thought. Even if they
                                                                  can, the more critical question is whether the state itself will
                                                                  hold together once Western life support is removed.16
                                                             That critical question does not receive a heartening answer in the Fund
                                                          for Peace’s 2013 edition of its “Failed States Index.” The index ranks states
                                                          by scores on measures including demographic pressures, refugees or
                                                          displaced persons, aggrieved groups seeking revenge, uneven economic
                                                          development, poverty, economic decline, public services, security apparatus,




                                                             8                 Special inspector general    I   Afghanistan reconstruction




Jan2014_QR.indb 8                                                                                                                            1/24/2014 11:08:08 AM
                                                   2014: A Pivotal Year




                    and rule of law. Afghanistan ranks seventh-worst of 171 nation-states, trail-
                    ing only Somalia, Congo, Sudan, South Sudan, Chad, and Yemen.17
                        SIGAR and other organizations have noted common and persistent
                    problems in Afghan ministries’ ability to plan and execute budgets, deliver
                    adequate levels of public services, and account for the use of funds.
                    For example, a 2013 World Bank assessment of Afghan public financial
                    management and accountability noted “remarkable progress” and found
                    Afghanistan’s ratings on a par or better than in 15 other “fragile states,” but
                    said Afghan finance functions suffer from weak internal audit, lack of stan-
                    dards application, and lack of publication of compliance-review results. In
                    general, “performance is still largely dependent on donor-funded technical
                    assistance for policy advice and operational support.”18
                        Donor technical assistance is not always welcomed. This quarter, SIGAR        Public services in Afghanistan include
                                                                                                      providing dental care at this free clinic
                    issued an audit of the Afghan banking system that found the central bank’s
                                                                                                      in Wardak Province. The woman is about
                    financial-supervision department’s capacity to regulate the banking sector        to have a bad tooth extracted. (U.S. Air
                    is “severely limited and in need of outside technical assistance.” The cen-       Force photo)
                    tral bank has refused, however, to agree on standards for further foreign
                    technical support. That refusal has left the system “unstable and at risk of
                    experiencing another crisis similar to the near collapse of Kabul Bank.”19
                    (See Section 3 of this Quarterly Report for an update on the 2010 Kabul
                    Bank scandal involving fraud and losses of hundreds of millions of dollars.)
                        Recognition of Afghanistan’s problems with effective governance is wide-
                    spread. In its latest semiannual report to Congress on Afghanistan, the U.S.
                    Department of Defense delivers a sharp summary:
                            Effective governance, rule of law, and sustainable eco-
                            nomic development are all necessary for long-term stability
                            in Afghanistan. However, these are hindered by multiple
                            factors, including widespread corruption, limited formal
                            education and skills, illiteracy, minimal access by officials to
                            rural areas, lack of coordination between the central govern-
                            ment and the Afghan provinces and districts, and uneven
                            distribution of power among the branches of the Afghan
                            government. … The Afghan government is highly central-
                            ized, with revenue, budgeting, spending, and service delivery
                            authority residing with the central ministries in Kabul. This
                            level of centralization limits the efficiency of service delivery
                            at the provincial and district levels. Development of capacity
                            at local levels is slowed by limited human capital as well as
                            by delays in enactment of structural reforms by the central
                            government. … While Afghans are increasingly capable of
                            solving near-term issues, they still lack a systematic and
                            proactive planning method for strategic planning, budget
                            development, and sustainment processes.20


                    Narcotics
                    Despite years of costly efforts to suppress opium cultivation, attract farmers
                    to alternative livelihoods, interdict drug shipments, and prevent drug-trade




                    Report to the united states congress   I   January 30, 2014                 9



Jan2014_QR.indb 9                                                                                                                        1/24/2014 11:08:08 AM
                                                     2014: A Pivotal Year




                                                     money laundering, the UN Office of Drugs and Crime reported this quarter
                                                     that the amount of Afghan land in opium production has hit “a sobering
                                                     record high” of 209,000 hectares21—more than half a million acres, and an
                                                     8% increase over the previous record of 193,000 hectares set in 2007. While
                                                     opium production provides many farmers with a higher income than they
                                                     can gain from any legal crop, the opium business also provides revenue to
                                                     insurgents, supports criminal networks, fosters addiction, and diverts effort
                                                     and resources from more beneficial uses.
                                                        The U.S. Congress has appropriated nearly $7 billion to combat the
                                                     narcotics trade in Afghanistan: more than $4 billion for the Department of
                                                     State’s Bureau of International Narcotics and Law Enforcement Affairs,
                                                     which manages the International Narcotics Control and Law Enforcement
                                                     account; and more than $2.6 billion for DOD’s Drug Interdiction and
                                                     Counter-Drug Activities fund. This does not include funds appropriated for
                                                     agriculture programs designed to encourage Afghans to develop alternative
        Members of the Counter Narcotics Police      livelihoods. The DOD fund supports military operations against drug traf-
        of Afghanistan talk while tons of seized
                                                     fickers and Afghan interdiction operations while providing counternarcotics
        opium, hashish, and drug-related chemicals
        burn in Kabul Province. (U.S. State          training, equipment, and facilities to Afghan law enforcement.
        Department photo)                               The results of all this spending and activity leave something to be
                                                     desired. Special Inspector General John F. Sopko testified in Congress
                                                     in January 2014 that the counternarcotics effort suffers from low priori-
                                                     tization, lack of a comprehensive strategy, and the challenge posed by a
                                                     declining U.S. law-enforcement presence in Afghanistan. Despite the large
                                                     U.S. investment in counternarcotics programs, he told Congress:
                                                             The narcotics trade is poisoning the Afghan financial sec-
                                                             tor and fueling a growing illicit economy. This, in turn, is
                                                             undermining the Afghan state’s legitimacy by stoking corrup-
                                                             tion, nourishing criminal networks, and providing significant
                                                             financial support to the Taliban and other insurgent groups.
                                                             ... In sum, the expanding cultivation and trafficking of drugs
                                                             is one of the most significant factors putting the entire U.S.
                                                             and international-donor investment in the reconstruction of
                                                             Afghanistan at risk.22


                                                     Corruption
                                                     Afghanistan remains one of the most corrupt countries in the world.
                                                     Corruption diverts funds from intended uses, undermines the rule of law,
                                                     and erodes popular support for the Afghan government.
                                                        SIGAR audits have assessed Afghanistan’s anti-corruption bodies and
                                                     evaluated monitoring of bulk cash flows through the Kabul International
                                                     Airport. SIGAR reports have repeatedly noted that despite the enormous
                                                     risk corruption poses to the entire reconstruction effort, the United States
                                                     does not have a comprehensive anticorruption strategy.23 SIGAR inves-
                                                     tigators at six field offices in Afghanistan seek to apprehend individuals




                                                       10                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 10                                                                                                                     1/24/2014 11:08:08 AM
                                                  2014: A Pivotal Year




                     engaged in bribery and extortion. Meanwhile, SIGAR has found serious
                     shortcomings in Afghan capacity and determination to combat corruption.
                        Implementing agencies are calling upon the international community                Anticorruption efforts
                     to make reconstruction funds conditional to Afghanistan addressing its               for Afghanistan fail to
                     endemic corruption. For example, in its latest Report on Progress Toward             impress
                                                                                                          •	 The latest ranking by the independent
                     Security and Stability in Afghanistan, DOD observed:                                    organization Transparency International
                                                                                                             has Afghanistan, North Korea, and
                             Although the ANSF are ahead of GIRoA [Government of the                         Somalia in a tie for world’s most
                             Islamic Republic of Afghanistan] in some counter-corruption                     corrupt country.
                             efforts, the lack of political will to address these serious                 •	 In its response to SIGAR’s data call
                             issues across the rest of GIRoA will continue to threaten                       for this report, the U.S. Department of
                             the government’s legitimacy and ultimately poses a signifi-                     State said the Afghan High Office of
                             cant risk to the ISAF [International Security Assistance                        Oversight and Anti-Corruption (HOO)
                             Force] mission. The elimination of egregious corruption in                      suffers from “the lack of political will
                             Afghanistan cannot be achieved without coordinated action                       and seriousness of purpose at the
                                                                                                             upper echelons of government in
                             from the international community to enforce conditions                          fighting corruption, especially when it
                             placed on GIRoA. In short, the only weapon available to                         involves the powerful and political elite.”
                             affect the situation on a national level is control of “purse                •	 State and USAID have agreed that
                             strings” that finance GIRoA functionality.24                                    the HOO, while technically capable
                                                                                                             of functioning as an effective
                                                                                                             anticorruption agency, is dysfunctional,
                                                                                                             ineffective and politicized. As a result,
                     Economy                                                                                 USAID terminated its support of the
                     Isolated, mostly rural, infrastructure-sparse, energy-import-dependent,                 HOO this quarter.
                     conflict-torn Afghanistan is one of the world’s most impoverished countries.         •	 State has also concluded that
                                                                                                             Afghanistan’s Major Crimes Task
                     Its per capita gross domestic product is estimated at $1,100, versus $51,700            Force shows little inclination or ability
                     for the United States.25 U.S. support pays for the great bulk of Afghanistan’s          to pursue high-level corruption, that
                                                                                                             the Afghan Attorney General’s Office
                     security costs, ranging from uniforms and weapons to food and fuel, but the             prosecutes few politically connected
                     Afghan government also faces demands for public services and develop-                   people, and that the Supreme Audit
                                                                                                             Office has had limited effectiveness in
                     ment that it cannot fund from domestic sources.                                         auditing ministries.
                         During this reporting period, the Afghan government submitted its bud-           •	 Afghanistan did create an Independent
                     get, which totaled $7.9 billion, to parliament. That is almost four times the           Joint Anti-Corruption Monitoring
                                                                                                             and Evaluation Committee with
                     government’s annual domestic revenue of about $2 billion a year, which                  foreign-national participation, but its
                     is slightly less than the FY 2013 operating budget for Baltimore, Maryland              authority is confined to monitoring
                     (population 621,000).26 Afghanistan’s fiscal deficit of nearly 9% of GDP is             corruption, developing benchmarks and
                                                                                                             recommendations, and reporting.
                     one of the worst in the world.27 Consequently, Afghanistan relies on inter-          •	 Meanwhile, SIGAR has found the U.S.
                     national assistance to pay most of its civilian operating and development               government has no comprehensive
                     budgets as well as the bulk of its security costs.                                      strategy to combat corruption in
                                                                                                             Afghanistan.
                         Afghanistan’s economic indicators are not promising. Afghanistan’s
                                                                                                      Sources: Agency responses to SIGAR data calls, SIGAR
                     economy grew an average 9.2% per year—albeit from a very low base—               Quarterly Reports.
                     from 2003 through 2012, but the World Bank attributes much of this growth
                     to high levels of international assistance. The Bank notes that “private
                     investment, on the other hand, has played a rather small role.”28 The Asian
                     Development Bank has reported high agricultural output in Afghanistan
                     reflecting “highly favorable” rains, but notes that tax and customs revenues
                     have declined while industry and services have weakened, apparently due
                     to “business and consumer uncertainty in view of insurgents’ stepped up




                     Report to the united states congress   I   January 30, 2014             11



Jan2014_QR.indb 11                                                                                                                                   1/24/2014 11:08:08 AM
                                                      2014: A Pivotal Year




                                                      attacks in connection with the 2014 full transfer of security responsibility to
                                                      local forces.”29 None of this bodes well.
                                                         Last year, the U.S. Director of National Intelligence told Congress, “Kabul
                                                      has little hope of offsetting the coming drop in Western aid and military
                                                      spending, which has fueled growth in the construction and services sec-
                                                      tors.”30 Some observers expect that drop to have severe consequences.
                                                      Nader Nadery, director of the independent, international-community-funded
                                                      Afghanistan Research and Evaluation Unit, predicts:
                                                              The withdrawal of Western forces will be accompanied by
                                                              the drawdown of international development agencies, the
                                                              reduction of aid, and an uncertain investment climate. The
                                                              immediate effects will be capital flight, heightened risks for
        Seamstresses sew blankets for the Afghan              investments, and the collapse of drivers of economic growth
        National Security Forces at an Afghan                 such as reconstruction, logistics, and transportation.31
        women-owned factory in Kabul. The work
        is supported through the NATO Training
                                                          Ambassador James Dobbins, the U.S. special envoy to Afghanistan and
        Mission-Afghanistan. (U.S. Air Force photo)   Pakistan, recently told reporters that he also expects aid to shrink along with
                                                      the foreign footprint: “My judgment is no troops, no aid, or almost no aid. The
                                                      [donors’] political support for the aid comes from the military presence.”32
                                                          The World Bank describes Afghanistan as “an extreme outlier in terms
                                                      of dependence on aid.” International assistance has at times exceeded
                                                      100% of Afghanistan’s gross domestic product. However, the Bank has also
                                                      pointed out that “most international spending ‘on’ Afghanistan is not spent
                                                      ‘in’ Afghanistan; it leaves the economy through imports, expatriated prof-
                                                      its of contractors, and outward remittances.” This is particularly true, the
                                                      Bank notes, of the off-budget aid that constitutes most of foreign donors’
                                                      assistance. Therefore, the bank suggests that with a shift to more on-budget
                                                      assistance “the impact of large aid reductions on economic growth may be
                                                      less than expected.”33


                                                      International Aid, On- and Off-Budget
                                                      The World Bank has projected that Afghanistan will require at least $7 bil-
                                                      lion a year during the coming decade to fill the fiscal gap between its
                                                      domestic revenues and its outlays for security, other operations, and devel-
                                                      opment.34 The United States is expected to be the largest source of that
                                                      aid, as it has been since 2002. However, the future of international aid for
                                                      Afghanistan remains precarious.
                                                         One question is whether Afghanistan will demonstrate adequate per-
                                                      formance against the benchmarks of the 2012 Tokyo Accountability
                                                      Framework, developed in a donors’ conference and agreed to by
                                                      Afghanistan. The Framework conditions delivery of additional billions
                                                      in donor assistance upon Afghan progress against specified governance
                                                      and development benchmarks in areas including elections, corruption,
                                                      narcotics, public finance, and human rights. The international community,




                                                        12                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 12                                                                                                                      1/24/2014 11:08:08 AM
                                                   2014: A Pivotal Year




                     including the United States, conditionally pledged over $16 billion through
                     2015, and “sustaining support, through 2017, at or near the levels of the
                     past decade,” and to channel at least 50% of aid “on budget,” through the
                     Afghan government.35
                        The United States has been providing both on-budget and off-budget
                     assistance to Afghanistan since 2003. However, most of the assistance has
                     been off-budget.
                        The United States provides on-budget assistance to Afghanistan through
                     direct (government-to-government) payments to Afghan ministries and
                     payments supporting host-country contracting; or through contributions to
                     trust funds such as the Afghan Reconstruction Trust Fund (ARTF) adminis-
                     tered by the World Bank or the Law and Order Trust Fund for Afghanistan
                     (LOTFA) administered by the United Nations Development Programme,
                     which thereby serve as intermediaries for U.S. aid.36 In either case, funds
                     are recognized in Afghan national and ministerial budgets and the Afghan
                     government exercises some control over them. Afghan control may, how-
                     ever, be limited by agreements with other nations or with international
                     organizations on objectives, progress benchmarks, documentation of costs,
                     or other metrics and conditions.
                        U.S. off-budget assistance involves funds that do not become part of
                     the Afghan government’s budget process and are controlled by donors.
                     Off-budget U.S. assistance to Afghanistan includes, for example, local proj-
                     ects executed through DOD’s Commander’s Emergency Response Fund
                     (CERP) and the DOD-State-managed Afghanistan Infrastructure Fund.37
                     Projects and programs such as technical assistance and aid to civil-society
                     organizations that are executed by international and non-governmental
                     organizations are also typically off-budget, even if they are coordinated with
                     the Afghan government and if their objectives and deliverables are “aligned”
                     with Afghanistan’s National Priority Programs.38
                        The State Department has argued that increasing government-to-
                     government assistance is “critical” to meeting “the need to strengthen
                     Government of Afghanistan systems and capacity to increase its legitimacy
                     in the eyes of the Afghan public as part of the overarching civilian-military
                     strategy in Afghanistan.”39 As of December 31, 2013, USAID had committed
                     over $1 billion in such direct assistance to Afghan ministries and other gov-
                     ernment entities.40
                        The commitment to increase on-budget assistance, whether direct or via
                     multilateral trust funds, entails reduced U.S. control and visibility over the
                     use of American taxpayers’ money. SIGAR believes it is critical to ensure
                     that Afghan government entities receiving on-budget assistance have some
                     reasonable capability to manage and account for those funds.
                        That capability is currently not all that it might be. In late 2010, after the
                     United States had committed to providing more on-budget assistance to
                     Afghanistan, USAID contracted with two U.S. accounting firms—Ernst &




                     Report to the united states congress   I   January 30, 2014               13



Jan2014_QR.indb 13                                                                                       1/24/2014 11:08:08 AM
                                                     2014: A Pivotal Year




                                                     Young and KPMG—to assess 16 Afghan ministries’ ability to manage U.S.
                                                     funds. USAID subsequently conducted internal risk reviews of seven of the
                                                     16 ministries assessed.
                                                         This quarter, SIGAR completed its audit of the ministerial assessments
                                                     and USAID’s internal reviews of seven ministries. Both Ernst & Young and
                                                     KPMG concluded that none of the ministries they assessed could manage
                                                     and account for funds properly without implementing many risk-mitigation
                                                     measures recommended in the auditors’ assessment reports.
                                                         SIGAR found that the accountants made a total of 696 recommendations,
                                                     of which 41% were “critical” or “high risk.” USAID’s subsequent internal
                                                     review of seven ministries found 104 major risks. These included “conceal-
                                                     ing vital monitoring and evaluation information” and “misappropriation of
                                                     cash arising from payment of salaries in cash.”Although USAID concluded
        International assistance, mostly American,
                                                     that the ministries were unable to manage direct assistance without a risk-
        supports construction of facilities like     mitigation strategy in place, USAID has signed agreements with each of
        this 28-bed hospital in Herat Province.      the reviewed ministries for direct-assistance programs.41 Moreover, USAID
        The Afghan government also relies on aid     adopted only a small portion of the hundreds of risk-reducing recommenda-
        for many sustainment costs once such         tions as conditions for the ministries must meet for receiving assistance.
        facilities are completed. (U.S. Army Corps
                                                         SIGAR agrees that giving the Afghan government the responsibility to
        of Engineers photo)
                                                     allocate, manage, and track funds through the increased use of direct assis-
                                                     tance is important because the Afghan government must ultimately sustain
                                                     the reconstruction effort. At the same time, conditions in Afghanistan make
                                                     it equally critical that U.S. implementing agencies use every safeguard at
                                                     their disposal to protect U.S. funds.
                                                         As the Special Inspector General for Afghanistan Reconstruction, John F.
                                                     Sopko, told lawmakers last year:
                                                             A greater proportion of the funds will be going toward
                                                             Afghans, rather than foreign contractors or NGOs, and this
                                                             may result in increased government capacity and more
                                                             sustainable development. On the other hand, capacity chal-
                                                             lenges in the Afghan ministries coupled with the difficulties
                                                             of providing assistance in a conflict zone riddled with cor-
                                                             ruption will also put direct assistance funds at risk of being
                                                             wasted. Whatever type of aid the United States provides, U.S.
                                                             government officials must address the systemic problems
                                                             inherent in every aspect of the reconstruction effort—inad-
                                                             equate planning, poor quality assurance, poor security,
                                                             questionable sustainability, and pervasive corruption.42

                                                        The World Bank has also expressed concerns about the ability of
                                                     the Afghan government to absorb on-budget assistance. It noted that
                                                     “Increasing on-budget aid and managing O&M [operations and main-
                                                     tenance] through government systems would greatly improve aid
                                                     effectiveness,” but the Afghan government “will need to overcome serious
                                                     absorptive capacity constraints if it is to be in a position to receive addi-
                                                     tional donor money on budget.”43 Similarly, Anthony Cordesman, a former




                                                       14                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 14                                                                                                                     1/24/2014 11:08:09 AM
                                                   2014: A Pivotal Year




                     DOD and State official now with the independent Center for Strategic and
                     International Studies, has said, “It is far from clear that Afghanistan has the
                     ability to absorb anything like the disbursements that did occur—much less
                     the [donors’] total commitments,” partly because of “the incompetence and
                     corruption of the Afghan central government.”44
                        Unfortunately, not all the challenges to effective oversight originate in
                     Afghanistan. SIGAR and other U.S. oversight agencies have noted numerous
                     failures by federal agencies in overseeing projects and accounting for funds.
                     Issues include widespread lack of accountability and compliance with exist-
                     ing regulations and standards that affect reconstruction projects, such as
                     requirements for site visits, documentation, and certifications.45
                        If gathering good evidence for judging U.S. assistance programs is difficult,
                     doing so for programs executed by Afghan ministries with funds partially
                     veiled by the process of on-budget assistance can only be more difficult.


                     Conclusion
                     During this pivotal transition year, the U.S. reconstruction effort to build
                     capable security forces, improve governance, and foster economic devel-
                     opment will take place in an environment of increased risk. As the U.S.
                     reduces its military and civilian presence while increasing on-budget
                     assistance, implementing agencies and oversight bodies will have far less
                     visibility over reconstruction programs than in the past. SIGAR is working
                     with other agencies to identify ways to continue to provide robust oversight
                     of the most costly effort to rebuild a single nation in U.S. history.
                         The year began with grave concern over acceptance of the new Bilateral
                     Security Agreement, questions about the ANSF’s ability to maintain secu-
                     rity, fear that upcoming elections will not be seen as legitimate, and serious
                     doubts whether the Afghan government will implement reforms needed to
                     ensure continued international assistance. Afghanistan’s future will be pow-
                     erfully shaped by Afghan and international-community actions to resolve
                     these uncertainties as 2014 proceeds.




                     Report to the united states congress   I   January 30, 2014               15



Jan2014_QR.indb 15                                                                                      1/24/2014 11:08:09 AM
     “Since 2010 SIGAR has been
 voicing concern about the lack of an
anticorruption strategy in one of the
   world’s most corrupt countries.
  Despite the fact that the narcotics
trade and corruption are inextricably
linked, we recently reported that the
  United States still does not have a
comprehensive strategy to guide U.S.
       anticorruption activities.”
     — Special Inspector General John F. Sopko




          Source: Testimony before the Senate Caucus on International Narcotics Control, January 15, 2014.
2   SIGAR OVERSIGHT
    ACTIVITIES




        17
                                               SIGAR OVERSIGHT ACTIVITIES




                                               CONTENTS
                                               SIGAR OVERSIGHT CONTENTS

                                               SIGAR Testifies to Caucus about
                                               Counternarcotics in Afghanistan	                              20
                                               Congress Acts on Issues
                                               Highlighted by SIGAR	                                         21
                                               Audits	22
                                               Inspections	39
                                               Special Projects	                                             43
                                               Investigations	50
                                               SIGAR Budget	                                                 59
                                               SIGAR Staff	                                                  59




Photo on previous page
Special Inspector General John Sopko and witnesses for the Departments of Defense
and State, and the Drug Enforcement Administration, prepare to testify before the U.S.
Senate Caucus on International Narcotics Control, chaired by Senator Dianne Feinstein
of California, January 15, 2014. (U.S. Senate photo)




                                                  18                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




SIGAR OVERSIGHT ACTIVITIES
This quarter SIGAR issued 25 audits, inspections, alert letters, and other
reports. This work identified failures of oversight, construction deficien-        TESTIMONY GIVEN
                                                                                   •	 Testimony 14-21-TY: The State of
cies, poor planning, and other threats to health and safety in areas of               the U.S. Counternarcotics Effort in
Afghanistan’s reconstruction ranging from the national ministries to the              Afghanistan
Afghan National Security Forces (ANSF).
   An audit report warned that the United States Agency for International
                                                                                   COMPLETED AUDITS
                                                                                   •	 Audit 14-16-AR: Afghan Banking Sector
Development (USAID) has not fully implemented measures designed to
                                                                                   •	 Audit 14-26-AR: Support for Afghan
mitigate risks associated with awarding $1 billion of direct assistance to the        Justice Sector
Afghan government. Another audit found that the State Department’s justice         •	 Audit 14-30-AR: ANSF Literacy
sector development programs need better management and stronger over-                 Programs
sight if $47.8 million in taxpayer funds is not to be put at risk. A third audit   •	 Audit 14-32-AR: USAID Ministerial
                                                                                      Assessments
determined that the Afghan central bank’s capacity to regulate commercial          •	 Eight Financial Audits, see page 32
banks remains weak and in need of robust oversight, yet U.S. advisors have
been banned from working at the bank. Still another audit raised concerns          COMPLETED INSPECTIONS
                                                                                   •	 Inspection 14-13-IR: FOB Sharana
about the ANSF’s literacy program results, contract oversight, transition,            Incinerators
and sustainment. Three inspection reports showed that $5.4 million had             •	 Inspection 14-24-IR: Balkh Education
been spent on inoperable incinerators at Forward Operating Base Sharana,              Facility
that the Balkh Education Facility remains unfinished and unsafe to occupy,         •	 Inspection 14-31-IR: Salang Hospital
and that a lack of power and water and major construction deficiencies             COMPLETED SPECIAL PROJECT
limit hospital services and raise safety concerns at Salang Hospital.              REPORTS
   SIGAR’s Office of Special Projects found that comprehensive risk                •	 Special Project 14-12-SP: MOD and
assessments of the Ministry of Defense (MOD) and the Ministry of Interior             MOI Financial Management Capacity
(MOI) could improve oversight of over $4 billion in direct assistance fund-        •	 Special Project 14-22-SP: CERP Inquiry
ing. The Office of Special Projects wrote to the Department of Defense             •	 Special Project 14-25-SP: 64K Building
                                                                                      Follow Up
(DOD) to announce it was reinstituting its investigation of the decisions          •	 Special Project 14-27-SP:
that led to the construction of an unoccupied 64,000-square-foot building             USAID Assistance to Afghanistan
at Camp Leatherneck and to warn DOD of a dangerous security lapse that                Reconstruction
                                                                                   •	 Special Project 14-28-SP: Oversight
appeared to allow a contractor identified as supporting the insurgency                Access Map
access to a Coalition-controlled facility. Special Projects also wrote to
USAID about possible weaknesses in oversight provisions in a USAID                 SPECIAL PROJECT ALERT LETTERS
agreement to provide direct bilateral assistance to Afghanistan’s national         •	 Alert Letter 14-17-AL: Kajaki Dam
                                                                                      Turbine
power utility.
   A SIGAR investigation saved the U.S. government some $1.7 million.
SIGAR investigations also resulted in three criminal informations, five plea




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014              19
SIGAR OVERSIGHT ACTIVITIES




agreements, and six sentencings in the United States. In Afghanistan, two
subjects were arrested and charged. Criminal fines and restitutions brought
about by SIGAR amounted to approximately $5.3 million. SIGAR’s suspen-
sion and debarment program referred 10 individuals and 24 companies for
suspension and debarment based on evidence developed as part of investi-
gations conducted by SIGAR in Afghanistan and the United States.


SIGAR TESTIFIES TO CAUCUS ABOUT
COUNTERNARCOTICS IN AFGHANISTAN
On January 15, 2014, Special Inspector General John F. Sopko testified
before the Senate Caucus on International Narcotics Control on the peril-
ous state of the U.S. counternarcotics effort in Afghanistan. Sopko told
the caucus that the situation in Afghanistan is dire with little prospect for
improvement in 2014 or beyond. The expanding cultivation and traffick-
ing of drugs is one of the most significant factors putting the entire U.S.
and international donor investment in the reconstruction of Afghanistan
at risk. Meanwhile, the United States and other western donors assisting
Afghanistan have, by and large, made counternarcotics a lower strategic pri-
ority at the same time that the 2014 drawdown of U.S. and Coalition forces
increases the security risks in the country.
     Since 2002, the United States has spent at least $7 billion on a wide vari-
ety of programs to reduce poppy cultivation, prevent narcotics production,
treat drug addiction, and improve the criminal justice system to combat
drug trafficking. The United States has provided another $3 billion in addi-
tional funds for agriculture and stabilization programs, which under the
current U.S. strategy are considered an important part of the counternarcot-
ics effort. Despite this mammoth investment, more Afghan land is under
poppy cultivation today than it was when the United States overthrew the
Taliban in 2002.
    During a recent trip to Afghanistan, international officials, law enforce-
ment agencies, and analysts who have been involved in the narcotics effort
in Afghanistan all told Sopko that they are very worried that the United
States and its Coalition partners are no longer sufficiently focused on
counternarcotics.
    Sopko noted that, as a part of SIGAR’s quarterly report data call, DOD
has reported to SIGAR that without military support, Drug Enforcement
Administration (DEA) operations will center on Kabul with little ability to
extend beyond the Afghan capital. DOD also said that Afghan counterdrug
forces’ ability to conduct complex interdictions will be affected by the mili-
tary drawdown. The department reported a sharp decline in the amount of
illicit narcotics seized from fiscal year (FY) 2011 to FY 2013, from 98,327
kilograms of opium seized in 2011 to 71,814 in 2012 to 41,218 in 2013. The
interdiction of precursor chemicals also dropped 73% and hashish declined




  20                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




by 79% between FY 2012 and FY 2013. The total number of counterdrug
operations declined 26% between FY 2012 and FY 2013. “Most troubling,
DOD told my staff that when combat operations conclude at the end of
2014, the NATO-led training, advisory, and assistance mission in Afghanistan
(Resolute Support Mission or RSM) will not have the resources and capacity
to support law enforcement counterdrug missions at current levels,” he said.
   Sopko said he was particularly concerned that as the U.S. Embassy
Kabul “right sizes” itself—mirroring on a smaller scale the U.S. military
drawdown—law enforcement components are losing critical manpower
at precisely the time that poppy cultivation and drug trafficking is expand-
ing. He said SIGAR is very concerned that the civilian drawdown does not
reflect a considered analysis of the personnel the United States needs to
have in Afghanistan to mount an effective counternarcotics effort.
                                                                                Special Inspector General John Sopko
   SIGAR believes that a robust law enforcement presence is an essential        greets Senator Charles Grassley of
part of any effort to effectively combat the narcotics trade. As the United     Iowa, cochairman of the Senate Caucus
States withdraws soldiers, it is also drastically reducing its law enforce-     on International Narcotics Control, at
ment presence. It is particularly important that the United States continue     a January 2014 hearing in the Capitol.
                                                                                (U.S. Senate photo)
to mentor and assist the Afghan institutions responsible for countering the
narcotics trade. These institutions are the key to reversing cultivation and
production trends that endanger every single thing the United States has
tried to accomplish.
   The people Sopko spoke with in Afghanistan on his last few trips talked
about two possible outcomes following the 2014 transition in Afghanistan:
a successful modern state, or an insurgent state. However, there is a third
possibility: a narco-criminal state. Absent effective counternarcotics pro-
grams and Afghan political will to seriously tackle this grave problem, that
third outcome may become a reality.


CONGRESS ACTS ON ISSUES HIGHLIGHTED BY SIGAR
SIGAR regularly briefs members of Congress and their staffs on SIGAR’s
audits, investigations, special projects, and specific areas of concern. This
quarter, Congress addressed many issues highlighted by SIGAR through
provisions in the FY 2014 Consolidated Appropriations Act and the FY 2014
National Defense Authorization Act, including the following:

FY 2014 Consolidated Appropriations Act
•	 Funding of $1.12 billion for Department of State (State) and USAID
   assistance to Afghanistan, a decrease of 50% from FY 2013 and from the
   President’s request for FY 2014. A provision stated that the congressional
   appropriations committees reduced the funding to “a more sustainable level
   that can be responsibly programmed and subject to effective oversight.”
•	 A provision stating that assistance provided by the United States
   shall be exempt from taxation or that the foreign government shall




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014             21
                                                   SIGAR OVERSIGHT ACTIVITIES




                                                      reimburse the United States for any taxes levied. It requires that an
                                                      amount equivalent to 200% of the total taxes assessed during FY 2014 on
                                                      funds appropriated by the act by a foreign government or entity against
                                                      U.S. assistance programs be withheld from funds appropriated for
                                                      assistance to the central government of that country for FY 2015. SIGAR
                                                      had called attention to nearly $1 billion in Afghan government taxes on
                                                      U.S. companies supporting the U.S.-funded reconstruction.
                                                   •	 A provision stating that the Economic Support Fund and International
                                                      Narcotics and Law Enforcement account funding for Afghanistan may
                                                      not be used to initiate any new program, project, or activity for which
                                                      regular oversight by State or USAID, as appropriate, is not possible.
                                                   •	 A section stating that funds may only be used for direct government-to-
Performance audits: provide assurance                 government assistance of more than $10 million if each implementing
or conclusions based on an evaluation of              agency or ministry has been assessed and is considered to have the
sufficient, appropriate evidence measured             systems required to manage such assistance, and only if any identified
against stated criteria. Performance                  vulnerabilities or weaknesses have been addressed.
audits provide objective analysis so that          •	 A provision directing the Secretary of Defense to report to the House
management and those charged with
                                                      and Senate Appropriations Committees, no later than 180 days after
governance can use the information to
                                                      the law’s enactment, details of personnel, maintenance, and logistics
improve the program performance and
operations, reduce costs, and facilitate              milestones met or still to be achieved so that the Afghan Special
decisions making by parties with                      Mission Wing (SMW) is able to operate and maintain its fleet of aircraft.
responsibility to oversee or initiate corrective      The report must also analyze alternative platforms that could meet
action for public accountability. Performance         SMW mission requirements over the long term.
audits are conducted in accordance with
generally accepted government auditing             FY 2014 National Defense Authorization Act
standards (GAGAS) and the Council of the           •	 A section expanding the prohibition on contracting with contractors
Inspectors General on Integrity and Efficiency        affiliated with insurgents or other enemies of the United States to
(CIGIE) Quality Standards for Federal Offices         apply to combatant commands in addition to U.S. Central Command
of Inspector General.                                 (CENTCOM).
                                                   •	 A requirement for the Secretary of Defense to report to the
Inspections: are systematic and
                                                      congressional defense committees on the amount of taxes assessed
independent assessments of the design,
implementation, and/or results of an                  the previous year on U.S. defense contractors, subcontractors, and
Agency’s operations, programs, or policies.           grantees. It would also mandate that an amount equivalent to 100% of
SIGAR conducts inspections, in accordance             the total taxes assessed by the Afghan government on that assistance
with CIGIE Quality Standards for Inspection           be withheld from funds appropriated for Afghanistan assistance for
and Evaluation, to provide information to             the succeeding fiscal year to the extent that such taxes have not been
Congress and the public on the quality of             reimbursed.
construction of facilities and infrastructure
throughout Afghanistan; and generally,
provides an assessment of the extent to            AUDITS
which the facilities were constructed in           SIGAR conducts performance audits, inspections, and financial audits of
accordance with the contract requirements,
                                                   programs and projects connected to the reconstruction in Afghanistan.
used as intended, and are sustainable.
                                                   Since its last report to Congress, SIGAR has issued four performance audits,
                                                   three inspections, and eight financial audit reports. This quarter SIGAR also




                                                     22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




began four new performance audits, bringing the total number of ongoing
performance audits to 10. It also initiated three financial audits and three   Financial audits: provide an independent
inspections. The published performance audit reports, among other things,      assessment of and reasonable assurance
raised concerns about the Afghan central banks capacity to regulate com-       about whether an entity’s reported condition,
mercial banks, the State Department’s justice sector programs, the ANSF’s      results, and use of resources are presented
literacy programs, and USAID’s direct assistance to the Afghan government.     in accordance with recognized criteria. SIGAR
The performance audits made a total of 13 recommendations. The financial       performs financial audits in accordance
audits identified more than $10.7 million in questioned costs as a result of   with GAGAS, which includes requirements
internal control deficiencies and noncompliance issues.                        contained in the American Institute of
                                                                               Certified Public Accountants Statements
Audit Reports Published                                                        on Auditing Standards. SIGAR also reviews
                                                                               financial audits conducted by independent
This quarter, SIGAR completed four performance audit reports that reviewed
                                                                               public accountants (IPA). When an IPA
the Afghan central bank’s capacity to regulate commercial banks, the State
                                                                               conducts a financial audit, SIGAR conducts
Department’s support for Afghanistan’s justice sector, the results of ANSF     reasonable procedures to ensure compliance
literacy training, and the assessments of Afghan ministries.                   with GAGAS, based on the intended use of
                                                                               the IPA’s work and degree of responsibility
Audit 14-16-AR: Afghanistan’s Banking Sector                                   accepted by SIGAR with respect to that work.
Central Bank’s Capacity to Regulate Commercial Banks Remains Weak
The near collapse of Kabul Bank in September 2010 raised major con-
cerns among U.S. and other international donor agencies regarding the
capacity of Afghanistan’s central bank, Da Afghanistan Bank (DAB), to
regulate Afghanistan’s commercial banks through its Financial Supervision
Department (FSD). SIGAR conducted this audit to determine the extent
to which various U.S. government agencies, as well as key international
donors, have taken steps since the near collapse to strengthen the regula-
tory capacity of DAB.
   SIGAR found that Afghanistan’s banking sector remains fragile and in
need of robust regulation by DAB. Further, audits of major commercial
banks in Afghanistan have identified systemic weaknesses in many areas          COMPLETED PERFORMANCE
of banking governance and operations, including personnel capacity, inter-      AUDITS
nal controls, accounting, credit analysis, and compliance with regulations.      •	 Audit 14-16-AR: Afghanistan’s Banking
                                                                                    Sector: The Central Bank’s Capacity to
DAB’s ongoing limitations and inability to conduct robust oversight allow           Regulate Commercial Banks remains
such weaknesses in Afghan banks to remain unchecked, heightening the                Weak
risk of another banking crisis.                                                  •	 Audit 14-26-AR: Support for
                                                                                    Afghanistan’s Justice Sector: State
   USAID, the Department of the Treasury (Treasury), State, and DOD                 Department Programs Need Better
have not provided technical assistance to DAB since 2011, when Afghan               Management and Stronger Oversight
                                                                                 •	 Audit 14-30-AR: Afghan National
President Hamid Karzai banned U.S. advisors from working with the central           Security Forces: Despite Reported
bank. However, DAB FSD’s capacity to fulfill its banking sector regulatory          Successes, Concerns Remain about
functions is limited and in need of outside technical assistance to help it         Literacy Program Results, Contract
                                                                                    Oversight, Transition, and Sustainment
meet international standards. Treasury and USAID expressed a willingness         •	 Audit 14-32-AR: Direct Assistance:
to resume technical assistance to DAB and have established conditions that          USAID Has Taken Positive Action to
the Afghan government and DAB must fulfill before the agencies will take            Assess Afghan Ministries’ Ability to
                                                                                    Manage Donor Funds, but Weaknesses
steps to resume activities at DAB. To date, however, the Afghan government          Remain
has not accepted these conditional offers of assistance.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014           23
SIGAR OVERSIGHT ACTIVITIES




   In addition, technical support from international organizations remains
quite limited. U.S. agency officials stated that, following the Kabul Bank
crisis, international organizations, such as the World Bank and the
International Monetary Fund (IMF), became the primary providers of
capacity development programs at DAB’s FSD. However, World Bank offi-
cials told SIGAR that they are terminating one of the Bank’s two programs
with DAB due to unsatisfactory results, caused, in part, by “a deteriorating
security environment,” and the IMF does not currently have any advisors
assisting DAB.
   Given the current impasse between the U.S. and Afghan governments
regarding conditions that must be met before additional technical assis-
tance is provided to DAB, SIGAR is not making any recommendations at
this time. However, because of the fragile state of the banking sector and its
importance to the overall stability of Afghanistan, SIGAR will continue to
carefully monitor the situation.

Audit 14-26-AR: Support for Afghanistan’s Justice Sector
State Department Programs Need Better Management and Stronger Oversight
Since 2005, State has spent at least $223 million on justice sector develop-
ment programs in Afghanistan, including State’s Bureau of International
Narcotics and Law Enforcement Affairs’ (INL) programs to train Afghan
justice sector personnel such as judges, prosecutors, and defense attorneys.
The Justice Sector Support Program (JSSP) is one of these programs and
is comprised of three main components: regional training of justice sector
officials, developing a case management system, and building administra-
tive capacity at Afghan ministries.
   In January 2013, INL signed a letter of agreement with the International
Development Law Organization (IDLO), a public international organization
with a mission to promote the rule of law worldwide, which transferred
the regional justice training component from the contractor that previously
implemented the JSSP—PAE Incorporated (PAE)—to IDLO.
   This audit assessed (1) INL’s management of the JSSP contract and the
extent to which the JSSP’s contribution to the development of the Afghan
justice sector can be measured, (2) the extent to which INL’s decision to
transfer the JSSP’s Regional Justice Sector Training component—now
known as the Justice Training Transition Program (JTTP)—from PAE
to IDLO affects INL’s oversight of the program, and (3) State’s efforts to
coordinate justice sector programs in Afghanistan across U.S. govern-
ment agencies.
   SIGAR found that INL’s management and oversight of the JSSP contract
with PAE limited its ability to assess the contractor’s performance and the
JSSP’s contribution to justice sector development.
   INL’s decision to transfer the Regional Justice Sector Training com-
ponent of the JSSP to IDLO raises concerns about INL’s oversight of the




  24                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




SIGAR auditors from the Justice Sector Support audit team met with the Afghan Ministry
of Justice’s Deputy Minister Haleem. (SIGAR photo)



$47.8 million IDLO program. This component, now known as the JTTP, was
transferred from PAE to IDLO in January 2013, despite the fact that IDLO
was facing management and financial challenges at the time. SIGAR also
found that INL has limited its authority to oversee IDLO’s work on the JTTP.
In particular, INL’s letter of agreement with IDLO omits provisions that
would give INL the authority to access IDLO records that is similar to its
authority to access PAE records related to the JSSP.
   SIGAR recommends that the Secretary of State: (1) include in future
JSSP and/or successor program contracts specific, detailed explanations of
the requirements to which the contractor will be held accountable as well
as baseline data and target indicators to be used for evaluating program
success; (2) expedite completion of PAE’s evaluation of the JSSP’s Regional
Justice Sector Training component and ensure it is shared with IDLO imme-
diately upon its completion so that oversight can be provided in a timely,
effective manner, and that the lessons learned identified in this evaluation
are used in the design and implementation of the JTTP; (3) renegotiate INL’s
letter of agreement with IDLO to include provisions that would secure the
right of the U.S. government to audit and inspect IDLO records related to
funds furnished to IDLO under the JTTP, and to obtain any information
from IDLO necessary to evaluate the performance and effectiveness of
IDLO’s implementation of the JTTP and safeguard U.S. funds dedicated
to the program; and (4) in cooperation with other U.S. agencies managing
rule of law programs in Afghanistan, finalize the updates to the 2009 U.S.




REPORT TO THE UNITED STATES CONGRESS     I   JANUARY 30, 2014                  25
                                        SIGAR OVERSIGHT ACTIVITIES




                                        Government Rule of Law Strategy within three months, so that timely deci-
                                        sions can be made to guide the development and coordination of current
                                        and future justice sector programs in Afghanistan.

                                        Audit 14-30-AR: Afghan National Security Forces
                                        Despite Reported Successes, Concerns Remain About Literacy Program Results,
                                        Contract Oversight, Transition, and Sustainment
                                        The North Atlantic Treaty Organization Training Mission-Afghanistan/
                                        Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A)
                                        considers literacy to be critical to developing capable, professional, and
                                        sustainable ANSF. In 2009, the command established a goal of having 100%
                                        of ANSF personnel achieve level 1 literacy (basic literacy equivalent to first-
                                        grade proficiency) and at least 50% of the ANSF attain level 3 (functional
                                        literacy equivalent to third-grade proficiency) by December 31, 2014.
                                            In an effort to achieve its program goals, the Command implemented
                                        a literacy training program delivered through three U.S.-funded contracts
                                        with OT Training Solutions, Insight Group, and the Higher Education
                                        Institute of Karwan. Issued in August 2010, these contracts have a com-
                                        bined value of $200 million for up to five years. NTM-A/CSTC-A plans to
                                        transfer the program to the Afghan Ministries of Defense and Interior by
                                        December 31, 2014.
                                            The objectives of this audit were to assess the extent to which
                                        (1) NTM-A/CSTC-A’s literacy training is meeting goals for improving literacy
                                        within the ANSF; (2) NTM-A/CSTC-A has provided effective contract over-
                                        sight; and (3) NTM-A/CSTC-A has taken steps to transfer and sustain the
                                        training program.
                                            NTM-A/CSTC-A reported that its literacy training program has been gen-
                                        erally successful in providing basic, functional literacy to ANSF personnel.
                                        As of October 2013, the command reported that 224,826 ANSF personnel
                                        had passed basic level 1, with 77,700 passing level 3 since the program’s
                                        inception in November 2009. The command indicated that the literacy
                                        program will meet its goal of 100% of ANSF personnel proficient at level 1
                                        and 50% proficient at level 3 by the end of 2014. However, these goals were
                                        based on the ANSF’s authorized end strength of 148,000 personnel that
                                        was established in 2009, rather than the current authorized end strength
                                        of 352,000. Several NTM-A/CSTC-A officials told SIGAR they do not know
                                        how the goal for the literacy program was developed, but that attaining it
                                        based on the current authorized ANSF end strength may be “unrealistic”
                                        and “unattainable.”
                                            The command’s ability to measure the effectiveness of its literacy train-
                                        ing program and determine the extent to which overall literacy of the
Basic Dari literacy training material   ANSF has improved is limited. None of the three literacy training contracts
at Kabul Military Training Center.      requires independent verification of testing for proficiency or identifies
(SIGAR photo)                           recruits in a way that permits accurate tracking as the recruits move on




                                          26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




A literacy instructor leads a class at the Darulaman Literacy Center at Camp Julian.
(SIGAR photo)


to army and police units. SIGAR also found that NTM-A/CSTC-A initially
did not perform effective oversight of the three ANSF literacy training
contracts, but that the command has taken steps since then to enhance its
ability to oversee the contracts.
    NTM-A/CSTC-A’s strategy and plan for the literacy training program
called for the command to transfer the program to the Afghan government
by the end of 2014, with all classes in the field transferred by July 2013.
However, NTM-A/CSTC-A had difficulty obtaining agreement on the plan
from the Ministries of Defense and Interior. In particular, they have been
reluctant to increase the length of basic recruit training to allow for literacy
training through level 3 for illiterate recruits.
    Despite the slow transfer of responsibilities to the Afghan govern-
ment, other international donors have continued to support the ANSF
literacy training effort. However, NTM-A/CSTC-A has not yet developed a
new transition and sustainment strategy that defines these stakeholders’
responsibilities and commitments, program goals, milestones, metrics,
and timelines.
    SIGAR is making six recommendations to the Commander of the
International Security Assistance Force (ISAF) Joint Command, in coordi-
nation with other relevant entities: two to improve the usefulness of literacy
training program reporting and measures of progress toward achieving
overall program goals; three to strengthen the oversight of the three ongo-
ing literacy training contracts and the new quality assurance contract; and
one to increase the likelihood of a successful transfer and sustainment of
the literacy training program by developing and implementing a formal,
coordinated transition and sustainment strategy.




REPORT TO THE UNITED STATES CONGRESS      I   JANUARY 30, 2014                    27
SIGAR OVERSIGHT ACTIVITIES




Audit 14-32-AR: Afghan Ministry Assessments
Direct Assistance: USAID Has Taken Positive Action to Assess Afghan Ministries’ Ability
to Manage Donor Funds, but Weaknesses Remain
USAID has current commitments of over $1 billion in direct assistance,
which comprises host country contracts and government-to-government
awards. Since 2010, both Congress and USAID have strengthened policies
to regulate direct assistance.
   In an effort to improve accountability and meet congressional require-
ments, USAID contracted with Ernst & Young and KPMG in late 2010 and
early 2011 to assess 16 Afghan ministries’ abilities to manage U.S. funds.
In addition, to help ensure the proper management and implementation
of direct assistance worldwide, USAID developed Automated Directives
System 220: Use of Reliable Partner Country Systems for Direct
Management and Implementation of Assistance in August 2011.
   The objectives of this audit were to (1) assess the extent to which
Ernst & Young and KPMG adhered to USAID contract requirements when
conducting the ministry assessments, (2) describe assessment findings
and conclusions about the ability of the Afghan ministries to manage U.S.
funds and analyze how USAID has used, or plans to use, the assessments
to inform its direct assistance to the Afghan government, and (3) examine
State’s certification and USAID’s notification provided to Congress, pursu-
ant to congressional requirements for providing direct assistance to the
Afghan government.
   In their assessments, Ernst & Young and KPMG concluded that all
ministries assessed were unable to manage and account for funds unless
they implemented recommendations included in the assessment reports.
Following the completion of these assessment reports, USAID/Afghanistan
completed internal risk reviews of seven of the 16 Afghan ministries—
Ministry of Public Health; Ministry of Mines and Petroleum; Ministry of
Agriculture, Irrigation, and Livestock; Ministry of Communication and
Information Technology; Ministry of Education; Ministry of Finance; and Da
Afghanistan Breshna Sherkat. These seven ministries all have planned or
active direct assistance programs. Although USAID/Afghanistan concluded
in each of the seven risk reviews that the ministry was unable to manage
direct assistance funds without a risk mitigation strategy in place and that
the mission would not award direct assistance to the ministry “under nor-
mal circumstances,” USAID/Afghanistan signed agreements with each of
the reviewed ministries to approve direct assistance programs.
   In addition, in 2012, USAID waived Automated Directives System (ADS)
220 requirements in Afghanistan for all direct assistance funds through
fiscal year 2013. ADS 220 established the Public Financial Management
Risk Assessment Framework—a multi-stage, risk-based methodology that
USAID uses to assess partner country systems’ suitability for receiving
direct assistance. The agency justified the waiver by stating the U.S. foreign




   28                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




policy decision to provide direct assistance to Afghanistan rendered the ini-
tial macro-level review of Afghanistan’s risk environment unnecessary.
    Although all Afghan ministries receiving direct assistance met conditions
precedent before disbursing money, SIGAR found that USAID/Afghanistan
has only required the ministries to implement 24 of the 333 identified risk
mitigation measures prior to receiving funds. After a preliminary briefing on
SIGAR’s findings in September 2013, USAID/Afghanistan provided documen-
tation delineating how it has or will mitigate each of the risks identified in its
review of Da Afghanistan Breshna Sherkat. This is a positive development, but
USAID/Afghanistan has not developed similar mitigation plans that identify
how it will address the remaining risks for the six other ministries it reviewed.
    SIGAR made three recommendations to USAID. Specifically, SIGAR
recommends that the USAID Administrator (1) require compliance with
all parts of ADS 220—except for the Stage 1 macro-level review—for the
use of all direct assistance funds for fiscal year 2014 and beyond. SIGAR
also recommends that USAID/Afghanistan (2) fully inform Congress of the
status of ministry assessments USAID or its contractors have completed,
the mitigating measures Afghan ministries have implemented, and the level
of risk to U.S. funds; and (3) develop a plan, similar to the one created for
Da Afghanistan Breshna Sherkat, for each Afghan ministry that has a com-
pleted USAID risk review that defines how each of the risks identified are
being or will be mitigated, and suspend direct assistance disbursements to
these ministries until these plans are completed.

New Audits Announced This Quarter
This quarter SIGAR initiated another in a planned series of sector-
wide audits. This one concerns U.S. government efforts to assist in the              NEW PERFORMANCE AUDITS
                                                                                     •	 Audit of U.S. Government Efforts
reconstruction and commercialization of Afghanistan’s information and                   to Assist in Reconstruction and
communication technology (ICT) sector. The agency also initiated an audit               Commercialization of Afghanistan’s
of U.S. support for developing the Afghan Air Force and ANA National                    Information and Communication
                                                                                        Technology Sector
Engineer Brigade. Additionally, SIGAR began an audit of U.S. government              •	 Audit of U.S. Support for Development
efforts to develop and strengthen the capacity and sustainability of the pro-           of the Afghan Air Force
vincial units of the Counter Narcotics Police of Afghanistan (CNPA).                 •	 Audit of ANA National Engineer
                                                                                        Brigade’s Engineering Equipment
                                                                                     •	 Audit of U.S. Government Efforts to
Afghanistan’s Information and Communication                                             Develop and Strengthen the Capacity
Technology Sector                                                                       of the Counter Narcotics Police of
                                                                                        Afghanistan’s (CNPA) Provincial Units
Building an adequate national telecommunications infrastructure has been
a top priority for the Afghan government since 2002. Over the past few
years, the ICT sector has grown to become one of the largest revenue-gener-
ating sectors for the Afghan government, contributing roughly $150 million
annually in revenue and accounting for nearly 12% of total government
revenues. To guide the ICT reconstruction and commercialization effort,
USAID and ISAF have assisted the Afghan government in establishing (1) a
country-wide microwave network to support mobile services and wireless




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014                 29
SIGAR OVERSIGHT ACTIVITIES




connectivity and (2) the national fiber optic network connecting provincial
capitals, major cities, and neighboring countries. In addition, the Afghan
government and other U.S. government agencies are working on multiple
efforts to commercialize or otherwise apply various telecommunications
technologies to better enable governance and commerce. SIGAR’s review
will assess the U.S. government’s efforts to support ICT reconstruction and
commercialization in Afghanistan and the outcomes of those efforts.

Afghan Air Force
SIGAR has initiated an audit of U.S. support for developing the Afghan Air
Force. The audit will examine U.S. investments, planning, and training to
develop an independent Afghan Air Force. The audit will look at the Afghan
Air Force’s ability to operate and maintain the aircraft and equipment pur-
chased with the ASFF that are planned to be delivered.

Afghan National Army’s National Engineer Brigade
SIGAR has initiated an audit of DOD efforts to train, equip, and sustain the
National Engineer Brigade (NEB). This audit will examine the U.S. govern-
ment’s efforts to account for, assign, and provide training on the use of
engineering equipment that will be transferred to the NEB. Specifically,
SIGAR plans to (1) assess the extent to which DOD efforts to train and equip
the NEB will build an independent and capable engineering force for the
ANA and (2) identify challenges, if any, to building and sustaining the NEB.

Counter Narcotics Police of Afghanistan
SIGAR has initiated an audit of U.S. government efforts to develop and
strengthen the capacity and sustainability of the provincial units of the
Counter Narcotics Police of Afghanistan (CNPA). This work will evalu-
ate the extent to which development and capacity-building of the CNPA’s
provincial units are based on a comprehensive interagency plan, facilities
constructed for CNPA provincial units are being used as intended, and U.S.
government assistance has contributed to building sustainable and capable
provincial unit forces.

Financial Audits
SIGAR launched its financial audit program in 2012, after Congress and the
oversight community expressed concerns about oversight gaps and the
growing backlog of incurred cost audits for contracts and grants awarded
in support of overseas contingency operations. SIGAR competitively selects
independent accounting firms to conduct the financial audits and ensures
that the audit work is performed in accordance with U.S. government audit-
ing standards. Financial audits are coordinated with the federal inspector
general community to maximize financial audit coverage and avoid duplica-
tion of effort.




  30                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




    This quarter, SIGAR completed eight financial audits of U.S.-funded con-     TABLE 2.1
tracts, grants, and cooperative agreements to rebuild Afghanistan. SIGAR
also announced three new financial audits of DOD-funded contracts with             SIGAR’S FINANCIAL AUDIT
                                                                                   COVERAGE ($ BILLIONS)
combined incurred costs of approximately $500.6 million, bringing the total
                                                                                  20 Completed Audits                         $1.4
number of ongoing financial audits to 20 with more than $2.1 billion in costs
                                                                                  20 Ongoing Audits                           $2.1
incurred, as shown in Table 2.1.
                                                                                  Total                                       $3.6
    SIGAR issues the financial audit reports to the implementing agencies,
                                                                                 Notes: Numbers have been rounded. Coverage includes
which are responsible for making the final determination on questioned           auditable costs incurred by recipients of U.S.-funded
costs. Since the program’s inception, SIGAR’s financial audits have identi-      Afghanistan reconstruction contracts, grants, and cooperative
                                                                                 agreements.
fied more than $60.8 million in questioned costs. When the implementing
                                                                                 Source: SIGAR Audits Directorate.
agency determines that a questioned cost is allowable, the agency issues
a bill for collection. To date, funding agencies have issued bills for collec-
tion to recover more than $3.8 million in questioned costs. It takes time for      Questioned Costs: are costs determined
implementing agencies to carefully consider questioned costs, and final            to be potentially unallowable. This
determinations for many questioned costs remain to be made.                        includes ineligible costs (violation of a
    SIGAR’s financial audits have four specific objectives:                        law, regulation, contract, grant, cooperative
 •	 Express an opinion on whether the Fund Accountability Statement for            agreement, etc., or an unnecessary or
    the award presents fairly, in all material respects, revenues received,        unreasonable expenditure of funds) and
    costs incurred, items directly procured by the U.S. government,                unsupported costs (those not supported
    and balance for the period audited in conformity with the terms of             by adequate documentation or proper
    the award and generally accepted accounting principles or other                approvals at the time of an audit).
    comprehensive basis of accounting.
                                                                                   Bill for Collection: a letter or form sent
 •	 Evaluate and obtain a sufficient understanding of the audited entity’s
                                                                                   to a debtor for the amount due, including
    internal control related to the award; assess control risk; and identify
                                                                                   interest, administrative charges, and late
    and report on significant deficiencies including material internal             penalties, if applicable.
    control weaknesses.
 •	 Perform tests to determine whether the audited entity complied, in             Fund Accountability Statement: a special
    all material respects, with the award requirements and applicable              purpose financial statement that includes
    laws and regulations; and identify and report on instances of material         all revenues received, costs incurred, and
    noncompliance with terms of the award and applicable laws and                  any remaining balance for a given award
    regulations.                                                                   during a given period.
 •	 Determine and report on whether the audited entity has taken adequate
    corrective action to address findings and recommendations from
    previous engagements.                                                        Source: USAID, “ADS Chapter 591: Financial Audits of USAID
A list of completed, new, and ongoing financial audits can be found in           Contractors, Recipients, and Host Government Entities,”
                                                                                 7/31/2012.
Appendix C of this quarterly report.

Financial Audits Published
This quarter, SIGAR completed eight financial audits of U.S.-funded con-
tracts, grants, and cooperative agreements to rebuild Afghanistan. These
financial audits identified more than $10.7 million in questioned costs as
a result of internal control deficiencies and noncompliance issues. These
deficiencies and noncompliance issues included, among other things,
reclassification of costs in excess of line item budgets, ineligible personnel




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014              31
                                               SIGAR OVERSIGHT ACTIVITIES




                                               costs, missing timesheets, failure to conduct vendor suspension and debar-
                                               ment checks, property loss due to theft and fire, poor record retention, lack
COMPLETED FINANCIAL AUDITS                     of supporting documentation, unapproved international travel and property
•	 Financial Audit 14-9-FA: (Completed
   last quarter, audit summary previously      purchases, and failure to adhere to procurement procedures.
   unavailable) USAID’s Afghanistan Rule
   of Law-Informal (ARL-I) Project and
   Services Under Program and Project          Financial Audit 14-9-FA: USAID’s Afghanistan Rule of Law–
   Offices for Results Tracking (SUPPORT)      Informal (ARL-I) Project and Services Under Program and
   Project: Audit of Costs Incurred by         Project Offices for Results Tracking (SUPPORT) Project: Audit
   Checchi and Company Consulting, Inc.
•	 Financial Audit 14-11-FA: Department        of Costs Incurred by Checchi and Company Consulting, Inc.
   of State’s Demining Activities in           (Completed last quarter, audit summary previously unavailable)
   Afghanistan: Audit of Costs Incurred by     USAID awarded Checchi & Company Consulting Inc. (Checchi) two
   Afghan Technical Consultants
•	 Financial Audit 14-14-FA: USAID’s Rural     contracts to support two USAID initiatives: (1) the Afghanistan Rule of
   Finance and Cooperative Development         Law–Informal (ARL-I) project and the Services Under Program and Project
   Project: Audit of Costs Incurred by World   Offices for Results Tracking (SUPPORT) project. The audit was performed
   Council of Credit Unions, Inc.
•	 Financial Audit 14-15-FA: USAID’s           by Crowe Horwath LLP and covered $55,176,633 in expenditures.
   Initiative to Promote Afghan Civil              The main objective of the ARL-I contract was to strengthen and facili-
   Society Project: Audit of Costs Incurred    tate the operation of traditional alternate dispute resolution, support state
   by Counterpart International, Inc.
•	 Financial Audit 14-18-FA: USAID’s           justice mechanisms, and increase the capacity of the state justice system
   Building Education Support Systems          in Afghanistan. Under this contract, Checchi incurred costs of $14,380,884
   for Teachers and Community Based            from March 19, 2010, through September 15, 2011.
   Stabilization Grants Projects: Audit of
   Costs Incurred by Creative Associates           The SUPPORT contract was designed to provide third party monitoring
   International, Inc.                         support services to USAID/Afghanistan’s Program and Project Development
•	 Financial Audit 14-19-FA: USAID’s           Office. These services included updating, improving, and overseeing
   Community Development Program:
   Audit of Costs Incurred by Mercy Corps      implementation of USAID/Afghanistan’s management information system,
•	 Financial Audit 14-20-FA: USAID’s           monitoring of program results against inter-agency and State Department
   Community Development Program:              performance indicators, producing interim or final evaluations of programs
   Audit of Costs Incurred by Central Asia
   Development Group, Inc.                     and projects, and organizing and providing logistical support to workshops,
•	 Financial Audit 14-23-FA: USAID’s           conferences, and meetings. From October 9, 2006, through August 27, 2012,
   Food Insecurity Response for Urban
   Populations: Audit of Costs Incurred by     Checchi incurred costs of $40,795,749 to support this initiative.
   World Vision, Inc.                              Crowe Horwath LLP found that the Fund Accountability Statement pre-
•	 Financial Audit 14-29-FA: USAID’s           sented fairly, in all material respects, program revenues and costs incurred
   Food Insecurity Response for Urban
   Populations Program: Audit of Costs         under the SUPPORT and ARL-I contracts. However, the auditors found
   Incurred by CARE International              seven internal control deficiencies and six instances of noncompliance. The
                                               audit also questioned $694,736 in ineligible costs and identified $179 in esti-
                                               mated interest that is payable to the U.S. government.
                                                   SIGAR made four recommendations to the contracting officer:
                                                •	 Determine the allowability of and recover, as appropriate, $694,736 in
                                                   questioned costs identified in the report.
                                                •	 Recover the estimated $179 in interest revenue earned from advances
                                                   provided.
                                                •	 Advise Checchi to address the seven internal control findings identified
                                                   in the report.
                                                •	 Advise Checchi to address the six compliance findings identified in the
                                                   report.




                                                 32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




Financial Audit 14-11-FA: Department of State’s Demining
Activities in Afghanistan: Audit of Costs Incurred by Afghan
Technical Consultants
The Department of State awarded Afghan Technical Consultants (ATC)
five grants to execute demining activities in various regions of Afghanistan.
SIGAR’s audit covered the period April 1, 2007, through August 31, 2012, and
was performed by Crowe Horwath. It covered $13,422,356 in expenditures.
    ATC’s program called for conducting operations with specially trained
mine-detection dogs from 2007 to 2012. ATC reported that the program
cleared over two million square meters of land by locating and destroy-
ing anti-personnel mines, unexploded ordnance, fragments, and anti-tank
mines. ATC trained human demining teams as well as dogs and employed
more than 30 individuals.
    Crowe Horwath found that the Fund Accountability Statement presented
fairly, in all material respects, revenues received and costs incurred under
the grants and identified no findings from prior audits or assessments for
follow-up or corrective action. Crowe Horwath identified six internal con-
trol weaknesses and five instances of material noncompliance with either
the terms of the grants or applicable regulations. These findings prompted
the auditors to question a total of $202,854 in unsupported costs. The audit
did not identify any ineligible costs.
    SIGAR made four recommendations to the grants officer:
 •	 Determine the allowability of and recover, as appropriate, $202,854 in
    questioned costs identified in the report.
 •	 Recover, as appropriate, the estimated $8,762 in interest revenue earned
    from advances provided.
 •	 Advise ATC to address the six internal control findings identified in the
    report.
 •	 Advise ATC to address the five compliance findings identified in the report.

Financial Audit 14-14-FA: USAID’s Rural Finance and
Cooperative Development Project: Audit of Costs Incurred by
World Council of Credit Unions, Inc.
USAID awarded the World Council of Credit Unions Inc. (WOCCU) a con-
tract in support of its Rural Finance and Cooperative Development project.
The project’s purpose was to expand access to credit markets by providing
loans to small businesses, farmers, low and middle income households, and
women in southern and eastern Afghanistan. This effort was completed
through expansion of the Islamic Investment and Finance Cooperative
Network. SIGAR’s audit covered the period December 6, 2009, through
December 5, 2012, and was performed by Crowe Horwath. It covered
$41,047,327 in expenditures.
   Crowe Horwath found that the Fund Accountability Statement presented
fairly, in all material respects, revenues received and costs incurred under




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014               33
SIGAR OVERSIGHT ACTIVITIES




the contract and identified no findings from prior audits or assessments for
follow-up or corrective action. However, Crowe Horwath identified three
material weaknesses in internal control, three significant deficiencies in
internal control, and five instances of material noncompliance. These find-
ings prompted the auditors to question a total of $97,363 in unsupported
costs. The audit did not identify any ineligible costs. In addition, Crowe
Horwath identified an instance where WOCCU had not remitted an esti-
mated $1,053 in interest on advances provided by USAID.
    SIGAR recommended that the contracting officer:
 •	 Determine the allowability of and recover, as appropriate, $97,363 in
    questioned costs identified in the report.
 •	 Recover, as appropriate, the estimated $1,053 in interest revenue earned
    from advances provided.
 •	 Advise WOCCU to address the six internal control findings identified in
    the report.
 •	 Advise WOCCU to address the five compliance findings identified in
    the report.

Financial Audit 14-15-FA: USAID’s Initiative to Promote
Afghan Civil Society Project: Audit of Costs Incurred by
Counterpart International, Inc.
USAID awarded a cooperative agreement to Counterpart International Inc.
in connection with its Initiative to Promote Afghan Civil Society project. The
purpose of the project was to assist in the “expansion of a vibrant Afghan civil
society” through capacity building and technical assistance, implementation of
an enabling nongovernmental organization law, and the award and administra-
tion of small grants to civil society organizations. The audit covered the period
January 3, 2005, through September 30, 2010, and was performed by Mayer
Hoffman McCann P.C. It covered $27,179,524 in expenditures.
    Mayer Hoffman McCann P.C. found that, except for the possible effects of
questioned costs totaling $815,317, the Fund Accountability Statement pre-
sented fairly, in all material respects, revenues received and costs incurred
under the agreement. Mayer Hoffman McCann P.C. identified 25 prior audit
findings with a potential material effect on the statement. Adequate cor-
rective actions were taken on all of them. Mayer Hoffman McCann P.C.
identified one material weakness in internal control and one instance of
noncompliance. These findings prompted the auditors to question a total of
$815,317 in unsupported costs. The audit did not identify any ineligible costs.
    SIGAR made two recommendations to USAID:
 •	 Determine the allowability of and recover, as appropriate, $815,317 in
    questioned costs identified in the report.
 •	 Advise Counterpart International Inc. to address the one internal
    control finding identified in the report.




  34                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Financial Audit 14-18-FA: USAID’s Building Education Support
Systems for Teachers and Community Based Stabilization
Grants Projects: Audit of Costs Incurred by Creative
Associates International, Inc.
USAID awarded Creative Associates International Inc. (CAII) a contract to
implement the Building Education Support Systems for Teachers (BESST)
project and a cooperative agreement to implement the Community Based
Stabilization Grants (CBSG) project. SIGAR’s audit covered the periods
January 27, 2006, through August 31, 2011, for the BESST project, and
March 7, 2010, through March 6, 2012, for the CBSG project. The audit was
performed by Mayer Hoffman McCann P.C. It covered $134,997,303 in total
expenditures.
    The purpose of the BESST project was to (1) strengthen teaching by
training Afghan teachers in 11 provinces, and (2) strengthen institutional
capacity and systems in the Ministry of Education that support high-quality
school teaching, including annual printing and distribution of textbooks.
The purpose of the CBSG project was to address community development
needs in the north, west, and central regions of Afghanistan by providing
small grants for infrastructure construction and repair services to help insu-
late those unstable communities from insurgent intrusion.
    Mayer Hoffman McCann P.C. found that the Fund Accountability
Statement presented fairly, in all material respects, revenues received and
costs incurred under the awards. In addition, Mayer Hoffman McCann P.C.
identified two recommendations from a prior audit of BESST and found
that adequate corrective action had not been taken on one of these recom-
mendations. The open recommendation required a closeout audit of a CAII
subcontractor. To address the outstanding requirement, Mayer Hoffman
McCann P.C. tested samples of the CAII subcontractor. Mayer Hoffman
McCann P.C. observed no findings in the tested samples, effectively closing
the open prior audit recommendation.
    Mayer Hoffman McCann P.C. reported one internal control deficiency
(in the BESST project) and three instances of noncompliance (two in the
BESST project and one in the CBSG project), which prompted the auditors
to question a total of $344,479 in costs. These questioned costs included
$342,846 in ineligible costs and $1,633 in unsupported costs.
    SIGAR made three recommendations to the Mission Director of USAID/
Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, $344,479 in
    questioned costs identified in the report.
 •	 Advise CAII to address the one internal control finding identified in
    the report.
 •	 Advise CAII to address the three compliance findings identified in
    the report.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014             35
SIGAR OVERSIGHT ACTIVITIES




Financial Audit 14-19-FA: USAID’s Community Development
Program: Audit of Costs Incurred by Mercy Corps
USAID awarded Mercy Corps, in partnership with Save the Children
Federation, a cooperative agreement to support the Community
Development Program. SIGAR’s audit covered the period March 10, 2009,
through December 31, 2011, and was performed by Mayer Hoffman McCann
P.C. It covered $69,050,785 in expenditures.
    The Community Development Program provided cash-for-work wages
to local participants in 11 provinces throughout Afghanistan. The program
aimed to provide the most vulnerable segments of the population temporary
employment on public projects such as repairing roads, clearing debris, or
rebuilding infrastructure.
    Mayer Hoffman McCann P.C. issued a qualified opinion on the fairness
of the presentation of the Fund Accountability Statement based upon the
identification of $682,241 of questioned costs, which represent a mate-
rial misstatement of the Fund Accountability Statement. Mayer Hoffman
McCann P.C. also noted two prior recommendations that could have a
material effect on the Fund Accountability Statement and determined
that adequate corrective action was not taken on one of the recommenda-
tions. Specifically, Mercy Corps has not taken adequate actions to address
a weakness in an internal control designed to monitor Save the Children
Federation’s use of federal funds. In addition, Mayer Hoffman McCann P.C.
found six other internal control deficiencies and three instances of non-
compliance, which prompted the auditors to question a total of $682,241
in costs. These questioned costs included $2,296 in ineligible costs and
$679,945 in unsupported costs.
    SIGAR made three recommendations to the Mission Director of USAID/
Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, $682,241 in
    questioned costs identified in the report.
 •	 Advise Mercy Corps to address the six internal cost control findings
    identified in the report.
 •	 Advise Mercy Corps to address the three compliance findings identified
    in the report.

Financial Audit 14-20-FA: USAID’s Community Development
Program: Audit of Costs Incurred by Central Asia Development
Group, Inc.
USAID awarded Central Asia Development Group Inc. (CADG) a cooperative
agreement to support its Community Development Program. SIGAR’s audit
covered the period March 12, 2009, through June 30, 2013, and was performed
by Mayer Hoffman McCann P.C. It covered $254,540,870 in expenditures.
   The purpose of the Community Development Program (formerly called
the Food Insecurity Response for Urban Populations) was to provide




  36                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




temporary employment and income through cash-for-work programs to tar-
geted individuals and communities in 16 provinces in Afghanistan.
   Mayer Hoffman McCann P.C. found that except for $7,853,478 in ques-
tioned costs and $9,613 of lost interest earnings, the Fund Accountability
Statement presented fairly, in all material respects, revenues received and
costs incurred under the cooperative agreement. They identified no recom-
mendations from prior audits or assessments for follow-up or corrective
action. Nevertheless, Mayer Hoffman McCann P.C. reported nine internal
control findings and five instances of noncompliance, which prompted the
auditors to question $7,853,478 in costs. These questioned costs included
$563,477 in ineligible costs and $7,290,001 in unsupported costs.
   SIGAR made four recommendations to the Mission Director of USAID/
Afghanistan:
•	 Determine the allowability of and recover, as appropriate, $7,853,478 in
   questioned costs identified in the report.
•	 Recover the estimated $9,613 in lost interest revenue.
•	 Advise CADG to address the nine internal control findings identified in
   the report.
•	 Advise CADG to address the five compliance findings identified in
   the report.

Financial Audit 14-23-FA: USAID’s Food Insecurity Response for
Urban Populations: Audit of Costs Incurred by World Vision, Inc.
USAID awarded World Vision Inc. (World Vision) a cooperative agreement
to provide support to the Food Insecurity for Urban Populations (FIRUP)
program. The audit, performed by Crowe Horwath LLP (Crowe Horwath),
covered the period March 11, 2009, through January 15, 2011, and total
expenditures of $11,034,373.
    USAID’s cooperative agreement with World Vision was to support the
FIRUP program by providing short-term cash-for-work opportunities,
assisting in the development of the agriculture industry, and expanding
and improving local infrastructure in the western Afghanistan provinces of
Herat, Ghor, and Badghis.
    Crowe Horwath issued a disclaimer of opinion on the Fund
Accountability Statement because the audit firm was unable to quantify
the impact on the statement of World Vision’s practice of classifying some
national office operating costs, first as direct costs to the FIRUP program,
and then as indirect costs allocated to multiple awards. World Vision reclas-
sified the direct costs as indirect to avoid exceeding budget restrictions
imposed by the cooperative agreement. As a result, an unquantified amount
of federal award costs may have been shifted to other projects World Vision
had at the time (including other federal awards) through indirect cost
charges. World Vision’s reclassification practice violates OMB Circular A-122,
which requires that, to be allowable, costs must be afforded consistent




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014             37
SIGAR OVERSIGHT ACTIVITIES




treatment. Additionally, Section II of the Negotiated Indirect Cost Rate
Agreement requires that similar types of costs be accorded consistent treat-
ment. The scope of this audit was limited to USAID’s cooperative agreement
with World Vision, preventing Crowe Horwath from assessing the impact of
the cost reclassification on other awards. This matter has been referred to
SIGAR’s Investigations Directorate.
   Crowe Horwath identified two prior audit findings pertinent to the FIRUP
program and found that World Vision did not take adequate corrective action
to address one of the prior recommendations. Crowe Horwath reported
seven internal control deficiencies and nine instances of noncompliance,
which prompted the auditors to question $674,049 in costs. These questioned
costs included $667,795 in ineligible costs and $6,254 in unsupported costs.
   SIGAR made four recommendations to the Mission Director of USAID/
Afghanistan:
•	 Determine the allowability of and recover, as appropriate, $674,049 in
   questioned costs identified in the report.
•	 Recover the estimated $295 in interest revenue earned from advances
   provided.
•	 Advise World Vision to address the seven internal control findings
   identified in the report.
•	 Advise World Vision to address the nine compliance findings identified
   in the report.

Financial Audit 14-29-FA: USAID’s Food Insecurity Response
for Urban Populations Program: Audit of Costs Incurred by
CARE International
USAID awarded CARE International a cooperative agreement to pro-
vide support to FIRUP. The audit, performed by Crowe Horwath Crowe
Horwath, covered the period March 8, 2009, to November 30, 2011. It cov-
ered $59,964,229 in expenditures.
   CARE International was to support the FIRUP Program by promoting
temporary employment to targeted populations in Kabul and its suburbs
through cash-for-work activities such as ditch draining and construction,
road resurfacing and gravelling, canal cleaning, vineyard and orchard plow-
ing, and other agricultural-related activities.
   Crowe Horwath LLP issued an unmodified opinion on the fairness of the
presentation of the Fund Accountability Statement. Crowe Horwath LLP did
not identify any open corrective actions from prior audits that pertained to the
program or deficiencies in internal controls. The audit found one instance of
noncompliance that was the result of the late submission of the agreement’s
final federal financial report, but this finding did not prompt Crowe Horwath
LLP to question any costs.
   SIGAR made one recommendation to the Mission Director of USAID/
Afghanistan:




  38                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




•	 Advise CARE International to address the one compliance finding
   identified in the report.


INSPECTIONS
This quarter, SIGAR published three inspection reports. The completed
inspections found $5.4 million spent for inoperable incinerators and con-
                                                                                   COMPLETED INSPECTIONS
                                                                                   •	 Inspection 14-13-IP: Forward Operating
tinued use of open-air burn pits at Forward Operating Base (FOB) Sharana,             Base Sharana: Poor Planning and
an unsafe building at the Balkh Education Facility, and construction defi-            Construction Resulted in $5.4 Million
                                                                                      Spent for Inoperable Incinerators and
ciencies and a lack of water and power that severely limits services at               Continued Use of Open-Air Burn Pits
Salang Hospital.                                                                   •	 Inspection 14-24-IP: Balkh Education
   In addition to ongoing work, SIGAR also initiated inspections of the Pol-          Facility: Building Remains Unfinished
                                                                                      and Unsafe to Occupy After Nearly Five
i-Charki provincial prison east of Kabul, the Gereshk Cold and Dry Storage            Years
Facility in Helmand Province, and the provincial prison in Baghlan Province.       •	 Inspection 14-31-IP: Salang Hospital:
                                                                                      Lack of Water and Power Severely
                                                                                      Limits Hospital Services, and Major
Inspection 14-13-IP: Forward Operating Base Sharana: Poor                             Construction Deficiencies Raise Safety
Planning and Construction Resulted in $5.4 Million Spent for                          Concerns
Inoperable Incinerators and Continued Use of Open-Air Burn Pits
The U.S. Army Corps of Engineers (USACE) awarded a $5.6 million contract
on September 18, 2009, to International Home Finance & Development LLC,
a company based in Denver, Colorado, to construct solid waste manage-
ment facilities at FOB Sharana. At the time the contract was awarded, the
base was using open-air burn pit operations to dispose of its solid waste.
ISAF officials installed incinerator facilities at military bases throughout
Afghanistan, including FOB Sharana, for several reasons. Of particular
concern was the possible health hazard to base personnel from emissions
generated by open-air burn pits used to dispose of solid waste material.
   SIGAR assessed whether (1) construction was completed in accordance
with contract requirements and applicable construction standards and
(2) the incinerators and supporting facilities were being used as intended
and maintained.
   SIGAR found that nearly three years after the initial scheduled comple-
tion date for the incinerator facility at FOB Sharana, the incinerators have
never been used. In spite of known construction and safety deficiencies
and poor contractor performance leading to construction delays, USACE
accepted possession of the incinerators and paid the contractor $5.4 mil-
lion without having tested the incinerators to determine whether they were
operational. In addition, even if the incinerators had been made operational,
the poor physical layout of the facility, as constructed, would have limited
the facility to only 80% of the processing capacity called for under the con-
tract and would have required extensive manual labor to load waste and
remove ash residue.
   If the incinerator facility had been put into operation in August 2010, as   Two 40-ton capacity incinerators at FOB
planned, FOB Sharana would have been able to close its open-air burn pit.       Sharana. (SIGAR photo by Robert Rivas)




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014            39
                                             SIGAR OVERSIGHT ACTIVITIES




                                             However, because of the delays and eventual acceptance of an unusable
                                             incinerator facility, base personnel faced continued exposure to potentially
                                             hazardous emissions, and $5.4 million of U.S. taxpayer dollars could have
                                             been put to better use.
                                                SIGAR recommended that the Commanding General, USACE: (1) con-
                                             duct an inquiry into the circumstances of the acceptance of the incinerator
                                             facility at FOB Sharana and the payment of $5.4 million to the contractor
                                             and (2) based on the results of this inquiry, determine if any action should
                                             be taken against the contracting officer(s).

                                             Inspection 14-24-IP: Balkh Education Facility: Building Remains
                                             Unfinished and Unsafe to Occupy After Nearly Five Years
                                             In May 2008, USAID entered into a Participating Agency Program
                                             Agreement (PAPA) with USACE to award and oversee the construction of
                                             a number of “Faculties of Higher Education” to serve as teacher training
                                             facilities in Afghanistan. Beginning in February 2009, USACE awarded three
                                             contracts under the PAPA for the construction of facilities in three north-
                                             ern provinces, including a facility in Mazar-e-Sharif in Balkh Province. In
                                             January 2013, USAID terminated the PAPA and took over responsibility for
                                             completing these facilities.
Neither access point to the septic tank
                                                For this inspection, SIGAR assessed the project site in Balkh Province
has a solid cast iron cover or a permanent
ladder, both of which are required by the    to determine whether (1) construction was completed in accordance with
contract. (SIGAR photo by Ron Riach)         contract requirements and applicable construction standards, and (2) the
                                             facilities were being used as intended and maintained.
                                                SIGAR found that the Balkh education facility has not been completed
                                             or constructed in accordance with contract requirements and techni-
                                             cal specifications. As a result, nearly five years after construction began,
                                             USAID is unable to transfer the facility to Afghan authorities. USAID and
                                             USACE identified a number of repairs that need to be made to address,
                                             among other things, a leaking roof, defective electrical wiring, and an
                                             improperly sloped terrace roof. USAID technical office and contracting
                                             staff have developed a revised procurement strategy to contract out this
                                             remaining construction and repair work, which they expect to be com-
                                             pleted by mid-2014.
                                                SIGAR identified some additional deficiencies requiring repair that are
SIGAR auditors discovered a second floor
                                             not currently part of USAID’s expected procurement action. For example,
terrace that slopes toward the classroom
door, requiring an improvised dam to stop    sewer lines crossing above water lines are not encased in concrete and
rainwater from flowing into the classroom.   exterior stairway dimensions are not compliant with required International
(SIGAR photo by Les Thompson)                Building Code specifications. SIGAR also found that USAID lacks building
                                             roof and septic tank structural calculations; an analysis of which is critical
                                             to ensure that the roof and septic tank as constructed will support the loads
                                             imposed on them. The absence of such calculations raises potential health
                                             and safety concerns because USAID lacks adequate assurance that these
                                             structures will not collapse at some point.




                                               40                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




   SIGAR also found that, although the Balkh facility was not approved
for occupancy, Afghan faculty and students had been using the facility.
Following a briefing on SIGAR’s inspection, USAID instructed the Afghan
Ministry of Higher Education to vacate the facility pending final repairs and
the building’s official transfer to Afghan authorities.
   To help ensure that the Balkh education facility meets the needs of
faculty and students and all applicable safety requirements, and to pro-
tect the U.S. government’s investment, SIGAR recommended that the
USAID Mission Director (1) expand the scope of work for the pending
procurement action to address the deficiencies identified by SIGAR; and
(2) develop roof and septic tank structural calculations based on the con-
struction documents, progress photos, and quality assurance reports, to
determine whether these building components comply with the required
2003 International Building Code and adequately protect life and property,
and report to SIGAR within 90 days with the results of this analysis and any
planned corrective actions.

Inspection 14-31-IP: Salang Hospital: Lack of Water
and Power Severely Limits Hospital Services, and Major
Construction Deficiencies Raise Safety Concerns
On September 11, 2009, Bagram Regional Contracting Center awarded a
firm fixed-price contract to Shafi Hakimi Construction Company, an Afghan
company, for $597,929 to provide labor, materials, and equipment to con-
struct and furnish the 20-bed Salang hospital. The Commander’s Emergency
Response Program (CERP)-funded contract, with a 365-day period of per-
formance, specified construction of a hospital including surgical and X-ray
areas, a pharmacy, a laboratory, wards for men and women, and areas for
pediatric, dental, and mental health services. The contract also required the
installation of electrical, water, and septic systems, as well as a separate
building with toilet facilities and a guard shack. In September 2012, the
Governor of Parwan Province took possession of the hospital, which began
accepting patients in January 2013.
   For this inspection, SIGAR assessed whether (1) construction had
been completed in accordance with contract requirements and applicable
construction standards, and (2) the facilities were being used as intended      A leaky roof at the Salang Hospital led to
and maintained.                                                                 mold and mildew on the ceilings and walls.
   SIGAR found that Salang hospital was not built in accordance with            (SIGAR photo by Brian Flynn)
contract requirements. In mid-2012, a U.S. Forces-Afghanistan (USFOR-A)
task force inspected the site during construction and found a number of
deficiencies, including water, sewer, electrical, and heating systems that
were incomplete or needed repair. The task force noted the inhabitants
of Salang district would have inadequate access to health care until con-
struction deficiencies were remedied and missing equipment provided. In
October 2012, the contractor was paid in full. However, SIGAR’s November




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014            41
                                             SIGAR OVERSIGHT ACTIVITIES




                                             2013 inspection found that the deficiencies identified by the task force had
                                             not been corrected. For example, the water well, solar power system, and
                                             second 30-kilowatt generator required by the contract had not been pro-
                                             vided. Because there was no clean water, staff at the hospital were washing
                                             newborns with untreated river water. SIGAR’s inspectors identified addi-
                                             tional problems. For example, the original design drawings called for three
                                             one-story buildings—a 15-room hospital, a four-stall toilet, and a guard
                                             shack—but SIGAR found that a single, poorly constructed, two-story build-
                                             ing had been built.
                                                SIGAR’s inspection also found significant safety issues with the two-story
A propane-fueled refrigerator is the
                                             construction. A three-inch wide vertical expansion joint basically cut the
only way to keep vaccines cool due to
insufficient electricity inside the Salang   hospital in half, effectively making it two buildings under one corrugated
hospital. (SIGAR photo by Brian Flynn)       metal roof. Unreinforced brick walls between concrete columns made up
                                             most of the hospital’s outer structure. Since Salang district is located in one
                                             of the most active seismic zones of Afghanistan, these problems with the
                                             structural integrity of Salang hospital increase the risk of structural collapse
                                             during an earthquake.
                                                SIGAR also found that the Salang hospital was not providing many of
                                             the services it was intended to provide, that the hospital staff were using
                                             only about 35% of the square footage of the constructed facility, and that
                                             the hospital employed less than 20% of the staff it was expected to employ.
                                             According to the doctors and nurses on site, the limited use—due primarily
                                             to the lack of electricity, water, furniture, and equipment—has prevented
                                             them from providing optimal medical care.
                                                SIGAR recommended that the Commanding General, USFOR-A, direct
                                             the appropriate USFOR-A units to take the following steps and report to
                                             SIGAR within 90 days: (1) identify the contracting officer(s) responsible
                                             for oversight of the Salang hospital construction activities and determine:
                                             (a) why the hospital was not built according to contract specifications and
                                             acceptable construction standards; (b) why required documents were not
                                             placed in the CIDNE database; and (c) what disciplinary action, if any,
                                             should be taken against the contracting officer(s) responsible for failing to
                                             provide required oversight; (2) perform a physical inspection of the build-
                                             ing, including appropriate engineering tests and analyses, and, given its
                                             location in a high seismic activity zone, determine what corrections are
                                             required to ensure the structural integrity of the building.

                                             STATUS OF SIGAR RECOMMENDATIONS
                                             The Inspector General Act of 1978, as amended, requires SIGAR to report
                                             on the status of its recommendations. This quarter, SIGAR closed 38
                                             recommendations contained in nine audit and inspection reports. These rec-
                                             ommendations resulted in over $10 million of savings to the U.S. taxpayer.
                                                Corrective actions taken for the closed audit recommendations this
                                             period include:




                                               42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




•	 Revisions to State-funded contracts requiring implementing partners
   to make payments only through electronic funds transfers or licensed
   hawalas. (Audit 11-13);
•	 The recovery of nearly $9.9 million in refunded premiums to USACE
   for its Defense Base Act Insurance Program. The refunds were either
   returned to applicable contracts, to contractors and appropriation
   accounts, or to the U.S. Treasury where appropriations were cancelled.
   (Audit 11-15);
•	 The transfer of $101 million from DOD to the State Department and
   ultimately to USAID for the implementation of a Northeast Power
   System project. (Audit 12-12); and
•	 The refund of $45,454 in disallowed contract billings by an
   implementing partner of USAID. (Financial Audit 13-3)

   From 2009 through December 2013, SIGAR published 114 audits, alert
letters, and inspection reports and made 366 recommendations to recover
funds, improve agency oversight, and increase program effectiveness.
SIGAR has closed 69% of these recommendations. Closing a recommen-
dation generally indicates SIGAR’s assessment that the audited agency
has either implemented the recommendation or otherwise appropriately
addressed the issue. In some cases, a closed recommendation will be the
subject of follow-up audit work.
   The Inspector General Act of 1978, as amended, also requires SIGAR to
report on any significant recommendations from prior reports on which correc-
tive action has not been completed. In this quarter, SIGAR continued to monitor
agency actions on recommendations in 30 audit and inspection reports.
   There were no audit or inspection reports with recommendations over
12 months old for which the agency or department has failed to propose a          COMPLETED SPECIAL PROJECT
corrective action that SIGAR believes will resolve the identified problem.        REPORTS
However, there are five audit and inspection reports over 12 months old           •	 Special Project 14-12-SP:
                                                                                     Comprehensive Risk Assessments of
where SIGAR is waiting for a department or agency to take the agreed upon            MOD and MOI Financial Management
corrective action.                                                                   Capacity Could Improve Oversight of
                                                                                     Over $4 Billion in Direct Assistance
                                                                                     Funding
                                                                                  •	 Special Project 14-22-SP:
SPECIAL PROJECTS                                                                     Commanders Emergency Response
                                                                                     Program Funding Inquiry
SIGAR’s Special Projects team was created to examine emerging issues and
                                                                                  •	 Special Project 14-25-SP: Unoccupied
deliver prompt, actionable reports to federal agencies and the Congress.             64,000-Square-Foot Building
The team conducts a variety of assessments, producing reports on all facets       •	 Special Project 14-27-SP:
of Afghanistan reconstruction. The directorate is made up of auditors, ana-          USAID Assistance to Afghanistan
                                                                                     Reconstruction: $13.3 Billion Obligated
lysts, investigators, lawyers, subject-matter experts, and other specialists         Between 2002 and 2013
who can quickly and jointly apply their expertise to emerging problems and        •	 Special Project 14-28-SP: Geospatial
questions. During this reporting period, SIGAR’s Office of Special Projects          Fact Sheet: Oversight Access for
                                                                                     Selected U.S. Army Corps of Engineers
issued a special report on the safeguards created by DOD to protect $4 bil-          Projects and the Kajaki Dam Project
lion provided directly to Afghanistan’s Ministry of Defense (MOD) and




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014              43
SIGAR OVERSIGHT ACTIVITIES




Ministry of Interior (MOI). It also issued alert letters concerning evidence
that a contractor identified as supporting the insurgency had gained access
to a Coalition-controlled facility, and possible weaknesses in oversight
provisions in a USAID agreement for providing direct bilateral assistance
funds to Afghanistan’s national power utility. It issued fact sheets identify-
ing USAID’s largest implementing partners and reconstruction projects that
may not be readily accessible to oversight after the U.S. troop drawdown in
2014. It wrote letters to nongovernmental organizations working with fed-
eral agencies in Afghanistan to identify best practices used in Afghanistan.
It also wrote a letter to DOD requesting information about CERP.
    Special Projects also issued letters announcing that SIGAR is reopen-
ing its investigation of the decisions that led to the construction of a
64,000-square-foot building at Camp Leatherneck in Helmand Province and
has started a review of the terminated plan to provide G-222 aircraft to the
Afghan Air Force.

Special Project 14-12-SP: Comprehensive Risk Assessments of
MOD and MOI Financial Management Capacity Could Improve
Oversight of Over $4 Billion in Direct Assistance Funding
Since 2005, Congress has appropriated over $52 billion to DOD’s ASFF to
equip, train, base, and sustain the ANSF. DOD reports that as of September
2013 it has committed $4.2 billion and disbursed nearly $3 billion in direct
assistance to the MOD and MOI for the sustainment of the ANSF (procure-
ment of food, goods, and services; funding salaries; and funding minor
construction). These funds are overseen by CSTC-A, the military command
responsible for the training and development of the ANSF.
   As part of SIGAR’s ongoing effort to monitor federal agencies’ use of
direct assistance in Afghanistan, SIGAR initiated this project to review
DOD’s safeguards for ensuring that funds provided to the MOD and MOI
are properly managed and safeguarded to protect against possibilities of
waste, fraud, and abuse. This report (1) describes the process used by DOD
to assess the MOD and MOI’s capacity to manage and account for direct
assistance, and (2) assesses measures put in place by DOD to mitigate any
financial management and internal controls weaknesses identified at the
MOD or MOI. SIGAR also provided observations and proposed suggestions
that may improve oversight of direct assistance funding.
   SIGAR identified a number of oversight weaknesses that increased the
risk that the direct assistance funds provided to the ANSF were particularly
vulnerable to waste, fraud, and abuse. For example, the process used by
CSTC-A examines the capacity and controls of individual offices within the
ministries and does not include an understanding of the capabilities and
risks associated with executing funds across the ministries and within the
Afghan government budget and execution processes. The current process
does not enable CSTC-A to determine core functional capacity across each




  44                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




ministry, provide trainers and decision makers with a holistic understanding
of systemic shortcomings of each ministry’s overall financial management
capacity, or identify risks associated with capacity weaknesses. Moreover,
the financial risk assessments conducted by CSTC-A are limited to financial
risks associated with the procurement of a particular good or service.
   Although the United States has already provided billions in direct assis-
tance for the ANSF and DOD plans to provide increased amounts of direct
assistance for the ANSF, a comprehensive risk assessment has never been
conducted by DOD to determine the financial management capacity or
associated risks for U.S. funds. Those who work most closely with these
ministries—CSTC-A advisors—are aware of weaknesses in capacity at
the defense and interior ministries, but they have limited visibility or influ-
ence over the ministries’ overall financial management process. Without
a comprehensive assessment, DOD cannot fully identify the risks to U.S.
funds nor develop sufficient mitigation measures to address those risks.
Consequently, DOD cannot be assured that the funds provided directly to
the Afghan government to fund and equip the ANSF are sufficiently pro-
tected and used as intended.
   SIGAR made one suggestion to the Secretary of Defense and two sug-
gestions to the CSTC-A commander to assist in more accurately assessing
and mitigating weaknesses in the financial management and internal con-
trol of direct assistance funds provided to the MOD and MOI. The Office of
the Secretary of Defense concurred with our suggestion that the Secretary
of Defense consider conducting a comprehensive assessment of MOD
and MOI financial management capacity. In commenting on a draft of this
report, CSTC-A concurred with SIGAR’s suggestion to ensure that CSTC-A’s
Comptroller Directorate (CJ8) mentors and advisors are included in the
assessment process. CSTC-A also concurred with SIGAR’s suggestion to
reassess CJ8 staffing levels to ensure adequate capacity to fulfill its over-
sight mission. However, CSTC-A stated that it conducts risk assessments in
the form of capability milestone (CM) ratings as well as using CSTC-A’s and
outside agencies’ reports and audits. CSTC-A also highlighted its plans to
move from an office-based to a functionally based mentoring and advising
model and highlighted its plans to implement “levers” to ensure better bud-
getary controls in the ministry.

Special Project 14-22-SP: Commander’s Emergency Response
Program Funding Inquiry
On January 16, 2014, SIGAR wrote to DOD to request financial and perfor-
mance information for CERP in Afghanistan. SIGAR said the information
would help it continue its ongoing oversight of CERP and facilitate SIGAR’s
contribution to a report mandated by Congress on CERP lessons learned
and best practices.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014              45
                                                            SIGAR OVERSIGHT ACTIVITIES




                                                               SIGAR analysts recently determined that a significant portion of FY 2013
                                                            CERP funds appropriated by Congress were never used. Specifically, DOD
                                                            only obligated $43.5 million of $200 million appropriated for CERP before
                                                            the funds expired at the end of September 2013. SIGAR found that this is
                                                            not a new phenomenon. Over the past six fiscal years the DOD has used
                                                            only 59% of the CERP funds provided by Congress.

                                                            Special Project 14-25-SP: Unoccupied 64,000-Square-Foot
                                                            Building
                                                            SIGAR wrote to DOD to announce that it was reinstituting its investi-
  AR 15-6: is used as the basis for many                    gation of the decisions that led to the construction of an unoccupied
  U.S. Army investigations requiring the de-                64,000-square-foot building at Camp Leatherneck. SIGAR had written in July
  tailed gathering and analyzing of facts and               to ask why the building, originally intended to serve as a command head-
  the making of recommendations based on                    quarters in support of the troop surge in Helmand Province, had been built.
  those facts. AR 15-6 procedures may be                       Five months later, SIGAR received a response to its original letter as this
  used on their own, such as in an investiga-               report was going to press. SIGAR had earlier received an incomplete Army
  tion to determine facts and circumstances,                Regulation (AR) 15-6 investigation of the 64,000-square-foot building, signed
  or the procedures may be incorporated by                  by Major General James M. Richardson, Deputy Commander-Support,
  reference into directives governing specific
                                                            USFOR-A. General Richardson’s report raised additional questions and
  types of investigations, such as reports of
                                                            prompted SIGAR’s decision to restart its investigation. SIGAR announced
  survey and line of duty investigations.
                                                            this decision in a November 27, 2013, letter to the Secretary of Defense.
                                                            In that letter SIGAR asked that all records pertaining to this investigation,
                                                            as well records related to an earlier May 2013 AR 15-6 investigation of this
Source: United States Army Combined Arms Center, “AR 15-6
Investigating Officer’s Guide,” 7/18/2008.
                                                            building, be preserved so they will be available for SIGAR’s investigators.
                                                            Subsequent to that letter SIGAR sent another recent letter asking for the
                                                            additional documents cited in the AR 15-6 investigation report.

                                                            Special Project 14-27-SP: USAID Assistance to Afghanistan
                                                            Reconstruction: $13.3 Billion Obligated Between 2002 and 2013
                                                            According to SIGAR analysis of USAID data, USAID obligated $13.3 billion
                                                            for reconstruction in Afghanistan between the beginning of FY 2002 and
                                                            June 2013.
                                                               USAID awarded these funds to implementing partners including
                                                            multilateral organizations, nongovernmental organizations, for-profit
                                                            corporations, Afghan government entities, and U.S. government entities.
                                                            USAID legal instruments for reconstruction assistance in Afghanistan
                                                            include contracts, grants, cooperative agreements, and government-to-
                                                            government (G2G) agreements.
                                                               Contracts were the most commonly used legal instrument, accounting
                                                            for over 50% of total awards. The project sector with the largest portion of
                                                            total awards was the Construction and Infrastructure project sector, which
                                                            accounted for 31% of the total $13.3 billion in awards.
                                                               USAID awarded Afghan government entities approximately $688 mil-
                                                            lion in G2G agreements. The top Afghan government recipient of USAID




                                                              46                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




reconstruction funds was the government-owned electric utility Da
Afghanistan Breshna Sherkat (DABS). DABS received the USAID award in
order to fund the Power Transmission Expansion and Connectivity (PTEC)
project, a project to improve Afghanistan’s electricity transmission system,
and the installation of a second turbine at the Kajaki Dam in Helmand
Province. Of the 203 organizations that received USAID reconstruction
awards, the top-10 recipients by total award amount received 58% of the
total $13.3 billion. The World Bank was the top recipient of total funds from
USAID with $1.7 billion in total awards. The World Bank administers the
Afghanistan Reconstruction Trust Fund (ARTF), which provides financ-
ing for the Government of Afghanistan’s budget and supports World Bank
reconstruction projects. The top for-profit entity by total awards was a joint
venture between the Louis Berger Group Incorporated and the Black and
Veatch Special Projects Corporation (LBG/B&V) with $1.1 billion in total
awards. The LBG/B&V joint venture is implementing USAID’s Afghanistan
Infrastructure and Rehabilitation Program (AIRP). The AIRP is focused on
building and improving Afghan energy and transportation infrastructure.
USAID awarded Afghan government entities approximately $688 million in
G2G agreements.
   Of the total reported awards between the beginning of FY 2002 and
June 2013, 73%, or $9.8 billion, are reported by USAID as either completed
or inactive.

Special Project 14-28-SP: Geospatial Fact Sheet: Oversight
Access for Selected U.S. Army Corps of Engineers Projects
and the Kajaki Dam Project
This report is the first in a series of reports illustrating the potential over-
sight access challenges for U.S. reconstruction projects and programs in
Afghanistan. It identifies various USACE projects and one USAID recon-
struction project which may not be readily accessible to U.S. civilian
oversight personnel if they are still ongoing when the oversight access areas
reduce by the end of 2014. SIGAR’s audit and inspection work has repeat-
edly identified project delays.
   SIGAR has been concerned about the impact of the coalition troop
drawdown on security and the related implications for ensuring adequate
oversight of the U.S. funded reconstruction effort in Afghanistan. U.S. mili-
tary officials have advised SIGAR that in the future they can only provide
U.S. civilian access to areas within a one-hour round trip of an advanced
medical facility. State Department officials have told SIGAR that their abil-
ity to reach reconstruction sites will be extremely limited due to this. This
report includes the map shown in Figure 2.1 on the following page showing
USACE projects and USAID’s on-budget infrastructure project at Kajaki
Dam and the relationship of these projects to the reduced oversight-access
areas projected to exist at the end of 2014.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014               47
                                                                 SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.1

AFGHANISTAN POSSIBLE OVERSIGHT ACCESS 2014




                                                                           UZBEKISTAN
                                                                                                                                                 TAJIKISTAN                      CHINA



                                                                 JOWZJAN
                       TURKMENISTAN                                              BALKH
                                                                                                  KUNDUZ
                                                                                                            TAKHAR
                                                                                                                        BADAKHSHAN

                                                                                    SAMANGAN

                                                    FARYAB      SAR-E PUL                     BAGHLAN PANJSHIR
                                                                                                               NURISTAN
                                      BADGHIS                                                    PARWAN
                                                                             BAMYAN                     KAPISA      KUNAR
                                                                                                            LAGHMAN
                                  HERAT                                                              KABUL
                                                                                            WARDAK
                                                                                                              NANGARHAR
                                                  GHOR                                             LOGAR
                                                                 DAYKUNDI
                                                                                                      PAKTIYA
                                                                                        GHAZNI            KHOWST

                                   FARAH                        URUZGAN
                                                                                                                                             2014 Possible Oversight Access Coverage
                                                                                                  PAKTIKA                                    21% of total area of Afghanistan
                                                                             ZABUL
                                                                                                                                             Sample Reconstruction Projects
                                                                                                                                             possibly outside of oversight areas
                      NIMROZ


  IRAN                                HELMAND

                                                       KANDAHAR                                   PAKISTAN




Notes: This graphic depicts approximate oversight access areas for reconstruction projects and activities in Afghanistan. These oversight access areas represent access under the most
favorable conditions possible and do not include limitations due to terrain, weather, and security conditions.
Source: U.S. Army Geospatial Center, 10/29/2013.




                                                                 Special Project Alert Letter 14-17-AL: Kajaki Dam Alert Letter
                                                                 On December 31, 2013, SIGAR wrote to alert USAID to possible weaknesses
    SPECIAL PROJECT ALERT LETTER                                 in oversight provisions in a USAID agreement for providing direct bilat-
    •	 Special Project 14-17-AL: Kajaki Dam
       Alert Letter                                              eral assistance funds to DABS—Afghanistan’s national power utility—for
                                                                 the installation of an additional turbine at Kajaki Dam. As of August 2013,
                                                                 USAID had obligated $338.3 million in direct bilateral assistance funds to
                                                                 DABS for two reconstruction projects—the PTEC project and the Kajaki




                                                                     48                            SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Dam turbine generator project. Of this amount, $75 million has been obli-
gated to the Kajaki Dam project. The PTEC project is intended to improve
Afghanistan’s electrical transmission system, while the Kajaki Dam project
would increase power generation by installing an additional turbine.
   USAID has two separate agreements in place for the PTEC and the
Kajaki Dam projects. While the agreements for both projects have many of
the same oversight provisions, SIGAR found that the Kajaki Dam has fewer
oversight provisions than the PTEC agreement. The provisions in the PTEC
agreement but not in the Kajaki Dam agreement include:
•	 USAID review of key procurement actions
•	 USAID vetting of organizations and key individuals
•	 USAID access

   Although a Strategic Objective Grant Agreement between the United
States and the Government of the Islamic Republic includes oversight
provisions governing both projects, SIGAR believes that including specific
oversight provisions in one implementation letter but not the other may
create ambiguity about USAID’s oversight rights. Thus, SIGAR suggested
USAID incorporate these oversight provisions into the Kajaki Dam agree-
ment unless there were compelling reasons why they were not included.

Security Lapse Alert letter
On November 8, 2013, SIGAR wrote to alert DOD to evidence that a
contractor identified by the CENTCOM commander as supporting the insur-
gency in Afghanistan had gained access to a Coalition-controlled facility.
SIGAR uncovered this matter while investigating construction defects at
the Parwan Justice Center complex. During the course of the investigation,
SIGAR learned that the builder of the complex, CLC Construction Company
(CLC), hired Zurmat Material Testing Laboratory (ZMTL), a subsidiary of
the Zurmat Group, to conduct various construction safety tests. Evidence
obtained by SIGAR indicates that for two days in November 2012, employ-
ees of ZMTL were given access to the Parwan Justice Center Complex.
However, these individuals should not have had access to a Coalition-
controlled facility, because the U.S. government determined as early as
April 2012, when the Department of Commerce listed it on its Entity List,
that the Zurmat Group poses a threat to U.S. and Coalition forces.
   SIGAR pointed out that this lapse in security highlights the need for
a simple process to ensure that individuals and companies identified
as supporters of the insurgency are prevented from accessing U.S.-and
Coalition-controlled facilities. Additionally, there is no indication that the
prime contractor CLC was notified that the Zurmat Group had been listed
on the Entity List. The incident also highlights the potential consequences
of the Army’s failure to act on SIGAR’s prior request to debar Zurmat and
other supporters of the insurgency.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014             49
                                                       SIGAR OVERSIGHT ACTIVITIES




                                                       NGO Best Practices Letter
                                                       On December 12, 2013, SIGAR wrote to 89 nongovernmental organiza-
                                                       tions (NGOs) who are U.S. agencies’ implementing partners, grantees,
                                                       or contractors, or who may coordinate activities with federal entities
                                                       in Afghanistan. The agency asked for information that can help SIGAR
                                                       extract useful lessons on reconstruction and development initiatives, and
                                                       shape its ongoing efforts to improve agencies’ processes and practices.
                                                       It invited the NGOs to identify programs or projects that they consider
                                                       have achieved significant levels of success, as well as examples of others
                                                       that encountered serious obstacles leading to less successful outcomes
                                                       than intended; their biggest challenges while operating in Afghanistan;
                                                       any policies, regulations, or practices of the federal agencies from whom
                                                       they receive funding, or with whom they coordinate, that create unneces-
                                                       sary impediments to achieving agreed-upon undertakings; and suggested
                                                       improvements to federal entities’ engagement and interaction with NGOs.
                                                       SIGAR asked for written responses by January 23, 2014. The NGOs’ com-
                                                       ments will be treated as not-for-attribution unless the organizations tell
                                                       SIGAR otherwise.


                                                       INVESTIGATIONS
FIGURE 2.2                                             During this reporting period, SIGAR’s ongoing investigations saved the U.S.
                                                       government approximately $1.7 million. SIGAR investigations also resulted
SIGAR INVESTIGATIONS: NUMBER OF OPEN
                                                       in three criminal informations, five plea agreements, and six sentencings in
INVESTIGATIONS AS OF DECEMBER 31, 2013
                                                       the United States. In Afghanistan, two subjects were arrested and charged.
                                                       Criminal fines and restitutions brought about by SIGAR investigations
                       Total: 318                      amounted to approximately $5.3 million. SIGAR initiated 51 new investiga-
                                                       tions and closed 39, bringing the total number of ongoing cases to 318, as
                                                       shown in Figure 2.2. In addition, SIGAR’s suspension and debarment pro-
                             Public
                             Corruption                gram referred 10 individuals and 24 companies for suspension or debarment
                             85                        based on evidence developed as part of investigations conducted by SIGAR
             Procurement
             and Contract                              in Afghanistan and the United States.
             Fraud             Miscellaneous
             117               71
                                                       Investigation Results in $1.7 Million Savings to the
                                                       U.S. Government
         Money                                         A SIGAR investigation this quarter saved the U.S. government $1,714,269
     Laundering                     Theft              that it would have spent on shoddy construction for a courthouse in
            20                      25
                                                       Parwan Province.
Source: SIGAR Investigations Directorate, 1/10/2014.      Located inside Bagram Airfield, the Justice Center in Parwan (JCIP) is
                                                       a multi-building project funded by the United States to support the rule
                                                       of law in Afghanistan and to demonstrate Afghanistan’s national sover-
                                                       eignty in operating its criminal justice system. The JCIP was a joint project
                                                       of the Department of State’s Bureau of International Narcotics and Law
                                                       Enforcement Affairs (INL) and DOD. It was supposed to consist of 11




                                                         50                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




buildings, including a forensic lab, a dining facility, and a courthouse. Six of
these were funded by INL, including the courthouse, the primary building,
and centerpiece of the JCIP. Each JCIP building had an independent cost
estimate that the military procurement unit at Bagram Regional Contracting
Center (BRCC) put together.
    The courthouse project was awarded through competitive bidding. The
BRCC developed the statement of work for the project, which included
the technical requirements for the construction. On April 18, 2011, CLC
Construction Co. (CLC) submitted a price bid for $2,348,424, along with
its technical proposal. The owners of CLC are Brad Rhoden, a Jamaican
national with a U.S. green card, Masiuddin Mohammad, an Indian national
residing in Dubai, and Mohammad Faiz, an Afghan national. On June 13,
2011, the BRCC awarded the courthouse contract to CLC in the amount
of $2,381,456. Work on the courthouse commenced in July 2011. On
November 11, 2011, the courthouse contract was modified, bringing the
total contract cost to $2,667,495.
    One year later, in November 2012, INL conducted a site visit of the
JCIP courthouse. The INL engineers observed cracks in the courthouse
foundation. Suspecting that CLC had provided false information about the
project to BRCC, the INL contracting officer referred the matter to the State
Department Office of Inspector General (State OIG) and SIGAR. The inves-
tigation by State OIG and SIGAR and other members of the International
Contract Corruption Task Force revealed, among other things, that CLC
had illegally received information about other bidders and the government’s
estimate of the cost to build the courthouse. The contracting officer con-
cluded that CLC had performed poorly enough that it was doubtful that it
could ever complete the courthouse project in a satisfactory manner.
    On June 15, 2013, BRCC issued a letter to CLC terminating the contract
for convenience. In response, CLC’s president, Brad Rhoden, wrote to
BRCC to say that CLC was due $1,714,269.
    On September 10, 2013, agents from SIGAR and the Federal Bureau of
Investigation (FBI) met with the chief of contracting at BRCC. They dis-
closed the investigative findings, including emails between Rhoden and a
former BRCC source selection member who had revealed the independent
cost estimate to build the courthouse. The chief of contracting and a SIGAR
special agent informed the Deputy Command Judge Advocate, CENTCOM,
Joint Theater Support Contracting Command, of the emails. Based on the
information, he subsequently issued a termination for default letter to CLC
on October 3, 2013. Under a termination for default, the government does
not have to pay the contractor.

Former U.S. Army Staff Sergeant Sentenced
In October 2013, Phillip Wooten, a former U.S. Army staff sergeant, was
sentenced in the Eastern District Court of North Carolina. He received




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014               51
                                             SIGAR OVERSIGHT ACTIVITIES




                                             a sentence of 15 months’ incarceration in a federal correctional facility
                                             in Pensacola, Florida, followed by 36 months of supervised probation.
                                             Wooten’s sentence was based on his prior plea of guilty to conspiracy to
                                             commit mail fraud, theft, and conversion of government property. Wooten
                                             also was ordered to pay restitution in the amount of $110,250 and a special
                                             assessment fee of $200.
                                                In early 2011, SIGAR launched an initiative to analyze postal money-
                                             order purchases by U.S. personnel stationed in Afghanistan for indications
                                             of reconstruction fraud. When the initiative identified Wooten and an
                                             accomplice as having possibly engaged in suspicious monetary transactions
                                             during their deployment, an investigation was launched in February 2011.
                                                Additional investigation and analysis indicated that both individuals,
                                             while assigned to the 7th Special Forces Group based in Fort Bragg, North
                                             Carolina, stole U.S. funds earmarked for the operation and reconstruction
                                             efforts in Kandahar, Afghanistan. From July 2009 until April 2010, the two
                                             conspired to inflate and falsify receipts to vendors, thereby allowing them
                                             to steal and send more than $215,000 to their spouses in the United States.
Deputy Assistant Inspector General for
Investigations Sharon Woods visits with an
Afghan in Mazar-e-Sharif. (SIGAR photo by    Sting Operation at FOB Ghazni Results in Two Arrests
Phil Cousin)                                 Two Afghans were arrested and charged with bribery after a SIGAR agent
                                             helped set up a sting operation at FOB Ghazni in December 2013.
                                                 The investigation began on December 9, 2013, when a U.S. soldier
                                             assigned to download fuel at the base informed a SIGAR agent that an
                                             Afghan driver representing Deans Logistic and Transportation Company
                                             had offered to pay him cash in return for leaving fuel in his truck. SIGAR
                                             immediately contacted the Ghazni prosecutor and proposed that a sting
                                             operation be set into motion. The prosecutor and the soldier agreed to par-
                                             ticipate in the operation.
                                                 The following day, the driver, Gul Agha Khairullah, drove a fuel truck
                                             onto FOB Ghazni. While the fuel was being downloaded, Khairullah told the
                                             soldier that a second truck would be arriving shortly. He said that he would
                                             pay the soldier to leave fuel in the second truck and allow the driver to
                                             drive it off FOB Ghazni.
                                                 A short while later, the second driver, Hazrat Nabi Yar-Mohammad, drove
                                             his truck onto the fuel point. While Yar-Mohammad’s truck was being down-
                                             loaded of fuel, Khairullah approached the soldier and told him to leave at
                                             least 1000 gallons of fuel in Yar-Mohammad’s truck and he would pay him
                                             $500. Subsequently, the soldier shut off the valve when there was a suf-
                                             ficient amount of fuel remaining in the truck. Khairullah then handed $500
                                             to the soldier. The soldier in turn immediately gave the cash to the Afghan
                                             prosecutor waiting in a surveillance truck.
                                                 The two fuel trucks and the $500 in cash were seized as evidence. Yar-
                                             Mohammad’s truck was downloaded of the remaining fuel. The Afghan
                                             police arrested Khairullah and Yar-Mohammad and transported them to




                                               52                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




the Ghazni detention facility, where they were charged with bribery under
the Afghan Penal Code. On December 16, 2013, William Brown, Command
Sergeant Major (CSM), U.S. Army, Task Force White Eagle, FOB Ghazni,
reported that both Khairullah and Yar-Mohammad have been barred from
U.S. installations.

Sergeant First Class Pleads Guilty to Bribery and
Theft Schemes
On December 9, 2013, James Edward Travis pled guilty in the Eastern District
of North Carolina to a criminal information charging him with demanding,
seeking, and accepting bribes and to theft of government property.
   Travis was a sergeant first class in the U.S. Army assigned to the
Operational Detachment-Bravo for Alpha Company, 4th Battalion, 3rd
Special Forces Group. Between January 3, 2012, and October 4, 2012, Travis
was working out of FOB Sharana in Afghanistan, acting as both a paying
agent and a contracting officer representative. As a contracting officer
representative, he was responsible for approving completion of contracts
and approving payments. Travis was also in charge of contracting for
cargo vehicles or “jingle trucks” to move supplies and equipment as well as
small construction projects. A SIGAR investigation found that he accepted
kickbacks from various vendors in exchange for awarding them various
contracts. The kickbacks ranged from $4,000 to $7,000 per contract. In total,
Travis received approximately $211,890 in kickbacks.
   The investigation also revealed that Travis, a local Afghan, and another
U.S. soldier conspired to steal fuel from FOB Sharana. On numerous occa-
sions, Travis paid the soldier to escort an Afghan driver to the fuel point on
FOB Sharana, to load fuel into the Afghan’s tanker truck, and to escort the
driver with the stolen fuel off FOB Sharana. The monetary loss to the U.S.
government from this fuel theft scheme is estimated at $422,302.
   In the criminal information, the court ordered Travis to forfeit vari-
ous financial assets totaling in excess of $200,000 and a vehicle valued at
$46,131.

Fraud Investigation Results in Four Criminal Convictions
On November 12, 2013, Keith Johnson and Angela Johnson pled guilty in
the U.S. District Court for the Eastern District of Virginia to charges of con-
spiracy to commit wire fraud in a scheme to steer more than $10 million in
military subcontracts through kickbacks and the use of assumed names.
The Tennessee couple used part of the proceeds of the scheme to purchase,
among other items, luxury vehicles and more than $191,000 in jewelry.
   SIGAR, Defense Criminal Investigative Service (DCIS), FBI, and Army
Criminal Investigative Command (CID) opened their investigation after an
Army CID report alleged that Keith Johnson, a program manager for a U.S.
contractor, and his family members were steering supply contracts and




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014              53
SIGAR OVERSIGHT ACTIVITIES




rigging bids toward a company owned and operated by Angela Johnson and
another relative. Keith Johnson allegedly had his wife establish a separate
company and then positioned her as the sales manager. Other close associ-
ates of the Johnson couple had established other companies to allow Keith
Johnson to steer contracts to them. These associates then reportedly paid
kickbacks to Keith Johnson through a shell company operated in the name
of Johnson’s relative.
   In October 2013, criminal informations were filed in the U.S. District
Court for the Eastern District of Virginia against two coconspirators, John
Eisner and Jerry Kieffer, who were also involved in this scheme. They were
charged with wire fraud and conspiracy to commit wire fraud and both pled
guilty on all counts.
   On December 18, 2013, Eisner and Kieffer were sentenced in a U.S.
Federal District Court in Alexandria, Virginia. Kieffer received a sentence
of six months’ incarceration; two years’ supervised release, and a forfeiture
of $30,964. Eisner received a harsher sentence of 12 months’ incarceration;
two years’ supervised release, and a forfeiture of $2,240,120.
   Keith and Angela Johnson await sentencing set for February 14, 2014.
Forfeiture of assets for $2,117,966 will be imposed as part of the sentence
according to the November 12 plea agreement.

Two Sentenced for Fuel Theft
On October 28, 2013, Sergeant Christopher Weaver, U.S. Army, was sen-
tenced in the U.S. District Court, Denver, Colorado. He was ordered to 37
months’ incarceration for bribery and 37 months for conspiracy, to run
concurrently. Additionally, the court sentenced Weaver to three years’
supervised release and to pay $1,225,000 in restitution, jointly with Jonathan
Hightower, a former contractor in Afghanistan, and Specialist Stephanie
Charboneau, U.S. Army.




SIGAR’s Deputy Assistant Inspector General for Investigations Sharon Woods meets
with agents in Kandahar. (SIGAR photo)




  54                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




   That same day Hightower, a former employee of FLUOR Corporation,
was sentenced to 27 months’ incarceration for bribery and 27 months for
conspiracy, to run concurrently. Hightower’s sentence also included three
years’ supervised release and $1,225,000 in restitution, jointly with Weaver
and Charboneau.
   Weaver, Hightower, and Charboneau had engaged in bribery and con-
spiracy to steal fuel at FOB Fenty, Afghanistan, in 2010. Hightower entered
a plea of guilty to two counts of conspiracy to commit bribery in August
2012. During an interview with prosecutors, Hightower admitted receiv-
ing between $60,000 and $80,000 in bribe payments. Weaver pled guilty to
bribery and conspiracy to commit bribery in October 2012 after admitting
to receiving between $80,000 and $100,000 in bribe payments. Charboneau
was convicted in September 2013.

U.S. Army Sergeant Convicted for Theft of Government Funds
On October 21, 2013, Sergeant First Class Robert S. Farmer, U.S. Army
Special Forces, was sentenced in the Eastern District of North Carolina.
He was ordered to three years’ supervised probation, a fine of $15,400, and    A SIGAR agent speaks with a vendor
                                                                               at the Kabul bazaar. (SIGAR photo by
a special assessment fee of $100. Farmer was also ordered to receive sub-
                                                                               Sharon Woods)
stance-abuse treatment.
    Farmer had appeared on July 22, 2013, before a federal judge and agreed
to a one-count guilty plea of theft of government monies for his partici-
pation in a theft of $15,000 in government-appropriated funds during his
deployment to Afghanistan from July 2008 until 2010. He had stolen the
money while assigned as a military paying agent.
   In March 2012, DCIS received information led to allegations that
members of the U.S. Army Special Forces 3rd Group, Fort Bragg, North
Carolina, purchased a substantial number of $1,000 money orders from
FOB Fenty and sent the funds to their spouses, electronic bank accounts
or various vendors. Farmer and the other subjects had been deployed as
a team to Jalalabad, Afghanistan. Each team member had either direct
or indirect access to U.S. reconstruction funds administered by the U.S.
Army. The allegations resulted in an investigation led by SIGAR, DCIS,
FBI, and CID.
   The investigation is ongoing.

Suspensions and Debarments
This quarter, SIGAR’s suspension and debarment program referred ten indi-
viduals and 24 companies for suspension or debarment based on evidence
developed as part of investigations conducted by SIGAR in Afghanistan and
the United States. Of these 34 contractors, four individuals and ten compa-
nies were referred for debarment based on allegations that they engaged
in fraud and non-performance as part of contracts valued at $240,343,585.
These referrals bring the total number of individuals and companies




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014            55
SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.3

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011−Q1 FY 2014

 420

 360

 300

 240

 180

 120

  60

    0

           Q2     Q3        Q4       Q1       Q2       Q3   Q4      Q1     Q2   Q3   Q4      Q1
        FY 2011                   FY 2012                        FY 2013                  FY 2014

Source: SIGAR Investigations Directorate, 1/10/2014.




referred by SIGAR since 2008 to 402—encompassing 213 individuals and
162 companies to date, as shown in Figure 2.3.
   As of the end of December 2013, the efforts of SIGAR to utilize suspen-
sion and debarment to address fraud, corruption and poor performance
in Afghanistan have resulted in a total of 71 suspensions and 133 finalized
debarments of individuals and companies engaged in U.S.-funded recon-
struction projects.
   Suspensions and debarments are an important tool for ensuring that
agencies award contracts only to responsible entities. SIGAR’s program
addresses three challenges posed by U.S. policy and the contingency con-
tracting environment in Afghanistan: the need to act quickly, the limited
U.S. jurisdiction over Afghan nationals and Afghan companies, and the
vetting challenges inherent in the use of multiple tiers of subcontrac-
tors. SIGAR continues to look for ways to enhance the U.S. government’s
responses to these challenges through the innovative use of information
resources and investigative assets both in Afghanistan and the United
States. SIGAR makes referrals for suspensions and debarments—actions
taken by U.S. agencies to exclude companies or individuals from receiving
federal contracts or assistance because of misconduct—based on com-
pleted investigations that SIGAR participates in. In most cases, SIGAR’s
referrals occur in the absence of acceptance of an allegation for criminal
prosecution or remedial action by a contracting office and are therefore the
primary remedy to address contractor misconduct. In making referrals to




    56                           SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




agencies, SIGAR provides the basis for a suspension or debarment decision
by the agency as well as all of the supporting documentation needed for an
agency to support that decision should it be challenged by the contractor
at issue. Based on the evolving contracting environment in Afghanistan and
the available evidence of contractor misconduct and/or poor performance,
on occasion SIGAR has found it necessary to refer individuals or companies
on multiple occasions for consideration by agency suspension and debar-
ment officials.
   SIGAR has increased its emphasis on suspension and debarment in
recent years in response to the contracting environment in Afghanistan.
This is demonstrated by the fact that of the 402 referrals for suspension and
debarment that have been made by the agency to date, 375 have been made
since the second quarter of 2011. During calendar year 2013, the efforts of
SIGAR’s suspension and debarment program resulted in actions by agency
suspension and debarment officials to exclude 131 individuals and compa-
nies from contracting with the U.S. government. SIGAR’s referrals over this
period represent allegations of theft, fraud, poor performance, financial sup-
port to insurgents and mismanagement as part of reconstruction contracts
valued at $509,274,215.

Proposed Debarment of Aria Target Logistics Services
On December 20, 2013, as a result of a referral by the SIGAR’s suspension
and debarment program, the Air Force proposed Aria Target Logistics
Services (ATL) and two members of the company’s management for
debarment from contracting with the U.S. government. The basis for this
action was the company’s submission of a proposal for transportation of
bulk fuels, dry cargo, and heavy cargo throughout Afghanistan under the
National Afghan Trucking II (NAT II) contract. In its proposal, ATL asserted
that it owned a fleet of vehicles enabling it to perform the contract without
the need to use subcontractors. At the request of SIGAR, 31 of the vehicle
identification numbers submitted by ATL were reviewed by the Afghanistan
Ministry of Interior’s Traffic Department in Kabul. As a result, it was deter-
mined that 25 were registered to companies other than ATL and six were
not registered at all. These results from the Traffic Department were further
corroborated by statements from individuals that ATL had allegedly submit-
ted false statements regarding its trucks as part of its proposal. As a result,
SIGAR referred ATL, its chief executive officer, and its program manager to
the Air Force suspension and debarment official (SDO) for proposed debar-
ment. The expedited decision by the Air Force in this matter resulted in
ATL being excluded from the NAT II contract, protecting $237,962,129 from
being awarded to the company by the U.S. Transportation Command.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014              57
SIGAR OVERSIGHT ACTIVITIES




Proposed Debarment of Clark Logistic Services Company
On November 14, 2013, as a result of a referral by the SIGAR’s suspen-
sion and debarment program, the Army proposed Clark Logistic Services
Company, as well as its two owners, for debarment based on allegations of
false claims and statements made regarding contracts for electrical work
on airfield lighting at Kandahar Airfield, Afghanistan. As a result of SIGAR’s
investigation, Clark Logistic Services Company’s owners admitted that they
had fraudulently claimed to have employed a U.S. citizen, certified as a
master electrician, when, in fact, the company subcontracted the work to
an Afghan subcontractor or used third-country nationals instead of prop-
erly certified electricians. In addition, Clark Logistic Services Company had
allegedly failed to comply with regulations concerning personnel account-
ability and badging, non-tactical vehicles’ registration, and environmental
and ground safety procedures, among other violations, resulting in the com-
pany’s removal from Kandahar Airfield by the ISAF installation commander
on July 30, 2013. Based on SIGAR’s investigation, Clark Logistic Services
Company and its two owners have been excluded from contracting with the
U.S. government pending a final debarment determination by the Army sus-
pension and debarment official.

Suspension of Hikmatullah Shadman, Hikmat Shadman
Logistics Services Company, and Eight Affiliated Companies
and Individuals
On October 30, 2013, based upon the unsealing of a Complaint for
Forfeiture In Rem filed by the Department of Justice, Asset Forfeiture and
Money Laundering Section on November 20, 2012, the Army suspended
Hikmatullah Shadman, Hikmat Shadman Logistics Services Company, six
affiliated companies and two business partners of Shadman from contract-
ing with the government. The complaint, filed based on an investigation
conducted by SIGAR, alleges that Shadman and his coconspirators paid
kickbacks to individuals to receive trucking subcontracts and submitted
inflated invoices that were later submitted to the U.S. government by a
prime contractor for the transportation of military cargo in Afghanistan.
The complaint filed by the Department of Justice, as amended, alleged that
as a result of the fraudulent actions of Shadman and his coconspirators,
Hikmat Shadman Logistics Services Company received payments totaling
$77,920,605 from the government. The complaint also alleges that, as part
of this scheme to defraud the government, Shadman and his coconspirators
used multiple companies and bank accounts under their control to hide the
proceeds of their unlawful activity. The civil forfeiture complaint that is the
basis for the suspension is currently pending in the U.S. District Court for
the District of Columbia.




  58                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




SIGAR BUDGET
On January 17, 2014, Congress provided SIGAR with $49.65 million in
the Consolidated Appropriations Act for FY 2014. The budget supports
SIGAR’s oversight activities and products by funding SIGAR’s five director-
ates: (1) Audits and Inspections, (2) Special Projects, (3) Investigations,
(4) Management and Support, and (5) Research and Analysis Directorate.
   The Research and Analysis Directorate (RAD) is the new name of
SIGAR’s Information Management Directorate. SIGAR changed the name
to more accurately describe RAD’s efforts to help SIGAR, Congress, and
the public understand the reconstruction effort in Afghanistan. In addi-
tion to producing SIGAR’s Quarterly Report to Congress, RAD provides
the rest of SIGAR and the public with analysis and evaluation about the
reconstruction effort.


SIGAR STAFF                                                                     SIGAR Research & Analysis Directorate
Since its last report to Congress, SIGAR increased its staff, bringing the      staffers compile federal agencies’
FY 2014 total staffing number to 197 federal employees.                         funding data for the Quarterly Report.
   This quarter, SIGAR had 34 authorized personnel at the U.S. Embassy          The Directorate has subject-matter-
Kabul and 12 authorized at locations outside the embassy. SIGAR staff           expert writers, editors, visual-information
                                                                                specialists, and a program manager. (SIGAR
members were stationed at five locations across the country, including
                                                                                photo by Vong Lim)
Kandahar and Bagram airfields, Mazar-e-Sharif, Camp Leatherneck, and
USFOR-A headquarters in Kabul. The Herat office is temporarily closed
while the consulate is under repair following a 2013 insurgent attack.
SIGAR employed a local Afghan in its Kabul office to support investiga-
tions and audits. In addition, SIGAR supports its work with staff assigned to
short-term temporary duty in Afghanistan. This quarter, SIGAR had 13 per-
sonnel on temporary duty in Afghanistan for a total of 220 days.




REPORT TO THE UNITED STATES CONGRESS   I   JANUARY 30, 2014            59
                        “What role America and its allies
                       continue to play in Afghanistan to
                         help the people of that country
                      after 2014 must be clearly defined,
                      and it must be defined very soon. A
                     bilateral security agreement between
                      Afghanistan and the United States
                           must be signed promptly.”
                             —-Secretary of Defense Chuck Hagel




                              Source: DOD, Press briefing, December 19, 2013.




Jan2014_QR.indb 60                                                              1/24/2014 11:08:18 AM
                     3   Reconstruction
                         Update




                             61



Jan2014_QR.indb 61                   1/24/2014 11:08:18 AM
                                                       Reconstruction Update




                                                       Reconstruction Update Contents
                                                       Contents

                                                       Overview	63
                                                       Quarterly Highlight: Concerns About
                                                       LOTFA and “Ghost Workers”	                                 65
                                                       Funding for Afghanistan Reconstruction	                    66
                                                       Status of Funds	                                           68
                                                       Security	82
                                                       Governance	110
                                                       Economic and Social Development	                         144




        Photo on previous page
        President Obama and President Karzai talk on the White House
        colonnade after a meeting in the Oval Office. (White House photo)




                                                          62                Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 62                                                                                                                       1/24/2014 11:08:18 AM
                                      Reconstruction Update




                     RECONSTRUCTION UPDATE
                     OVERVIEW
                     The following section summarizes the status of U.S. funding and devel-
                     opments SIGAR observed this quarter in the security, governance and
                     economic sectors of the reconstruction effort in Afghanistan. President
                     Obama signed the FY 2014 Consolidated Appropriations Act, which pro-
                     vided an additional $5.4 billion to rebuild Afghanistan, bringing the total
                     U.S. investment in Afghanistan’s reconstruction to more than $102 billion.
                     This amount will increase when final appropriations for State and USAID
                     accounts are known. This quarter saw increasing uncertainty about the fate
                     of the reconstruction effort and decreased visibility into its many programs
                     and projects. The security situation remained in flux, as President Hamid
                     Karzai declined to sign a bilateral security agreement with the United
                     States, causing U.S. officials to warn that the United States might pull all
                     of its troops out of the country after 2014 and drastically cut back its aid.
                     At the same time, the Afghan economy is beginning to feel the effects of
                     the drawdown and the country is producing more opium poppies than ever
                     before in its history.
                         The continuing closures of forward operating bases and withdrawal of
                     civil-military Provincial Reconstruction Teams (PRTs) mean there are fewer
                     opportunities for U.S. officials to implement programs and conduct over-
                     sight outside of cities. As U.S. forces’ footprint shrinks, U.S. agencies and
                     implementing partners are finding it harder to get out into the field to moni-
                     tor projects and collect data.
                        Although the United States provides assistance to the Afghan National
                     Security Forces (ANSF) based on its personnel strength, the U.S. military
                     has increasingly limited ability to verify ANSF reporting of its strength.
                     Moreover, data provided by both the ANA and the ANP make it difficult to
                     determine their operational capabilities at any given time. For example, the
                     ANP does not report its personnel who are on leave, AWOL, sick, or on tem-
                     porary assignment in its personnel reports.
                        In the governance sector, U.S. agencies were unable to provide data that
                     has been provided in past quarters. SIGAR requested, but did not receive,
                     updates on the number of Afghan civil servants and the state of provincial,
                     municipal, and district governance in five provinces in the south and east.




                     Report to the united states congress   I   January 30, 2014             63



Jan2014_QR.indb 63                                                                                    1/24/2014 11:08:18 AM
                                                                       Reconstruction Update




                                                                       Asked to assess governance in these provinces, both the State Department
                                                                       (State) and the Department of Defense (DOD) offered only that the PRTs
                                                                       had closed. Although the presence of civil servants is a necessary founda-
                                                                       tion for local government, USAID appears to no longer be able to track this
                                                                       and other indicators.
                                                                          On the economic front, the Afghan government’s revenues declined
                                                                       in 2013 as public spending increased, according to the World Bank.
                                                                       Afghanistan continues to suffer massive trade deficits as a net importer of
                                                                       goods; produces relatively few tradable goods or services; has a weak cur-
                                                                       rency; and lacks adequate transportation infrastructure. Although accession
                                                                       to the World Trade Organization is one of the benchmarks Afghanistan is
                                                                       supposed to attain under the Tokyo Mutual Accountability Framework, the
                                                                       extent of achievable near-term benefits to Afghanistan is debatable.
                                                                           USAID reported that insecurity continues to challenge full imple-
                                                                       mentation of a number of its programs. For example, insurgent groups
                                                                       threaten staff and farmers in the Commercial Horticulture and Agricultural
                                                                       Marketing Program (CHAMP), particularly in Kandahar, Helmand, Zabul,
                                                                       Wardak, Logar, and Ghazni provinces. Shifting security conditions are also
                                                                       obstacles to Incentives Driving Economic Alternatives-North, East, and
                                                                       West (IDEA-NEW), and the Health Policy Project (HPP).
                                                                          In the health sector, USAID said hospital staff currently has poor capac-
                                                                       ity to operate autonomously, despite advances at 14 national hospitals.
                                                                       USAID also reported this quarter that one of its main education programs
        Table 3.1
                                                                       is challenged by the Afghan Ministry of Education’s inability to design, pro-
                                                                       cure, and implement on-budget activities in a timely manner, and comply
          U.S. On-Budget Assistance to                                 with USAID’s government-to-government funding requirements.
          Afghanistan, 2002–2013 ($ millions)                             This quarter, SIGAR continued to track the cumulative on-budget assis-
          Government-To-Government                                     tance provided to Afghanistan. The United States provides on-budget
          DOD                                  $4,240                  assistance to Afghanistan through direct payments to Afghan government
          State                                    $92                 entities and through contributions to multinational trust funds. Since 2002
          USAID                                $1,060                  the United States has provided more than $8.5 billion in on budget assis-
          Multilateral Trust Funds                                     tance. This includes nearly $5.4 billion to Afghan government ministries and
          LOTFA                                $1,210                  institutions, and nearly $3.6 billion to three multinational trust funds—the
          ARTF                                 $1,960                  World Bank’s Afghan Reconstruction Trust Fund (ARTF), the UNDP’s Law
          AITF                                   $412                  and Order Trust Fund for Afghanistan (LOTFA), and the Asian Development
        Sources: SIGAR, Audit Report 14-32-AR: Direct Assistance:      Bank’s Afghanistan Infrastructure Trust Fund (AITF). Table 3.1, shows U.S.
        USAID Has Taken Positive Action to Assess Afghan Ministries’
        Ability to Manage Donor Funds, but Weaknesses Remain,          on budget assistance to Afghan government entities.
        1/2014; SIGAR, Special Project Report 14-12-SP:
        Comprehensive Risk Assessments of MOD and MOI Financial
                                                                          During this reporting period SIGAR also met with European donors and
        Management Capacity Could Improve Oversight of Over $4
        Billion in Direct Assistance Funding, 12/2013; World Bank,
                                                                       oversight agencies to discuss mutual challenges related to on-budget assis-
        “ARTF: Administrator’s Report on Financial Status as of        tance as well as the monitoring, evaluation, and oversight of reconstruction
        December 21, 2013 (end of 12th month of FY 1392),” p. 5;
        UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”      projects and the multinational donor trust funds. The highlight section on
        12/31/2013, pp. 80-81; SIGAR analysis of UNDP’s quarterly
        and annual LOTFA reports, 1/22/2014.                           the next page describes ongoing concerns about LOTFA.




                                                                         64                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 64                                                                                                                                       1/24/2014 11:08:19 AM
                                              Quarterly Highlight




                     Concerns about LOTFA and “Ghost Workers”

                     For several years, SIGAR has been concerned about
                     the possibility of “ghost workers” on the ANP pay-
                     roll. In 2011, a SIGAR audit report raised questions
                     about the UNDP’s management of the Law and
                     Order Trust Fund for Afghanistan (LOTFA), which is
                     used to pay ANP salaries. SIGAR auditors found that
                     neither the Afghan Ministry of Interior (MOI) nor the
                     UNDP could verify payroll data. SIGAR concluded
                     that there was “limited assurance that only ANP
                     personnel who worked received pay and the LOTFA
                     funds were used to reimburse only eligible costs.”46
                        Developments since SIGAR published its report
                     have only increased these concerns about ghost
                     workers. In 2012, following allegations of misman-
                     agement of LOTFA funds, the UNDP removed the                  An Afghan police officer trains in Helmand province,
                                                                                   Afghanistan. Students at the center received basic police
                     LOTFA project manager and fired three of his top
                                                                                   training in subjects such as literacy, vehicle searching,
                     officials for procurement fraud and mismanagement.            improvised explosive device defeat, drill, and first aid.
                        Since 2002, the international community has pro-           (DOD photo)
                     vided $3.17 billion for LOTFA. The United States has
                     provided 38%—or about $1.21 billion—of this total.            met with the SIGAR was aware of any investiga-
                     The European Union has contributed 14%. (See page             tions or the decision to withhold funds from LOTFA.
                     81 for details on LOTFA funding.)                             This raises a number of concerns about CSTC-A’s
                        This quarter, during conversations with officials          oversight of LOTFA and about the degree to which
                     from the European Commission and the European                 international donors are sharing information.
                     Anti-Fraud Office about oversight issues, SIGAR                  SIGAR has an ongoing audit reviewing ANSF
                     learned that the European Union is withholding                personnel data and its reliability. SIGAR hopes to
                     €100 million, of its €200 million total contribution          provide a better understanding of how the ANA
                     for LOTFA until the Commission determines proper              and the ANP account for personnel. The reliability
                     controls are in place to ensure that LOTFA funds are          of these numbers will be a critical metric in deter-
                     spent as intended.                                            mining continued funding for the Afghan security
                        Last November on one of his quarterly visits               forces. SIGAR’s audit seeks to identify how the
                     to Afghanistan, the Special Inspector General for             U.S. and Afghan governments assess the personnel
                     Afghanistan Reconstruction raised the expressed               strength of the ANSF, determine the extent to which
                     concerns of the European Commission about LOTFA               this data accurately accounts for personnel assigned
                     and “ghost workers” with the Combined Security                and present-for-duty, and evaluate how the U.S.
                     Transition Command-Afghanistan (CSTC-A), which                government uses ANSF personnel data to inform
                     is partly responsible for the U.S. contribution to            financial sustainment activities, including salary pay-
                     LOTFA. None of the senior CSTC-A officials who                ments to the ANSF.




                     Report to the united states congress   I   January 30, 2014                    65



Jan2014_QR.indb 65                                                                                                                             1/24/2014 11:08:19 AM
                     Reconstruction Update




                     Funding for Afghanistan Reconstruction
                     On January 17, 2014, President Obama signed the Consolidated
                     Appropriations Act of 2014, pushing cumulative funding for the U.S. recon-
                     struction effort in Afghanistan to more than $102 billion since 2002. FY 2014
                     Afghanistan reconstruction appropriations were significantly reduced
                     from the nearly $12 billion requested in the President’s FY 2014 budget
                     proposal. The Joint Explanatory Statement (JES) accompanying the Act
                     noted that the funding reduction reflects the fact that agencies still had sig-
                     nificant funds available for obligation and disbursement from prior years’
                     appropriations.

                     DOD Programs
                     The Congress has appropriated $5.34 billion for the five reconstruction
                     accounts managed by DOD. This represents a 37% reduction from the
                     $8.5 billion that DOD had requested. Most of the funding—about $4.7 bil-
                     lion—is for the Afghan Security Forces Fund (ASFF), which is used to train,
                     equip, house, and sustain the Afghan National Security Forces (ANSF).
                     DOD had requested about $7.73 billion for the ASFF. This included a core
                     request for $5.11 billion and an “enabler” request for $2.62 billion. The JES
                     noted that DOD had reevaluated its request for “enablers” and found that
                     it exceeded current requirements. DOD reduced this part of its request by
                     60%. In addition, according to the JES, Congress further reduced the ASFF
                     by $365 million because DOD said it no longer intends to purchase Mi-17
                     aircraft for the Afghans.
                         The JES observed that DOD budget requests have greatly overstated needs
                     for the past four years and that excess appropriations have been repeatedly
                     carried over into the following fiscal years for obligation. “Rather than rescind-
                     ing the funds from prior year appropriations,” the JES said, “the bill reduces
                     the current year request as a mechanism to obtain balance within the program
                     and is done without prejudice to the current year’s need.”

                     State and USAID programs
                     The Consolidated Appropriations Act of 2014 provides $49 billion for State
                     and Foreign Operations. According to the JES, this includes $1.12 billion
                     in assistance for Afghanistan. The JES said this represents a 50% decrease
                     from both the FY 2013 appropriation and FY 2014 request. According to
                     the JES, the appropriators have taken the “necessary step of reducing new
                     budget authority for Afghanistan to a more sustainable level that can be
                     responsibly programmed and subject to effective oversight.”
                        The funds for State and USAID reconstruction programs have not
                     yet been determined. According to State, the final levels for Afghanistan
                     reconstruction funds, including the Economic Support Fund (ESF) and the
                     International Narcotics Control and Law Enforcement (INCLE) account
                     have not been finalized.




                       66                  Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 66                                                                                        1/24/2014 11:08:19 AM
                                            Reconstruction Update




                        Table 3.2 shows cumulative appropriations, obligations, and disburse-
                     ments. Table 3.3 and Table 3.4 show appropriations, obligations, and
                     disbursements for FY 2012 and FY 2013.
                     Table 3.2


                     Cumulative Amount Appropriated, Obligated, and disbursed FY 2002–2014 ($ billions)
                                                                                         Appropriated   Obligated   Disbursed   Expired
                     Afghanistan Security Forces (ASFF)                                    $57.50        $47.88      $45.38      $1.08
                     Commander’s Emergency Response Program (CERP)                           $3.67        $2.29        $2.24     $1.19
                     Afghanistan Infrastructure Fund (AIF)                                   $1.22        $0.90        $0.20     $0.03
                     Task Force for Business & Stability Operations (TFBSO)                  $0.78        $0.69        $0.52     $0.03
                     DOD Drug Interdiction and Counter-drug Activities (DOD CN)              $2.94        $2.48        $2.48     $0.00
                     Economic Support Fund (ESF)                                           $16.69        $14.67      $11.50      $0.40
                     International Narcotics Control & Law Enforcement (INCLE)               $4.18        $3.54        $2.85     $0.09
                     Total & Major Funds                                                   $86.99        $72.45      $65.17      $2.83
                     Other Reconstruction Funds                                             $7.09
                     Operations & Oversight                                                 $8.05
                     Total                                                               $102.13

                     Table 3.3


                     FY 2012 Amounts Appropriated, Obligated, and Disbursed ($ millions)
                                                                                         Appropriated   Obligated   Disbursed   Expired
                     Afghanistan Security Forces (ASFF)                                    $9,200        $8,837      $7,909      $363
                     Commander’s Emergency Response Program (CERP)                           $400          $112         $99      $288
                     Afghanistan Infrastructure Fund (AIF)                                   $400          $376         $94       $24
                     Task Force for Business & Stability Operations (TFBSO)                  $242          $233        $195         $9
                     DOD Drug Interdiction and Counter-drug Activities (DOD CN)              $423          $423        $423         $0
                     Economic Support Fund (ESF)                                           $1,837        $1,779        $151       $58
                     International Narcotics Control & Law Enforcement (INCLE)               $359          $358         $89         $0
                     Total & Major Funds                                                  $12,860       $12,119      $8,959      $741
                     Other Reconstruction Funds                                              $309
                     Operations & Oversight                                                $1,493
                     Total                                                               $14,662

                     Table 3.4


                     FY 2013 Amounts Appropriated, Obligated, and Disbursed ($ millions)
                                                                                         Appropriated   Obligated   Disbursed   Expired
                     Afghanistan Security Forces (ASFF)                                    $5,124        $1,316        $972         $0
                     Commander’s Emergency Response Program (CERP)                           $200           $43         $23      $157
                     Afghanistan Infrastructure Fund (AIF)                                   $325          $236          $0         $0
                     Task Force for Business & Stability Operations (TFBSO)                  $137          $135         $66         $0
                     DOD Drug Interdiction and Counter-drug Activities (DOD CN)              $307          $168        $168         $0
                     Economic Support Fund (ESF)                                           $1,623             $0         $0         $0
                     International Narcotics Control & Law Enforcement (INCLE)               $569           $13          $8         $0
                     Total & Major Funds                                                   $8,286        $1,911      $1,238      $157
                     Other Reconstruction Funds                                              $172
                     Operations & Oversight                                                $1,348
                     Total                                                                $9,805

                     For sources and notes see Appendix B of this report.




                     Report to the united states congress               I   January 30, 2014                  67



Jan2014_QR.indb 67                                                                                                                        1/24/2014 11:08:19 AM
                     Status of Funds Contents

                     U.S. Reconstruction Funding
                     for Afghanistan	                       70
                     Afghanistan Security Forces Fund	      72
                     ASFF Budget Activities	                73
                     Commander’s Emergency
                     Response Program	                      74
                     Afghanistan Infrastructure Fund	       75
                     Task Force for Business and
                     Stability Operations	                  76
                     DOD Drug Interdiction and
                     Counterdrug Activities	                77
                     Economic Support Fund	                 78
                     International Narcotics Control
                     and Law Enforcement 	                  79
                     International Reconstruction Funding
                     for Afghanistan	                       80




                       68



Jan2014_QR.indb 68                                               1/24/2014 11:08:19 AM
                                                           STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities
in Afghanistan. As of January 17, 2014, the United States had appropriated
approximately $102.13 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
 • $59.03 billion for security
 • $25.05 billion for governance and development
 • $7.32 billion for counternarcotics efforts
 • $2.68 billion for humanitarian aid
 • $8.05 billion for operations and oversight
Figure 3.0 shows the major U.S. funds that contribute to these efforts.

FIGURE 3.0

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                      FUNDING SOURCES (TOTAL: $102.13)
                                                                                                                      ASFF: Afghanistan Security Forces Fund
                                                                                                                      CERP: Commander’s Emergency
       ASFF        CERP         AIF        TFBSO       DOD CN              ESF               INCLE         Other
                                                                                                                      Response Program
                                                                                                                      AIF: Afghanistan Infrastructure Fund
     $57.50       $3.67        $1.22       $0.78        $2.94            $16.69              $4.18        $15.14
                                                                                                                      TFBSO: Task Force for Business and
                                                       AGENCIES                                                       Stability Operations
                                                                                                                      DOD CN: DOD Drug Interdiction and
                                                                                       Department of    Distributed   Counter-Drug Activities
                  Department of Defense (DOD)                            USAID                          to Multiple
                                                                                       State (State)
                           $66.12                                        $16.69
                                                                                          $4.18          Agenciesa    ESF: Economic Support Fund
                                                                                                          $15.14      INCLE: International Narcotics Control and
                                                                                                                      Law Enforcement
Notes: Numbers have been rounded. Includes amounts appropriated in the Consolidated Appropriations Act, 2014.         Other: Other Funding
a   Multiple agencies include DOJ, State, DOD, USAID, Treasury, USDA, DEA, BBG, and SIGAR.
Sources: DOD, responses to SIGAR data call, 1/22/2014, 1/2/2014, 12/30/2013, 10/22/2012, 10/14/2009, and
10/1/2009; State, responses to SIGAR data call, 1/13/2014, 1/9/2014, 6/27/2013, 10/5/2012, and 6/27/2012;
Treasury, response to SIGAR data call, 1/2/2014; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013; USAID,
responses to SIGAR data call, 1/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS, response to SIGAR data call, 1/8/2014; DFAS, "AR(M) 1002
Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; H.R. 3547, "Consolidated
Appropriations Act, 2014," 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011;
P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                       I   JANUARY 30, 2014                                 69
                                                                          Status of Funds




                                                                          U.S. Reconstruction Funding for Afghanistan
          ASFF   CERP     AIF    TFBSO DODCN    ESF     INCLE             On January 17, 2014, President Obama signed the Consolidated
                                                                          Appropriations Act, 2014, funding the U.S. government for the rest of the fis-
                                                                          cal year and increasing cumulative funding for Afghanistan reconstruction
                         DOD                   USAID State
                                                                          to approximately $102.13 billion, as shown in Figure 3.1. When this report
                                                                          went to press, final FY 2014 appropriation amounts for State and USAID
        The amount provided to the seven major
                                                                          accounts were still being determined. FY 2014 funding levels will increase
        U.S. funds represents nearly 85.2% (nearly
        $86.99 billion) of total reconstruction assis-                    when these amounts are known.47 Because the FY 2014 appropriations bill
        tance in Afghanistan since FY 2002. Of this                       was enacted before this report went to press, this section includes amounts
        amount,
           ASFF nearly 83.3% (more than $72.45 bil-                       appropriated in the bill; however, obligated and disbursed amounts are as
        lion) has been obligated, and over 74.9%                          of December 31, 2013. For complete information regarding U.S. appropria-
        (nearly $65.17 billion) has been disbursed.                       tions, see Appendix B.
        An estimated  $2.8 billion of previously appro-
                    DOD
        priated funds has expired.

        Figure 3.1

        CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF JANUARY 17, 2014 ($ BILLIONS)

         $110
                 CERP

                                                                                                                                                                                    $102.13
         $100                                                                                                                                                 $96.71
                         DOD
          $90                                                                                                                          $86.90

          $80
                                                                                                                 $72.24
          $70                        DOD CN

          $60                                                                              $56.38
                         DOD
          $50

                                                                    $39.66
          $40


          $30                                   $29.28
                                               ESF
                         $23.08
          $20
                                               USAID
          $10


           $0
                        2002-2007                2008                 2009                  2010                  2011                   2012                  2013                  2014a
                                Security         Governance/Development
                                                      INCLE                         Counternarcotics            Humanitarian             Oversight and Operations           Total
        Notes: Numbers have been rounded. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD
        transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
        a Includes amounts appropriated in the Consolidated Appropriations Act, 2014.
                                                       State
        Sources: DOD, responses to SIGAR data call, 1/22/2014, 1/2/2014, 12/30/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 1/13/2014, 1/9/2014,
        6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 1/2/2014; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call,
        1/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS, response to SIGAR data call, 1/8/2014;
        DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; H.R. 3547, "Consolidated Appropriations Act, 2014," 1/17/2014; P.L. 113-6, 3/26/2013;
        P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.

                         AIF

                                                                             70                           Special inspector general                 I   Afghanistan reconstruction
                         DOD




Jan2014_QR.indb 70                                                                                                                                                                               1/24/2014 11:08:20 AM
                                                                               Status of Funds




                                                                                                                                                    Table 3.5
                        As of January 17, 2014, appropriations for FY 2014 amounted to more
                                                                                                                                                     FY 2014 APPROPRIATIONS
                     than $5.42 billion, as shown in Figure 3.2. Of this amount, nearly $4.73 bil-                                                   COMPARED TO THE BUDGET
                     lion was appropriated to the ASFF.48 Final appropriations for the ASFF                                                          REQUEST ($ MILLIONS)
                     and many other Afghanistan reconstruction accounts were significantly                                                                         Requested       Appropriated        Change
                     reduced from the FY 2014 budget proposal, as shown in Table 3.5. The                                                            ASFF              $7,726             $4,726            -39%
                     Joint Explanatory Statement for the Consolidated Appropriations Act,                                                            CERP                  $60                $30           -50%
                     2014, notes that the Act “takes the necessary step of reducing new budget                                                       AIF                 $279               $199            -29%
                     authority for Afghanistan to a more sustainable level that can be respon-                                                       TFBSO               $121                 $64           -47%

                     sibly programmed and subject to effective oversight…many assistance                                                             DOD CNa             $321               $321              0%

                     programs have significant funding pipelines that could take many years to                                                       TOTAL           $8,508             $5,340              -37%
                                                                                                                                                    Notes: Numbers have been rounded. Final appropriation figures
                     obligate and expend.”49 Table 3.4 on page 67 of this report shows FY 2013                                                      for have not been determined for State and USAID accounts.
                                                                                                                                                    a	DOD CN was appropriated all $376 million requested for
                     appropriation amounts yet to be obligated.                                                                                       Overseas Contingency Operations; of this amount, $318 mil-
                                                                                                                                                      lion was for Afghanistan. DOD CN Base funding provided
                                                                                                                                                      another $3 million for Afghanistan.
                                                                                                                                                    Sources: DOD, response to SIGAR data call, 1/22/2013; H.R.
                                                                                                                                                    3547, 1/17/2014; OSD Comptroller, “Department of Defense
                     Figure 3.2                                                                                                                     Budget Amendment to the Fiscal Year 2014 President’s Budget
                                                                                                                                                    Request for Overseas Contingency Operations (OCO): Operation
                     APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)                                                               and Maintenance Programs (O-1) Revolving and Management
                                                                                                                                                    Funds (RF-1),” 5/2013, pp. 1-3.


                     $17                                                                               $16.71
                     $16                                                                                                      $15.86

                     $15                                                                                                                            $14.66
                     $14

                     $13

                     $12

                     $11
                                                                                   $10.39
                                    $10.04
                     $10                                                                                                                                                   $9.81

                      $9

                      $8

                      $7
                                                           $6.20
                      $6
                                                                                                                                                                                                    $5.42
                      $5

                      $4

                      $3

                      $2

                      $1

                      $0
                                    2007                   2008                    2009                 2010                  2011                   2012                  2013                     2014a
                                          Security           Governance/Development               Counternarcotics            Humanitarian             Oversight and Operations            Total

                     Notes: Numbers have been rounded. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD
                     transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
                     a Includes amounts appropriated in the Consolidated Appropriations Act, 2014.

                     Sources: DOD, responses to SIGAR data call, 1/22/2014, 1/2/2014, 12/30/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 1/13/2014, 1/9/2014,
                     6/27/2013, 10/5/2012, and 6/27/2012; Treasury, response to SIGAR data call, 1/2/2014; OMB, responses to SIGAR data call, 7/19/2013, and 1/4/2013; USAID, responses to SIGAR data call,
                     1/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS, response to SIGAR data call, 1/8/2014;
                     DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; H.R. 3547, "Consolidated Appropriations Act, 2014," 1/17/2014; P.L. 113-6, 3/26/2013;
                     P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




                     Report to the united states congress                      I    January 30, 2014                                   71



Jan2014_QR.indb 71                                                                                                                                                                                   1/24/2014 11:08:20 AM
                                                               Status of Funds
          ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                         DOD                  USAID State




                                                               Afghanistan Security Forces Fund
           ASFF                                                The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                               provide the ANSF with equipment, supplies, services, and training, as well
                                                               as facility and infrastructure repair, renovation, and construction.50 The pri-
                         DOD                                   mary organization responsible for building the ANSF is the North Atlantic
                                                               Treaty Organization Training Mission-Afghanistan/Combined Security
        ASFF funds terminology                                 Transition Command-Afghanistan.51 
        DOD reported ASFF funds as appropriated,                  The Consolidated Appropriations Act, 2014, appropriated nearly
        obligated, or disbursed                                $4.73 billion for the ASFF for FY 2014, increasing total cumulative funding
        Appropriations:
              CERP      Total monies available for             to more than $57.50 billion.52 As of December 31, 2013, more than $47.88 bil-
        commitments                                            lion of total ASFF funding had been obligated, of which nearly $45.38 billion
        Obligations: Commitments to pay monies                 had been disbursed.53 Figure 3.3 displays the amounts made available for the
                         DOD                                   ASFF by fiscal year.
        Disbursements: Monies that have been
                                                                  DOD reported that cumulative obligations as of December 31, 2013,
        expended
                                                               increased by more than $894.63 million over cumulative obligations as
        Source: DOD, response to SIGAR data call, 4/13/2010.
                                                               of August 31, 2013. Cumulative disbursements as of December 31, 2013,
                                                               increased by nearly $1.84 billion over cumulative disbursements as of
                                   DOD CN
                                                               August 31, 2013.54 Figure 3.4 provides a cumulative comparison of amounts
                                                               made available, obligated, and disbursed for the ASFF.
                         DOD                                   Figure 3.3                                                         Figure 3.4

                                                               ASFF APPROPRIATED FUNDS BY FISCAL YEAR ASFF FUNDS, CUMULATIVE COMPARISON
                                                               ($ BILLIONS)                                                       ($ BILLIONS)



                                              ESF              $12.0                                                              $60.0
                                                                                                                                                                                 Appropriated
                                                                                                                                                                                 $57.50
                                              USAID            $10.0                                                              $55.0
                                                                                                                                                        Appropriated
                                                                                                                                                        $52.78
                                                                $8.0                                                              $50.0
                                                                                                                                                                                 Obligated
                                                                                                                                                        Obligated                $47.88
                                                      INCLE                                                                                             $46.99                   Disbursed
                                                                $6.0                                                              $45.0                                          $45.54
                                                                                                                                                        Disbursed
                                                                                                                                                        $43.54
                                                      State     $4.0                                                              $40.0



                                                                $2.0                                                              $35.0
                         AIF

                                                                $0.0                                                                 $0
                                                                        05 06 07 08 09 10 11a 12b 13 14c                                   As of Aug 31, 2013          As of Dec 31, 2013
                         DOD
                                                               Notes: Numbers have been rounded.
                                                               a DOD reprogrammed $1 billion of FY 2011 ASFF.
                                                               b DOD reprogrammed $1 billion of FY 2012 ASFF; another $1 billion was rescinded in P.L. 113-6.
                                                               c FY 2014 figure includes amount appropriated ASFF in the Consolidated Appropriations Act, 2014.

                               TFBSO                           Sources: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; DOD, response
                                                               to SIGAR data call, 10/09/2013; H.R. 3547, "Consolidated Appropriations Act, 2014," 1/17/2014; P.L. 113-6, 3/26/2013.



                         DOD
                                                                   72                            Special inspector general                   I   Afghanistan reconstruction




Jan2014_QR.indb 72                                                                                                                                                                           1/24/2014 11:08:20 AM
                                                                           Status of Funds




                     ASFF Budget Activities
                     DOD allocates funds to three budget activity groups within the ASFF:
                     •	 Defense Forces (Afghan National Army, ANA)                                                                         Budget Activity Groups: categories
                     •	 Interior Forces (Afghan National Police, ANP)                                                                      within each appropriation or fund account
                     •	 Related Activities (primarily Detainee Operations)                                                                 that identify the purposes, projects,
                                                                                                                                           or types of activities financed by the
                                                                                                                                           appropriation or fund
                        Funds for each budget activity group are further allocated to four sub-
                     activity groups: Infrastructure, Equipment and Transportation, Training and
                                                                                                                                           Sub-Activity Groups: accounting
                     Operations, and Sustainment.55 
                                                                                                                                           groups that break down the command’s
                        As of December 31, 2013, DOD had disbursed nearly $45.38 billion for                                               disbursements into functional areas
                     ANSF initiatives. Of this amount, more than $30.11 billion was disbursed for
                     the ANA, and nearly $14.92 billion was disbursed for the ANP; the remain-
                     ing nearly $347.98 million was directed to related activities.56                                                    Sources: DOD, “Manual 7110.1-M Department of Defense
                        As shown in Figure 3.5, the largest portion of the funds disbursed for the                                       Budget Guidance Manual,” accessed 9/28/2009; Department
                                                                                                                                         of the Navy, “Medical Facility Manager Handbook,” p. 5,
                     ANA—more than $11.30 billion—supported Equipment and Transportation.                                                accessed 10/2/2009.

                     Of the funds disbursed for the ANP, the largest portion—more than
                     $5.35 billion—supported Sustainment, as shown in Figure 3.6.57 


                     Figure 3.5                                                 Figure 3.6

                     ASFF DISBURSEMENTS FOR THE ANA                             ASFF DISBURSEMENTS FOR THE ANP
                     BY SUB-ACTIVITY GROUP,                                     BY SUB-ACTIVITY GROUP,
                     FY 2005–DEC 31, 2013 ($ BILLIONS)                          FY 2005–DEC 31, 2013 ($ BILLIONS)


                                       Total: $30.11                                             Total: $14.92


                     Infrastructure                            Training and    Infrastructure                             Training and
                                                                               $2.62               Equipment and          Operations
                     $4.83                Equipment and        Operations                          Transportation
                                          Transportation       $2.91                                                      $3.35
                                                                                                   $3.60
                                          $11.30



                                      Sustainment                                               Sustainment
                                      $11.07                                                    $5.35



                     Note: Numbers have been rounded.
                     Sources: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; DOD,
                     response to SIGAR data call, 10/09/2013.




                     Report to the united states congress                  I   January 30, 2014                              73



Jan2014_QR.indb 73                                                                                                                                                                   1/24/2014 11:08:20 AM
                         DOD               USAID State




                                                               Status of Funds
           ASFF



                         DOD




                                                               Commander’s Emergency Response Program
                  CERP                                         The Commander’s Emergency Response Program (CERP) enables U.S.
                                                               commanders in Afghanistan to respond to urgent humanitarian relief and
                                                               reconstruction requirements in their areas of responsibility by supporting
                         DOD                                   programs that will immediately assist the local population. Funding under
                                                               this program is intended for small projects that are estimated to cost less
        CERP funds terminology                                 than $500,000 each.58 Projects with cost estimates exceeding $1 million are
        DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
        obligated, or disbursed                                Command; projects over $5 million require approval from the Deputy
                                  DOD CN
        Appropriations: Total monies available for             Secretary of Defense. CERP-funded projects may not exceed $20 million.59 
        commitments                                               The Consolidated Appropriations Act, 2014, appropriated $30 million
                                                               for CERP, increasing total cumulative funding to nearly $3.67 billion.60 Of
        Obligations:DOD
                     Commitments to pay monies
                                                               this amount, DOD reported that nearly $2.29 billion had been obligated,
        Disbursements: Monies that have been                   of which more than $2.24 billion had been disbursed as of December 31,
        expended                                               2013.61 Figure 3.7 shows CERP appropriations by fiscal year, and Figure 3.8
        Source: DOD, response to SIGAR data call, 4/14/2010.   provides a cumulative comparison of amounts appropriated, obligated, and
                                            ESF                disbursed for CERP projects.

                                                               Figure 3.7                                                    Figure 3.8
                                           USAID
                                                                CERP APPROPRIATIONS BY FISCAL YEAR                           CERP FUNDS, CUMULATIVE COMPARISON
                                                                ($ MILLIONS)                                                 ($ BILLIONS)




                                                   INCLE       $1,000                                                        $4.0
                                                                                                                                                Appropriated              Appropriated
                                                                                                                             $3.6               $3.64                     $3.67

                                                    State       $800                                                         $3.2

                                                                                                                             $2.8

                                                                $600                                                         $2.4               Obligated                 Obligated
                         AIF                                                                                                                    $2.29                     $2.29
                                                                                                                             $2.0               Disbursed                 Disbursed
                                                                                                                                                $2.22                     $2.24
                                                                $400                                                         $1.6
                         DOD
                                                                                                                             $1.2

                                                                $200                                                         $0.8

                               TFBSO                                                                                         $0.4

                                                                   $0                                                        $0.0
                                                                        04 05 06 07 08 09 10 11 12 13 14a                           As of Aug 31, 2013         As of Dec 31, 2013
                         DOD
                                                                Notes: Numbers have been rounded. Data may include inter-agency transfers.
                                                                a FY 2014 figure includes amount appropriated CERP in the Consolidated Appropriations Act, 2014.

                                                                Sources: DOD, responses to SIGAR data call, 1/22/2014 and 10/23/2013; OMB, response to SIGAR data call, 1/4/2013;
                                                                H.R. 3547, "Consolidated Appropriations Act, 2014," 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L.
                                                                112-10, 4/15/2011.




                                                                   74                           Special inspector general                I   Afghanistan reconstruction




Jan2014_QR.indb 74                                                                                                                                                                       1/24/2014 11:08:20 AM
                                                                                                                                                                                     ESF



                                                                                                                                                                                    USAID

                                                                                   Status of Funds
                                                                                                                                                                                            INCLE



                                                                                                                                                                                            State



                     Afghanistan Infrastructure Fund
                     The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                 AIF
                     the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-
                     scale infrastructure projects that support the U.S. civilian-military effort.
                     Congress intended for projects funded by the AIF to be jointly selected and                                                               DOD

                     managed by DOD and State. Thirty days before obligating or expending
                     funds on an AIF project, the Secretary of Defense and Secretary of State                                                    AIF funds terminology
                     are required to notify the Congress with details of the proposed project,                                                   DOD reported AIF funds as appropriated,
                                                                                                                                                                  TFBSO
                                                                                                                                                 obligated, or disbursed
                     including a plan for its sustainment and a description of how it supports the
                     counter-insurgency strategy in Afghanistan.62                                                                               Appropriations: Total monies available for
                        The Consolidated Appropriations Act, 2014, appropriated $199 million                                                     commitmentsDOD
                     for the AIF, increasing total cumulative funding to more than $1.22 bil-                                                    Obligations: Commitments to pay monies
                     lion.63 This figure excludes $101 million of FY 2011 AIF funds transferred
                                                                                                                                                 Disbursements: Monies that have been
                     to the FY 2011 Economic Support Fund for USAID’s AIF-funded infrastruc-
                                                                                                                                                 expended
                     ture project. As of December 31, 2013, nearly $902.26 million of total AIF
                     funding had been obligated, of which nearly $195.60 million had been dis-                                                   Source: DOD, response to SIGAR data call, 4/13/2012.

                     bursed.64 Figure 3.9 shows AIF appropriations by fiscal year, and Figure 3.10
                     provides a cumulative comparison of amounts appropriated, obligated, and
                     disbursed for AIF projects.
                     Figure 3.9                                                    Figure 3.10

                     AIF APPROPRIATIONS BY FISCAL YEAR                             AIF FUNDS, CUMULATIVE COMPARISON
                     ($ MILLIONS)                                                  ($ MILLIONS)




                     $800                                                           $1,400

                                                                                                                                  Appropriated
                                                                                   $1,200                                         $1,223.00

                     $600                                                                                 Appropriated
                                                                                   $1,000                 $1,024.00
                                                                                                                                  Obligated
                                                                                                                                  $902.26
                                                                                       $800
                     $400
                                                                                       $600
                                                                                                          Obligated
                                                                                                          $548.35
                                                                                       $400
                     $200

                                                                                       $200                                        Disbursed
                                                                                                           Disbursed
                                                                                                                                   $195.60
                                                                                                           $163.34

                          $0                                                            $0
                                 2011a         2012          2013        2014b                As of Aug 31, 2013         As of Dec 31, 2013

                     Notes: Numbers have been rounded.
                     a   FY 2011 figure excludes $101 million that was transferred to USAID to execute an AIF project.
                     b   FY 2014 figure includes amount appropriated AIF in the Consolidated Appropriations Act, 2014.
                     Sources: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; DoD,
                     response to SIGAR data call, 7/22/2013; H.R. 3547, "Consolidated Appropriations Act, 2014," 1/17/2014; P.L. 113-6,
                     3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                     Report to the united states congress                          I   January 30, 2014                               75



Jan2014_QR.indb 75                                                                                                                                                                             1/24/2014 11:08:21 AM
                                                    INCLE



                                                    State

                                                                Status of Funds
                        AIF



                       DOD



                                                                Task Force for Business and Stability Operations
                              TFBSO                             In 2010, the Task Force for Business and Stability Operations (TFBSO)
                                                                began operations in Afghanistan aimed at stabilizing the country and coun-
                                                                tering economically motivated violence by decreasing unemployment and
                       DOD                                      creating economic opportunities for Afghans. TFBSO projects include activ-
                                                                ities that facilitate private investment, industrial development, banking and
         TFBSO funds terminology                                financial system development, agricultural diversification and revitalization,
         DOD reported TFBSO funds as appropriated,              and energy development.65
         obligated, or disbursed                                    TFBSO has two separate funding streams. The funds authorized for TFBSO
         Appropriations: Total monies available for             in the National Defense Authorization Act are used to pay for activities directly
         commitments                                            related to reconstructing Afghanistan. The funds TFBSO receives from the
         Obligations: Commitments to pay monies                 Operations and Maintenance, Army, account are used to pay for sustainment
                                                                of U.S. assets, civilian employees, travel, security, and other operational costs.
         Disbursements: Monies that have been
                                                                    The Consolidated Appropriations Act, 2014, appropriated more than
         expended
                                                                $91.24 million for TFBSO, increasing cumulative appropriations for the task
         Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                force to more than $783.39 million.66 Of this amount, nearly $693.56 million
                                                                had been obligated and nearly $517.68 million had been disbursed.67 Figure
                                                                3.11 displays the amounts appropriated for TFBSO projects by fiscal year,
                                                                and Figure 3.12 provides a cumulative comparison of amounts made avail-
                                                                able, obligated, and disbursed for TFBSO projects.
                                                                Figure 3.11                                                  Figure 3.12

                                                                TFBSO APPROPRIATIONS BY FISCAL YEAR                           TFBSO FUNDS, CUMULATIVE COMPARISON
                                                                ($ MILLIONS)                                                  ($ MILLIONS)

                                                                $200                                                          $800                                           Appropriated
                                                                                                                                                                             $783.39
                                                                                  NDAA                                        $700                  Appropriated
                                                                                                                                                    $692.15
                                                                $160              OMA                                                               Obligated                Obligated
                                                                                                                              $600                  $658.38                  $693.56
                                                                                                                                                                             Disbursed
                                                                                                                              $500                  Disbursed                $517.68
                                                                $120
                                                                                                                                                    $480.17
                                                                                                                              $400

                                                                    $80
                                                                                                                              $300

                                                                                                                              $200
                                                                    $40
                                                                                                                              $100

                                                                     $0                                                          $0
                                                                          2009 2010 2011 2012 2013 2014                               As of Sep 30, 2013           As of Dec 31, 2013

                                                                Notes: Numbers have been rounded. NDAA = National Defense Authorization Act. NDAA funding is used to pay for activities
                                                                directly related to reconstructing Afghanistan. OMA = Operations and Maintenance, Army. OMA funding is used to pay for
                                                                sustainment of U.S. assets, civilian employees, travel, security, and other operational costs.
                                                                a   FY 2014 figure includes amount appropriated TFBSO in the Consolidated Appropriations Act, 2014.
                                                                Sources: DOD, responses to SIGAR data call, 1/22/2014, 10/1/2013, and 10/4/2011; H.R. 3547, "Consolidated
                                                                Appropriations Act, 2014," 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                                      76                          Special inspector general                  I   Afghanistan reconstruction




Jan2014_QR.indb 76                                                                                                                                                                          1/24/2014 11:08:21 AM
                                                                                                                                                                    DOD




                                                                                   Status of Funds
                                                                                                                                                             CERP



                                                                                                                                                                    DOD




                     DOD Drug Interdiction and Counterdrug Activities
                     DOD’s Drug Interdiction and Counter-Drug Activities fund (DOD CN) sup-                                                                                  DOD CN
                     ports efforts to stabilize Afghanistan by combating the drug trade and
                     related activities. DOD uses the DOD CN to provide assistance to the
                     counternarcotics effort by supporting military operations against drug traf-                                                                   DOD
                     fickers; expanding Afghan interdiction operations; and building the capacity
                     of Afghan law enforcement bodies—including the Afghan Border Police—                                                            DOD CN funds terminology
                     with specialized training, equipment, and facilities.68                                                                         DOD reported DOD CN funds as appropriated,
                         DOD CN funds are appropriated by Congress to a single budget line for                                                       obligated, or disbursed
                                                                                                                                                                                         ESF
                     all military services. DOD reprograms the funds from the Counter-narcotics                                                      Appropriations: Total monies available for
                     Central Transfer Account (CTA) to the military services and defense agen-                                                       commitments
                     cies, which track obligations of the transferred funds. DOD reported DOD                                                        Obligations: Commitments toUSAID
                                                                                                                                                                                 pay monies
                     CN accounts for Afghanistan as a single figure for each fiscal year.69
                                                                                                                                                     Disbursements: Monies that have been
                         DOD reported that DOD CN received nearly $320.79 million for
                                                                                                                                                     expended
                     Afghanistan for FY 2014, bringing cumulative funding for DOD CN to more
                     than $2.94 billion since fiscal year 2004. Of this amount, more than $2.48 bil-                                                 Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                                                INCLE
                     lion had been transferred to the military services and defense agencies for
                     DOD CN projects, as of December 31, 2013.70 Figure 3.13 shows DOD CN
                     appropriations by fiscal year, and Figure 3.14 provides a cumulative com-                                                                                                  State
                     parison of amounts appropriated and transferred from the DOD CN CTA.
                     Figure 3.13                                                       Figure 3.14

                     DOD CN APPROPRIATIONS BY FISCAL YEAR                              DOD CN FUNDS, CUMULATIVE COMPARISON                                          AIF
                     ($ MILLIONS)                                                      ($ BILLIONS)

                     $450                                                              $3.0
                                                                                                                                      Appropriated                  DOD
                                                                                                                                      $2.94
                     $400
                                                                                       $2.8
                     $350

                                                                                                            Appropriated                                                  TFBSO
                     $300                                                              $2.6                 $2.62

                     $250                                                                                                             Transferredb
                                                                                                                                      $2.48                         DOD
                                                                                       $2.4
                     $200                                                                                   Transferredb
                                                                                                            $2.35
                     $150
                                                                                       $2.2
                     $100

                      $50                                                              $2.0

                        $0                                                                $0
                             04 05 06 07 08 09 10 11 12 13 14a                                 As of Sep 30, 2013           As of Dec 31, 2013

                     Notes: Numbers have been rounded.
                     a FY 2014 figures includes amount appropriated DOD CN in the Consolidated Appropriations Act, 2014.
                     b DOD reprograms all funds to the military services and defense agencies for obligation and disbursement.

                     Sources: DOD, responses to SIGAR data call, 1/22/2013, 12/30/2013, and 9/30/2013.




                     Report to the united states congress                          I   January 30, 2014                                  77



Jan2014_QR.indb 77                                                                                                                                                                                 1/24/2014 11:08:21 AM
                CERP



                       DOD



                                                                 Status of Funds
                                DOD CN



                       DOD




                                                                 Economic Support Fund
                                            ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                                 countries meet short- and long-term political, economic, and security needs.
                                                                 ESF programs support counterterrorism; bolster national economies; and
                                           USAID                 assist in the development of effective, accessible, independent legal systems
                                                                 for a more transparent and accountable government.71
        ESF funds terminology                                       When this report went to press, final FY 2014 funding levels for the ESF
        USAID reported ESF funds as appropriated,                had not been determined. USAID reported that cumulative funding for the
        obligated, or disbursed         INCLE                    ESF amounted to nearly $16.69 billion. Of this amount, nearly $14.67 billion
        Appropriations: Total monies available                   had been obligated, of which more than $11.50 billion had been disbursed.72
        for commitments                                          Figure 3.15 shows ESF appropriations by fiscal year.
                                                    State           USAID reported that cumulative obligations as of December 31, 2013,
        Obligations: Commitments to pay monies
                                                                 increased by $379,921 over cumulative obligations as of September 30, 2013.
        Disbursements: Monies that have been
                                                                 Cumulative disbursements as of December 31, 2013, increased by nearly
        expended
                                                                 $329.10 million over cumulative disbursements as of September 30, 2013.73
                       AIF
        Source: USAID, response to SIGAR data call, 4/15/2010.
                                                                 Figure 3.16 provides a cumulative comparison of the amounts appropriated,
                                                                 obligated, and disbursed for ESF programs.
                       DOD
                                                                 Figure 3.15                                                                                                   Figure 3.16

                                                                 ESF APPROPRIATIONS BY FISCAL YEAR                                                                             ESF FUNDS, CUMULATIVE COMPARISON
                                                                 ($ BILLIONS)                                                                                                  ($ BILLIONS)
                             TFBSO

                                                                 $3.5                                                                                                          $18
                       DOD
                                                                                                                          FY 14 APPROPRIATION AMOUNT HAS NOT BEEN DETERMINED




                                                                                                                                                                                                    Appropriated             Appropriated
                                                                 $3.0                                                                                                          $16                  $16.67                   $16.69


                                                                                                                                                                                                    Obligated                Obligated
                                                                 $2.5
                                                                                                                                                                                                    $14.67                   $14.67
                                                                                                                                                                               $14

                                                                 $2.0
                                                                                                                                                                               $12
                                                                                                                                                                                                                             Disbursed
                                                                 $1.5                                                                                                                               Disbursed                $11.50
                                                                                                                                                                                                    $11.17
                                                                                                                                                                               $10
                                                                 $1.0

                                                                                                                                                                                $8
                                                                 $0.5


                                                                 $0.0                                                                                                           $0
                                                                        02 03 04 05 06 07 08 09 10 11 12 13 14                                                                       As of Sep 30, 2013            As of Dec 31, 2013

                                                                 Notes: Numbers have been rounded. FY 2011 figure includes $101 million that was transferred to the ESF from the Afghanistan
                                                                 Infrastructure Fund.
                                                                 Sources: USAID, response to SIGAR data call, 1/7/2014 and 10/10/2013; State, response to SIGAR data call, 6/27/2013.




                                                                     78                            Special inspector general                                                                  I   Afghanistan reconstruction




Jan2014_QR.indb 78                                                                                                                                                                                                                          1/24/2014 11:08:21 AM
                                                                                                                                                                                                                         DOD CN



                                                                                                                                                                                                               DOD



                                                                                                                                   Status of Funds
                                                                                                                                                                                                                                     ESF



                                                                                                                                                                                                                                    USAID




                     International Narcotics Control
                     and Law Enforcement                                                                                                                                                                                                    INCLE
                     The U.S. Bureau of International Narcotics and Law Enforcement Affairs
                     (INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                                                                                             State
                     ics production and trafficking—the International Narcotics Control and
                     Law Enforcement (INCLE) account. INCLE supports several INL program
                     groups, including police, counternarcotics, and rule of law and justice.74                                                                                                 INL funds terminology
                        When this report went to press, final FY 2014 funding levels for INCLE                                                                                                  INL reported INCLE and other INL funds as
                                                                                                                                                                                                            AIF
                     had not been determined. State reported that cumulative funding for INCLE                                                                                                  appropriated, obligated, or disbursed
                     amounted to more than $4.18 billion. Of this amount, nearly $3.54 billion                                                                                                  Appropriations: Total monies available
                     had been obligated, of which nearly $2.85 billion had been disbursed.75                                                                                                    for commitments
                                                                                                                                                                                                           DOD
                     Figure 3.17 shows INCLE appropriations by fiscal year.                                                                                                                     Obligations: Commitments to pay monies
                        State reported that cumulative obligations as of December 31, 2013,
                                                                                                                                                                                                Disbursements: Monies that have been
                     increased by nearly $3.62 million compared to cumulative obligations as of
                                                                                                                                                                                                expended
                     September 30, 2013. Cumulative disbursements as of December 31, 2013,                                                                                                                           TFBSO
                     increased by more than $57.52 million over cumulative disbursements as                                                                                                     Source: State, response to SIGAR data call, 4/9/2010.

                     of September 30, 2013.76 Figure 3.18 provides a cumulative comparison of
                                                                                                                                                                                                              DOD
                     amounts appropriated, obligated, and disbursed for INCLE.

                     Figure 3.17                                                                                                       Figure 3.18

                     INCLE APPROPRIATIONS BY FISCAL YEAR                                                                               INCLE FUNDS, CUMULATIVE COMPARISON
                     ($ MILLIONS)                                                                                                      ($ BILLIONS)




                     $700                                                                                                              $4.5

                                                                                                                                                        Appropriated             Appropriated
                                                                              FY 14 APPROPRIATION AMOUNT HAS NOT BEEN DETERMINED




                     $600                                                                                                                               $4.18                    $4.18
                                                                                                                                       $4.0

                     $500
                                                                                                                                                        Obligated                Obligated
                                                                                                                                       $3.5                                      $3.54
                                                                                                                                                        $3.53
                     $400
                                                                                                                                       $3.0
                                                                                                                                                                                 Disbursed
                     $300                                                                                                                               Disbursed
                                                                                                                                                                                 $2.85
                                                                                                                                                        $2.79
                                                                                                                                       $2.5
                     $200


                     $100                                                                                                              $2.0


                        $0                                                                                                               $0
                             02 03 04 05 06 07 08 09 10 11 12 13 14                                                                           As of Sep 30, 2013       As of Dec 31, 2013

                     Notes: Numbers have been rounded. Data may include inter-agency transfers.
                     Sources: State, response to SIGAR data call, 1/13/2014 and 10/18/2013.




                     Report to the united states congress                                                                          I   January 30, 2014                             79



Jan2014_QR.indb 79                                                                                                                                                                                                                             1/24/2014 11:08:22 AM
                     Status of Funds




                     International Reconstruction Funding
                     for Afghanistan
                     In addition to assistance provided by the United States, the international
                     community provides a significant amount of funding to support Afghanistan
                     relief and reconstruction efforts. As noted in previous SIGAR quarterly
                     reports, most of the international funding provided is administered through
                     trust funds. Contributions provided through trust funds are pooled and then
                     distributed for reconstruction activities. The two main trust funds are the
                     Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
                     Trust Fund for Afghanistan (LOTFA).77

                     Contributions to the Afghanistan Reconstruction Trust Fund
                     The largest share of international contributions to the Afghan opera-
                     tional and development budgets comes through the ARTF. From 2002 to
                     December 21, 2013, the World Bank reported that 33 donors had pledged
                     more than $7.03 billion, of which nearly $6.91 billion had been paid
                     in.78 According to the World Bank, donors had pledged approximately
                     $916.70 million to the ARTF for Afghan fiscal year 1392, which ran from
                     December 21, 2012, to December 20, 2013.79 Figure 3.19 shows the 11 largest
                     donors to the ARTF for FY 1392.

                     Figure 3.19

                     ARTF CONTRIBUTIONS FOR FY 1392 BY DONOR, AS OF DECEMBER 21, 2013 ($ MILLIONS)

                                                                      Total Commitments: $917             Total Paid In: $791
                                                                                                                                      277
                       United States                                                                                      219
                                                                                          130
                     United Kingdom                                                       130
                                                                                    110
                           Japan                                                    110
                                                                      66
                          EC/EU                          40
                                                                     62
                         Australia                                   62
                                                                55
                         Germany                                55
                                                               51
                          Norway                               51
                                                          43
                          Sweden                         40
                                                    24
                       Netherlands                  24
                                                    23
                          France           6
                                                    23
                          Canada               12
                                                               52
                          Others                          43

                                       0                  50                  100               150             200             250         300
                                                                           Commitments                                Paid In

                     Notes: Numbers have been rounded. FY 1392 = 12/21/2012–12/20/2013.
                     Source: World Bank, "ARTF: Administrator's Report on Financial Status as of December 21, 2013 (end of 12th month of FY
                     1392)," p. 1.




                         80                              Special inspector general                    I   Afghanistan reconstruction




Jan2014_QR.indb 80                                                                                                                            1/24/2014 11:08:22 AM
                                                            Status of Funds




                        As of December 21, 2013, the United States had pledged nearly $2.02 bil-    Figure 3.20
                     lion and paid in more than $1.96 billion since 2002.80 The United States and
                                                                                                    ARTF CONTRIBUTIONS PAID IN BY DONORS
                     the United Kingdom are the two biggest donors to the ARTF, together con-       SY 1381 (2002)–DECEMBER 21, 2013
                     tributing more than 46% of its total funding, as shown in Figure 3.20.         (PERCENT)

                        Contributions to the ARTF are divided into two funding channels—
                     the Recurrent Cost (RC) Window and the Investment Window.81 As of                              Total Paid In: $6.9 billion
                     December 21, 2013, according to the World Bank, nearly $2.93 billion of
                     ARTF funds had been disbursed to the Afghan government through the RC
                     Window to assist with recurrent costs such as salaries of civil servants.82                              United States
                                                                                                                              28%
                     The RC Window supports the operating costs of the Afghan government
                                                                                                                                         United
                     because the government’s domestic revenues continue to be insufficient                                              Kingdom
                     to support its recurring costs. To ensure that the RC Window receives ade-                       Others             18%
                                                                                                                      37%
                     quate funding, donors to the ARTF may not “preference” (earmark) more
                                                                                                                                                     Canada
                     than half of their annual contributions for desired projects.83                                                                 9%
                        The Investment Window supports the costs of development programs. As
                     of December 21, 2013, according to the World Bank, more than $3.06 billion                                          Germany
                     had been committed for projects funded through the Investment Window,                                               8%
                     of which more than $2.29 billion had been disbursed. The World Bank
                                                                                                    Notes: Numbers have been rounded. "Others" includes 29
                     reported 22 active projects with a combined commitment value of nearly         donors.
                     $1.89 billion, of which more than $1.11 billion had been disbursed.84          Source: World Bank, "ARTF: Administrator's Report on
                                                                                                    Financial Status as of December 21, 2013 (end of 12th
                                                                                                    month of FY 1392)," p. 5.

                     Contributions to the Law and Order Trust Fund for Afghanistan
                     The United Nations Development Programme (UNDP) administers the                Figure 3.21

                     LOTFA to pay ANP salaries and build the capacity of the Ministry of            DONORS' CONTRIBUTIONS TO THE LOTFA
                     Interior.85 Since 2002, donors have pledged nearly $3.18 billion to the        SINCE 2002, AS OF SEPTEMBER 30, 2013
                                                                                                    (PERCENT)
                     LOTFA, of which more than $3.17 billion had been paid in, according to the
                     most recent data available.86 The LOTFA’s sixth support phase started on
                     January 1, 2011. On March 20, 2013, the UNDP-LOTFA Steering Committee                         Total Paid In: $3.1 billion
                     approved an extension of Phase VI to continue the phase beyond the
                     planned end date of March 31, 2013, to December 31, 2013. In the 33 months
                     since Phase VI began, the UNDP had transferred more than $1.39 billion
                     from the LOTFA to the Afghan government to cover ANP and Central                            United States        Japan
                     Prisons Directorate staff remunerations and an additional $33.44 million                    38%                  30%
                     for capacity development and other LOTFA initiatives.87 As of September
                     30, 2013, donors had committed nearly $1.65 billion to the LOTFA for Phase                      Others        EU
                                                                                                                     12%           14%
                     VI. Of that amount, the United States had committed nearly $659.11 million,
                     and Japan had committed more than $614.76 million. Their combined com-
                                                                                                                                 Germany
                     mitments make up more than 77% of LOTFA Phase VI commitments. The                                           6%
                     United States had contributed nearly $1.21 billion to the LOTFA since the
                     fund’s inception.88 Figure 3.21 shows the four largest donors to the LOTFA     Notes: Numbers have been rounded. EC/EU = European
                                                                                                    Commission/European Union. "Others" includes 18 donors.
                     since 2002, based on the latest data available.                                Sources: UNDP, "LOTFA Phase VI Quarterly Progress Report
                                                                                                    Q3/2013," 12/31/2013, pp. 80-81; SIGAR analysis of
                                                                                                    UNDP's quarterly and annual LOTFA reports, 1/22/2014.




                     Report to the united states congress   I   January 30, 2014           81



Jan2014_QR.indb 81                                                                                                                                  1/24/2014 11:08:22 AM
                     Security Contents

                     Key Issues and Events This Quarter	   83
                     U.S. Forces in Afghanistan	           85
                     ANSF Strength	                        85
                     ANSF Assessment	                      85
                     Ministry of Defense and Ministry of
                     Interior Assessments	                 88
                     Afghan Local Police	                  90
                     Afghan Public Protection Force	       90
                     Afghan National Army	                 91
                     Afghan Air Force	                     97
                     Afghan National Police	               98
                     ANSF Medical/Health Care	             102
                     Removing Unexploded Ordnance	         102
                     Oversight of Contract Management	     103
                     Counternarcotics	104




                       82



Jan2014_QR.indb 82                                               1/24/2014 11:08:22 AM
                                                                                   Security




                     Security
                     As of January 17, 2014, the U.S. Congress had appropriated more than
                     $59 billion to support the Afghan National Security Forces (ANSF). Most
                     of these funds ($57.5 billion) were appropriated through the Afghanistan
                     Security Forces Fund (ASFF) and provided to the Combined Security
                     Transition Command-Afghanistan (CSTC-A). Its purpose is to build, equip,
                     train, and sustain the ANSF, which comprises the Afghan National Army
                     (ANA) and the Afghan National Police (ANP). Of the $57.5 billion appro-
                     priated for the ASFF, approximately $47.9 billion had been obligated and
                     $45.4 billion disbursed as of December 31, 2013.89
                        This section discusses assessments of the ANSF and the Ministries of
                     Defense and Interior; gives an overview of U.S. funds used to build, equip,
                     train, and sustain the ANSF; and provides an update on efforts to combat
                     the cultivation of and commerce in illicit narcotics in Afghanistan. This sec-
                     tion also discusses the challenges to transitioning to Afghan-led security by
                     the end of 2014.


                     Key Issues and Events This Quarter
                     Key issues and events this quarter include continuing U.S. concerns over
                     the lack of a signed U.S.-Afghan bilateral security agreement, record-break-
                     ing poppy cultivation and opium production (see “Counternarcotics” in this
                     section, page 104), and questions about the actual strength of the ANA.

                     Bilateral Security Agreement
                     The future of the U.S. and international investment in Afghanistan may
                     rest on political events that will develop in 2014. The outcome of current
                     efforts of the United States and Afghanistan to reach a Bilateral Security
                     Agreement (BSA) on future U.S. and Coalition troop levels after the U.S.
                     troops draw down at the end of 2014 will have a profound impact on the
                     willingness of the United States to continue to finance reconstruction
                     programs and on Afghanistan’s ability to maintain progress in the secu-
                     rity, governance, and economic sectors. This quarter, the U.S. and Afghan
                     governments reached agreement on a draft text of the BSA and a Loya
                     Jirga (tribal assembly) approved the document. Nevertheless, President




                     Report to the united states congress   I   January 30, 2014             83



Jan2014_QR.indb 83                                                                                    1/24/2014 11:08:22 AM
                                                          Security




                                                          Hamid Karzai has refused to sign it. According to The Washington Post, U.S.
                                                          Ambassador to Afghanistan James B. Cunningham has warned the Obama
                                                          Administration that President Karzai is not likely to sign a BSA before the
                                                          Afghan presidential election scheduled for April.90
                                                             The BSA would allow U.S. military trainers and counterterrorism
                                                          forces to remain in Afghanistan after the end of this year.91 The size of the
                                                          remaining contingent of U.S. forces has yet to be determined. According to
                                                          media reports, International Security Assistance Force (ISAF) commander
                                                          General Joseph F. Dunford Jr. has recommended a post-2014 force of 12,000
                                                          troops: 8,000 U.S. and 4,000 international. While most of these troops would
                                                          support, train, and advise the ANSF, approximately 2,000 would conduct
                                                          counterterrorism operations.92
                                                             U.S. officials have warned that without an agreement, the United States
                                                          may opt to remove all its troops after 2014, as it did in Iraq in 2011. They
                                                          have also said that failure to reach an agreement could jeopardize future
                                                          U.S. and international aid to Afghanistan. If the U.S. exercises the so-called
                                                          zero option—leaving no troops in Afghanistan after 2014—Coalition partner
                                                          nations would likely pull their remaining troops, leaving a struggling ANSF to
                                                          face the insurgency alone. Moreover, billions in future aid could hang in the
                                                          balance as international donors consider a growing risk to their investments.

                                                          Questions about ANA Strength and Availability
             SIGAR Audit                                  This quarter, the ANA consisted of 178,816 personnel (not counting Afghan
                                                          Air Force personnel), according to data provided to CSTC-A by the ANA. Of
             An ongoing SIGAR audit is assessing the      those 126,658 personnel were assigned to the ANA’s combat forces—the ANA’s
             reliability and usefulness of data for the   six corps, the 111th Capital Division, and Special Operations Forces. Another,
             number of ANSF personnel authorized,         25,992 were assigned to the MOD’s general staff and intermediate commands
             assigned, and trained. As part of            (a decrease of 7,695 since last quarter). CSTC-A did not provide an explanation
             this effort, SIGAR is looking at ANSF        for the 30% decrease in ANA general staff and intermediate command staff,
             personnel “unavailable” and “present         but did note that 1,139 of them were absent without leave (AWOL).93
             for duty” to better determine the ANSF’s        Of the 126,658 combat personnel, 9,043 were absent without leave
             operational capability.                      (AWOL) and 15,915 were in training, were cadets, or were awaiting trans-
                                                          fer to an ANA unit. The rest were “present for duty” or “unavailable.” This
                                                          quarter, 62,753 personnel were “present for duty.” According to CSTC-A,
                                                          the term “present for duty” corresponds to “combat strength” and refers to
                                                          soldiers who are “physically parading with assigned unit, healthy, ready for
                                                          orders, and [are] accounted in combat strength.”94
                                                             Another 63,905 of them (more than 50%) were “unavailable.” The
                                                          “unavailable” category includes personnel who cannot currently perform
                                                          military duties because they are missing, arrested, in hospital, on training
                                                          assignments, on scheduled leave, and for other reasons—but also personnel
                                                          who are on duty and under ANA control, but are deployed in the field.95 For
                                                          example, according to data provided to SIGAR by CSTC-A in the course of
                                                          an ongoing audit, 39,249 ANA personnel were in “combat.”96 It was unclear




                                                            84                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 84                                                                                                                          1/24/2014 11:08:22 AM
                                                                                                              Security




                     why “combat strength” does not include soldiers categorized as in “combat”
                     who are instead categorized as “unavailable.” For a more complete listing of
                     “unavailable” categories, see “ANA Strength” in this section, page 91.
                        In addition, a SIGAR audit now under way is examining the quality of
                     personnel-numbers reporting for the ANSF, which is an important issue both
                     for assessing the capability of the force and for verifying U.S.-funded sustain-
                     ment costs that are partly a function of reported personnel numbers.


                     U.S. Forces in Afghanistan
                     According to the U.S. Central Command (CENTCOM), 55,000 U.S. forces were
                     serving in Afghanistan as of November 30, 2013. Of those, approximately 400
                     were assigned to the NATO Training Mission-Afghanistan (NTM-A), 300 to
                     CSTC-A, and 32,000 to ISAF.97 Since operations began in 2001, a total of 2,164
                     U.S. military personnel have died in Afghanistan—83% of whom were killed in
                     action—and 19,558 were wounded as of January 3, 2014.98


                     ANSF Strength
                     This quarter, ANSF’s assigned force strength was 334,852, according to
                     data provided by CSTC-A.99 This is short of the goal to have an end strength
                     of 352,000 ANSF personnel by October 2012. That goal had been in the
                     Department of Defense’s (DOD) April 2012 Report on Progress Toward
                     Security and Stability in Afghanistan.100 When that end strength was
                     not met, DOD revised the goal to 352,000 ANSF by 2014 (187,000 ANA by
                     December 2012, 157,000 ANP by February 2013, and 8,000 Air Force by
                     December 2014).101 Neither the ANA nor the ANP met their end-strength
                     goal by the revised deadline, as shown in Table 3.6.
                     Table 3.6


                     ANSF Assigned strength, August 20, 2013
                                                                                                            Difference Between Current
                                                                                Status as of                 Strength and Target End-
                      ANSF Component               Current Target                12/2013                           Strength Goals
                      Afghan National Army         187,000 personnel by 12/2012   178,816                              -8,184
                      Afghan National Police       157,000 personnel by 2/2013    149,466                              -7,534
                      Afghan Air Force             8,000 personnel by 12/2014       6,570                              -1,430
                      ANSF Total                   352,000                      334,852                              -17,148
                     Sources: DOD, “Report on Progress Toward Security and Stability in Afghanistan,” 12/2012, p. 56; CSTC-A, response to SIGAR
                     data call, 12/30/2013; CENTCOM, response to SIGAR vetting, 1/15/2014.



                     ANSF Assessment
                     Assessments of the ANA and ANP are indicators of the effectiveness of
                     U.S. and Coalition efforts to build, train, equip, and sustain the ANSF. These
                     assessments also provide both U.S. and Afghan stakeholders with updates on




                     Report to the united states congress                       I   January 30, 2014                                   85



Jan2014_QR.indb 85                                                                                                                                1/24/2014 11:08:22 AM
                     Security




                     the status of these forces as transition continues and Afghanistan assumes
                     responsibility for its own security. Since August 15, 2013, ISAF has used the
                     Regional Command ANSF Assessment Report (RASR) to rate the ANSF.102
                         SIGAR has actively monitored ANSF assessments and issued an audit
                     report on the systems and processes used to rate ANSF capability in 2010.
                     SIGAR is now auditing the ISAF Joint Command’s (IJC) Commander’s Unit
                     Assessment Tool (CUAT).103 When the RASR replaced the CUAT, it became
                     the third different assessment tool used to rate the ANSF since 2005.104
                         According to IJC, the RASR is a “holistic intelligence, operational, and
                     sustainment assessment and reporting mechanism” of the ANSF.105 The
                     RASR uses rating definition levels (RDLs), based upon ANSF capabilities,
                     to assess ANSF units at the brigade level.106 The RDLs use a simplified
                     assessment matrix that is tailored to the specific unit type (e.g. infantry,
                     intelligence, signals) and identifies the capabilities a unit must possess in
                     order to be assessed “Fully Capable.” According to IJC, “this simplified sys-
                     tem is easily observable, not as labor intensive or complex [as the previous
                     system], and could form the basis of Afghan ‘self reporting’ as ISAF contin-
                     ues to draw down.”107
                         SIGAR’s ongoing audit is also looking at how the withdrawal of Coalition
                     forces will affect ISAF’s ability to accurately assess the ANSF. In addition,
                     the audit will review ISAF plans to (1) ensure the continued collection,
                     analysis, validation, and reporting of ANSF capability assessments and
                     (2) address the challenges associated with having fewer advisor teams
                     available to conduct assessments.108
                         The RASR rates ANA brigades in six areas:109
                      •	 Combined Arms (planning and conducting joint operations using
                         multiple types of weapons)
                      •	 Leadership
                      •	 Command & Control
                      •	 Sustainment
                      •	 Training (conducting training)
                      •	 Attrition

                        For the ANA, the latest RASR report provides assessments of 24 brigades
                     (22 corp brigades and 2 brigades of the 111th Capital Division). Of those,
                     88% were “fully capable” or “capable” of planning and conducting joint and
                     combined arms operations, as shown in Figure 3.22. According to the lat-
                     est RASR report, “[equipment] readiness within the ANA Ground Forces
                     Command (GFC) continues to improve.” However, attrition continues to
                     be the major challenge for the ANA as 71% of brigades are still considered
                     “developing” which means that attrition in these brigades is 3% or more per
                     month. In other areas, most ANA brigades were rated “fully capable” or
                     “capable,” including leadership (96%), command and control (100%), sus-
                     tainment (88%), and training (83%).110




                       86                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 86                                                                                     1/24/2014 11:08:22 AM
                                                                                                         Security




                     Figure 3.22


                     Afghan National Army RASR Assessments, December 2013
                                                   201st Corps                   203rd Corps                                                                                      211th Cap
                                                                                                       205th Corps      207th Corps        209th Corps         215th Corps
                                                    RC - East                     RC - East                                                                                          Div
                                                                                                        RC-South          RC-West           RC-North          RC-Southwest
                                                   (Northeast)                  (Center/East)                                                                                     RC-Capital

                                              1 Bde 2 Bde 3 Bde 4 Bde 1 Bde 2 Bde 3 Bde 4 Bde 1 Bde 2 Bde 3 Bde 4 Bde 1 Bde 2 Bde 3 Bde 1 Bde 2 Bde 3 Bde 1 Bde 2 Bde 3 Bde 4 Bde 1 Bde 2 Bde


                      Combined Arms

                      Leadership

                      Command & Control

                      Sustainment

                      Training

                      Attrition

                      TOTAL RATINGS BY TYPE                            Fully Capable 49                Capable 65                Partially Capable 12          Developing 18

                     Note: Bde = Brigade

                     Source: IJC, Regional ANSF Status Report, December 2013.




                          The RASR rates ANP components in six areas:111
                     •	   Law Enforcement Operations (making arrests and prosecuting
                          those arrested)
                     •	   Leadership
                     •	   Command & Control
                     •	   Sustainment
                     •	   Training (conducting training)
                     •	   Attrition

                        For the ANP, the latest RASR report provides assessments of 16 of 21
                     regional ANP components—the Afghan Uniform Police (AUP), Afghan
                     Border Police (ABP), and the Afghan National Civil Order Police (ANCOP)—
                     in seven different zones. Of the 16 that were assessed, 94% were “fully
                     capable” or “capable” of making arrests and prosecuting those arrested, as
                     shown in Figure 3.23 on the following page. According to the latest RASR
                     report, “readiness within the ANP continues to be a point of concern” and
                     “the ANP also struggles with maintaining a manageable level of equipment                                               SIGAR Audit
                     readiness.” In addition, attrition continues to be a challenge for the ANP as
                                                                                                                                            In an ongoing audit, SIGAR is examin-
                     50% of regional components are still considered “developing” which means
                                                                                                                                            ing the ISAF Joint Command’s system
                     that monthly attrition in these units is 2% or more. In other areas, the ANP
                                                                                                                                            for rating the capability of the ANSF.
                     regional components are mostly “fully capable” or “capable”: leadership
                     (94%), command and control (94%), sustainment (94%), and training (88%).112




                     Report to the united states congress                       I   January 30, 2014                       87



Jan2014_QR.indb 87                                                                                                                                                                1/24/2014 11:08:22 AM
                                                                           Security




        Figure 3.23


         Afghan National Police RASR Assessments, December 2013

                                         North                Northeast                Central               Southeast               South              Southwest             West
                                          Balkh                Nangarhar                 Kabul                 Paktiya               Kandahar                Helmand           Herat


                                   AUP     ABP ANCOP AUP             ABP ANCOP AUP        ABP ANCOP AUP          ABP ANCOP AUP         ABP ANCOP AUP          ABP ANCOP AUP     ABP ANCOP


          Law Enforcement

          Leadership

          Command & Control

          Sustainment

          Training

          Attrition

          TOTAL RATINGS BY TYPE                   Fully Capable 39              Capable 45                     Partially Capable 5           Developing 11             Not Assessed 26

        Notes: AUP = Afghan Uniform Police; ABP = Afghan Border Police; ANCOP = Afghan National Civil Order Police

        Source: IJC, Regional ANSF Status Report, December 2013.



                                                                           Ministry of Defense and Ministry of
                                                                           Interior Assessments
                                                                           DOD reported that the MOD and the Ministry of Interior (MOI) continued
                                                                           to increase their capacity to perform critical functions this quarter. To rate
                                                                           the operational capability of these ministries, NTM-A uses the Capability
                                                                           Milestone (CM) rating system. This system assesses staff sections (such as the
                                                                           offices headed by assistant or deputy ministers) and cross-functional areas
                                                                           (such as general staff offices) using four primary and two secondary ratings:113
                                                                           •	 CM-1A: capable of autonomous operations
                                                                           •	 CM-1B: capable of executing functions with Coalition oversight only
                                                                           •	 CM-2A: capable of executing functions with minimal Coalition assistance
                                                                           •	 CM-2B: can accomplish its mission but requires some Coalition assistance
                                                                           •	 CM-3: cannot accomplish its mission without significant Coalition assistance
                                                                           •	 CM-4: exists but cannot accomplish its mission

                                                                              This quarter, SIGAR was provided the CM ratings for only 37 MOD staff
                                                                           sections and cross-functional areas, down from 46 in past quarters. Of the
                                                                           37 MOD assessments received this quarter, eight showed progress and one
                                                                           received a lower rating, according to CENTCOM. Notably, the office of the
                                                                           Assistant Minister of Defense for Intelligence increased two levels from CM-4
                                                                           (the lowest rating) to CM-2B. No MOD sections are rated CM-4, as shown in
                                                                           Figure 3.24. The other offices that received a higher rating this quarter were:114




                                                                              88                           Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 88                                                                                                                                                                          1/24/2014 11:08:23 AM
                                                                                                                  Security




                     •	   General Staff – Communication Support Unit (CM-1A)
                     •	   General Staff – Communications (CM-1B)
                     •	   Assistant Minister of Defense for Personnel (CM-1B)
                     •	   Vice Chief of Staff – Air Force (CM-2B)
                     •	   Sergeant Major of the Army (CM-2B)
                     •	   General Staff – Logistics (CM-2B)
                     •	   Office of Gender Integration (CM-3)

                        The office that regressed was the Assistant Minister of Defense for
                     Strategy and Policy, which fell to CM-2B.115
                        All 32 staff sections at the MOI were assessed; seven progressed and
                     none regressed since last quarter, according to CENTCOM. No MOI sections
                     were rated CM-4, as shown in Figure 3.24. Those whose ratings increased
                     this quarter were:116
                     •	 Deputy Minister for Strategy and Policy – Strategic Planning (CM-1B)
                     •	 Deputy Minister for Security – Afghan Uniform Police (CM-1B)
                     •	 Deputy Minister for Security – Anti-Crime Police (CM-1B)
                     •	 Deputy Minister for Security – Counter-IED (CM-2A)
                     •	 Deputy Minister for Administration – Training Management (CM-2A)
                     •	 Chief of Staff Office of Gender Affairs (CM-2B)
                     •	 Deputy Minister for Security – Fire Services (CM-2B)


                     Figure 3.24


                     CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY CHANGE

                                                                                    MOD                                                                               MOl

                     CM-1A: capable of                              1                                                                                     2
                     autonomous operations          CM-1A                                                                            CM-1A
                                                                    1                                                                                     2
                     CM-1B: capable of                                                  6                                                                                 6
                     executing functions with       CM-1B                                                                            CM-1B
                     coalition oversight only                                           6                                                                                             9
                     CM-2A: capable of                                                                                  15                                                            9
                     executing functions with       CM-2A                                                                            CM-2A
                     minimal coalition assistance                                                   9                                                                             8

                     CM-2B: can accomplish its                                                                          15                                                                10
                     mission but requires some      CM-2B                                                                            CM-2B
                     coalition assistance                                                                                      17                                                         10
                     CM-3: cannot accomplish its                                            7                                                                         5
                     mission without significant    CM-3                                                                             CM-3
                     coalition assistance                                   4                                                                                     3

                     CM-4: exists but cannot                            2                                                                        0
                     accomplish its mission         CM-4                                                                             CM-4
                                                                0                                                                                0

                                                            0           3           6           9           12        15        18           0                3       6           9            12       15         18


                                                                Q4 2013 MOD Staff Sections              Q1 2014 MOD Staff Sections                   Q4 2013 MOI Staff Sections           Q1 2014 MOI Staff Sections


                     Sources: CSTC-A, responses to SIGAR data call, 10/1/2013 and 12/30/2013.




                     Report to the united states congress                       I   January 30, 2014                                 89



Jan2014_QR.indb 89                                                                                                                                                                                       1/24/2014 11:08:23 AM
                                                         Security




                                                            Two MOI staff sections are rated CM-1A (capable of autonomous opera-
                                                         tions): the Chief of Staff Public Affairs Office and the Deputy Minister for
             SIGAR Special Project                       Security Office of the Afghan National Civil Order Police.117
             In a special project report released this
             quarter, SIGAR found that CSTC-A had
             not conducted a comprehensive risk          Afghan Local Police
             assessment of the capabilities of the       As of January 4, 2014, Afghan Local Police (ALP) comprised 25,477 per-
             MOD and MOI to manage and account           sonnel, according to CENTCOM. The current goal is 30,000 personnel
             for U.S. direct assistance dollars, of      by the end of December 2014. The ALP operates in 126 districts in 29 of
             which $4.2 billion has been commit-         Afghanistan’s 34 provinces.118
             ted and nearly $3 billion disbursed.           As of December 31, 2013, more than $190 million of the ASFF had
             For more information, see Section 2,        been obligated and more than $184 million expended to support the ALP.
             page 44.                                    According to CENTCOM, the ALP will cost $117 million per year to sustain
                                                         once it reaches its target strength. To date, 23,496 AK-47 rifles (at a cost
                                                         of $6.77 million) and 4,149 PKM machine guns ($9.42 million) have been
                                                         provided to the ALP. In addition, 9.4 million rounds of rifle ammunition and
                                                         4.5 million rounds of machine gun ammunition (with a combined cost of
                                                         $5.07 million) have been provided. CENTCOM noted that the ALP plans
                                                         to issue an additional 7,000 AK-47 rifles (at a cost of $2.02 million) and has
                                                         budgeted $13.3 million for ammunition in 2014. For ALP mobility, 2,127
                                                         Ford Ranger pickup trucks have been provided. These Ford Rangers cost
                                                         $21,980 each at point of sale, but $45,000 each including delivery costs (for
                                                         a total cost of $95.7 million).119


                                                         Afghan Public Protection Force
                                                         The Afghan Public Protection Force (APPF) is a state-owned enterprise
                                                         under the authority of the MOI that provides facility and convoy security
                                                         services in Afghanistan. Following President Karzai’s 2010 decree dis-
                                                         banding private security companies (PSCs) and transferring protection
                                                         responsibilities to the APPF, the Afghan government implemented a bridg-
                                                         ing strategy for a phased transition to the public security company.120
                                                            As part of that strategy, security for military installations was scheduled
                                                         to be transferred to the APPF in March 2013. As of December 30, 2013, only
                                                         three military forward operating bases (FOBs) were secured by APPF per-
                                                         sonnel; 43 FOBs were still secured by PSCs. As of November 30, 2013, the
                                                         APPF comprised 20,005 personnel, according to CSTC-A. This quarter, the
                                                         APPF had 480 active contracts for their services.121
                                                            The APPF recruits officers and non-commissioned officers (NCOs) from
                                                         the ANP. New recruits attend courses on facility, convoy, and personal secu-
                                                         rity at the APPF Regional Training Center. In some cases, trained guards also
                                                         transition directly from private security companies into the APPF. According
                                                         to CSTC-A, the most recent assessment of the APPF indicates they are “par-
                                                         tially capable of conducting full spectrum security services with Coalition




                                                           90                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 90                                                                                                                         1/24/2014 11:08:23 AM
                                                                                                                  Security




                     support.” The United States has provided more than $51 million to support
                     the APPF.122 It was not clear if the money provided was payment for security
                     services rendered or to standup and/or support the APPF.
                                                                                                                                                  SIGAR Audit
                                                                                                                                                  A SIGAR audit report released at the
                                                                                                                                                  end of last quarter found that the tran-
                     Afghan National Army                                                                                                         sition to APPF-provided security has
                     As of December 31, 2013, the United States had obligated $31.7 billion and                                                   had a minimal effect on projects, but
                     disbursed $30.1 billion of ASFF funds to build, train, and sustain the ANA.123                                               only because implementing partners
                                                                                                                                                  hired risk management companies to
                     ANA Strength                                                                                                                 fill APPF capacity gaps and perform
                     As of December 30, 2013, the overall end strength of the ANA was 185,386                                                     critical functions. For more information,
                     personnel (178,816 Army and 6,529 Air Force), according to CSTC-A. The                                                       see SIGAR Audit 13-15.
                     ANA’s end strength showed a modest increase (1%) since last quarter, as
                     shown in Table 3.7. The total includes 10,251 ANA personnel and 41 Air
                     Force personnel who were AWOL, 10,905 trainees, students, and those
                     awaiting assignment, as well as 5,010 cadets, according to CSTC-A. The
                     ANA includes 9,336 civilians (both ANA and Air Force personnel) in its end
                     strength.124 SIGAR’s reporting of ANA’s end strength does not include these
                     civilians, but does count unassigned military personnel and cadets.

                     Table 3.7


                     ANA STRENGTH, QUARTERLY CHANGE
                                                                     Authorized                                        Assigned
                                                                                      Quarterly                                       Quarterly
                      ANA Component                    Q3 2013        Q4 2013          Change           Q3 2013            Q4 2013     Change
                      201st Corps                        18,130         18,130           None             18,636             18,749       +113
                      203rd Corps                        20,798         20,798           None             20,220             21,098       +878
                      205th Corps                        19,097         19,097           None              19,331           18,963        -368
                      207th Corps                        14,879          14,879           None             13,753           14,320       +567
                      209th Corps                        15,004          15,004           None             14,681           15,364       +683
                      215th Corps                        17,555          17,555           None             17,640           18,132       +492
                      111th Capital Division              9,174           9,174           None              9,492            9,276        -216
                      Special Operations Force           11,013          11,013           None             10,925           10,756        -169
                      Echelons Above Corpsa              36,275          36,002           -273             33,687           25,992      -7,695
                      TTHSb                                   -               -              -             18,453c          15,915d     -2,538
                      AWOLe                                   -               -              -              8,797f          10, 251     +1,454
                      ANA TOTAL                       161,925         161,652             -273         176,818         178,816         +1,998
                      Afghan Air Force (AAF)             7,097           7,370           +273             6,616           6,529            -87
                      AAF AWOL                               -               -              -                 -              41
                      ANA + AAF TOTAL                 169,022         169,022           NONE           183,434         185,386         +1,952
                     Notes: Q3 data is as of 8/20/2013; Q4 data is as of 12/30/2013.
                     a	Includes MOD, General Staff, and Intermediate Commands
                     b	Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel
                     c	Includes 4,667 cadets
                     d	Includes 4,736 cadets
                     e	Absent without leave
                     f	AWOL personnel were rolled into the assigned strength last quarter


                     Sources: CSTC-A, responses to SIGAR data calls, 10/1/2013 and 1/6/2014; Teleconference with CSTC-A officials, 1/4/2014.




                     Report to the united states congress                         I   January 30, 2014                                   91



Jan2014_QR.indb 91                                                                                                                                                                   1/24/2014 11:08:23 AM
                     Security




                     Personnel “Unavailable” and “Present for Duty”
                     The number of personnel in the Afghan security forces—coupled with
                     performance assessments and other reporting mechanisms—is one of the
                     main metrics used to determine the effectiveness of U.S. programs to build
                     the ANSF. SIGAR has been tracking the number of ANSF personnel since
                     its inception.
                         Determining ANSF strength continues to prove challenging. In July
                     2012, following a request from SIGAR, CSTC-A defined two major terms—
                     “unavailable” and “present for duty”—used to show the status of ANA
                     personnel. In its July 2013 response to a request for data, CSTC-A stated
                     that “The ANA counts those personnel ‘in the field’ or actively engaged in
                     combat operations as unavailable, with present for duty only representing
                     those personnel ‘in barracks.’ This explains the low present for duty num-
                     bers for those Corps actively engaged in ops.”125
                         This quarter, the percentage of ANA personnel “unavailable” ranged from
                     70.1% for the 215th Corps to 20.5% for the 209th Corps. About 1.7% of the
                     Afghan Air Force’s 6,529 personnel were unavailable.126
                         Although limited details were available to account for the 126,658 per-
                     sonnel assigned to the ANA’s combat forces this quarter, SIGAR determined
                     that these forces included personnel in the following categories:127
                      •	 Present for Duty or “Combat Strength”: 62,753 (50%)
                      •	 Unavailable (including personnel in combat and on leave, but not
                         personnel AWOL): 54,862 (43%)
                      •	 Absent without Leave (AWOL): 9,043 (7%)

                        However, as part of an ongoing audit, SIGAR was provided data on the
                     ANA’s strength as of October 21, 2013, that can help put these numbers in
                     perspective. At that time, 72,641 personnel were “unavailable,” including the
                     following (partial list):128
                     •	 In Combat: 39,249
                     •	 On leave: 19,570
                     •	 AWOL: 8,489
                     •	 On temporary assigned duty, inside the Afghan border: 3,541
                     •	 Outside TAD, temporary assigned duty, outside the Afghan Border: 2,116
                     •	 Course, soldier is currently parading on an authorized course outside
                         the unit: 2,503
                     •	 In Hospital, soldier is in a military hospital: 699
                     •	 WIA, wounded in action: 645
                     •	 Detained, soldier is arrested and in a military jail: 264
                     •	 Unit Patient, soldier is in a unit field medical facility: 35
                     •	 Detainee in Unit, soldier is in custody of military police: 21
                     •	 Unauthorized absence with no weapons: 7
                     •	 Unauthorized absence with weapon: 1
                     •	 Captured by the enemy: 1




                       92                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 92                                                                                     1/24/2014 11:08:23 AM
                                                                                   Security




                     ANA Attrition
                     Attrition continues to be a major challenge for the ANA. Between January
                     and November 2013, 38,916 ANA personnel left the service. The ANA has
                     also suffered serious losses from fighting. Between December 2011 and
                     November 2013, the ANA had 2,055 personnel killed in action (KIA) and
                     10,484 wounded in action (WIA).129

                     ANA Sustainment
                     As of December 31, 2013, the United States had obligated $11.4 billion and
                     disbursed $11.1 billion of ASFF funds for ANA sustainment.130

                     ANA Salaries, Food, and Incentives
                     As of December 30, 2013, CSTC-A reported that the United States had
                     provided nearly $2 billion through the ASFF to pay for ANA salaries, food,
                     and incentives since FY 2008. CSTC-A also estimated the annual amount of
                     funding required for the base salaries, bonuses, and incentives of the ANA
                     at $542 million.131 This is a decrease from the estimate provided last quarter
                     of $931 million per year.132 CSTC-A explained that last quarter’s estimate
                     was based on the money Afghanistan’s Defense Ministry actually spent
                     in these areas. The latest figures are based on all disbursements made by
                     DOD’s Defense Finance and Accounting Services to Da Afghanistan Bank—
                     Afghanistan’s central bank—in FY 1392 (December 2012­–December 2013).
                     CSTC-A noted that funding is provided assuming the ANA is staffed at 100%
                     of its authorized strength.133 As shown earlier, that assumption generally
                     does not correspond to reported data.

                     ANA Equipment, Transportation, and Sustainment
                     Determining the amount and cost of equipment provided to the ANA
                     remains a challenge. Since April 2013, CSTC-A’s reported total cost for
                     weapons procured for the ANA has been falling due to corrections in deter-
                     mining the price of weapons. Between April 2013 and December 2013, the
                     total reported cost for weapons purchased for the ANA has fallen from
                     $878 million to $439 million.134
                        CSTC-A has provided several explanations for the ongoing decrease
                     in cost for weapons procured. In response to a recurring question from
                     SIGAR, requesting the total “cost of weapons and weapons-related equip-
                     ment procured and fielded to date,” CSTC-A stated in April 2013 that the
                     United States had procured $878 million of weapons for the ANA.135 In
                     July 2013, CSTC-A reported that the total cost for weapons was actually
                     $623 million due to a $153 million correction in the total cost of some equip-
                     ment and accounting for nearly $102 million in donated equipment that was
                     not U.S.-funded.136 In October 2013, CSTC-A stated that the actual total cost
                     of weapons procured for the ANA was $447 million. According to CSTC-A,
                     the “decrease in the number procured from last quarter is a result of an




                     Report to the united states congress   I   January 30, 2014             93



Jan2014_QR.indb 93                                                                                    1/24/2014 11:08:23 AM
                                                         Security




                                                         extensive internal audit that revealed some equipment had been double-
                                                         counted.”137 This quarter, the total cost fell again to $439 million. CSTC-A
                                                         said the “decrease in total cost [was] due to discovery of incorrect pricing
                                                         during [an] internal audit.” Moreover, CSTC-A noted that although the cost
                                                         for donated weapons was not included, “the refurbishment and transporta-
                                                         tion cost of donated weapons was included because [reconstruction] funds
                                                         were used.”138
             SIGAR Audit                                    The ongoing corrections to the cost of equipment procured—a cumula-
                                                         tive total that should rise rather than fall every quarter—raises questions
             In an audit report released last quarter,
                                                         about the accountability for U.S. funds used to equip the ANA. SIGAR is
             SIGAR found that CSTC-A was placing
                                                         currently conducting an audit of ANSF weapons accountability.
             orders for vehicle spare parts without
                                                            CSTC-A also noted that the cost of ANA equipment remaining to be pro-
             accurate information on what parts
                                                         cured has increased from $27 million last quarter to $99 million this quarter
             were needed or were already in stock.
                                                         due to increased requirements.139
             CSTC-A relies on the ANA to maintain
                                                            As of December 30, 2013, the United States had obligated and disbursed
             records of vehicle spare parts availabil-
                                                         $11.3 billion of the ASFF for ANA equipment and transportation.140 Most of
             ity and future requirements. However,
                                                         these funds were used to purchase weapons and related equipment, vehi-
             the ANA has not been consistently
                                                         cles, communications equipment, aircraft, and aviation-related equipment.
             updating its inventory.
                                                         More than 80% of U.S. funding in this category was for vehicles and trans-
                                                         portation-related equipment, as shown in Table 3.8.
                                                         Table 3.8


                                                         COST of U.S.-Funded ANA Equipment
                                                          Type of Equipment                                        Procured           Remaining to be Procured
                                                          Weapons                                                $439,229,147             $32,390,974
                                                          Vehicles                                             $4,385,763,395             $14,784,960
                                                          Communications Equipment                               $612,205,922             $51,610,799
                                                          Total                                              $5,437,198,464             $98,786,733
                                                         Source: CSTC-A, response to SIGAR data call, 12/30/2013.



                                                            The United States has also procured $1.3 billion in ammunition for the
                                                         ANA and nearly $7 billion worth of other equipment and supplies to sus-
                                                         tain the ANA. According to CSTC-A, this latter amount was determined by
                                                         subtracting the cost of weapons, vehicles, communications equipment, and
                                                         ammunition from overall equipment and sustainment costs.141 Last quarter,
                                                         CSTC-A said the United States has spent nearly $774 million on other equip-
                                                         ment such as clothing and personal gear.142

                                                         ANA Infrastructure
                                                         As of December 31, 2013, the United States had obligated $6 billion and dis-
                                                         bursed $4.8 billion of the ASFF for ANA infrastructure.143 At that time, the
                                                         United States had completed 255 infrastructure projects (valued at $2.9 bil-
                                                         lion), with another 123 projects ongoing ($2.5 billion) and three planned
                                                         ($22 million), according to CSTC-A.144




                                                             94                          Special inspector general          I   Afghanistan reconstruction




Jan2014_QR.indb 94                                                                                                                                               1/24/2014 11:08:23 AM
                                                                                   Security




                        This quarter, the largest ongoing ANA infrastructure projects were a
                     brigade garrison for the 201st Corps in Kunar (at a cost of $115.8 million),
                     phase one of the MOD’s headquarters in Kabul ($108 million), and a brigade         SIGAR Audit
                     garrison for the 205th Corps in Kandahar ($89.1 million).145 In addition, 15       In an audit report released last quarter,
                     projects were completed this quarter at a cost of $236 million, 9 contracts        SIGAR identified 52 construction
                     worth $258 million were terminated, and 10 contracts worth $360 million            projects that may not meet ISAF’s De-
                     were transferred.146                                                               cember 2014 construction-completion
                        According to CSTC-A, the projected operations and maintenance (O&M),            deadline and would therefore be at risk
                     sustainment, restoration, and minor construction cost for ANA infrastruc-          due to lack of oversight and increasing
                     ture for FY 2015 through FY 2019 is $966 million:147                               costs. In addition, SIGAR learned that
                     •	 FY 2015: $209 million                                                           CSTC-A does not track the ANSF’s use
                     •	 FY 2016: $199 million                                                           of constructed facilities and cannot
                     •	 FY 2017: $186 million                                                           determine whether existing or planned
                     •	 FY 2018: $186 million                                                           facilities meet ANSF needs or are being
                     •	 FY 2019: $186 million                                                           used for intended purposes.

                        CSTC-A noted that any estimated post-transition costs are based on cur-
                     rent capacity levels and do not take into account any future policy decisions
                     which could impact future cost estimates.148

                     ANA and MOD Training and Operations
                     As of December 31, 2013, the United States had obligated and disbursed
                     $2.9 billion of the ASFF for ANA and MOD operations and training.149
                     This quarter, 17,706 ANA personnel were enrolled in some type of train-
                     ing—down from 43,942 enrollees last quarter. Of that amount, 844 were
                     enrolled in literacy training—down from 31,850—according to NTM-A.150
                     NTM-A did not provide an explanation for the massive drop in enrollment
                     from training courses.
                        Of those ANA personnel in training, 3,795 enlisted personnel were
                     enrolled in basic warrior-training courses, 5,010 were training to become
                     commissioned officers, and 2,680 were training to become NCOs. Other
                     training programs include combat training in the United States, transporta-
                     tion and driving courses, and weapons systems training.151
                        According to NTM-A, the United States funds a variety of contracts to
                     train the MOD and the ANA. The largest of these are a $285 million contract
                     for advising, training, and supporting the MOD; a $203 million contract to
                     build the intelligence-collection capacity of both the ANA and ANP; and a
                     $31 million contract to train ANA criminal investigators.
                        According to NTM-A, $188 million was obligated for training in 2013.152      A team of Afghan National Army soldiers
                     NTM-A is also funding three contracts with a combined value of $200 mil-        prepares to breach a door during training in
                     lion to improve literacy in the ANA and the ANP.153                             Nangarhar Province. (DOD photo)




                     Report to the united states congress   I   January 30, 2014            95



Jan2014_QR.indb 95                                                                                                                        1/24/2014 11:08:24 AM
                                                          Security




                                                          ANA Literacy
                                                          Since 2009, NTM-A has viewed increasing literacy rates as critical to
                                                          developing a capable, professional, and sustainable ANSF. An NTM-A com-
                                                          mander estimated that the ANSF’s overall literacy rate in 2010 was 14%.154
                                                          At the time, NTM-A set a goal of having the ANSF achieve 100% proficiency
                                                          for level 1 literacy and 50% proficiency at level 3 literacy.155
                                                              Level 1 literacy is the ability to read and write single words, count up
                                                          to 1,000, and add and subtract whole numbers. At level 2, an individual
                                                          can read and write sentences, carry out basic multiplication and division,
                                                          and identify units of measurement. At level 3, an individual has achieved
                                                          functional literacy and can “identify, understand, interpret, create, commu-
                                                          nicate, compute and use printed and written materials.”156
                                                              In an audit report released this quarter, SIGAR found that NTM-A’s goals
                                                          were based on the ANSF’s 2009 authorized strength of 148,000 personnel
                                                          rather than on the current authorized strength of 352,000. The audit also
                                                          found that NTM-A’s ability to measure the effectiveness of the literacy
                                                          program is limited because none of the contracts requires independent veri-
                                                          fication of testing for proficiency or identifies recruits in a way that permits
                                                          accurate tracking as they move on to army and police units.157
                                                              As of December 30, 2013, NTM-A reported that ANA personnel who have
                                                          completed a literacy program include:158
                                                           •	 148,738 level 1 graduates
                                                           •	 43,651 level 2 graduates
                                                           •	 41,182 level 3 graduates
             SIGAR Audit
             In an audit report released this quarter,        Although NTM-A earlier reported that the literacy programs had
             SIGAR found that NTM-A/CSTC-A’s goal         achieved their goal of having 50,000 ANSF personnel achieve level 3 or
             for achieving literacy in the ANSF was       “functional literacy,” NTM-A could not tell SIGAR how many of the ANA
             based on outdated ANSF personnel             level 3 graduates were still in the ANA. NTM-A said the ANA was not able
             estimates and, therefore, may not be         to track this.159 This quarter, NTM-A issued two new literacy goals: train
             attainable. In addition, CSTC-A’s ability    and graduate 30,000 ANSF personnel to level 3 in 2014, and train/graduate
             to measure the effectiveness of the          2,500 ANSF trainers (1,500 for the ANA and 1,000 for the ANP) so that the
             literacy training program was limited.       ANSF can conduct their own literacy training. While NTM-A again noted
             None of the three literacy training con-     this quarter that the literacy rate of the ANSF remains “unattainable,” it
             tracts require independent verification      reported that over 9,200 ANA personnel graduated from level 3 training
             of testing for proficiency or identify and   with in the last six months.160
             track recruits as they move on to their          Since 2010, the United States has funded three literacy contracts for the
             units. Furthermore, the contracts do         ANSF. Each has a base year and a five-year limit—one-year options may
             not adequately define what constitutes       be exercised in August of each year—and a maximum cost of $200 mil-
             a literacy class. One contractor billed      lion.161 According to NTM-A, these contractors were providing literacy
             the government for classes held for as       trainers to both the ANA and the ANP. They have assigned 699 literacy
             little as two hours in a month. For more     trainers to the ANA:162
             information, see Section 2, page 26.          •	 OT Training Solutions, a U.S. company, was providing 271 trainers.
                                                           •	 Insight Group, an Afghan company, was providing 208 trainers.




                                                            96                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 96                                                                                                                           1/24/2014 11:08:24 AM
                                                                                   Security




                     •	 The Higher Education Institute of Karwan, an Afghan company, was
                        providing 220 trainers.

                         The estimated cost of these contracts—including contracts for ANP
                     literacy training—for 2014 is $25 million. NATO has set aside an additional
                     $31 million to fund the last year of these contracts.163

                     Women in the ANA and Afghan Air Force
                     This quarter, CSTC-A reported two figures for the number of women in the
                     ANA and the Afghan Air Force. The first figure is provided to CSTC-A by the
                     ANA. According to the ANA’s figure, 684 women serve in the ANA and the
                     Afghan Air Force. Of those, 633 serve in the ANA—219 officers, 209 NCOs,
                     50 enlisted personnel, and 155 cadets—and 51 serve in the Afghan Air
                     Force—21 officers, 13 NCOs, 8 enlisted personnel, and 9 cadets.164
                        Advisors in the field, however, could confirm only 491 women in the
                     ANA—273 officers, 147 NCOs, 28 enlisted personnel, and 43 cadets.
                     According to CSTC-A, the discrepancy “may reflect civilian females who
                     are working in the supply chain (e.g. sewing factories).” CSTC-A noted
                     that over the next 6­–8 weeks, a civilian personnel list will be created which
                     “should create greater visibility between civilian employees and mili-           Afghan Air Force graduates of
                     tary members.” It was unclear if male civilian employees were still being        undergraduate pilot training wait to receive
                     counted as part of the overall ANA’s strength.165                                their pilot wings at a ceremony at Shindand
                        The current recruitment and retention goal is for 10% of the ANA—includ-      Air Base. (DOD photo)
                     ing the Afghan Air Force—to be women.166 However, despite some progress,
                     this goal remains elusive. Women make up less than 1% of the force.

                                                                                                         SIGAR Audits
                     Afghan Air Force                                                                    This quarter, SIGAR announced it is
                     This quarter, CENTCOM reported that the Afghan Air Force has 103 aircraft,          initiating an audit of U.S. support for
                     excluding aircraft “no longer in service (crashed)” and 10 Mi-17 helicopters        the Afghan Air Force to examine the
                     are on loan to Afghanistan’s Special Mission Wing.167                               U.S. investment in, planning for, and
                         The United States has a considerable investment in the Afghan Air Force.        training of the Afghan Air Force.
                     Between FY 2010 and FY 2012 alone, the United States provided more than
                     $5 billion to support and develop the 6,529-person Afghan Air Force—
                                                                                                         In an audit report released last quarter,
                     including over $3 billion for equipment and aircraft. In addition, DOD
                                                                                                         SIGAR found that DOD was moving
                     requested an additional $2.9 billion—including $1.24 billion for equipment
                                                                                                         forward with a $771.8 million pur-
                     and aircraft—in FYs 2013 and 2014 for the Afghan Air Force, as shown in
                                                                                                         chase of aircraft for the SMW despite
                     Table 3.9 on the following page.
                                                                                                         the SMW having less than one-quarter
                         According to CENTCOM, the Afghan Air Force inventory consisted of
                                                                                                         of the personnel needed, facing steep
                     103 aircraft:168
                                                                                                         recruitment and training challenges,
                      •	 58 Mi-17 transport helicopters (18 more than last quarter)
                                                                                                         and lacking the ability to maintain its
                      •	 6 Mi-35 attack helicopters (of which 5 are flight capable)
                                                                                                         current aircraft fleet.
                      •	 26 C-208 light transport planes
                      •	 6 C-182 fixed wing training aircraft




                     Report to the united states congress   I   January 30, 2014             97



Jan2014_QR.indb 97                                                                                                                           1/24/2014 11:08:24 AM
                                                                          Security




        Table 3.9


         U.S. Funding to support and develop the Afghan Air Force, 2010–2014                                                          ($ THOUSANDS)

          Funding Category                                     FY 2010                    FY 2011                    FY 2012            FY 2013 (request)                  FY 2014 (request)
          Equipment and Aircraft                              461,877                    778,604                  1,805,343                     169,779                          1,068,329
          Training                                              62,438                   187,396                     130,555                    188,262                             192,354
          Sustainment                                         143,784                    537,650                     571,639                    473,946                             777,748
          Infrastructure                                        92,200                   179,600                     113,700                              0                                 0
          Total                                            $760,299                $1,683,250                 $2,621,237                    $831,987                         $2,038,431
        Sources: DOD, Budget Fiscal Year (FY) 2012, Justification for FY 2012 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2011, pp. 8, 19, 30, and 44; DOD, Budget Fiscal Year
        (FY) 2013, Justification for FY 2013 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2012, pp. 5, 13, 19, and 32; DOD, Budget Fiscal Year (FY) 2014, Justification for FY
        2014 Overseas Contingency Operations Afghanistan Security Forces Fund, 5/2013, pp. 5, 11, 20, and 37.



                                                                          •	 5 MD-530F rotary-wing helicopters
                                                                          •	 2 C-130H medium transport aircraft

                                                                             Changes to the inventory since last quarter include: the addition of 18
                                                                          Mi-17 helicopters and two C-130H aircraft, and the removal of one MD-530F
                                                                          helicopter (destroyed when it landed on an improvised explosive device
                                                                          during a training exercise), five Mi-35 helicopters (no longer operational),
                                                                          and 16 G-222 cargo planes (also referred to as the C-27A).169 SIGAR had
                                                                          expressed concern about the Afghan Air Force’s reported inventory of the
                                                                          16 G-222 aircraft after a DOD Office of Inspector General (DOD OIG) offi-
                                                                          cial told Congress that those aircraft were no longer in service.170 SIGAR
             SIGAR Special Project                                        had also received photos showing the 16 G-222 aircraft sitting unused
                                                                          and was concerned that the aircraft were not in service or fit for service
             This quarter, SIGAR initiated a special
                                                                          in the future. Another four G-222s sit at a base in Germany. According to
             project to review the $486.1 million in
                                                                          CENTCOM, the aircraft titles were never transferred to the Afghan govern-
             acquisition and sustainment costs of
                                                                          ment; the program for these aircraft was cancelled because the contractor
             the terminated G-222 (C-27A) aircraft
                                                                          did not meet its obligations.171
             program.
                                                                             In November 2013, SIGAR initiated an audit of U.S. support for the
                                                                          Afghan Air Force. That audit is currently ongoing.


                                                                          Afghan National Police
                                                                          As of December 31, 2013, the United States had obligated $15.8 billion and
                                                                          disbursed $14.9 billion of ASFF funds to build, train, and sustain the ANP.172

                                                                          ANP Strength
                                                                          In November 2013, the overall strength of the ANP was 149,466 personnel,
                                                                          including 106,784 Afghan Uniform Police (AUP), 20,902 Afghan Border
                                                                          Police (ABP), 13,597 Afghan National Civil Order Police (ANCOP), 2,850 in
                                                                          the Counter Narcotics Police of Afghanistan (CNPA), and 5,333 students in
                                                                          training. The overall ANP strength has decreased by 3,191 since last quarter,
                                                                          as shown in Table 3.10. According to CSTC-A, unlike the ANA, the MOI does




                                                                              98                            Special inspector general                 I   Afghanistan reconstruction




Jan2014_QR.indb 98                                                                                                                                                                                       1/24/2014 11:08:24 AM
                                                                                                              Security




                     not report ANP personnel who are on leave, AWOL, sick, or on temporary
                     assignment in its personnel reports. For this reason, it is not known what
                     the actual operational strength of the ANP is at any given time.173
                     Table 3.10


                     ANP STRENGTH, QUARTERLY CHANGE
                                                                Authorized                                        Assigned
                                                                                   Quarterly                                      Quarterly
                      ANP Component               Q3 2013          Q4 2013          Change         Q3 2013         Q4 2013         Change
                      AUP                          110,369         110,369           None          109,574          106,784        -2,294
                      ABP                           23,090           23,090          None           21,399            20,902         -497
                      ANCOP                         14,541           14,541          None           14,516            13,597         -919
                      NISTAa                          6,000           6,000          None             4,905            5,333         +428
                      ANP Total                  154,000          154,000           None         150,394          146,616         -3,282
                      CNPA                            2,247           2,243           -4                2,759          2,850          +91
                      ANP + CNPA Total           156,247          156,243             -4         153,153            149,466       -3,191
                     Notes: Q3 data is as of 8/20/2013; Q4 data is as of 11/2013; AUP = Afghan Uniform Police; ABP = Afghan Border Police;
                     ANCOP = Afghan National Civil Order Police.
                     a	NISTA = personnel in training


                     Sources: CSTC-A, responses to SIGAR data calls, 10/1/2013 and 12/30/2013; CENTCOM, response to SIGAR vetting,
                     1/15/2014 .




                     ANP Sustainment
                     As of December 31, 2013, the United States had obligated $5.5 billion and
                     disbursed $5.4 billion of ASFF funds for ANP sustainment.174 According to
                     CSTC-A, the United States has contributed more than $1.1 billion to the Law
                     and Order Trust Fund for Afghanistan (LOTFA) to support the ANP.175

                     ANP Salaries                                                                                                             ANP Pay Missed
                     From 2008 through December 30, 2013, the U.S. government had provided                                                    A recent discovery of an Afghan ministerial
                     $939 million through the ASFF to pay ANP salaries, food, and incentives                                                  mix-up may reinforce questions about
                     (extra pay for personnel engaged in combat or employed in specialty fields),                                             ministry competence and security-force
                     CSTC-A reported.176                                                                                                      motivation. The New York Times has
                        According to CSTC-A, when the ANP reaches its final strength of 157,000                                               reported that the Afghan Interior Ministry
                                                                                                                                              was late getting salary paperwork for the
                     personnel, it will require an estimated $628.1 million per year to fund sala-
                                                                                                                                              country’s police to the Finance Ministry.
                     ries ($265.7 million), incentives ($224.2 million), and food ($138.2 million).
                                                                                                                                              Tens of thousands of police got no pay for
                     CSTC-A noted that these funding amounts are supported by LOTFA, the                                                      December 2013—or, in six provinces, for
                     Afghan government and CSTC-A.177                                                                                         November—even though the donor-provided
                                                                                                                                              funds were in the Afghan treasury. The
                     ANP Equipment, Transportation, and Sustainment                                                                           Interior Ministry says several officials have
                     As of December 31, 2013, the United States had obligated and disbursed                                                   been sacked, the pay will be issued, and
                     $3.6 billion of ASFF funds for ANP equipment and transportation.178 Most of                                              “This will not happen again.”
                     these funds were used to purchase weapons and related equipment, vehi-                                                   Source: The New York Times, “Afghan Police, Often Derided,
                     cles, and communications equipment.179 Most funding was for vehicles and                                                 Face Another Drawback: Missing Pay,” 1/12/2014.

                     vehicle-related equipment, as shown in Table 3.11 on the following page.




                     Report to the united states congress                      I   January 30, 2014                                  99



Jan2014_QR.indb 99                                                                                                                                                                             1/24/2014 11:08:24 AM
                      Security




                      Table 3.11


                      COST of U.S.-Funded ANP Equipment
                       Type of Equipment                                           Procured             Remaining to be Procured
                       Weapons                                                   $187,251,477                  $4,691,866
                       Vehicles                                              $1,966,075,183                    $3,744,582
                       Communications Equipment                                  $211,062,672                    $845,223
                       Total                                             $2,364,389,332                      $9,281,671
                      Source: CSTC-A, response to SIGAR data call, 12/30/2013.



                         As with the ANA, determining the cost of equipment provided to the ANP
                      remains a challenge. CSTC-A reporting in this area has been inconsistent,
                      raising questions about visibility and accountability for U.S. funding used
                      to procure equipment for the ANP. For example, CSTC-A’s estimate of the
                      total cost of U.S.-funded ANP weapons procured fell from $369 million two
                      quarters ago to $137 million last quarter.180 At that time, CSTC-A said the
                      “decrease in total cost from last quarter [was] due to actual, contracted
                      equipment pricing being lower than estimated pricing.”181 This quarter,
                      CSTC-A said the total cost for ANP weapons procured was $187 million, an
                      increase “caused by inclusion of weapons procured through alternate fund-
                      ing vehicles.”182
                         CSTC-A’s estimate of the total cost of vehicles procured for the ANP has
                      also been decreasing. In July 2013, CSTC-A stated the total cost of vehicles
                      was $2.65 billion.183 Last quarter, CSTC-A stated the actual cost of vehicles
                      procured was $2.03 billion. According to CSTC-A, the “decrease in the
                      number procured from last quarter is a result of an extensive internal audit
                      that revealed some equipment had been double-counted.”184 This quarter,
                      the total cost of ANP vehicles procured again fell, this time to $1.97 billion.
                      According to CSTC-A, the reason for the decrease from last quarter was
                      “due to actual obligated, contracted equipment pricing being higher.”185 It
                      was not clear why a higher price would result in an overall decrease in the
                      cost of vehicles procured to date.
                         The United States has also procured $312 million in ammunition for the
                      ANP and nearly $1.4 billion worth of other equipment and supplies to sus-
                      tain the ANP. According to CSTC-A, this latter amount was determined by
                      subtracting the cost of weapons, vehicles, communications equipment, and
                      ammunition from overall equipment and sustainment costs.186

                      ANP Infrastructure
                      As of December 31, 2013, the United States had obligated $3.3 billion and
                      disbursed $2.6 billion of ASFF funds for ANP infrastructure.187 At that time,
                      the United States had completed 599 infrastructure projects (valued at
                      $2.1 billion), with another 136 projects ongoing ($776 million) and three
                      planned ($21 million), according to CSTC-A.188




                        100                           Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 100                                                                                                                1/24/2014 11:08:24 AM
                                                                                    Security




                         This quarter, 20 projects valued at $77 million were completed and 19 val-
                      ued at $84 million were terminated. The largest ongoing ANP infrastructure
                      projects were administrative facilities ($59.5 million), building and utilities
                      ($34.3 million) at the MOI Headquarters, and an ANCOP patrol station in
                      Helmand ($28.5 million).189

                      ANP Training and Operations
                      As of December 31, 2013, the United States had obligated $3.4 billion and
                      disbursed $3.3 billion of ASFF funds for ANP and MOI training and opera-
                      tions.190 This quarter, 9,513 ANP personnel were enrolled in some type of
                      training, according to NTM-A. Of those, 1,422 were training to become offi-
                      cers and 3,404 were training to become NCOs.191
                         NTM-A/CSTC-A contracts with DynCorp International to provide train-
                      ing, mentoring, and support services at multiple training sites around the
                      country. The ASFF-funded contract provides 356 mentors and trainers as
                      well as approximately 1,045 support personnel at regional training centers
                      and in mobile support teams. The contract value is $1.21 billion.192

                      ANP Literacy
                      NTM-A’s literacy program for the ANP uses the same three contractors,
                      follows the same curriculum, and uses the same standards as the ANA’s lit-
                      eracy program described earlier in this section.193                               SIGAR Audit
                         As of December 30, 2013, ANP personnel who have completed a literacy           In an audit report released this quarter,
                      program include:194                                                               SIGAR found that NTM-A/CSTC-A’s goal
                      •	 84,905 level 1 graduates                                                       for achieving literacy in the ANSF was
                      •	 54,997 level 2 graduates                                                       based on outdated ANSF personnel
                      •	 35,652 level 3 graduates                                                       estimates and, therefore, may not be
                      According to NTM-A, the contractors were providing 531 literacy trainers to       attainable. For more information, see
                      the ANP:195                                                                       Section 2, page 26.
                      •	 OT Training Solutions, a U.S. company, was providing 297 trainers.
                      •	 Insight Group, an Afghan company, was providing 112 trainers.
                      •	 The Higher Education Institute of Karwan, an Afghan company, was
                          providing 122 trainers.

                      Women in the ANP
                      As in prior quarters, the number of women in the ANP is increasing, but
                      progress has been slow toward reaching the goal to have 5,000 women in
                      the ANP by the end of 2014. CSTC-A said that “the ANP is currently focused
                      more on finding secure areas (i.e., positions with appropriate facilities
                      for females) for recruits than increasing recruiting to reach this target.”196
                      Despite an increase this quarter, women make up only 1% of the force.
                         As of December 2013, ANP personnel included 1,592 women—232 offi-
                      cers, 636 NCOs, and 724 enlisted personnel—according to CSTC-A.197 This is
                      an increase of 388 women in two years (since August 22, 2011).198




                      Report to the united states congress   I   January 30, 2014             101



Jan2014_QR.indb 101                                                                                                                       1/24/2014 11:08:24 AM
                                                                         Security




                                                                         ANSF Medical/Health Care
                                                                         As of December 31, 2013, the United States has funded construction of 175
                                                                         ANSF medical facilities valued at $134 million with an additional 12 proj-
                                                                         ects ongoing valued at $36 million. In addition, Coalition forces obligated
                                                                         $10 million in contracts to provide the ANSF with medical training, accord-
                                                                         ing to CSTC-A. Since 2006, Coalition forces have procured and fielded
                                                                         $41 million in ANSF medical equipment.199
                                                                            This quarter, CSTC-A reported the ANSF health care system had 1,087
                                                                         physicians out of 1,263 authorized. Of these, 603 were assigned to the ANA
                                                                         and 484 were assigned to the ANP. The ANSF had 7,793 other medical per-
                                                                         sonnel (including nurses and medics) out of 8,337 authorized.200


                                                                         Removing Unexploded Ordnance
                                                                         Since 2002, the U.S. Department of State has provided more than $283 mil-
                                                                         lion in funding for weapons destruction and demining assistance to
                                                                         Afghanistan, according to its Bureau of Political-Military Affairs’ Office of
        Afghan National Army soldiers bandage a                          Weapons Removal and Abatement (PM/WRA).201 Through its Conventional
        fellow soldier with a simulated injury during
                                                                         Weapons Destruction program, State funds five Afghan nongovernmental
        casualty-care training in Laghman Province.
        (DOD photo)                                                      organizations (NGOs), five international NGOs, and a U.S. government con-
                                                                         tractor. These funds enable clearance of areas contaminated by explosive
                                                                         remnants of war and support removal and destruction of abandoned weap-
                                                                         ons that insurgents might use to construct improvised explosive devices.202
                                                                            From October 1, 2012, through September 30, 2013, State-funded imple-
                                                                         menting partners cleared more than 25 million square meters (nearly 10
                                                                         square miles) of minefields, according to the most recent data from the
                                                                         PM/WRA.203 An estimated 537 million square meters (more than 200 square
                                                                         miles) of contaminated areas remain to be cleared, as shown in Table 3.12.
                                                                         The PM/WRA defines a “minefield” as an area contaminated by landmines,
                                                                         and a “contaminated area” as an area contaminated with both landmines
                                                                         and explosive remnants of war.204
        Table 3.12


         CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, October 1, 2012–September 30, 2013
                                                                                                                 Fragments               Minefields           Estimated Contaminated Area
          Date Range                    AT/AP Destroyed         UXO Destroyed           SAA Destroyed             Cleared               Cleared (m2)                Remaining (m2)
          10/1–12/31/2012                       2,146                62,449                  22,373               3,672,661                7,265,741                    570,000,000
          1/1–3/31/2013                         1,984               100,648                105,553                3,722,289                7,978,836                    552,000,000
          4/1–6/30/2013                         1,058                18,735                  49,465               1,079,807                5,586,198                    537,000,000
          7/1–9/30/2013                         1,243                21,192                  98,306               1,673,926                4,229,143                    521,000,000
          TOTAL                               6,431               203,024                 275,697             10,148,683               25,059,918                    521,000,000
        Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
        other objects until their nature is determined.

        Source: State, PM/WRA, response to SIGAR data call, 12/30/2013.




                                                                            102                           Special inspector general                I   Afghanistan reconstruction




Jan2014_QR.indb 102                                                                                                                                                                              1/24/2014 11:08:24 AM
                                                                                    Security




                      Oversight of Contract Management
                      CSTC-A reported that NTM-A/CSTC-A currently has 71 Contracting Officer
                      Representatives (CORs)—including U.S. and Coalition military and civil-
                      ian personnel—overseeing the performance of 155 ASFF-funded service
                      contracts worth $2.4 billion. According to CSTC-A, this number “is adequate
                      to deal with the number, complexity, mission criticality, and geographic
                      dispersion of its contracts.”205 CSTC-A said that this is a decline from six
                      months ago when it had 99 CORs performing oversight on 206 contracts.
                      NTM-A/CSTC-A also has five contracts managed by the Defense Contract
                      Management Agency with an additional 50 CORs trained and assigned to
                      perform contract oversight.206
                          NTM-A/CSTC-A monitors the number of CORs and ensures COR coverage
                      of contracts using several methods and tools. These include using a contract
                      management database, tracking contracts, and holding monthly general-offi-
                      cer-level meetings to discuss progress, COR coverage, and other issues.207
                          To train its CORs, NTM-A/CSTC-A follows the guidance of the U.S.
                      Army Contracting Command and the CENTCOM Joint Theater Support
                      Contracting Command. CORs are required to complete the three Defense
                      Acquisition University on-line classes. In addition, CORs must be nominated
                      by their chain of command, receive in-person training from a contracting
                      officer, and complete a financial disclosure. According to CSTC-A, lengths
                      deployments for CORs varies by service, but on average a COR would serve
                      the following lengths of time:208
                       •	 U.S. Air Force: 6 months
                       •	 U.S. Army, Navy, Marines, and Coalition: 9 months
                       •	 DOD Civilians: 12 months

                         CSTC-A reported that lack of security will continue to be a challenge
                      in executing, managing, and overseeing reconstruction contracts. CSTC-A
                      noted that it is working to transition responsibility for logistical contracts to
                      the ANSF. CSTC-A said that it has provided “a significant amount of training
                      to the ANSF to improve their procurement processes and contract over-
                      sight.”209 The IJC is also training ANSF organizations, such as the Material
                      Movement Center, to oversee the fuel ordering and reporting process.
                      CSTC-A has helped to stand up the Afghanistan Defense Acquisition and
                      Resource Management Institute, which started its first classes in June 2013.
                      In addition, over the last year, NTM-A/CSTC-A has placed six Contract
                      Advise & Assist Teams composed of a military leader with contracting
                      experience and three to four contracted mentors in six different regions
                      throughout Afghanistan. These teams mentor and advise the ANA and ANP
                      at the Corps and provincial levels.210




                      Report to the united states congress   I   January 30, 2014               103



Jan2014_QR.indb 103                                                                                       1/24/2014 11:08:25 AM
                                                         Security




                                                         Counternarcotics
                                                         Although the United States has spent billions to reduce poppy cultivation
                                                         and illicit drug trafficking, Afghanistan’s opium cultivation and production
             SIGAR Testimony                             continues to rise. In its Afghanistan Opium Survey, released in November,
             Special Inspector General John Sopko        the United Nations Office on Drugs and Crime (UNODC) said, “Opium
             testified this quarter before the Senate    poppy cultivation in Afghanistan reached a sobering record high in 2013.”
             Caucus on International Narcotics Con-      According to UNODC’s survey, a record-setting 209,000 hectares were under
             trol on the state of the U.S. counternar-   opium cultivation in 2013—a 36% increase over 2012. The previous record
             cotics effort in Afghanistan. For more      was 193,000 hectares set in 2007. Moreover, 5,500 tons of opium was pro-
             information, see Section 2, page 20.        duced in 2013, a 49% increase over 2012. And two previously poppy-free
                                                         provinces—Faryab and Balkh—lost their status this year, bringing the num-
                                                         ber of Afghanistan’s 34 provinces under cultivation to 15.211
                                                             Afghanistan is the world’s leading producer and cultivator of opium,
                                                         and may account for as much as 90% of the world production in 2013. The
                                                         impact of opium cultivation is significant. It undermines Afghanistan’s
                                                         licit economy, fuels corruption, finances the insurgency, and fosters drug
                                                         addiction. The latest data indicate that the export value of opium and its
                                                         derivatives, such as heroin and morphine, increased by more than 30% to
                                                         almost $3 billion in 2013.212 Any contraction of the Afghan economy result-
                                                         ing from the U.S. troop drawdown and reduction in international assistance
                                                         could result in the opium trade accounting for an even greater slice of the
                                                         Afghan economy.
                                                             In 2013, an alarming 48% of the poppy fields were located in Helmand
                                                         Province, a key focus of the U.S. counterinsurgency effort. From 2012 to
                                                         2013, poppy cultivation in Helmand expanded by 34% from 75,176 hectares
                                                         to 100,693 hectares.213 Seventy-five percent of the Taliban’s revenue from
                                                         drugs reportedly comes from just 12 districts. Eight of those districts are in
                                                         Helmand Province.214
                                                             The U.S. counternarcotics (CN) strategy focuses primarily on combat-
                                                         ing the narco-insurgency nexus.215 The main components of the strategy
                                                         include U.S.-sponsored eradication, promotion of alternative livelihoods,
                                                         public-awareness initiatives, and interdiction operations. As of January 17,
                                                         2014, the United States has appropriated $7.3 billion for CN initiatives in
                                                         Afghanistan since efforts began in 2002. Most of these funds were appropri-
                                                         ated through two channels: the State Department’s International Narcotics
                                                         Control and Law Enforcement (INCLE) account ($4.2 billion), and the
                                                         DOD Drug Interdiction and Counter-Drug Activities (DOD CN) Fund
                                                         ($2.9 billion).216
                                                             State’s Bureau of International Narcotics and Law Enforcement Affairs
                                                         (INL) bears the primary responsibility for funding Afghan-led eradication,
                                                         alternative livelihoods, and public awareness programs. DOD and INL coor-
                                                         dinate to support the CN efforts of Afghanistan.217 The Afghan Ministry of
                                                         Counternarcotics (MCN), in partnership with UNODC, is responsible for
                                                         verifying poppy cultivation and eradication.218




                                                          104                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 104                                                                                                                        1/24/2014 11:08:25 AM
                                                                                    Security




                      Governor Led Eradication Program
                      INL supports the Afghan government’s Governor Led Eradication (GLE)
                      program. Eradication levels are verified by the UNODC and the MCN.
                      According to a September 2013 final report, the GLE program was respon-
                      sible for eradicating 7,323 verified hectares in 842 villages in 18 provinces.
                      Compared to 2012, when 9,672 hectares were eradicated, there was a
                      24% decrease in eradication in 2013. According to INL, MCN attributes
                      the decrease to diminished ANSF support for eradication efforts, Taliban
                      attacks against the Counter Narcotics Police of Afghanistan (CNPA), the
                                                                                                       A Navy Petty Officer provides security
                      presence of cultivation in insecure and remote areas of the country, and hot
                                                                                                       for Marines and members of the Afghan
                      weather, which shortened eradication time because farmers could harvest          National Interdiction Unit as they conduct a
                      their crop earlier than in most years.219                                        counternarcotics raid in Helmand Province.
                         GLE occurs at different times of the year depending on the climate of the     (U.S. Marine Corps photo)
                      province, according to INL. Results are tracked on a cumulative basis by
                      the MCN, and are subjected to UNODC verification on a rolling basis. A sig-
                      nificant amount of eradication occurs in southern provinces. For example,
                      2,162 hectares of poppy were eradicated in Helmand and 1,083 hectares in
                      Kandahar, as opposed to 262 hectares in Farah, 447 hectares in Nangarhar,
                      and 352 hectares in Uruzgan. Only Badakhshan in the East had more poppy
                      eradicated: 2,798 hectares.220

                      Good Performer’s Initiative
                      The MCN’s Good Performer’s Initiative (GPI), funded by INL, provides
                      development assistance as an incentive to provincial governors who sig-
                      nificantly reduce or eliminate poppy cultivation within their province,
                      according to INL. Provinces that achieve poppy-free status, reduce poppy
                      cultivation by more than 10%, or demonstrate exemplary counternarcotics
                      efforts receive development assistance to support local development priori-
                      ties. A province is deemed poppy-free when UNODC, in cooperation with
                      MCN, verifies that it has fewer than 100 hectares under poppy cultivation
                      during the year. In 2013, 15 Afghan provinces qualified for GPI poppy-free
                      awards, two less than in 2012.221
                         GPI projects have included drug rehabilitation and rural development,
                      such as improvements to roads and irrigation structures that provide farm-
                      ers with access to water and markets. GPI projects provide short-term
                      employment opportunities for local communities. Since the program was
                      initiated, the number of poppy-free provinces in Afghanistan has grown
                      from six to 15, according to INL.222
                         Since the start of the GPI program in 2007, more than 200 development
                      projects are either complete or in process in all 34 of Afghanistan’s prov-
                      inces, including: school construction, road and bridge projects, irrigation
                      structures, farm machinery projects, and hospitals and clinic construction.
                      INL noted that while the backlog in implementing GPI projects has been
                      reduced, the MCN-managed program has faced implementation delays as




                      Report to the united states congress   I   January 30, 2014            105



Jan2014_QR.indb 105                                                                                                                       1/24/2014 11:08:25 AM
                      Security




                      the capacity of the MCN continues to increase and the process is refined.
                      There are also delays in implementation of construction projects due to
                      security challenges in more dangerous areas of the country.223

                      Counter Narcotics Community Engagement
                      The Counter Narcotics Community Engagement (CNCE) program promotes
                      poppy-free status for provinces through public awareness and media cam-
                      paigns targeting farmers in poppy-growing areas. According to INL, CNCE
                      is implemented in close coordination with the MCN, ensuring that messages
                      are distributed through the media, provincial conferences, shuras, scholarly
                      events, and youth outreach events. CNCE includes a capacity building com-
                      ponent for the MCN, to ensure it can take increasing responsibility for CN
                      media relations, public awareness, and behavioral change activities, ensur-
                      ing lasting success beyond conclusion of the program.224

                      Aga Khan Foundation Grant
                      INL administers a grant to the Aga Khan Foundation to help sustain the
                      shift away from poppy cultivation in six key provinces: Bamyan, Takhar,
                      Badakhshan, Daykundi, Samangan, and Baghlan. The grant allows the foun-
                      dation to work with development councils, local NGOs, and provincial line
                      departments to increase licit livelihood opportunities in those provinces and
                      aims to strengthen community-level linkages between the Afghan National
                      Drug Control Strategy and the Afghan National Development Strategy.225

                      Monitoring, Verification, and Regional Cooperation
                      This quarter, UNODC coordinated two working groups dedicated to drug
                      demand reduction and combating the availability of precursor chemicals,
                      according to INL. The working groups are part of the Paris Pact initiative,
                      a multilateral partnership to combat the Afghan opiate trade. The U.S.
                      government, 57 other countries and 21 international organizations support
                      the initiative. The Paris Pact emphasizes long-term donor assistance to
                      Afghanistan and focuses on cross-border smuggling and illicit drug abuse in
                      the region.226
                         In October and November 2013, INL funded a two-week joint CN training
                      for Afghan and Pakistani officers through the UNODC-implemented NATO-
                      Russia Council. The training brought together 12 Afghan CN police officers
                      and 12 Pakistani customs officials for specialized investigative training at
                      the Turkish International Academy Against Drugs and Organized Crime in
                      Ankara, Turkey. Turkish and American CN police led the trainings.227

                      Ministry of Counter Narcotics Capacity Building Program
                      The MCN Capacity Building program focuses on training, procuring
                      equipment, and upgrading facilities at the MCN. This quarter, INL advi-
                      sors working with the MCN held two week-long training sessions in




                       106                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 106                                                                                     1/24/2014 11:08:25 AM
                                                                                    Security




                      Kabul for approximately 160 MCN provincial staff from more than 30
                      provinces. MCN advisors also participated in the annual personnel per-
                      formance review process for INL-funded positions at MCN. This quarter,
                      INL awarded a contract to provide the MCN with an updated vehicle fleet,
                      including six utility vehicles for use at headquarters and one diesel truck
                      for each of the ministry’s 34 provincial offices. Also during the quarter, INL
                      provided MCN provincial offices with information technology equipment,
                      according to INL.228

                      Counter Narcotics Police of Afghanistan
                      This quarter, 2,850 personnel were assigned to the CNPA, according to
                      CSTC-A.229 By law, the CNPA is the only counternarcotics operational police
                      entity in Afghanistan, according to CENTCOM. The CNPA is headquartered
                                                                                                       SIGAR Audit
                      in Kabul and has provincial units in all 34 provinces that operate under the     This quarter SIGAR announced an
                      control of the provincial police chief, but take operational direction from      audit of the U.S. efforts to build the
                      CNPA headquarters.230                                                            CNPA’s provincial units. For more
                          The DEA has played a key role in training and mentoring elements of the      information, see Section 2, page 30.
                      CNPA, developing critical intelligence on counternarcotics, and spearhead-
                      ing interdiction operations. It is mentoring two specialized units within the
                      CNPA—the NIU and the SIU. Established to conduct interdiction opera-
                      tions and target major trafficking organizations, these units have had some
                      successes. According to the DEA, the CNPA led 2,490 operations during the
                      first nine months of this year. These operations, generally conducted with
                      DEA and military support, resulted in 2,258 arrests, 55 drug labs destroyed,
                      and over 121 metric tons of drugs seized.231 However, as DOD noted in its
                      latest report, overall counternarcotics interdiction efforts have not signifi-
                      cantly reduced insurgent income from the narcotics trade. Moreover, DOD
                      reported, “the current drawdown of U.S. and coalition military forces has
                      affected the ability of U.S. and international law enforcement personnel to
                      conduct operations throughout Afghanistan.”232
                          Because the CNPA is a vital component of the entire counternarcotics
                      effort, SIGAR recently announced an audit of the U.S. effort to build the CNPA
                      and particularly its provincial units. This audit will evaluate the extent to
                      which development and capacity-building of the CNPA’s provincial units are
                      based on a comprehensive interagency plan; facilities constructed for CNPA
                      provincial units are being used as intended; and U.S. government assistance
                      has contributed to building sustainable and capable provincial unit forces.
                          According to CENTCOM, NTM-A/CSTC-A provides funding to the MOI to
                      cover CNPA costs such as salaries, equipment, weapons, and ammunition.233

                      Effect of the Coalition Drawdown on
                      Counternarcotics Operations
                      DOD anticipates the ability of the CNPA and other Afghan government
                      CN agencies to conduct CN operations in areas with decreased Coalition




                      Report to the united states congress   I   January 30, 2014             107



Jan2014_QR.indb 107                                                                                                                      1/24/2014 11:08:25 AM
                      Security




                      presence will diminish as U.S. and Coalition forces draw down. However,
                      DOD said Afghan CN units including the Special Mission Wing, the National
                      Interdiction Unit (NIU), and the Sensitive Investigative Unit (SIU) are
                      trained and capable units that have conducted CN operations independently
                      or with limited U.S. and Coalition support.234
                         INL provides operation and maintenance support for CNPA and U.S.
                      Drug Enforcement Administration (DEA) facilities. According to INL, the
                      freedom of movement for units funded through the GLE program will be
                      negatively affected by the drawdown, according to INL. Moreover, given the
                      link between insecurity and poppy cultivation, the drawdown could result
                      in higher cultivation.235

                      Interdiction Operations
                      From October 1 through December 15, 2013, the ANSF conducted 69 unilat-
                      eral CN operations—routine patrols, cordon-and-search operations, vehicle
                      interdictions, and deliberate detention operations—according to DOD. The
                      MOI’s General Department of Police Special Units led the effort. The depart-
                      ment participated in 17 operations that seized approximately 11,420 kg of
                      various narcotics and precursor chemicals. During this time period, Afghan
                      combined operations seized 9,992 kg of opium, 182 kg of morphine, 872 kg
                      of heroin, 220 kg of hashish/marijuana, and 4,404 kg of precursor chemicals,
                      as well as detaining 96 individuals.236
                         According to DOD, nearly all U.S. interdiction activities were partnered
                      with Afghan forces. Most of these activities occurred in south and south-
                      west Afghanistan, where the majority of opiates are grown, processed,
                      and smuggled out. U.S. forces conducted three unilateral drug operations
                      during this reporting period, detaining two individuals and seizing eight
                      kilograms of heroin and one kilogram of opium. Interagency elements,
                      including the Combined Joint Interagency Task Force-Nexus (CJIATF-N)
                      and the Interagency Operations Coordination Center (IOCC), continued to
                      support combined Afghan and ISAF interdiction efforts. Both CJIATF-N and
                      IOCC integrated data from military and law enforcement sources to enable
                      operations against corrupt-narco-insurgent elements. All operations were
                      coordinated with and received support from U.S. and Coalition military
                      commanders on the ground.237
                         INL supports the interdiction efforts of specific vetted units of the
                      CNPA—the NIU and the SIU. INL-supported interdiction activities include
                      investigative and strategic mentoring, logistics, housing, food and fuel, and
                      transportation to and from seizure sites. INL’s implementing partner, DEA,
                      mentors NIU/SIU officers on investigative skills development and conducts
                      joint raids with both NIU and ISAF.238




                       108                Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 108                                                                                    1/24/2014 11:08:25 AM
                                                                                    Security




                      Interdiction Results
                      Since 2008, a total of 2,564 Afghan and Coalition interdiction operations
                                                                                                         Precursor chemical: substance that may
                      have resulted in 2,604 detentions and seizure of the following narcotics           be used in the production, manufacture
                      contraband:239                                                                     and/or preparation of narcotic drugs and
                      •	 729,109 kg of hashish (1 kilogram = approximately 2.2 pounds)                   psychotropic substances.
                      •	 364,705 kg of opium
                      •	 47,214 kg of morphine
                      •	 27,037 kg of heroin
                                                                                                       Source: UNODC, “Multilingual Dictionary of Precursors and
                      •	 411,787 kg of precursor chemicals                                             Chemicals,” 2009, p. viii.



                      Aviation Support
                      From October 1 to December 16, 2013, the Department of State’s “Embassy
                      Air” in Afghanistan provided 322 flight hours, conducted 164 sorties, moved
                      509 passengers, and transported 58,737 pounds of cargo in support of DEA
                      and INL efforts. According to INL, counternarcotics support to the DEA
                      consisted of 34 flight hours supporting intelligence, surveillance, and recon-
                      naissance missions, 199 flight hours supporting interdiction efforts, and 55
                      hours supporting NIU and DEA passenger movements (of which 15 hours
                      were dedicated to transporting NIU weapons and cargo). Notably, this quar-
                      ter, Embassy Air supported an interdiction operation resulting in the seizure
                      of four active narcotics processing laboratories, 478 kg of opium, 700 kg of
                      morphine base, 13 kg of heroin, 5,800 liters of morphine solution, 650 kg of
                      homemade explosives, and one incendiary explosive device.240




                      Report to the united states congress   I   January 30, 2014            109



Jan2014_QR.indb 109                                                                                                                                    1/24/2014 11:08:25 AM
                      Governance Contents

                      Key Events	                         111
                      Elections	112
                      National Governance	                117
                      Subnational Governance	             120
                      Reconciliation and Reintegration	   129
                      Rule of Law and Anticorruption	     132
                      Human Rights	                       141




                       110



Jan2014_QR.indb 110                                             1/24/2014 11:08:25 AM
                                                                        Governance




                      Governance
                      As of January 17, 2014, the United States had provided more than $25 billion
                      to support governance and economic development in Afghanistan. Most of
                      this funding, nearly $17 billion, was appropriated to the Economic Support
                      Fund (ESF) administered by the State Department and the United States
                      Agency for International Development (USAID).241


                      Key Events
                      Preparations for the April 2014 presidential and provincial council elec-
                      tions continued this quarter. The Asia Foundation released their annual
                      survey that reported more than half of those interviewed (56%) said they
                      think the outcome of the presidential election will make their lives better.
                      The survey also found an overwhelming majority of Afghans (90%) agree
                      that everyone should have equal rights under the law, regardless of gender.
                      Three elections polls were also released with no candidate registering over
                      50%, making a second round of voting likely.242
                         The Afghan parliament confirmed nominations of five ministers and two
                      Supreme Court justices.243
                         In January, the Afghan government said it intended to release 72 high-
                      profile detainees accused of killing U.S. and Afghan troops, despite U.S. and
                      International Security Assistance Force (ISAF) protests that the release
                      undermined the Afghan rule of law and Afghan relations with the United
                      States. The United States had transferred 88 prisoners to Afghan custody
                      last year in a move intended to show confidence in the Afghan judiciary.
                      However, a spokesman for President Karzai said only 16 are to face trial.
                      The spokesman said the Afghan government considered the evidence col-
                      lected by the Afghan intelligence service and U.S. military insufficient to
                      further detain the other 72 individuals.244
                         The quarter also saw the release of several surveys and polls as well
                      as a report on implementation of Elimination of Violence Against Women
                      (EVAW) law. The United Nations report on implementation of the EVAW
                      law, however, found both progress and problems, including a 28% increase
                      in registration of reported incidents, but only a 2% increase in use of the law
                      as a basis for indictment.245




                      Report to the united states congress   I   January 30, 2014             111



Jan2014_QR.indb 111                                                                                     1/24/2014 11:08:25 AM
                      Governance




                      Elections
                      Special Representative for Afghanistan and Pakistan Ambassador James
                      Dobbins continued to stress the importance of the April 5, 2014, presiden-
                      tial and provincial council elections this quarter, calling them the “critical
                      event” of 2014.246 The United Nations Secretary-General said in December
                      that a timely and inclusive election is the surest basis of internal and inter-
                      national legitimacy.247
                         The newly established Electoral Complaints Commission (ECC) received
                      1,056 objections and complaints about the eligibility of 27 presidential tickets,
                      each with two vice-presidential nominees, and 3,057 provincial candidates
                      starting October 22.248 Following adjudication, the ECC released on November
                      20 a list of 11 presidential tickets and 2,713 provincial council candidates.249
                      The 11 presidential candidates, in the order that they will appear on the ballot,
                      are: Abdullah Abdullah, Daud Sultonzoy, Abdul Rahim Wardak, Abdul Qayum
                      Karzai, Mohammad Ashraf Ghani Ahmadzai, Sardar Mohammad Nader Naim,
                      Zalmai Rassul, Qutbudin Hilal, Mohammed Sahfiq Gul Agha Sherzai, Abdul
                      Rab Rasul Sayaaf and Hedayat Amin Arsala. Three of the vice-presidential
                      nominees and 308 of the provincial council candidates are women.250
                         Although the November 20 list was supposed to be final, there may be
                      additional changes to the slate of candidates. The head of the ECC told Tolo
                      News in December that “there are war criminals among the presidential can-
                      didates.” The ECC head offered no specifics or names, but said additional
                      presidential candidates may be ruled ineligible on the basis of war crimes,
                      corruption, land grabbing, or dual nationality.251 The ECC in January said
                      it would refer criminal complaints against presidential candidates to the
                      Afghan Attorney General’s Office.252 Two weeks later, however, the Attorney
                      General’s Office said that they would drop the investigation of presidential
                      candidates due to a lack of specific charges against the candidates.253
                         The National Democratic Institute (NDI) made a seven-day visit to
                      Afghanistan in December and reported that recent election reforms have
                      led to “guarded optimism among many political and civic actors that the
                      2014 polls would be an improvement over previous elections.” An NDI
                      statement said reforms must be faithfully enforced to improve the electoral
                      process. NDI also noted that since President Karzai will not be running, “a
                      new political contest is possible.”254
                         According to NDI, it is generally accepted that a second round of presi-
                      dential balloting will be required.255 Three polls released in December, some
                      of which were funded by the State Department, seem to support that belief:
                      none of the front-runners polled over 50%.256 The contractor for one of the
                      three polls told National Public Radio that the polls were intended to inform
                      voters and candidates and reduce the potential for election fraud. An analyst
                      with the Afghanistan Research and Evaluation Unit has warned in the same
                      article, however, that polling is new to Afghanistan, and Afghans sometimes
                      tell interviewers what they think the interviewer wants to hear.257




                       112                  Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 112                                                                                       1/24/2014 11:08:25 AM
                                                                                             Governance




                      Figure 3.25                                                                                                      Figure 3.26


                      PERCENTAGE OF AFGHANS WHO WOULD PARTICIPATE IN NATIONAL OR PROVINCIAL                                            EXPECTED IMPACT OF 2014 PRESIDENTIAL
                      ELECTIONS WITH SOME OR A LOT OF FEAR                                                                             ELECTION ON AFGHANS' LIVES (PERCENT)


                      100%


                      80%                                                                                                                                Better
                                                                                                                                                         56%                 Worse
                                                                                                                                                                             15%
                      60%
                                                                                                                                                                   No Difference
                                                                                                                                                                   24%
                      40%
                                                                                                                                                                             Don’t Know
                                                                                                                                                                             5%
                      20%
                                                                                                                                       Source: The Asia Foundation, Afghanistan in 2013: A Survey
                                                                                                                                       of the Afghan People, 12/2013.
                        0%
                                 2006          2007           2008          2009          2010          2011             2012   2013

                      Source: The Asia Foundation, Afghanistan in 2013: A Survey of the Afghan People, 12/2013, p. 94.


                         In The Asia Foundation’s 2013 Survey of the Afghan People, also released
                      in December, Afghans expressed generally positive feelings about the com-
                      ing elections. More than half of those interviewed (56%) said they think the
                      outcome of the presidential election will make their lives better, as shown
                      in Figure 3.26.258 Despite the evidence of extensive fraud in the 2009 elec-
                      tions, 61% said that in general, elections in Afghanistan are free and fair.
                      Respondents’ reasons for thinking elections are not free and fair mostly
                      concerned corruption: for example, corruption in counting the votes (23%),
                      corruption in the election process in general (16%), and vote-buying (14%).
                      Only 11% mentioned the lack of security.259 Majorities, however, said they
                      would be afraid to run for public office (58%) and afraid to vote in a national
                      or provincial election (59%), as shown in Figure 3.25. The Asia Foundation
                      claims a margin of error of +/- 2.25% due to an increase in the sample size to
                      9,260 respondents surveyed between July 17 and July 25, 2013.260

                      Project Summary
                      SIGAR reported extensively on the election support programs in the last quar-
                      ter. Please see pages 110–119 of the October 2013 Quarterly Report for more
                      detail. A summary of USAID programs intended to support the 2014 presiden-
                      tial and provincial elections appears in Table 3.13 on the following page.

                      Opportunities for Fraud
                      Independent observers highlighted the potential for fraud offered by
                      Afghanistan’s chaotic voter registration system. As NDI pointed out, there




                      Report to the united states congress                      I   January 30, 2014                            113



Jan2014_QR.indb 113                                                                                                                                                                   1/24/2014 11:08:25 AM
                                                               Governance




                      Table 3.13


                      USAID Programs Intended to Support the 2014 Presidential and Provincial Council Elections
                                                                                                                  Total Estimated   Cumulative Disbursements
                       Project Title                                                    Start Date   End Date         Cost ($)       as of 12/31/2013 ($)

                       Promoting Afghan Civic Education (PACE)                          12/4/2013    12/3/2018     77,000,000                       -

                       Enhancing Legal and Electoral Capacity for Tomorrow (ELECT) II   9/29/2013    12/31/2015    55,000,000                       -

                       Electoral Reform and Civic Advocacy (AERCA)                      7/13/2009    6/30/2014     29,208,419             28,053,544

                       Supporting Political Entities and Civil Society (SPECS)          7/7/2013     7/6/2016      18,000,000              2,484,815

                      Source: USAID, response to SIGAR data call, 1/7/2014.




                                                               is no voter registry, voter list, or census, making it impossible for accu-
                                                               rate checks on voter registration and voter participation figures.261 The
                                                               Afghanistan Analysts Network (AAN) says the large discrepancy between
                                                               the estimated number of voters and the number of voter cards may facili-
                                                               tate election manipulation. In addition to recent voter-registration drives,
                                                               the Afghan government has allowed voter registration cards from past elec-
                                                               tions to remain valid. AAN reports that immediately before the 2010 poll, in
                                                               which the Independent Election Commission (IEC) estimated the number
                                                               of eligible voters to be 12.5 million and the UN estimated 10.5 million, a
                                                               total of 17.5 million voter cards were distributed.262 According to USAID, in
                                                               November 2013 the IEC finalized the voter registration “top-up” campaign
                                                               through a registration campaign that covered 395 out of 399 districts and
                                                               added another 3.1 million voters.263
                                                                  The total number of voters registered now stands at approximately
                                                               20.7 million, something the AAN said it found “unbelievable,” given that the
                                                               estimated population of Afghanistan is 27 million with half, or 13.5 million
                                                               people, of non-voting age.264
                                                                  An IEC spokesman gave an even lower estimate of eligible voters in
                                                               November, saying only about 12 million Afghans are eligible to vote.265 The
                                                               IEC spokesman said the IEC does not know the true number of voters
                                                               because multiple registrations have resulted in almost twice the number of
                                                               registered voters as eligible voters. Further, the IEC spokesman said voter
                                                               registration cards do not have an expiration date, were not tracked in a
                                                               database, and are valid for any election. Without a voter list, there is no way
                                                               to check eligibility on the election day.266
                                                                  In December 2013, the ECC reported that 10,000 to 11,000 individu-
                                                               als had been placed on an IEC blacklist due to suspected improprieties
                                                               in past elections.267 The IEC announced shortly thereafter that it would
                                                               not hire the blacklisted individuals for the April 2014 elections.268 The
                                                               IEC plans to recruit and train more than 100,000 polling staff starting in




                                                                  114                    Special inspector general     I   Afghanistan reconstruction




Jan2014_QR.indb 114                                                                                                                                            1/24/2014 11:08:25 AM
                                                                        Governance




                      March.269 According to NDI, candidates and civic groups expressed con-
                      cern that the IEC will have difficulty recruiting and training such a large
                      number of poll workers. NDI noted that in 2009, areas that suffered from
                      poor recruitment and training of election officials also were likely to expe-
                      rience ballot box stuffing.270
                         According to news reports, the Free and Fair Election Foundation of
                      Afghanistan announced they would field 10,000 observers for the April
                      presidential and provincial council elections.271 USAID said the USAID
                      Supporting Political Entities and Civil Society (SPECS) program plans
                      to award subgrants for domestic election monitoring in order to deploy
                      approximately 2,200 observers (1,253 male and 947 female) to 34 provinces
                      and 270 districts. USAID also plans to fund international observers but has
                      not yet extended any contracts.272
                         The IEC has instituted several changes to mitigate fraud including
                      improved tracking of ballots through packing numbers displayed on indi-
                      vidual ballots, results sheet envelopes, and results forms; security features
                      on the ballot; the use of both an invisible ultraviolet ink and indelible ink;
                      and use of transparent tamper-resistant evidence bags.273
                         The Independent Joint Anti-Corruption Monitoring and Evaluation
                      Committee (MEC) issued a statement that highlighted the lack of a monitor-
                      ing and oversight mechanism to ensure that the presidential campaigns do
                      not go beyond the allowable expenditure limit, currently 10 million afghanis
                      (AFN), or approximately $177,000 with an exchange rate of 56.52 AFN
                      to USD, for presidential elections.274 The MEC also noted that sources of
                      income and assets of presidential candidates are not verified.275
                         NDI pointed out that in past elections, the areas of the country most
                      affected by the insurgency were also the most plagued by fraud. Because
                      these areas were beyond the scrutiny of observers, they were highly vulner-
                      able to electoral wrongdoing.276

                      Election Security
                      Afghan authorities are planning security for the 2014 elections much ear-
                      lier than in the past. NDI considers this a significant improvement over the
                      2009 presidential election, when the list of polling stations was released just
                      days before the election.277 The Ministry of Interior (MOI) has established a
                      special commission on electoral security to work in close coordination with
                      the IEC.278 The Afghan National Police (ANP) will guard polling stations
                      while the Afghan National Army (ANA) will provide a second perimeter of
                      defense. The MOI is currently using this system in support of the voter reg-
                      istration process and notes that voter registration has faced fewer security
                      incidents than anticipated.279
                         In January, the MOI said that about 95% of polling centers are expected
                      to be open for the April election. 6,431 polling sites will be open and 414
                      are planned to be closed. The IEC submitted a list of approximately 7,000




                      Report to the united states congress   I   January 30, 2014             115



Jan2014_QR.indb 115                                                                                     1/24/2014 11:08:25 AM
                      Governance




                      polling sites 14 months ago to Afghan security forces and requested a secu-
                      rity assessment in advance of the polls.280
                         In a review of the 2009 presidential elections, Democracy International
                      found that insecurity was exploited to commit fraud. Insecurity meant
                      that more fraud could be carried out because there were fewer observers,
                      agents, and IEC officials present at insecure polling locations. The report
                      quotes the United Nations Development Programme’s (UNDP) Enhancing
                      Legal and Electoral Capacity for Tomorrow (ELECT) project:
                              The [Afghan] security forces indicated they could secure
                              all locations and had to be pushed for a more realistic
                              assessment—either they did not want to admit for political
                              reasons, that they were not in control of significant parts
                              of the country, or were directly complicit in lining up the
                              process for fraud... Security forces insisted on polling
                              centres opening that could not be secured and where
                              fraud eventuated.281

                         The report further quotes UNDP ELECT stating that it had “powerfully
                      advocated resistance to security ministries’ calls for polling centres almost
                      certain to be for ‘ghost voters.’”
                         According to State, the Afghan government has made no specific
                      requests for security or logistical support during the reporting period,
                      except that ISAF provide six air missions to transport senior-level Afghan
                      National Security Forces (ANSF) delegations to regional coordination cen-
                      ters for advanced election security planning.282
                         In a November report, the United States Institute of Peace (USIP) found
                      that the Taliban, represented by its Peshawar and Quetta arms, have a
                      mixed strategy for opposing the 2014 elections. The Peshawar arm has
                      reportedly established an electoral office with electoral commissioners
                      who are expected to dissuade elders from participating in the elections,
                      burn registration cards, and disrupt the elections in the final week before
                      the polls. Other reports say Taliban commissioners from the Peshawar arm
                      have been purchasing voter registration cards, possibly in an attempt to
                      influence the election or to raise funds by selling cards to candidates. The
                      Quetta arm is reportedly split between commander networks vehemently
                      opposed to the election (with strength in Zabul and Ghazni provinces) and
                      those more willing to undertake limited negotiations with the Afghan gov-
                      ernment (in Kandahar, Helmand, and Farah provinces).283
                         USIP concludes that despite the Afghan government’s efforts to have
                      elders lobby local Taliban commanders to allow voting, elders appear to be
                      less willing than in the 2009–10 elections to petition the Taliban, given that
                      such efforts proved mostly ineffectual or dangerous in the past.284
                         Also during this quarter, the leader of the Islamist party Hizb-e Islami,
                      Golbuddin Hikmatyar, reversed his previous boycotts of Afghan elections
                      and asked his supporters to participate in the April 2014 election.285




                       116                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 116                                                                                     1/24/2014 11:08:26 AM
                                                                        Governance




                         The MOI has launched the Female Searcher Program, which aims to
                      improve security as well as female voter turnout by recruiting and train-
                      ing up to 13,000 female volunteers to serve as subsidized searchers at each
                      of Afghanistan’s more than 6,800 designated polling centers. The project
                      intends to train 700 female searcher trainers in Kabul and 11 other loca-
                      tions. The trainers can then be dispersed to multiple locations in each
                      province to conduct searcher training for an approximate 12,300 female
                      searchers.286 Deploying female searchers is important because Afghan cus-
                      tom forbids men to touch unrelated women. Lack of female searchers might
                      therefore enable women with weapons, or disguised men, to enter polling
                      places to make attacks.
                         According to NDI, the MOI has allocated resources to support travel
                      of male relatives to accompany these deploying female personnel.287 State
                      and other international donors are providing technical and financial sup-
                      port for the $4.2 million project via UNDP’s Law and Order Trust Fund for
                      Afghanistan. However, State said the process has been stymied by internal
                      fighting, with the MOI missing deadlines for providing lists of female volun-
                      teers, including female police.288


                      National Governance
                      The United States provides assistance to Afghan governing institutions
                      to build capacity to perform critical services and thereby increase their
                      legitimacy in the eyes of the Afghan population.289 U.S. agencies are provid-
                      ing this support in two ways: through contracts, grants, and cooperative
                      agreements, and increasingly, through on-budget assistance. In this final
                      year of transition, the U.S. government is particularly focused on increasing
                      the financial and program management capabilities of Afghan government
                      institutions, and uses a combination of capacity building and on-budget pro-
                      grams to achieve this end.290

                      On-Budget Assistance
                      To improve governance and align development efforts with Afghan priori-
                      ties, international donors including the United States committed to increase
                      the proportion of development aid delivered on-budget through the Afghan
                      government to at least 50% at the 2010 London Conference. The donors
                      reiterated this pledge at the July 2012 Tokyo Conference.291 However, donor     SIGAR Audit
                      support depends on the Afghan government’s fulfilling a set of commitments
                                                                                                      This quarter SIGAR published an audit
                      outlined in the Tokyo Mutual Accountability Framework. These commit-
                                                                                                      on USAID’s process for conducing
                      ments include, among other things, improved management of public funds.292
                                                                                                      ministerial assessments when
                         To determine the degree to which the Afghan ministries could manage
                                                                                                      awarding direct assistance. For more
                      and account for funds, USAID hired two accounting firms to assess 16
                                                                                                      information, see Section 2, page 28.
                      Afghan ministries. This quarter, SIGAR published its audit report which
                      analyzed USAID’s process for conducting and using ministerial assessments




                      Report to the united states congress   I   January 30, 2014           117



Jan2014_QR.indb 117                                                                                                                   1/24/2014 11:08:26 AM
                                                                          Governance




                                                                          when awarding direct assistance to the Afghan government. SIGAR identi-
                                                                          fied a number of areas where Afghan ministries need to strengthen their
          Conditions precedent: a condition or set
                                                                          capabilities to effectively manage and execute funds. For example, although
          of conditions that must be met before
          USAID will agree to disburse funding (for                       all Afghan ministries receiving direct assistance met conditions precedent
          example, if the host country laws require                       before disbursing money, SIGAR found that USAID/Afghanistan has only
          legislative approval of the Assistance                          required the ministries to implement 24 of the 333 identified risk mitigation
          Agreement, then USAID must receive                              measures prior to receiving funds.293 See Section 2 of this report for a sum-
          evidence of that approval before funds                          mary of SIGAR’s findings.
          disbursement).                                                      The United States is currently providing on-budget assistance through
                                                                          bilateral agreements with seven Afghan government entities and
                                                                          through contributions to two multi-donor trust funds: the Afghanistan
        Source: USAID, Glossary of ADS Terms, 10/24/2012.
                                                                          Reconstruction Trust Fund (ARTF) and the Afghanistan Infrastructure Trust
                                                                          Fund (AITF). According to USAID, the majority of on-budget funds has
                                                                          been and will continue to be directed through the multi-donor trust funds,
                                                                          particularly the ARTF.294 The National Solidarity Program (NSP), which is
                                                                          the largest single ARTF-supported program, is discussed in greater detail in
                                                                          the subnational and reintegration sections of this report.
        Table 3.14


         USAID On-Budget Programs
                                                                                                                                                  Total Estimated      Cumulative Disbursements
         Project Title                                                      On-Budget Partner             Start Date         End Date                 Cost ($)          as of 12/31/2013 ($)

         Afghanistan Reconstruction Trust Fund (ARTF)*                      Multiple (via World Bank) 6/20/2002              6/20/2020            2,669,320,295              1,743,234,795

                                                                            Da Afghanistan Breshna
         Power Transmission Expansion and Connectivity (PTEC)                                             1/1/2013           12/31/2016              329,100,000                              -
                                                                            Sherkat (DABS)

         Partnership Contracts for Health (PCH) Program                     Ministry of Public Health     7/20/2008          1/31/2015               236,455,840                151,913,665

         Contribution to Afghanistan Infrastructure Trust Fund              Multiple (via Asian
                                                                                                          3/7/2013           3/6/2014                180,300,000                105,000,000
         (AITF)                                                             Development Bank)
                                                                            Ministry of Mines and
         Sheberghan Gas Development Project                                                               5/15/2012          4/30/2015                90,000,000                              -
                                                                            Petroleum
                                                                            Ministry of Agriculture,
         Agriculture Development Fund (ADF)                                                               7/18/2010          12/31/2014               74,407,662                 29,000,000
                                                                            Irrigation and Livestock
         Basic Education, Literacy, and Technical-Vocational
                                                                            Ministry of Education         10/29/2013         10/28/2017               56,000,000                              -
         Education (BELT) Community Based Education
         Basic Education, Literacy, and Technical-Vocational
                                                                            Ministry of Education         11/16/2011         12/31/2014               43,296,813                 18,829,265
         Education (BELT)
         Cash Transfer Assistance to Support the Civilian Technical
                                                                            Ministry of Finance           9/30/2009          9/30/2014                36,256,560                 28,810,610
         Assistance Plan (CTAP)

         Afghanistan Workforce Development Program (AWDP)                   Ministry of Education         9/18/2013          4/3/2016                 30,000,000                              -

                                                                            Ministry of
         Policy Capacity Initiative Activity                                                              4/9/2009           3/31/2011                  1,000,000                    989,701
                                                                            Communications and IT

        Notes: *This includes all USAID contributions to the ARTF. According to the agreement with the World Bank, donors can only express a preference on how their donations are used up to 50% of
        their total contribution. In the 2012 agreement with the World Bank, USAID expressed a preference for 47% of its contributions to be used on the National Solidarity Program (NSP).

        Source: USAID, response to SIGAR data call, 1/7/2014.




                                                                              118                            Special inspector general                 I   Afghanistan reconstruction




Jan2014_QR.indb 118                                                                                                                                                                                    1/24/2014 11:08:26 AM
                                                                                            Governance




                         As shown in Table 3.14, USAID expected to spend $896.5 million on active
                      direct bilateral assistance.295 It expects to contribute almost $2.7 billion to
                      the ARTF, which is managed by the World Bank, and more than $180 million
                      to the AITF, which is managed by the Asian Development Bank.
                         According to USAID and as shown in Table 3.14, the actual disburse-
                      ment of funds through bilateral on-budget programs is slower than either
                      side would like. USAID attributes the low budget-execution rate to limited
                      Afghan government capacity and the risk-mitigation measures USAID
                      applies to on-budget assistance.296 However, USAID also notes that execu-
                      tion rates are not directly linked to program results.297
                         The U.S. and Afghan governments disagree about how much progress
                      the United States has made toward its commitment to provide more fund-
                      ing through the Afghan government budget.298 USAID says the Afghan
                      government counts funds when disbursed (when money has actually been
                      spent), while USAID counts commitments and obligations (when the donor
                      reserves the funds for a specific purpose but money has not been spent).299
                      SIGAR reported last quarter that the United Nations Secretary-General said
                      the Afghan government and donors were seeking to develop a consensus
                      regarding on-budget terminology.300

                      Capacity-Building programs
                      USAID capacity-building programs seek to improve central ministries’
                      performance to prepare, manage, and account for on-budget assistance.
                      As shown in Table 3.15, programs include USAID’s $26 million Leadership,
                      Management, and Governance Project that aims to strengthen Afghan
                      financial-management systems and the capacity of the Ministry of Public
                      Health and the Ministry of Education to help meet requirements set at the
                      2010 Kabul International Conference for increased on-budget aid.301 USAID
                      is also funding the $15 million Ministry of Women’s Affairs Organizational
                      Restructuring and Empowerment (MORE) project, which among other
                      things assists the ministry to improve its financial management, as required
                      for future on-budget assistance.302

                      Table 3.15


                      USAID Capacity-Building Programs at the National Level
                                                                                                                                            Total Estimated   Cumulative Disbursements
                       Project Title                                              Afghan Government Partner     Start Date     End Date         Cost ($)       as of 12/31/2013 ($)
                                                                                  Ministry of Public Health
                       Leadership, Management, and Governance Project                                           9/25/2011      9/24/2016     26,000,000             13,612,927
                                                                                  Ministry of Education
                       Assistance to Legislative Bodies of Afghanistan
                                                                                  Parliament                    4/3/2013       4/3/2018      23,455,326              1,692,977
                       (ALBA)
                       Ministry of Women's Affairs Restructuring and
                                                                                  Ministry of Women's Affairs   12/20/2012     12/19/2015    15,000,000              1,526,620
                       Empowerment (MORE)

                      Source: USAID, response to SIGAR data call, 1/7/2014.




                      Report to the united states congress                    I   January 30, 2014                           119



Jan2014_QR.indb 119                                                                                                                                                          1/24/2014 11:08:26 AM
                      Governance




                      National Assembly
                      USAID has noted that parliamentary power is very limited since the parlia-
                      ment does not have the authority to determine its own budget and rarely
                      initiates legislation.303 Most bills originate in the executive branch.304
                          USAID funds the $23.5 million Assistance to Legislative Bodies of
                      Afghanistan project (ALBA) to help Afghanistan’s parliament operate as
                      an independent and effective legislative, representative, and oversight
                      body.305 The project, which will run through April 2017, recently supported
                      a comprehensive parliamentary review of the Afghan fiscal year 1391
                      (March 20 to December 20, 2012) development and operating expenditures
                      and revenues. The review uncovered several Afghan ministry/agency bud-
                      get violations, including inappropriately reclassifying 1.9 billon AFN, or
                      approximately $36.5 million with an exchange rate of 52.04 AFN to USD, in
                      salaries and goods and services, which obscured the actual purpose of the
                      expenditures.306
                          According to State, both chambers of the National Assembly demon-
                      strated increased institutional capabilities during the quarter, especially in
                      holding various government ministries accountable during question-and-
                      answer sessions before the full parliament.307 For example, both chambers
                      requested leaders of the Ministry of Finance, Ministry of Economy, Ministry
                      of Interior, Independent Election Commission, Ministry of Refugees and
                      Repatriation, and others, to appear before parliament.308
                          During this reporting period, parliament also confirmed five ministers
                      and two Supreme Court justices:
                       •	 Din Mohammad Mobarez Rashidi as Minister of Counter Narcotics
                       •	 Zarar Ahmad Osmani as Minister of Foreign Affairs
                       •	 Akbar Barekzai as Minister of Mines
                       •	 Mohammad Aref Noorzai as Minister of Energy and Water
                       •	 Mohammad Shakir Kargar as Minister of Commerce and Industry
                       •	 Din Mohammad Giran and Abdul Qader Adalatkha for seats on the
                          Supreme Court309


                      Subnational Governance
                      The United States government supports initiatives at the subnational level
                      to give Afghans a greater stake in their own government. The goal is to
                      make local government more visible, accountable, and responsive to the
                      Afghan people, particularly in the south and east, where the insurgency has
                      been tenacious.310 These programs target rural areas, including districts and
                      villages, as well as provincial centers and municipalities.
                          The withdrawal of U.S. forces, closure of Provincial Reconstruction
                      Teams (PRTs), and downsizing of the U.S. civilian presence in Afghanistan,
                      raise a number of concerns about the ability of the U.S. government to
                      assess program effects. With the withdrawal of combat forces and the




                       120                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 120                                                                                     1/24/2014 11:08:26 AM
                                                                        Governance




                      closure of U.S. and coalition PRTs, the international community has less
                      direct insight into the presence and performance of the Afghan government
                      in provinces and districts. Of the five PRTs SIGAR inquired about in the
                      south and east, all but the Helmand PRT have been closed.311
                         Responses from the implementing agencies to SIGAR’s quarterly request for
                      information about programs reflect the reduced visibility at the local level.
                         For the past two quarters, SIGAR has asked USAID to provide infor-
                      mation on the status of Afghan civil service staffing at the provincial and
                      district level.312 USAID twice reported the Afghan government had not
                      responded to its queries.313 USAID also said insecurity presents a challenge
                      to filling civil service positions in some areas of Afghanistan, but it is very
                      difficult to quantify.314 The presence of civil servants is a necessary founda-
                      tion for local government, but USAID no longer appears to be able to track
                      this and other indicators.
                         This quarter, SIGAR received no update on the Village Stability Operations
                      (VSO), a bottom-up counterinsurgency strategy that is supposed to expand
                      security while connecting local governance to district government, and dis-
                      trict governance to the national government.315 SIGAR reported last quarter
                      that, according to the Department of Defense (DOD), team assessments and
                      survey data suggested gains in governance from the VSO remained steady
                      once districts transitioned from Coalition control to Afghan government
                      control. This quarter, SIGAR requested additional detail from DOD on gov-
                      ernance definitions applied to VSO, an assessment of how VSO initiatives
                      have connected local governance to formal government, and the proportion
                      of VSO districts that maintained governance gains compared to those that
                      did not. DOD replied that the group that provided governance responses
                      to the July and November 2013 versions of the Report on Progress Toward
                      Security and Stability in Afghanistan (which had similar language to that
                      provided to SIGAR last quarter) does not track governance matters despite
                      past DOD reporting on the governance effects of the initiative.316
                         Moreover, many U.S.-funded contracts, grants, and cooperative agree-
                      ments for developing subnational governance outsource the majority of
                      their work to nongovernmental groups. This raises the question whether the
                      programs can improve the legitimacy of the Afghan government if it is not
                      directly involved.

                      Rural Stabilization Programs
                      USAID has several stabilization programs aimed at helping the Afghan gov-
                      ernment extend its reach into unstable areas and build local governance
                      capacity. These programs include USAID’s four Stability in Key Areas
                      (SIKA) projects, the $161 million Community Cohesion Initiative (CCI), and
                      $2.67 billion in U.S. support to the ARTF which funds the Afghan govern-
                      ment’s National Solidarity Program (NSP).317 Table 3.16 on the following
                      page summarizes total program costs and disbursements to date.




                      Report to the united states congress   I   January 30, 2014             121



Jan2014_QR.indb 121                                                                                     1/24/2014 11:08:26 AM
                                                                        Governance




                                                                        Table 3.16


                                                                        USAID Subnational (Rural) Programs
                                                                                                                                                 Total Estimated Cumulative Disbursements
                                                                         Project Title                     Start Date         End Date               Cost ($)     as of 12/31/2013 ($)
                                                                         Afghanistan Reconstruction
                                                                                                           6/20/2002          6/20/2020          2,669,320,295             1,743,234,795
                                                                         Trust Fund (ARTF)*
                                                                         Stabilization in Key Areas
                                                                                                           12/7/2011          9/6/2015              177,054,663                46,413,247
                                                                         (SIKA) East

                                                                         SIKA West                         1/29/2012          8/31/2015              62,998,824                21,028,210

                                                                         SIKA South**                      4/10/2012          2/28/2014              58,784,676                25,862,523

                                                                         SIKA North                        3/14/2012          7/14/2015              45,633,274                13,495,838

                                                                        Notes:
                                                                        *This includes all USAID contributions to the ARTF. According to the agreement with the World Bank, donors can only express a
                                                                        preference on how their donations are used up to 50% of their total contribution. In the 2012 agreement with the World Bank,
                                                                        USAID expressed a preference for 47% of its contributions to be used on the National Solidarity Program (NSP).
                                                                        **This includes the totals for both SIKA South awards.
          The Kandahar Model: developed in 2007                         Source: USAID, response to SIGAR data call, 1/7/2014.
          by the MRRD as a variant of the NABDP.
          The Kandahar Model features decentralized
          procurement and financial procedures,                            USAID intended the four SIKA programs to “be seen as an extension of
          community contracting directly with                           the [Afghan government], not as increased foreign presence,” and stipulated
          community bodies, rapid decision making,                      that SIKA “must work within Afghan structures.”318 Additionally, the con-
          and a reduction of red tape. Additionally,                    tracts mandate the SIKA programs follow the Kandahar Model (a variant
          the Kandahar Model involves a written                         of the National Area Based Development Program), which includes written
          security agreement between the beneficiary                    community-security guarantees to facilitate Ministry of Rural Rehabilitation
          community and the MRRD ensuring MRRD                          and Development (MRRD) staff visits to project sites.319 The four SIKA con-
          access to project NABDP project sites. The
                                                                        tracts require the MRRD, the primary partner for the SIKA programs, to have
          Kandahar Model generally uses community
                                                                        representation in the district in order to operate in that district. The degree
          contracting without the involvement
          of external commercial companies or                           of required MRRD presence ranges from an individual MRRD representative
          nongovernmental organizations.                                who comes to work on “a semi-regular basis” (SIKA South) to MRRD repre-
                                                                        sentation that is able to effectively operate and monitor SIKA activities in the
          National Area Based Development                               district as well as provide support and leadership (SIKA West).320
          Program (NABDP): developed in 2002                               Although the MRRD is supposed to be involved in every aspect of the
          as a joint initiative of the Ministry of Rural                projects, it appears that the SIKA projects are not requiring Afghan gov-
          Rehabilitation and Development (MRRD)                         ernment personnel to physically monitor projects. For example, USAID
          and the UNDP. The goal of NABDP is to                         reported that 78% of the monitoring of SIKA South projects was conducted
          contribute to a sustainable reduction of                      exclusively by SIKA South personnel. About 70% of SIKA East projects
          poverty and improve livelihoods in rural                      were monitored exclusively by SIKA East personnel. USAID said “very few”
          Afghanistan.
                                                                        Afghan government personnel made individual monitoring visits despite the
                                                                        encouragement and constant follow-up by SIKA North. In SIKA West, dis-
                                                                        trict governors or their representatives conducted only 20 individual project
        Sources: SIGAR, Stability in Key Areas (SIKA) Programs:         site visits of the 190 ongoing or completed projects for the region.321 In the
        After 16 Months and $47 Million Spent, USAID Had Not Met
        Essential Program Objectives, 7/2013, p. 3; Ministry of Rural   case of SIKA West, USAID reports that a MRRD representative is expected
        Rehabilitation and Development, “The Kandahar Model,”
        2010, p. 2.                                                     to sign handover documentation when a project is completed despite




                                                                           122                            Special inspector general                  I   Afghanistan reconstruction




Jan2014_QR.indb 122                                                                                                                                                                                     1/24/2014 11:08:26 AM
                                                                         Governance




                      security threats preventing MRRD officials from visiting the project sites.322
                      This raises questions about Afghan ownership and the ultimate sustainabil-
                      ity of the SIKA efforts.
                          Although USAID reports Afghan government involvement in project
                      identification meetings and events at provincial and district centers, this
                      has not translated into involvement in the program by Afghan government
                      civil servants.323 On the contrary, according to a joint USAID/MRRD survey
                      administered to all MRRD personnel associated with the SIKA programs,
                      most of the MRRD offices reported that (1) SIKA contractors had not suf-
                      ficiently coordinated activities with Afghan government officials and (2)
                      SIKA contractors had taken the lead with the communities while the MRRD
                      was left with little or no role.324
                          Despite the apparent lack of Afghan government involvement in the SIKA
                      programs, there are plans to transfer portions of the programs on-budget
                      to the Afghan government. A SIKA sustainability conference is planned for
                      late January/February 2014 to lay out the parameters for graduating SIKA
                      districts in order to transfer the program on-budget. According to USAID,
                      it is most likely that SIKA will slowly transfer the SIKA training component          A resident of the Ghor provincial capital
                                                                                                            reads an SMS highlighting government
                      and parts of the grants implementation to the MRRD and the Independent
                                                                                                            achievements sent by the Ghor deputy
                      Directorate of Local Governance (IDLG) by the end of 2014.325                         provincial governor. (USAID photo)
                          Another program, USAID’s Community Cohesion Initiative (CCI),
                      aims to build what it calls “resilience” in areas that are both important to
                      Afghanistan’s political and security transition and vulnerable to violence
                      and insurgent exploitation. USAID defines resilience as “a measure of the
                      sustained ability of an area (e.g., village, village cluster, district) to mobilize
                      available resources to respond to, withstand, and recover from adverse situ-
                      ations; to resist and withstand insurgent pressures; to safely and effectively
                      communicate with customary and formal governance structures; and to
                      create and mobilize social and cultural networks.”326 CCI implements proj-
                      ects such as local community development projects that engage community
                      leaders and government officials in their identification and oversight along
                      with peace advocacy campaigns at sporting events.327
                          Unlike with SIKA, USAID has not explicitly defined the role of the Afghan
                      government in implementing the CCI. Although the CCI does not require
                      the presence of the Afghan government to go forward with activities, it
                      does say that Afghan civil servants should play an important role in grant
                      monitoring and oversight of the vast majority of CCI activities. According to
                      USAID, this not only serves to improve oversight, but also strengthens ties
                      by bringing government officials to local communities.328
                          High turnover rates among some district and provincial government
                      personnel have had a negative impact on program implementation, accord-
                      ing to USAID.329 USAID reports that the CCI contractor conducted 32% of
                      all grant monitoring on its own, Afghan government personnel conducted
                      approximately 38%, and joint groups of Afghan government officials and




                      Report to the united states congress    I   January 30, 2014               123



Jan2014_QR.indb 123                                                                                                                             1/24/2014 11:08:26 AM
                      Governance




                      CCI contractor staff conducted approximately 30% of all grant-monitoring
                      visits.330 CCI expects Afghan government turnover to be less of challenge
                      in the year ahead as the CCI moves away from providing grants to govern-
                      ment entities and implements more grants through the community-based
                      organizations.331 It is not clear why Afghan government officials appear to
                      participate more in CCI project monitoring than the SIKA projects.
                          The ARTF supports both Afghanistan’s operating and development bud-
                      get. As part of the development budget it funds the Afghan government’s
                      National Solidarity Program (NSP), which was designed to strengthen com-
                      munity level governance and to improve the access of rural communities to
                      social and productive infrastructure and services by channeling resources
                      to democratically-elected Community Development Councils (CDCs). The
                      U.S. government supports the Afghan government’s NSP through the ARTF
                      and is its largest donor.332
                          Although NSP has been described in a 2011 Senate Foreign Relations
                      Committee majority staff report as the best example of a national program
                      that reinforces the social compact between the Afghan state and citizens,333
                      SIGAR has raised questions regarding the extent of the Afghan government’s
                      role and the ability of the World Bank to effectively oversee the program.334
                          To its credit, USAID acknowledged that there is a lack of evidence
                      indicating that NSP increases stability in insecure parts of Afghanistan.
                      Therefore, USAID no longer preferences funds to the program through the
                      ARTF. According to USAID, NSP does achieve some positive results, includ-
                      ing community level engagement in decision-making. However, USAID does
                      not rely on the program to achieve specific development objectives. While
                      USAID continues to engage with the World Bank to seek improvements
                      in programs like NSP as a part of the broader effectiveness of the ARTF
                      portfolio, USAID does not consider NSP to be a significant element of its
                      assistance strategy in Afghanistan.335
                          NSP outsources project implementation to nongovernmental orga-
                      nizations. These groups serve as facilitating partners that (1) mobilize
                      communities to form CDCs and (2) provide CDCs technical guidance for
                      managing block grants and planning and implementing subprojects at the
                      village level.336 In 2011, SIGAR issued an audit of NSP with several recom-
                      mendations including the need to show improvements in linkages between
                      local communities and the Afghan government, and the need for close mon-
                      itoring and evaluation of NSP activities in insecure areas.337
                          According to the MRRD, NSP has modified its approach, the High Risk
                      Areas Implementation Strategy, in 44 districts across 14 provinces due to
                      insecurity as seen in Figure 3.27.338 This approach allows nongovernmental
                      facilitating partners to hire community members to act on their behalf, sub-
                      contract to a local nongovernmental organization, and modify CDC election
                      procedures.339 As noted in the 2011 SIGAR audit, this approach may reduce
                      the effectiveness of NSP activities and permit less oversight.340




                       124                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 124                                                                                     1/24/2014 11:08:26 AM
                                                                                                   Governance




                      Figure 3.27


                      MAP OF NATIONAL SOLIDARITY PROGRAM (NSP) HIGH-RISK AREAS IMPLEMENTATION
                      STRATEGY DISTRICTS




                                                                                                                    High-risk Areas




                      Notes: NSP classifies the security of a given district once every six months. “High-risk” indicates that the security environment
                      does not allow for consistent access to communities.
                      Source: Ministry of Rural Rehabilitation and Development, NSP Quarterly Report, 9/22/2013.




                         This quarter, SIGAR asked USAID to provide an assessment of the way
                      NSP operates in insecure areas to better understand if the program facili-
                      tates connecting the government to the population. USAID responded that
                      this information is not available.341

                      Urban and Provincial Centers
                      USAID’s four Regional Afghan Municipalities Program for Urban
                      Populations (RAMP UP) projects, extended to March 2014, aim to improve
                      the capacity of the provincial and urban levels of government to improve
                      budgeting and, in the case of municipalities, improve revenue collection.
                      The RAMP UP programs followed the Afghanistan Municipal Strengthening
                      Program which focused on municipalities in 11 provinces and operated
                      from May 2007 to August 2010 with a final disbursement of $25 million dol-
                      lars.342 Table 3.17 on the following page details USAID’s subnational (urban
                      and provincial) programs, including RAMP UP.
                         The RAMP UP projects aim to assist governments in urban centers to
                      increase the capacity of municipal officials, improve the delivery of munici-
                      pal services, support economic growth initiatives, and increase own-source




                      Report to the united states congress                          I   January 30, 2014                                     125



Jan2014_QR.indb 125                                                                                                                                       1/24/2014 11:08:27 AM
                      Governance




                      Table 3.17


                      USAID Subnational (Urban and Provincial) Programs
                                                                                      Total Estimated Cumulative Disbursements
                       Project Title                    Start Date        End Date        Cost ($)     as of 12/31/2013 ($)
                       Regional Afghan
                       Municipalities Program for       6/10/2010         3/31/2014    149,023,047           88,351,892
                       Urban Populations South
                       Regional Afghan
                       Municipalities Program for       6/10/2010         3/31/2014    147,011,369           84,955,414
                       Urban Populations East
                       Economic Growth and
                                                    8/15/2009             8/31/2013     92,371,523           80,745,277
                       Governance Initiative (EGGI)
                       Performance Based
                                                        11/1/2009         9/30/2013     48,924,296           48,055,668
                       Governor Fund (PBGF)
                       Regional Afghan
                       Municipalities Program for       2/8/2011          3/31/2014     40,000,000           31,884,079
                       Urban Populations North
                       Regional Afghan
                       Municipalities Program for       11/1/2010         3/31/2014     35,000,000           28,095,884
                       Urban Populations West
                      Source: USAID, response to SIGAR data call, 1/7/2014.




                      revenues. The RAMP UP projects fund small service delivery projects to
                      develop municipal management capacity.343 A recent RAMP UP perfor-
                      mance evaluation summarized the state of municipal governance across
                      the country:
                                   The problems of Afghan cities are numerous and daunting.
                                   Many administrators, who have served 20 years or more in
                                   the municipality, have little motivation or knowledge of the
                                   ways of a functioning bureaucracy. They arrive at around
                                   7:00 am at a municipal building that often-times has no elec-
                                   tricity, sit idly chatting and drinking tea with individuals who
                                   drop into their office as if it were a corner barbershop in a
                                   US neighborhood, and go home for the day around noon.
                                   Most cities have few resources, and employees typically
                                   receive less than $100 per month for their work. Citizens
                                   expect little, and receive it. Meanwhile corruptions, rang-
                                   ing from kickbacks on large contracts to the obligatory ‘fee’
                                   that typically must be paid any time a signature or action is
                                   required from the government, is pervasive.344

                         The review found that, nevertheless, “incremental and slow” progress
                      was being made and that municipalities offered the best hope for democ-
                      racy to take hold in Afghanistan:
                                   Critically, Afghan municipalities are the only subnational
                                   government entities to collect and keep local revenues,
                                   and many have moved aggressively to apply this author-
                                   ity. Municipalities operate in a system that, for all of its




                        126                           Special inspector general         I   Afghanistan reconstruction




Jan2014_QR.indb 126                                                                                                              1/24/2014 11:08:27 AM
                                                                        Governance




                              problems, provides them revenue collection latitude far
                              greater than their counterparts in other developing countries,
                              and provides the country a path to the establishment of a
                              strong system of local self-governance.345
                         The experiences of the four RAMP UP projects provide a perspective
                      on two important aspects of municipal governance: revenue collection and
                      service delivery. Afghan municipalities have the unique ability to both col-
                      lect and use locally collected revenue and are expected to be largely fiscally
                      self-sustaining.346

                      Municipal Revenue Collection
                      The performance evaluation of RAMP UP found that program reporting
                      inflated the role of the four RAMP UP programs in increasing municipal rev-
                      enue. While property-tax and business-license revenue increased thanks to
                      RAMP UP efforts, they were dwarfed by other municipal income, including
                      land sales, upon which the RAMP UP programs had no impact.347 For exam-
                      ple, the report found that there was no causal relationship between RAMP
                      UP West program efforts and revenue generated in target municipalities.348
                      The evaluation report raised concern that municipalities rely on selling pub-
                      lic land for revenue, as it is a finite resource.349
                          The evaluation concluded that the key determinants for increased
                      municipal revenue include mayors’ commitment to collection, the number
                      of businesses and properties that constitute the tax base, the adoption of
                      RAMP UP revenue reforms, and, in the case of Ghazni municipality, the out-
                      sourcing of tax collection to a private company.350

                      Municipal Service Delivery
                      The RAMP UP performance evaluation found that in larger cities supported
                      by RAMP UP, mayors became disillusioned with the program due to unful-
                      filled promises of projects. Smaller cities that had fewer promises were
                      reportedly less disillusioned according to the evaluation.351
                          Under the RAMP UP program, municipalities were expected to contribute
                      to the cost of projects, but these contributions varied widely across the four
                      regions. The willingness of a municipality to contribute funds for projects
                      may serve as an important indicator of municipal ownership. For example,
                      the expected municipal cost share was less than 2%—about $330,000 of the
                      $17.1 million obligated for RAMP UP projects.352 Some of the municipalities
                      appear to be selective in their contributions by contributing to projects that
                      may benefit the municipally through future revenue. In RAMP UP South,
                      three of the 45 projects have a municipal cost share of land. The three RAMP
                      UP South projects for which the municipalities contributed land included
                      a slaughterhouse, a women’s marketplace, and a parking lot.353 According
                      to the RAMP UP performance evaluation, a popular strategy for municipal
                      revenue generation is for the city to act as a landlord by constructing slaugh-
                      terhouses, wedding halls, business centers, and other facilities to be owned




                      Report to the united states congress   I   January 30, 2014              127



Jan2014_QR.indb 127                                                                                     1/24/2014 11:08:27 AM
                                                       Governance




                                                       by the municipality, then leased out to a private business.354 The projects for
                                                       which municipalities contributed land in RAMP UP South appear to be in
                                                       keeping with the interests of the city as a landlord.

                                                       Provincial Budgeting
                                                       The tentative gains in municipal capacity stand in contrast with the expe-
                                                       rience of provincial governments that are required to remit revenues to
                                                       and receive allocations from the central government.355 From May 2010 to
                                                       August 2012, USAID’s Economic Growth and Governance Initiative (EGGI)
                                                       project sought to develop capacity in 14 ministries in all 34 provinces in
                                                       support of the Ministry of Finance’s (MOF) provincial budgeting pilot.356
                                                       According to the MOF, the budget pilot utilized existing ministry programs
                                                       and produced project nominations from all provinces that were incorpo-
                                                       rated into the national budget.357
                                                          According to USAID, the provincial budget pilot program ultimately
                                                       failed due to a lack of funding and political will in the Afghan govern-
                                                       ment.358 The Afghan government claimed to be unable to fund nominated
                                                       proposals and asked donors for additional funds. However, donors felt that
                                                       the Afghan government should tap unspent discretionary development
                                                       budget funds for the pilot since its budget-execution rate was so low. The
                                                       issue remained unresolved until August 2012, when the Deputy Minister of
                                                       Finance requested that USAID stop providing capacity-building support to
        Zabul Province Deputy Governor                 provincial budgeting.359 USAID’s assistance was predicated on dialogue with
        Mohammad Jan Rasulyaar attends a shura         the MOF, which requested USAID and UNDP support to build Afghan gov-
        meeting in Qalat District. (U.S. Army photo)   ernment capacity to implement provincial budgeting. According to USAID,
                                                       MOF backed its request with planning and budgeting documents that
                                                       showed its commitment, at the time, to financing the initiative.360 Despite
                                                       this, it appears that funding for the provincial budget pilot was not seriously
                                                       discussed until after USAID had already made significant investments in
                                                       capacity building and after the provincial ministry directorates had already
                                                       submitted project nominations.
                                                          International donors remain interested in the provincial budgeting
                                                       process and continue to track progress as a key deliverable of the Tokyo
                                                       Mutual Accountability Framework.361 However, the fact that the previous
                                                       USAID attempt to support a provincial budgeting pilot failed due to lack of
                                                       Afghan government funding and political will does not bode well.
                                                          As reported in the latest Tokyo Mutual Accountability Senior Officials’
                                                       report, there remains a lack of strategic vision at the provincial level due to
                                                       the disconnect between provincial planning processes and national plans.362
                                                       This is apparently despite the U.S.-supported provincial budget pilot that
                                                       was meant to link the local priorities and preferences of ministry provincial
                                                       offices to national priority programs.363 According to USAID, the MOF has
                                                       developed a new provincial budgeting policy which donors have reviewed




                                                        128                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 128                                                                                                                      1/24/2014 11:08:27 AM
                                                                        Governance




                      and commented on, and that the MOF submitted in late December 2013 to
                      the cabinet, which is deliberating on the approval of this new policy.364


                      Reconciliation and Reintegration
                      The U.S. Civilian-Military Framework views political reconciliation
                      between the Afghan government and insurgency as “the solution to ending
                      the war in Afghanistan.”365 However, the United Nations Secretary-General
                      described progress on a peace process as having been “disappointing in
                      recent months.”366
                         The Afghan government may be unable to reach an enforcable agreement
                      at this time with Taliban leadership. According to the UN’s Security Council
                      Resolution 1988 Sanctions Committee, it is unclear how much direct con-
                      trol Taliban leadership exercises over the movement as a whole. A recent
                      committee monitoring report observes that the Taliban combine centralized
                      authority with significant scope for decentralized action by field com-
                      manders. The movement has an elaborate command structure that is not
                      anchored solely in the “Quetta Shura” leaders’ council. The report concludes
                      that the persistent presence and autonomy of other armed groups raises
                      questions about the true extent of the influence exerted by the Taliban lead-
                      ership.367 The Congressional Research Service also noted that the insurgency
                      as a whole has grown increasingly fractured and is particularly divided politi-
                      cally in its views regarding political settlement efforts.368

                      Reconciliation
                      According to State, the High Peace Council (HPC) continues to hold meet-
                      ings to strengthen cooperation and achieve unity among different layers of
                      the Afghan society in support of the peace process. In addition, HPC leader-
                      ship continues to travel to the region and overseas to advance the HPC’s
                      reconciliation goals. Overall, however, State is not able to assess the utility
                      of HPC Executive Board meetings and did not offer SIGAR an assessment
                      of HPC reconciliation efforts in the region.369
                          President Karzai and Pakistani Prime Minister Nawaz Sharif met in
                      Kabul in late November to discuss “practical steps” to bring the Taliban
                      to the negotiating table. According to The Wall Street Journal, Mr. Sharif
                      stated that Pakistan is interested in a stable Afghanistan, but neither
                      he nor President Karzai offered specifics.370 In the view of the AAN, the
                      publicly available transcripts were vague and gave no indication of any
                      substantial progress.371
                          HPC members traveled to Pakistan in November with the intention of meet-
                      ing with Mullah Abdul Ghani Baradar, the former Taliban second-in-command.
                      It is unclear, however, whether Mullah Baradar can or will advance the peace
                      process, or even whether a meeting with him occurred.372




                      Report to the united states congress   I   January 30, 2014             129



Jan2014_QR.indb 129                                                                                     1/24/2014 11:08:27 AM
                      Governance




                         The HPC also traveled to Saudi Arabia to attend the Islamic Countries
                      Conference in December. HPC representatives called on participants to
                      help with Afghanistan’s peace process.373

                      Afghanistan Peace and Reintegration Program
                      DOD reported last quarter that the Afghanistan Peace and Reintegration
                      Program (APRP) has succeeded in reintegrating former insurgents, but is not
                      a major influence on the conflict.374 The APRP is an Afghan-led reintegration
                      program targeted towards low-level foot soldiers and their commanders, and
                      financed through $182.3 million in contributions from twelve donor nations.
                      Operational funding for the program is provided by seven donor nations
                      (primarily Japan and Germany), while the United States provides funding
                      towards community recovery efforts administered by the World Bank.375
                         According to State and DOD, the $50 million U.S. contribution in sup-
                      port of APRP via the MRRD’s NSP Community Recovery Intensification and
                      Prioritization (CRIP) mechanism has not been linked to the APRP for fear
                      of endangering NSP nongovernmental facilitating partners. The U.S. funds
                      have instead been subsumed into the broader ARTF budget rather than
                      being used in support of specific reintegration initiatives. A recent DOD
                      report states, “Due to its unique focus in insecure districts, CRIP delivery
                      is by nature indirect, limited, and unannounced, relying on the overall sta-
                      bilization effect attributed to NSP III rather than direct programming of
                      activities to APRP reintegrees or their communities” [emphasis added].376
                         SIGAR asked DOD to clarify how an “indirect, limited, and unan-
                      nounced” approach for NSP/CRIP facilitates the APRP. According to the
                      U.S. Embassy Kabul and the Force Reintegration Cell (FRIC), an ISAF
                      element supporting the APRP, it is not necessary on a programmatic level
                      for assistance to CRIP districts to be “indirect, limited, and unannounced,”
                      nor does this approach facilitate the APRP. Rather, the low profile of NSP/
                      CRIP programming prevents and/or limits the program from securing the




                      A reintegree accepted by the Afghan government in Panjwai District, Kandahar Province,
                      Afghanistan. (U.S. Army photo)




                        130                  Special inspector general     I   Afghanistan reconstruction




Jan2014_QR.indb 130                                                                                            1/24/2014 11:08:28 AM
                                                                                                 Governance




                      peace dividends it seeks to establish by failing to link community recovery
                      benefits with the return of reintegrees. According to State, the presence of
                      reintegrees does not drive NSP/CRIP programming.377
                         The U.S. Embassy Kabul has reportedly raised the issue repeatedly with
                      the Afghan government Joint Secretariat and the MRRD, but has been
                      advised that the MRRD is reluctant to publicly identify projects in NSP/
                      CRIP districts with the APRP for fear of reprisal attacks. The FRIC also
                      notes that it is impossible to track individual NSP/CRIP projects because
                      the funds for APRP are comingled with other funds.378
                         The fear of associating NSP with the reconciliation program is not a new
                      concern. During the course of the audit of NSP by SIGAR in 2010, the direc-
                      tor for one of the NSP facilitating partners stated that having NSP involved in
                      APRP would cause facilitating partners to stop working with MRRD because
                      nongovernmental organizations do not wish to damage their reputation with
                      the communities through associating with APRP.379 It may be that NSP is not
                      the optimal delivery mechanism for APRP to advance the political objectives.
                         During the quarter, 328 new reintegrees joined the program increas-
                      ing the total to 7,599 reintegrees, as shown in Figure 3.28.380 According to
                      State and the FRIC, the APRP has a robust vetting process to confirm that
                      individuals who want to join the program are legitimate insurgents. The
                      process mostly involves Afghan civil government and ANSF officials at the

                      Figure 3.28

                      CUMULATIVE REINTEGREES BY REGIONAL COMMAND


                      8,000

                      7,000

                      6,000                                                                                                                                          RC-NORTH



                      5,000
                                                                                                                                                                              RC-CAPITAL
                                                                                                                                       RC-WEST
                      4,000
                                                                                                                                                                          RC-EAST

                      3,000
                                                                                                                                                         RC-SOUTH

                      2,000
                                                                                                                                   RC-SOUTHWEST

                      1,000

                            0
                                  Mar        Jun        Sep        Jan       March      June        Sep        Dec
                                 2012       2012       2012       2013       2013       2013       2013       2013


                      Note: Sources did not explain why the cumulative number in RC-West and RC-Southwest decreased this quarter; the current number of confirmed recidivists is 16 individuals.
                      Sources: SIGAR Quarterly Report, 1/30/2013, p. 97; State, responses to SIGAR data call, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, 3/30/2012, 7/1/2013, 10/4/2013; DOD, response to
                      SIGAR data call, 12/31/2013.




                      Report to the united states congress                         I   January 30, 2014                                   131



Jan2014_QR.indb 131                                                                                                                                                                                1/24/2014 11:08:28 AM
                      Governance




                      provincial and national levels who negotiate and administratively process
                      the reintegree. The international role is limited to being able to access the
                      Reintegration Tracking and Monitoring Database.381
                         The FRIC said elimination of national-level bottlenecks in the MOI reinte-
                      gree vetting processes have resulted in much greater efficiency in enrollment
                      procedures. The Joint Secretariat has reportedly improved the processes
                      to ensure potential reintegrees are actual insurgents, possess serviceable
                      weapons, and have been accepted by their receiving community. The FRIC
                      suggests the vetting process is functioning by noting that 140 out of a list of
                      300 applicants in Baghlan province were rejected by the Afghan government
                      on the basis of not meeting one or more of the required criteria.382
                         The FRIC reported that the APRP has a rigorous process to determine
                      whether an individual has become a recidivist and returned to the insur-
                      gency. Recidivism is determined on an individual basis and is usually based
                      on Coalition intelligence and Afghan provincial governmental reporting.
                      The evidence against a suspected recidivist must be substantiated and pre-
                      sented to the ISAF Joint Command (IJC) Reintegration Team and the FRIC.
                      According to the FRIC, the requirement for verifiable reporting keeps the
                      overall recividism number fairly low. However, the FRIC believes the likely
                      number of actual recidivists exceeds the official number of 16.383 The process
                      for being declared a recidivist involves several Coalition entities, unlike the
                      process for being labeled a reintegree which is almost exclusively Afghan.
                      There is no requirement for reintegrees to continue contact to confirm rein-
                      tegree status. Reintegrees are expected to contact officials to receive up to
                      six months of transition-assistance payments, but need make no contact
                      after that as they are considered regular Afghan citizens.384


                      Rule of Law and Anticorruption
                      The geographic coverage and effectiveness of Afghanistan’s formal justice
                      sector is unclear. In his Presidential Decree 45, President Karzai requested
                      that the Supreme Court activate all inactive courts in the provinces and
                      districts, and staff them with professional personnel by March 21, 2013.385
                      The Supreme Court of Afghanistan and the Afghan Attorney General’s
                      Office reported that all districts have prosecutors assigned and all districts
                      have functioning courts.386 Insecure districts that do not physically host
                      prosecutors or judges, however, are still labeled “functioning” so long as
                      cases are processed in provincial capitals. For example, the prosecutors for
                      the 51 most insecure districts work from their assigned provincial centers,
                      which may be outside of those districts.387 State notes that positions remain
                      unfilled and cases continue to be referred to provincial justice centers.388
                         According to The Asia Foundation’s Survey of the Afghan People, 19%
                      of the respondents say that in the past two years they have taken a dispute
                      to either the formal justice system or local informal justice system. The




                       132                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 132                                                                                     1/24/2014 11:08:28 AM
                                                                                             Governance




                      Figure 3.29

                      AFGHANS' CONFIDENCE IN STATE COURTS VS. LOCAL JIRGAS/SHURAS



                                   Fair and trusted

                      Follow the local norms and
                             values of our people

                                   Are effective at
                                  delivering justice

                             Resolve cases timely
                                    and promptly

                                                      0%              20%              40%              60%              80%       100%

                                                                            State Courts                           Local Jirgas

                      Source: The Asia Foundation, Afghanistan in 2013: A Survey of the Afghan People, 12/2013, p. 86.




                      survey also reports that 67% say informal bodies resolve cases in a timely
                      and prompt fashion, while only 46% say the same of the state courts. There
                      was also a varying degree of confidence between the state court system
                      and informal local systems, with informal systems rated higher, as shown in
                      Figure 3.29.389

                      Project Summary
                      The United States has provided assistance to the formal and informal jus-
                      tice sectors through several mechanisms. These include the USAID/Rule of
                      Law Stabilization Formal and Informal Components (RLS-F and RLS-I), the
                      USAID/Assistance to Afghanistan Anti-Corruption Authority Program (4As),
                      and the State Department Justice Training Transition Program (JTTP).
                      These and other rule of law and anticorruption programs are detailed in
                      Table 3.18 on the following page.
                          RLS‐F provides assistance to the formal justice sector to increase
                      access to justice, strengthen the capacity of the legal education system,
                      and promote transparency and accountability at the district, provincial,
                      and national levels. USAID reports that RLS-F improves the capacity of
                      sitting judges and court staff by providing comprehensive legal training.
                      RLS-F includes the Supreme Court formal training program for new judges,
                      which 81% of Afghan judges have completed. RLS‐F also implemented pub-
                      lic outreach efforts informing Afghans of rights and responsibilities and
                      strengthening civic awareness of legal rights and judicial processes.390




                      Report to the united states congress                      I   January 30, 2014                              133



Jan2014_QR.indb 133                                                                                                                       1/24/2014 11:08:28 AM
                      Governance




                      Table 3.18


                      USAID Rule of Law and AntiCorruption Programs
                                                                                           Total Estimated Cumulative Disbursements
                       Project Title                     Start Date           End Date         Cost ($)     as of 12/31/2013 ($)
                       Rule of Law Stabilization -
                                                         7/16/2012            2/15/2014         18,900,000             13,809,331
                       Formal Component
                       Rule of Law Stabilization -
                                                         7/16/2012            3/13/2014         15,651,679             12,973,595
                       Informal Component
                       Assistance to Afghanistan Anti-
                       Corruption Authority Program 10/1/2010                 11/15/2013         9,400,000              8,338,049
                       (4As)

                       Fight Corruption Tooth and Nail 7/4/2012               7/5/2014            997,000                 435,935

                       GAPS Anti-Corruption Grant        6/7/2012             6/6/2014            992,379                 555,000

                      Source: USAID, response to SIGAR data call, 1/7/2014.



                         RLS‐I provides assistance to the traditional justice sector to increase the
                      quality of justice services provided and facilitate formal‐traditional justice
                      sector linkages. According to USAID, RLS‐I has enhanced the dispute-res-
                      olution skills of community leaders in 48 districts in southern, eastern, and
                      northern Afghanistan. With USAID assistance, 4,095 elders have pledged to
                      cease traditional justice practices such as baad, the practice of exchang-
                      ing women to settle a dispute, and 38 women’s elders groups have been
                      established. USAID stated that RLS‐I will complete an impact evaluation of
                      activities next quarter to measure project results.391
                         JTTP provides regional training to justice-sector officials, including
                      police, prosecutors, judges, and defense attorneys on a wide range of
                      criminal justice topics, including anticorruption. JTTP also provides men-
                      toring on specific cases and legal issues to justice sector officials, including
                      prosecutors and judges. According to State, beneficiaries of JTTP training
                      have demonstrated increased capacity and knowledge, leading to improved
                      effectiveness. However, State indicated that it was unable to assess the
                      state of Afghan court administration.392
                         This quarter, SIGAR released an audit on State programs in support of
                      the Afghan justice sector. Since 2005, the State has spent at least $223 mil-
                      lion on justice-sector development programs in Afghanistan, including
                      State’s Bureau of International Narcotics and Law Enforcement Affairs’
                      (INL) programs to train Afghan justice-sector personnel. The Justice Sector
                      Support Program (JSSP) is one of these programs and comprises two main
                      components: developing a case-management system and building adminis-
                      trative capacity at Afghan ministries. SIGAR found that INL’s management
                      and oversight of the JSSP contract with PAE Incorporated limited its abil-
                      ity to assess the contractor’s performance and the JSSP’s contribution to




                        134                           Special inspector general             I   Afghanistan reconstruction




Jan2014_QR.indb 134                                                                                                                   1/24/2014 11:08:28 AM
                                                                        Governance




                      justice sector development. See Section 2 of this report for a summary of
                      SIGAR’s findings.393

                      The Supreme Court and the Formal Justice Sector
                      Under the Afghan constitution, Supreme Court justices serve set terms.
                      State previously reported that four Supreme Court justices with expired
                      terms were still serving; however, during this quarter, two new Supreme
                      Court justices were appointed.394 According to USAID, the Supreme Court
                      broadly lacks political will to support women’s participation in the judiciary
                      and to increase judicial transparency and accountability.395 State considers
                      three recent court rulings involving women this quarter as evidence that the
                      court is increasing its application of legal protections to women:
                      •	 The case of Lal Bibi, 18, a woman from Kunduz province who was
                         abducted by a group of policemen who beat and raped her for five days.
                         The primary court sentenced all four policemen to 16 years’ imprisonment.
                         The Appellate Court and Supreme Court affirmed the decision.396
                      •	 The case of Sahar Gul, 14, who was forced into marriage. When she
                         refused to accept the marriage, the family she was married into brutally
                         tortured her and locked her away in the basement. The procedural
                         history of the case is unclear, but during the appeals process, the lower
                         court set the abusers free. The Supreme Court issued a public statement
                         expressing its anger, and recently sentenced the mother-in-law and father-
                         in-law to five years in prison. The sister-in-law’s acquittal was affirmed,
                         but the Court said her husband, who arranged the forced marriage, and
                         a brother-in-law should be prosecuted. Finally, the Court said claims for
                         marriage annulment and damages should be heard in civil court. The
                         Sahar Gul case marks the first time a victim of domestic violence in
                         Afghanistan sought criminal and civil action herself against her abusers.397
                      •	 The case of four people accused in the attempted rape and murder of
                         Zarifa, a provincial representative of Jawzjan province. The primary
                         court sentenced each perpetrator to 14 years in prison. The Appellate
                         Court applied Article 396 of penal code and Article 17 of the EVAW
                         law and sentenced each to 18 years imprisonment. The Supreme Court
                         approved the decision, indicating that courts are in fact utilizing and
                         enforcing, if unevenly at times, the EVAW law.398

                      Afghan Correctional System
                      The inmate population of Afghanistan’s prisons managed by the General
                      Directorate of Prisons and Detention Centers (GDPDC) has continued
                      to increase at a rate of 16.4% annually over the past five years, leading to
                      overcrowding, according to State. As of October 20, 2013, the last date for
                      which data is available, the GDPDC incarcerated 29,140 individuals. The
                      Ministry of Justice’s Juvenile Rehabilitation Directorate (JRD) incarcer-
                      ated 1,209 juveniles. This total does not include detainees held by any




                      Report to the united states congress   I   January 30, 2014             135



Jan2014_QR.indb 135                                                                                     1/24/2014 11:08:28 AM
                                                          Governance




                                                          other Afghan governmental organization as State’s Bureau of International
                                                          Narcotics and Law Enforcement Affairs (INL) does not have access to data
                                                          for other organizations.399
                                                             Overcrowding is a persistent, substantial, and widespread problem
                                                          within GDPDC facilities. As of October 20, 2013, the total male provin-
                                                          cial prison population was at 282% capacity, as defined by International
                                                          Committee of the Red Cross’ (ICRC) minimum 3.4 square meters per
                                                          inmate. The total female provincial prison population was at 137% of the
                                                          ICRC capacity. Data from Herat Provincial Prison exemplifies the severity
                                                          of the overcrowding in GDPDC facilities: according to a 2011 ICRC assess-
                                                          ment, Herat Provincial Prison has the capacity for 491 prisoners, yet data
                                                          from October 2013 indicates that over 3,100 prisoners are housed in the
             SIGAR Inspections                            facility. Information on the capacity of GDPDC-operated district detention
                                                          centers and the JRD’s juvenile rehabilitation centers is not available, how-
             This quarter SIGAR initiated inspections
                                                          ever, anecdotal reporting by INL advisors visiting facilities indicates that
             of the Pol-i-Charki provincial prison
                                                          overcrowding is a substantial problem in many provinces.400
             east of Kabul and the provincial prison
                                                             According to State, INL possesses the financial and workforce resources
             in Baghlan Province. The inspections
                                                          to monitor its contracts, grants, and construction projects throughout
             will assess whether construction of
                                                          Afghanistan. State acknowledges that a lack of security makes it difficult
             the facilities is in accordance with
                                                          at times for INL to reach locations and because of this, State said INL is
             contract requirements and construction
                                                          developing contingency plans and weighing site accessibility when making
             standards, and if the facilities are being
                                                          decisions on future efforts. For example, INL is investigating the viability of
             used as intended and maintained.
                                                          using third-party contractors to supplement direct oversight of infrastruc-
                                                          ture projects by INL’s American and Afghan engineering staff.401

                                                          Anticorruption
                                                          Afghan anticorruption efforts demonstrated no significant progress during
                                                          the quarter. State is not aware of any corruption charges filed against high-
                                                          level officials and is not able to comment on the existence of any pending
                                                          investigations. The Afghan government continues to prosecute lower-level
                                                          government officials for corruption, but prosecutions are generally not pur-
                                                          sued for those beyond the lowest-level supervisors.402
                                                             Transparency International this quarter issued its latest update to the
                                                          Corruption Perception Index in which Afghanistan shared last place with
                                                          North Korea and Somalia. Afghanistan’s score was established on the basis
                                                          of three data sources that rely upon expert perceptions of corruption: the
                                                          2014 Bertelsmann Foundation Transformation Index, the 2012 World Bank
                                                          Country Policy and Institutional Assessment, and the 2013 Global Insight
                                                          Country Risk Ratings.403
                                                             According to The Asia Foundation’s Survey of the Afghan People, 84%
                                                          of respondents stated that corruption was either a major or minor problem
                                                          in daily life, a decrease by 3 percentage points from last year. According to
                                                          respondents who have to had to give cash or a gift to, or perform a favor
                                                          for, a government official, the most frequent situation involved seeking




                                                           136                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 136                                                                                                                         1/24/2014 11:08:28 AM
                                                                        Governance




                      public healthcare services (38%), applying for jobs (31%), interacting with
                      the judiciary/courts (33%), receiving official documents (28%), in deal-
                      ing with the Afghan National Police (31%), and in contacting the Afghan
                      National Army (21%).404
                         During the quarter, the mayor of Pul-e-Alam, the provincial capital of
                      Logar province, was accused of corruption and embezzling funds. An offi-
                      cial of the MEC is quoted as saying the mayor has illegally appointed and
                      dismissed employees, illegally seized land, and committed forgery, major
                      theft, and bribery. MEC officials reportedly conducted an investigation and
                      found that documents were forged in order to embezzle tens of millions of
                      AFN from municipal revenues. The MEC reportedly recommended legal
                      action several months ago but the central government has not responded.405

                      Afghan Attorney General’s Office
                      There were no significant changes in the technical capacity or effective-
                      ness of the Attorney General’s Office (AGO).406 The Anti-Corruption Unit
                      (ACU) of the AGO has seen a decrease in INL and Department of Justice
                      (DOJ) engagement due to reduced interest by the ACU. Although the ACU
                      has demonstrated capacity to prosecute minor corruption cases, it remains
                      ineffective against higher-level corruption. State INL assesses this as being
                      almost entirely due to a lack of will.407
                         The AGO has made little progress on Kabul Bank asset recovery.
                      According to State, the AGO signed off on several mutual legal assistance
                      requests, but all were reportedly prepared by international mentors and
                      there has been limited follow-up. Moreover, the AGO has not yet assigned a
                      full-time prosecutor to focus on asset recovery.408
                         The Major Crimes Task Force (MCTF) is the investigatory arm for the
                      AGO internal control and monitoring unit. In February 2013, Federal Bureau
                      of Investigation mentors disengaged from the MCTF and were succeeded
                      by personnel from the Combined Joint Interagency Task Force-Afghanistan
                      (CJIATF-A).409 According to reports from CJATF-A mentors, MCTF investi-
                      gators remain interested in pursuing significant corruption cases. The chief
                      of the MCTF was removed on December 25, 2013. His successor is a profes-
                      sional police officer, with ten years’ experience leading several investigative
                      departments in Kabul. His appointment is seen as a positive development.
                      The MCTF remains frustrated with the lack of cooperation by AGO.410

                      Independent Joint Anti-Corruption Monitoring and
                      Evaluation Committee
                      Despite demonstrating political will to address some of the toughest cor-
                      ruption-related questions, the MEC was assessed by State as lacking the
                      authority to do more than illuminate poor or corrupt practices.411
                         The MEC recommended during the quarter that the Afghanistan
                      Investment Support Agency (AISA) be the subject of an independent audit




                      Report to the united states congress   I   January 30, 2014             137



Jan2014_QR.indb 137                                                                                     1/24/2014 11:08:28 AM
                      Governance




                      because of its lack of accountability and ambiguous legal status. AISA is
                      meant to support the development of the private sector and claims to be
                      both an Afghan government entity as well as a limited liability corporation.
                      According to the MEC, AISA was audited only in 2005, when several financial
                      and accounting deficiencies were found. MEC also has concerns that AISA
                      was improperly given responsibility for the development of industrial parks
                      (previously a responsibility of the Ministry of Commerce and Industries).412

                      Supreme Audit Office
                      According to USAID, political will for auditing is declining in the current
                      political climate. However, the situation may change due to the anticorrup-
                      tion rhetoric of presidential candidates.413
                         Under the 1392 Audit Law, the Supreme Audit Office (SAO) is the body
                      responsible for auditing the Afghan government. According to USAID, the
                      office has been responding reasonably well to requests and meeting mini-
                      mum standards for audits.414
                         The SAO is responsible for meeting auditing benchmarks as part of
                      the ARTF Incentive Program (IP). The objective of the IP is to support
                      the Afghan government with a reform program that aims at improving fis-
                      cal sustainability though increasing domestic revenue mobilization and
                      strengthening expenditure management.415 According to USAID, the World
                      Bank received audits covering 27.5% of total expenditures for the 1391 bud-
                      get year in November 2013.416 The benchmark for auditing increases year
                      by year with 1391 being at least one audit representing 5% of total expendi-
                      tures, 1392 being 20%, and 1393 being 25%.417 According to USAID, both the
                      1391 and 1392 IP auditing benchmarks are on track.418
                         According to the SAO, their recent audit covered four ministries
                      (Education; Public Health; Public Works; and Labor, Social Affairs, Martyrs
                      & Disabled) that collectively represented 27% of the 1391 core development
                      and operating budget. The SAO states that field work occurred at a sample
                      of locations both the central ministry offices and provincial directorates.
                      The SAO found that:
                      •	 The ministries at the center and provinces have not adequately
                          complied with the Public Finance and Expenditure Management Law,
                          Income Tax Laws, or the Procurement Law, as well as other budgetary
                          authorities in making payments, managing expenditures, procurements
                          of goods and services, and execution of development projects.
                      •	 The ministries demonstrated weak control in executing contracts.
                      •	 The execution of the four ministries’ development budgets was very low.
                      •	 The majority (67.9%) of the Ministry of Public Health’s development
                          expenditure in 1391 was transferred to nongovernmental organizations
                          and the Ministry spent only 32.1% directly through its agencies.




                       138                Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 138                                                                                    1/24/2014 11:08:28 AM
                                                                        Governance




                      •	 Large sums of the expenditures have been recorded under “Not
                         Elsewhere Classified” and are not identified with any appropriate object
                         of expenditure.

                         The SAO recommended that the ministries strengthen their controls and
                      monitoring systems to ensure compliance with provisions of applicable
                      rules, statutes, agreements, and budgetary authorities for appropriate
                      deduction of tax-expenditure management, procurement and contracts
                      managements, and execution of development budget projects.419

                      High Office of Oversight and Anticorruption
                      State and USAID reported last quarter that the High Office of Oversight
                      and Anticorruption (HOO) is dysfunctional, ineffective, and politicized.420
                      USAID reports that the HOO has adequate administrative and technical
                      capacity to carry out its programs and mandate.421 According to USAID,
                      however, the HOO suffers from a lack of political will and seriousness of
                      purpose at the upper echelons of government in fighting corruption, espe-
                      cially when it involves the powerful political elite. The HOO has had little
                      effect in confronting the issue of high-level corruption, though sometimes
                      low‐level corruption is addressed. As a result, USAID assess the HOO as
                      having had little positive impact.422
                         According to USAID, 1,150 Afghan officials are confirmed to have com-
                      pleted an asset-declaration form, although the High Office of Oversight
                      (HOO) claims that the number is between 2,500 and 5,000. The HOO main-
                      tains that 7,000 officials are required to file asset-declaration forms. If so,
                      then at least 35% and at most 70% have complied. USAID admits that there
                      is no way to independently verify the HOO’s figures and notes that while
                      most officials are required to disclose annually, most of those who have
                      declared have done it only once since 2010.423

                      Corruption in Afghan Security Forces
                      According to DOD, the Combined Security Transition Command-Afghanistan
                      (CSTC-A) has for the first time introduced a “financial levers strategy” that
                      is meant to use direct financial contributions to the MOD and MOI as a lever
                      to change Afghan government behaviors. CSTC-A will begin the process
                      once audit or assessment findings are communicated to the relevant minis-
                      try. On Day 30, the Commanding General or Deputy Commanding General
                      of CSTC-A will send a letter of audit recommendations with all open and
                      closed recommendations to the MOD or MOI. If the matter is not resolved
                      by a review board on Day 45, CSTC-A will delay disbursement of 50% of the
                      affected funds or take more serious action if warranted. On Day 60, CSTC-A
                      will conduct a follow-up to determine the status of audit recommendations.
                      Finally, on Day 61, CSTC-A will either decrease funding on the commitment
                      letter or delay disbursement of the affected funds.424




                      Report to the united states congress   I   January 30, 2014               139



Jan2014_QR.indb 139                                                                                     1/24/2014 11:08:29 AM
                      Governance




                          The levers strategy seeks to change behavior at the ministry level. The
                      first audit to go through the process reached the 45/46-day mark around
                      December 23, 2013.425

                      Ministry of Defense
                      According to DOD, the MOD Transparency & Accountability Working
                      Group (TAWG) is an Afghan-led initiative that was established by the
                      President of Afghanistan to (1) develop and maintain a common under-
                      standing of the problems of corruption and organized crime, (2) identify
                      obstacles to reducing the threat of corruption and organized crime, and (3)
                      overcome those obstacles through coordinated action among Afghan gov-
                      ernment ministries and the international community. The MOD Inspector
                      General last briefed the ISAF commander, CSTC-A commander, and other
                      ISAF leaders on the status of the TAWG in October 2012, but there has
                      been no update since.
                         Transparency and Accountability Committees (TACs) were established
                      in all corps and central units in mid-2013 for oversight of contracting, pro-
                      curement, and budget execution at the corps. Each TAC is led by the Corps
                      Deputy Commander and comprises the corps inspector general, staff judge
                      advocate, command sergeant major, and religious and cultural affairs offi-
                      cer. According to DOD, TACs have met only sporadically and without a
                      uniform agenda or reporting schedule.
                         DOD assesses the TAWG and TACs as marginally effective due to lack
                      of direction and failure to expand the inspection and audit sections of the
                      MOD Inspector General.426

                      Ministry of Interior
                      According to DOD, there are several anticorruption initiatives within the
                      MOI. The MOI currently lacks the ability to track investigations from case
                      initiation to disposition and lacks the ability to follow investigations that
                      have a strategic impact and coordinate the response with international
                      partners. DOD offered an assessment of several MOI anticorruption bod-
                      ies that found little overall impact. Several of the committees and working
                      groups have been established but not met since. DOD did highlight two
                      successes in which support from the European Union Police Mission
                      in Afghanistan prompted an antibribery operation in December which
                      resulted in a number of arrests. Additionally, the committee to identify
                      areas within MOI vulnerable to corruption recently cited problems in the
                      MOI Departments of Traffic, Tashkera, and Passport that resulted in addi-
                      tional audits.427
                         In October 2013, the MOI replaced its inspector general, Major General
                      Masood Ragheb, with Brigadier General Hakim Najrabi. DOD considered
                      the replacement an improvement in terms of attitude and receptiveness
                      to reform.




                       140                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 140                                                                                     1/24/2014 11:08:29 AM
                                                                          Governance




                         In July 2013, the Afghan Council of Ministers signed an internal-disci-
                      pline regulation placing the MOI under the same courts martial system
                      as the MOD. DOD believes the new discipline system is a setback as it
                      leaves the MOI reliant on what has proved to be an unreliable Attorney
                      General’s Office for criminal prosecution, and prevents the MOI from
                      administratively removing bad actors except in limited egregious cases.
                      The Minister of Interior is therefore limited to operational actions such
                      as transfers or removal to the reserves, which usually results in reinstate-
                      ment at a later date.428


                      Human Rights
                      Gender Equity
                      In December, the United Nations Assistance Mission in Afghanistan
                      (UNAMA) released a progress report on the Elimination of Violence Against
                      Women Law (EVAW). The report found both progress and continuing
                      gaps in the implementation of the EVAW law by judicial and law enforce-
                      ment institutions. It observed that while registration of reported incidents
                      increased by 28%, the use of the EVAW law as a basis for indictment
                      increased by only 2%. According to UNAMA, Afghan courts this year applied
                      the EVAW law in 60 decisions (55% of 109 indictments filed) compared
                      to 52 decisions (72% of indictments filed) last year, a 17 percentage-point
                      decrease in courts’ use of the EVAW law to decide cases in the current
                      period. Of concern, the overall number of criminal indictments filed by
                      prosecutors in violence against women cases under all applicable laws
                      decreased this year despite the rise in reported and registered incidents.
                      UNAMA observed that increased reporting and registration of incidents of
                      violence against women by police and prosecutors did not lead to a similar




                      Afghan National Army soldiers pin purple ribbons on themselves in support of
                      elimination of violence against women. (U.S. Army photo)




                      Report to the united states congress     I   January 30, 2014                  141



Jan2014_QR.indb 141                                                                                        1/24/2014 11:08:29 AM
                      Governance




                      increase in the use of the EVAW law to resolve cases by prosecutors and
                      courts particularly through criminal prosecution.429
                         The Afghanistan Research and Evaluation Unit issued a report on wom-
                      en’s economic empowerment that found that Afghan women’s economic
                      engagement has generally been overlooked by donors in favor of vocational
                      training and micro-jobs, which have had no specific market outlets and
                      which, moreover, have had extremely limited impact on income enhance-
                      ment. Additionally, the report found that in 2011, the female labor-force
                      participation rate for those 15 or older was 15.8%.430
                         In The Asia Foundation’s 2013 Survey of the Afghan People, an over-
                      whelming majority of Afghans (90%) agree with the idea that everyone
                      should have equal rights under the law, regardless of their gender, includ-
                      ing 59% who strongly agree. There is also a notable urban-rural split on this
                      question: while 71% of urban respondents strongly agree, only 56% of rural
                      respondents strongly agree that women and men should have equal rights
                      under the law. Women’s rights were high on respondents’ minds when asked
                      about the biggest problems facing women. The top three responses for
                      problems facing women were education/illiteracy (27%), lack of job oppor-
                      tunities (12%), and women’s rights issues in general (10%).431

                      Refugees and Internal Displacement
                      According to State, there has been a 54% decrease in Afghan refugee return-
                      ees as of November 30, 2013, as compared to the same period in 2012.
                      State attributes the decrease in the rate of returns in 2013 to the uncertain
                      security situation in Afghanistan, the unknown outcome of the April 2014
                      Afghan presidential and provincial council elections, and the extension of
                      the proof of registration cards for Afghan refugees in Pakistan.432
                         The United Nations High Commissioner for Refugees (UNHCR) noted an
                      increase of 34,377 in the number of conflict-related internally displaced per-
                      sons (IDP) since the last SIGAR quarterly report bringing the total registered
                      conflict-affected IDPs to 624,561.433 UNHCR notes, however, that official
                      figures for the number of IDPs are widely considered to under-represent
                      the scale of the displacement problem in Afghanistan as they exclude those
                      dispersed in urban and semi-urban areas, as well as those displaced to rural
                      locations in areas inaccessible to humanitarian actors.434 Figure 3.30 shows
                      trends in refugee returnees and conflict-related internally displaced persons.
                         Human Rights Watch issued a report on the state of Afghan refugees
                      in Iran. According to the report, Afghans represent the largest refugee
                      population in the world with the vast majority residing in Pakistan (1.7 mil-
                      lion) and Iran (1 million). At least half of the Afghan refugees in Iran have
                      received forms of temporary status in Iran. In addition to the 1 million reg-
                      istered as refugees, an estimated additional 1.4 to 2 million Afghans living
                      and working in Iran have not registered as refugees.435 According to Human
                      Rights Watch, many Afghans living in Iran have a higher quality of life than




                       142                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 142                                                                                     1/24/2014 11:08:29 AM
                                                                                            Governance




                      would likely be available in Afghanistan.436 Despite the benefits Iran has
                      provided past refugees, the report concludes that since at least 2007, Iran is
                      falling short of its obligations because it is failing to provide newly arriving
                      asylum seekers access to protection and is subjecting many Afghans to a
                      range of rights abuses including arbitrary arrests and detention.437

                      Afghanistan Independent Human Rights Commission
                      According to State, the Afghanistan Independent Human Rights Commission
                      (AIHRC) continues to do model work on human rights in a difficult environ-
                      ment, but a lack of independence resulting from the Afghan government’s
                      appointment of AIHRC commissioners may threaten its reaccreditation
                      ranking.438 Last quarter, the top UN human rights official warned that the
                      AIHRC could lose its international “A” status­­—which signifies compliance
                      with the Paris Principles and is a reflection of the institution’s legitimacy
                      and credibility—as recognized by the International Coordinating Committee
                      (ICC) due to the appointments President Karzai made to the commission last
                      quarter.439 State reports that it remains unclear what impact a change in ICC
                      “A” status would have on international support for the AIHRC.440

                      Figure 3.30

                      REFUGEE RETURNS AND CONFLICT-AFFECTED INTERNAL DISPLACEMENTS IN AFGHANISTAN (THOUSANDS)


                      2,000


                                                                                                                                                            Refugee Returnees
                      1,500
                                                                                                                                                            Conflict-Affected
                                                                                                                                                            Internally Displaced Persons

                      1,000




                        500



                                                                                                                                                                     ND
                           0
                                   2002          2003           2004           2005          2006          2007             2008     2009          2010          2011          2012          2013
                                                                                                                                                                                            (11/30)

                      Notes: During 2003-2005, numbers represent the highest estimate in a range. ND = No data available.
                      Sources: State, response to SIGAR data call, 12/30/2013; UNHCR, "VOLREP and Border Monitoring Monthly Update," 4/2013; UNHCR, "Conflict-Induced Internal Displacement - Monthly
                      Update," 1/2013; Internal Displacement Monitoring Centre, "Internal Displacement Caused by Conflict and Violence," accessed 1/2014.




                      Report to the united states congress                     I   January 30, 2014                                143



Jan2014_QR.indb 143                                                                                                                                                                          1/24/2014 11:08:29 AM
                      Economic and Social Development




                      Economic Contents

                      Key Events	                             145
                      Economic Profile	                       146
                      Extended Credit Facility Arrangement	   150
                      U.S. Economic Support Strategy	         150
                      Banking and Finance 	                   153
                      Development of Natural Resources	       158
                      Agriculture	164
                      Essential Services/Development	         168
                      Private-Sector Development	             174
                      Transportation	175
                      Education	176
                      Health	178
                      Communications	182




                       144



Jan2014_QR.indb 144                                                 1/24/2014 11:08:29 AM
           Economic and Social Development




                      Economic And Social Development
                      As of January 17, 2014, the U.S. government has provided more than $25 bil-
                      lion to support governance and economic development in Afghanistan.
                      Most of the appropriated funds flowed into four major programs and
                      accounts, as shown in Table 3.19.
                      Table 3.19

                       CUMULATIVE APPROPRIATIONS FOR AFGHANISTAN DEVELOPMENT,
                       AS OF JANUARY 17, 2014 ($ BILLIONS)
                       Fund                               Managing Agency                            Appropriated
                       ESF                                USAID                                          $16.7
                       CERP                               DOD                                             $3.7
                       TFBSO                              DOD                                             $0.8
                       AIF                                DOD/STATE                                       $1.2
                       Total                                                                           $22.4
                      Notes: ESF = Economic Support Fund; CERP = Commander’s Emergency Response Program; TFBSO = Task Force for
                      Business and Stability Operations; AIF = Afghanistan Infrastructure Fund.

                      Source: See Appendix B of this report.



                         Of the $22.4 billion appropriated for these funds, approximately $18.6 bil-
                      lion had been obligated and $14.5 billion disbursed as of December 31, 2013.


                      Key Events
                      This quarter saw a number of developments that could have a profound
                      impact on the Afghan economy during the coming year. Afghanistan’s
                      domestic revenues decreased by 7.4% in the first nine months of the Afghan
                      fiscal year (FY) from the same period a year ago, and missed Ministry of
                      Finance (MOF) budget targets by 12.2%.441 Domestic revenues paid for only
                      40% of Afghanistan’s operating budget and development expenditures in
                      FY 2012; donor grants covered the remainder.442
                         At the same time, the Wolesi Jirga approved the FY 1393 national bud-
                      get (December 21, 2013–December 20, 2014). It totals $7.5 billion, a 10.3%
                      increase over FY 1392.443




                      Report to the united states congress                  I   January 30, 2014                          145



Jan2014_QR.indb 145                                                                                                               1/24/2014 11:08:29 AM
                      Economic and Social Development




                         During this reporting period the International Monetary Fund’s Extended
                      Credit Facility Arrangement review and disbursement remain delayed due
                      to insufficient Afghan progress toward meeting the agreement’s quantitative
                      and legislative requirements.444
                         Finally, the Afghan government has not held any more people accountable
                      for the Kabul Bank scandal, nor has it made significant cash recoveries this
                      quarter.445 Moreover, the government continues to delay the new mining law,
                      which in turn hinders significant private investment in the mining sector.446


                      Economic Profile
                      Between 2002 and 2012, Afghanistan’s economy, fueled by international mili-
                      tary spending and development assistance, grew by an annual average of
                      9.4%.447 Although Afghanistan’s gross domestic product (GDP) growth is on
                      par with or exceeds that in many neighboring countries, the country still
                      lags in per capita GDP, as shown in Figure 3.31.
                         There are indications, however, that GDP growth has reached a negative
                      tipping point. The International Monetary Fund (IMF), the World Bank, and
                      the Asian Development Bank (ADB) all projected that Afghanistan’s GDP
                      growth has slowed considerably from about 14% in 2012 to an estimated 3–4%
                      for 2013. The decline in GDP is attributed to increasing uncertainty about the
                      volatile political and security environment and to lower agricultural produc-
                      tion and private investment.448 With an expected reduction in international

                      Figure 3.31

                      REGIONAL GDP COMPARISONS (2012)

                                   GDP Per Capita PPP                                                     GDP, Real Growth Rate
                                           (Thousands)

                                                                               Afghanistan
                                                                                 Pakistan
                                                                                   India
                                                                                    Iran
                                                                                   China
                                                                                 Tajikistan
                                                                                Uzbekistan
                                                                               Turkmenistan
                      $15       $12        $9        $6         $3        $0                   -3%       0%     3%       6%       9%      12%     15%


                      Notes: Numbers have been rounded. 2012 data is in 2012 U.S. dollars. PPP = purchasing power parity, a measure for per
                      capita comparisons. GDP at PPP exchange rates is the value of good and services produced in a country, at prices prevailing
                      in the United States. It requires assigning U.S. dollar values to all goods and services even if they have no equivalent in the
                      United States (for example, an oxcart). GDP per capital, PPP (in current international $). GDP Real Growth (annual %).
                      Sources: World Bank, "World Development Indicators, World Bank National Accounts Data, and OECD National Accounts
                      Data Files; and International Comparison Program Database," accessed 1/10/2014; International Monetary Fund, World
                      Economic Outlook Database, October 2013, accessed 1/10/2014.




                         146                              Special inspector general                  I   Afghanistan reconstruction




Jan2014_QR.indb 146                                                                                                                                     1/24/2014 11:08:29 AM
           Economic and Social Development




                      aid and spending after 2014, World Bank projections show average real GDP
                      growth declining to 4–6% annually through 2018.449
                         The services and agriculture sectors have been the most important             Opium production is not calculated in
                      contributors to real GDP. Increased public spending buoyed demand for            official GDP figures (more than $21 billion
                      services in 2013, according to the World Bank.450 However, the ADB found         in 2013), although it figures prominently in
                      periodic weakened demand in industry and services due to business and            the economy. Farm-gate price of the opium
                      consumer uncertainty about insurgent attacks leading up to the 2014 full         economy is estimated at 4% of GDP by the
                                                                                                       United Nations Office on Drugs and Crime
                      transfer of security to Afghan forces.451 Non-poppy agriculture remains the
                                                                                                       (UNODC), which also calculated exports of
                      second leading contributor to real GDP, typically accounting for between
                                                                                                       opium and its derivatives, such as heroin
                      a quarter and a third of GDP, but output and income fluctuate with the           and morphine, at 14% of GDP (almost
                      weather.452 Good rains in 2012 led to a near-record-breaking wheat and           $3 billion) in 2013.
                      cereal harvest, but a moderate rainfall in 2013 has led to World Bank expec-
                                                                                                       Source: UNODC, Afghanistan Opium Survey 2013, 12/2013,
                      tations of “flat or slightly negative” agricultural growth.453                   pp. 10, 12.



                      Fiscal Sustainability
                      The Afghan government’s revenues declined in 2013 as public spend-
                      ing increased, according to the World Bank.454 Budget expenditures
                      are expected to continue rising, largely due to spending on security,
                      service delivery, building essential infrastructure, and operations and
                      maintenance.455
                         Afghanistan’s fiscal gap between government revenue and expenditures
                      is growing. Its fiscal sustainability ratio—domestic revenues versus oper-
                      ating expenses—remains one of the lowest in the world, according to the
                      Department of Defense (DOD).456 Recent World Bank calculations show
                      that Afghanistan’s fiscal sustainability ratio declined to 60.1% of GDP in
                      FY 2012, compared to 66.5% in FY 2011. It is projected to drop to 56.7% in
                      2013.457 Low fiscal sustainability ratios limit a country’s ability to pay for
                      discretionary services and are likely to delay Afghanistan’s progress to self
                      reliance.458 The Bank describes Afghanistan’s fiscal outlook as subpar and
                      likely to delay progress to self-reliance.459

                      Budget
                      The Wolesi Jirga, Afghanistan’s lower house of parliament, approved the
                      FY 1393 national budget (December 21, 2013–December 20, 2014) on
                      January 15, 2014. The $7.5 billion budget—a 10.3% increase over FY 1392—
                      includes $4.9 billion for the operating budget and $2.6 billion for the
                      development budget.460

                      Revenue Generation
                      Last year, the Afghan MOF projected domestic revenue for FY 1392
                      (December 21, 2012, to December 20, 2013) at $2.4 billion (at the
                      January 2013 currency-exchange rate of 51.6 afghanis or AFN to the U.S.
                      dollar), an increase of 40% over FY 1391 (March 2012 to December 2012).461
                      However, in the first nine months of FY 1392, total domestic revenues




                      Report to the united states congress   I   January 30, 2014             147



Jan2014_QR.indb 147                                                                                                                                1/24/2014 11:08:29 AM
                      Economic and Social Development




                      decreased by 7.4% from the same period in FY 1391, and missed MOF
                      budget targets by 12.2%.462 Figure 3.32 depicts the disparity between the
                      government’s domestic revenues—derived primarily from taxes and cus-
                      toms duties—and budget operating expenditures from FY 1388 to FY 1392.
                         The World Bank noted that domestic revenues paid for only 40% of
                      Afghanistan’s operating budget and development expenditures in FY 2012;
                      donor grants covered the rest.463 The Bank attributed Afghanistan’s weak
                      revenue performance to a slowdown in economic activity, changes in the
                      structure of imports, and corruption, particularly in customs collections. The
                      Bank estimates that domestic revenues will amount to about 10.1% of GDP
                      in 2013. Afghanistan’s commitments under the Tokyo Mutual Accountability
                      Framework call for it to increase revenues to 15% of GDP by 2016 and to 19%

                      Figure 3.32

                      AFGHANISTAN'S DOMESTIC REVENUES COMPARED TO OPERATING BUDGET ($ MILLIONS)

                      $3500


                      $3000
                                                                                                              9 Month
                      $2500                                                                                                          Part Year


                      $2000


                      $1500


                      $1000


                       $500


                           $0
                                      Fiscal Year             Fiscal Year            Fiscal Year             Fiscal Year            Fiscal Year
                                         1388                    1389                   1390                    1391                   1392
                                                               Domestic Revenues                         Operating Budget

                      Notes: Until recently, Afghan fiscal years ran approximately March 20 to March 20 of Gregorian calendar years. FY 1388
                      corresponds to March 20, 2009, to March 20, 2010, and so on. Nine-month data for fiscal year 1391 reflect a change in the
                      timing of the Afghan fiscal year. The most recent MOF data available for FY 1392 cover the first nine months of FY 1392 (2013).
                      Sources: MOF, “1388 National Budget,” accessed 7/2/13; MOF, “1389 National Budget,” accessed 7/2/13; MOF, “1390
                      National Budget,” accessed 7/2/13; MOF, “1391 National Budget,” accessed 7/2/13; MOF, “National Budget Procedures Fiscal
                      Year 1391,” accessed 6/26/13; MOF, “Annual Fiscal Report 1391,” accessed 6/20/2013; MOF, “1392 National Budget,”
                      accessed 7/1/13; MOF, “Monthly Fiscal Bulletin, Month 9,” 10/20/2013, accessed 1/10/2014; Da Afghanistan Bank, "Daily
                      Exchange Rates of Selected Currencies to Afghani," 10/20/2013, accessed 1/14/2014.




                         148                             Special inspector general                   I   Afghanistan reconstruction




Jan2014_QR.indb 148                                                                                                                                     1/24/2014 11:08:30 AM
           Economic and Social Development




                      Figure 3.33

                       AFGHANISTAN'S TOP TRADING PARTNERS (2012)


                                                                                 Pakistan
                                                                             United States
                                                                            European Union
                                                                                  Russia
                                                                                   India
                                                                                  China
                                                                              Kazakhstan
                                                                                  Turkey
                                                                             Turkmenistan
                                                                                 Belarus
                                                                                Tajikistan
                                                                                      UAE
                                  Imports From - Total 87.7%                                                           Exports To - Total 91.7%
                                                                              Bangladesh
                      35%   30%    25%    20%    15%    10%     5%     0%                          0%     5%     10%    15%    20%    25%    30%    35%


                       Notes: Numbers have been rounded. Percentage indicate imports/exports with top trading partners as percent of each category with
                       all countries.
                       Source: European Commission, Directorate-General for Trade, "European Union, Trade in Goods with Afghanistan," 7/11/2013.



                      by 2025. The Bank warned that the current decline in revenue poses risks to
                      long-term sustainability and to Tokyo Mutual Accountability Framework tar-
                      gets, upon which donor assistance is predicated.464

                      Trade
                      As a land-locked nation, Afghanistan is highly dependent on other coun-
                      tries for its trade, transit, security, and stability. As shown in Figure 3.33,
                      Pakistan is Afghanistan’s largest trading partner, followed by the United
                      States, the European Union, and regional neighbors.465
                         In its latest analysis, the World Bank found that Afghanistan’s trade defi-
                      cit widened in 2012 to the equivalent of 41.9% of GDP. Total exports in 2012                                                          Total Exports: include official exports,
                      increased approximately 3% to $2.76 billion, while total imports rose about                                                           estimated smuggling, re-exports, and sales
                      11% to $11.4 billion. This gap was largely offset by foreign aid. International                                                       to non-residents.
                      assistance allowed for an overall surplus in Afghanistan’s balance of pay-
                      ments and a record $7.1 billion in international reserves at the end of 2012.
                      Reserves declined to $6.9 billion in June 2013.466                                                                                  Source: World Bank, Afghanistan Economic Update, 10/2013.



                      World Trade Organization Accession
                      One milestone that Afghanistan is supposed to achieve under the
                      Tokyo Mutual Accountability Framework is membership in the World
                      Trade Organization (WTO) by the end of 2014.467 The United States and




                      Report to the united states congress                        I   January 30, 2014                                    149



Jan2014_QR.indb 149                                                                                                                                                                                     1/24/2014 11:08:30 AM
                                                                       Economic and Social Development




                                                                       Afghanistan completed bilateral negotiations in December 2013 and the
                                                                       next WTO Working Party meeting is anticipated in February 2014, but has
                                                                       not been scheduled as of January 14, 2014. Afghanistan must now pass a
                                                                       series of WTO-compliant laws and regulations. The U.S. government is pro-
                                                                       viding technical assistance in these efforts.468


                                                                       Extended Credit Facility Arrangement
          The Extended Credit Facility (ECF): a                        The three-year, $129 million ECF loan agreement signed in November 2011
          three-year program that provides financial                   makes disbursements contingent upon completion of program reviews,
          assistance to Afghanistan, as well as other                  as determined by IMF Management and the Executive Board. So far, the
          countries, and is the primary IMF tool for                   IMF has released two disbursements of $18.2 million—at the initial ECF
          providing medium-term assistance to low-                     approval, and again after the first Board review in June 2012. Neither the
          income countries. ECF financial support is
                                                                       second IMF review, originally planned for December 2012, nor the third,
          generally provided through loans at zero
                                                                       originally planned for March 2013, has been completed.469
          percent interest rates.
                                                                          This quarter, the Afghan government again made insufficient progress on
                                                                       the specific banking and financial structural reforms required by the IMF
                                                                       to qualify for another ECF Board review and accompanying disbursement
        Source: SIGAR, Audit 14-16-AR, Afghanistan’s Banking Sector:
        Central Bank’s Capacity to Regulate Commercial Banks
                                                                       of loans. The Afghan government has neither submitted an internationally
        Remains Weak, 1/8/2014.                                        acceptable revised Anti-Money Laundering (AML/CFT) law to parliament,
                                                                       nor met the quantitative macroeconomic targets set forth under the ECF
                                                                       Arrangement, according to Treasury.470
                                                                          Additionally, Afghanistan has not made progress on submitting sev-
                                                                       eral other pieces of economic and financial legislation to parliament
                                                                       or implementing structural reforms, such as signing a memorandum of
                                                                       understanding (MOU) on information sharing between Da Afghanistan
                                                                       Bank (DAB), the Financial Transactions and Reports Analysis Center of
                                                                       Afghanistan, and Afghan law enforcement agencies.471
                                                                          The existence of an ECF agreement is important to the international
                                                                       community because it demonstrates the Afghan government’s political will
                                                                       to enact necessary reforms. Adherence to the IMF benchmarks and fulfill-
                                                                       ing macroeconomic requirements also has a direct effect on the levels of
                                                                       foreign aid the international community contributes to the Afghanistan
                                                                       Reconstruction Trust Fund (ARTF). In solar year 1390 (March 2011- March
                                                                       2012), the donor community withheld 85% of the total $933 million in
                                                                       donations to the ARTF until the IMF approved a new ECF agreement for
                                                                       Afghanistan in November 2011.472


                                                                       U.S. Economic Support Strategy
                                                                       The U.S. economic transition strategy in Afghanistan seeks to mitigate the neg-
                                                                       ative economic impact of the withdrawal of most international security forces
                                                                       in 2014 and the expected accompanying reduction in donor assistance. It also
                                                                       seeks to help Afghanistan develop its resources for sustainable growth.




                                                                        150                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 150                                                                                                                                      1/24/2014 11:08:30 AM
           Economic and Social Development




                      Figure 3.34

                      USAID DEVELOPMENT ASSISTANCE, CUMULATIVE AS OF DECEMBER 31, 2013 ($ MILLIONS)


                            Infrastructure                                                                                          3,653
                       Program Supporta                                                    1,939
                              Agriculture                                             1,726
                              Democracy                                            1,614
                             Stabilization                                1,231
                        Economic Growth                             902
                                   Health                     672
                               Education                    539
                            Construction         95
                                             0        500       1,000      1,500         2,000      2,500       3,000       3,500        4,000


                      Notes: Numbers rounded.
                      a Program Support projects include civilian technical augmentation, performance metrics, results tracking, technical
                      assistance to
                        ministries, and funding to the ARTF.
                      Source: USAID, response to SIGAR data call 1/7/2014.



                         Although the Consolidated Appropriations Act, 2014, was signed into
                      law on January 17, final FY 2014 funding levels for many Afghanistan relief
                      and reconstruction accounts, including State and USAID accounts like the
                      Economic Support Fund (ESF) are still to be determined. Most ESF support
                      is used for USAID’s development programs. Figure 3.34 shows USAID assis-
                      tance by sector.
                         USAID said it will concentrate its resources on three development objec-
                      tives to reduce Afghanistan’s dependence on international assistance and
                      consolidate peace and stability in Afghan communities. These include:473
                          1.	 Supporting the foundations of sustainable economic growth, and
                              targeting economic and agricultural programming in four Regional                                                   “The mobility of Department of State and
                              Economic Zones that are most likely to sustain economic growth                                                     USAID personnel is severely limited due
                              into what the Afghan government is calling the Transformation                                                      to security constraints, and oversight of
                              Decade (2015–2024).                                                                                                programs will become increasingly difficult
                          2.	 Helping maintain and make permanent gains in education, health,                                                    as the United States military draws down
                              and women’s rights.                                                                                                its forces.”
                          3.	 Supporting continued stability by working to improve government                                                    Source: U.S. Congress, “Joint Explanatory Statement, Division
                                                                                                                                                 K–Department of State, Foreign Operations, and Related
                              legitimacy and effectiveness.                                                                                      Programs Appropriations Act, 2014,” 1/2014.



                      USAID On-Budget Assistance to the Afghan Government
                      In line with donor commitments made at the 2012 Tokyo Conference and
                      the follow-up 2013 Senior Officials Meeting, the United States has been
                      gradually increasing the amount of on-budget development assistance it
                      provides to the Afghan government.
                         The United States includes as on-budget assistance both direct, govern-
                      ment-to-government transfers and multilateral trust-fund contributions




                      Report to the united states congress                         I   January 30, 2014                                151



Jan2014_QR.indb 151                                                                                                                                                                               1/24/2014 11:08:30 AM
                                                                         Economic and Social Development




                                                                         to the Law and Order Trust Fund for Afghanistan (LOTFA), the Afghan
                                                                         Reconstruction Trust Fund (ARTF), and the Afghanistan Infrastructure
                                                                         Trust Fund (AITF). These funds, which are managed by the United Nations
                                                                         Development Programme (UNDP), the World Bank, and the ADB respec-
                                                                         tively, support the Afghan national budget. The Afghan government provides
                                                                         input, guidance and oversight, and some projects are run through the govern-
                                                                         ment, but the funds are not fully under the Afghan government’s control.474
                                                                         See page 64 for details about all U.S. on-budget funding to Afghanistan.
                                                                            This quarter, USAID obligated approximately $53 million and disbursed
                                                                         $93 million in on-budget assistance—including ARTF—from prior fiscal-
                                                                         year funds. Cumulatively, USAID obligated $2.88 billion and disbursed
                                                                         $2.11 billion in on-budget assistance, as of December 31, 2013, as shown in
                                                                         Figure 3.35.475
                                                                            SIGAR continues to be concerned about U.S. implementing agencies’
                                                                         ability to ensure adequate oversight of the U.S.-funded reconstruction
                                                                         effort as international combat forces withdraw from Afghanistan in 2014.
                                                                         A SIGAR audit published this quarter reviewed assessments of Afghan
                                                                         ministries receiving direct bilateral assistance from the U.S. government.

        Figure 3.35

         USAID ON-BUDGET ASSISTANCE SUBOBLIGATED AND DISBURSED, FY 2002-FY 2013, AS OF DECEMBER 31, 2013 ($ MILLIONS)

          $700
                                                                                                                                                             $638
                                                                                                                                     $612
          $600                    Sub-Obligated Afghanistan Reconstruction Trust Fund Total
                                  Sub-Obligated Bilateral Assistance
          $500                    Disbursed


          $400                                                                                                                                        $378


                                                                                                                        $290                          $359
          $300

                                                                                                                                                                    $200
          $200
                                                                                                                                            $156
                                                                                                          $124
                                                                                                                                                             168
                                                               $89
          $100                                  $72                                         $72
                                                                             $48                                               $56
                   $38            $40                                                                            $27                        $95
                                                       $14                                                                                                                 $23
                          $0             $0                           $2            $.1            $4                                                                                  TBD
             $0                                                                                                                                                                  5.1
                      2002          2003           2004          2005          2006           2007           2008          2009        2010             2011         2012a             2013b

         Notes: Numbers have been rounded. Subobligation is funding for project-level agreements.
         a Most FY 2012 USAID funding for on-budget assistance had not been disbursed as of December 31, 2013.
         b Spending in 2013 was done from prior fiscal year funds. Subobligations and Disbursements for FY 2013 are not yet known.

         Source: USAID, response to SIGAR data call, 1/7/2014.




                                                                            152                           Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 152                                                                                                                                                                            1/24/2014 11:08:30 AM
           Economic and Social Development




                      These assessments reviewed the ministries’ ability to manage and account
                      for donor funds. USAID subsequently completed its own risk reviews of
                      seven of these 16 ministries. SIGAR’s audit found that none of these assess-
                      ments and reviews identified a ministry capable of effectively managing and
                      accounting for funds without implementing risk-mitigation measures. (See
                      Section 2 of this report for a summary of this audit’s findings).476

                      Tokyo Mutual Accountability Framework
                      The Tokyo Mutual Accountability Framework, established by the Afghan
                      government and international community at the donors’ conference in 2012,
                      was created to structure international development assistance to Afghanistan
                      through 2017. The donors made their assistance conditional on the Afghan
                      government’s delivering on its commitments described in the Framework.
                         At the Senior Officials Meeting in July 2013, the United States
                      announced the establishment of a $175 million bilateral incentive program
                      to support Afghan reforms with the stipulation that “funds will only be
                      available if specific progress is made.” The program is to provide these
                      funds in two tranches—$75 million and $100 million—with disbursements
                      dependent on Afghan progress.477 State told SIGAR that the U.S. Embassy
                      Kabul is leading the assessment, which includes an evaluation of 17 “hard
                      deliverables” that Afghanistan agreed to before the July 2013 Senior
                      Officials Meeting. State said the reviewers will also use Embassy analysis,
                      reports from international organizations, and other objective sources of
                      information in their assessments.478
                         An initial review of the $75 million tranche occurred on September 30,
                      2013, with a final review scheduled for January 2014 prior to a meeting of the
                      Joint Coordination and Monitoring Board (JCMB).479 The JCMB, compris-
                      ing the Afghan government, donors, and the United Nations, will meet to
                      take stock of progress toward the Tokyo Mutual Accountability Framework
                      benchmarks. It will also identify key focus areas for an international devel-
                      opment conference to take place later in 2014.480 State said it will review
                      disbursement of the $100 million tranche after the 2014 elections.481
                         A SIGAR special project found both the Tokyo Mutual Accountability
                      Framework and the U.S. Civil-Military Strategic Framework both lacked
                      specific goals and objectives with measurable outcomes for anti-corruption
                      activities against which the United States government can measure its prog-
                      ress.482 See Figure 3.36 on the following page for a list of “hard deliverables.”


                      Banking and Finance
                      Afghanistan’s banking and financial sector, which has not recovered from
                      the 2010 Kabul Bank crisis, suffers from inadequate regulation and over-
                      sight, undercapitalization, and a loss of consumer confidence.483 The United
                      States has offered assistance to the central bank— Da Afghanistan Bank




                      Report to the united states congress   I   January 30, 2014               153



Jan2014_QR.indb 153                                                                                       1/24/2014 11:08:30 AM
                                                                     Economic and Social Development




        Figure 3.36

        SUMMARY OF AFGHANISTAN'S 17 'HARD DELIVERABLES' UNDER THE TOKYO MUTUAL ACCOUNTABILITY FRAMEWORK



          Representational       1                             2                            3                                 4
                                 Develop timeline for          Set up a 'qualified          Support a legislative             Ministries cooperate
           Democracy and         election preparation          and well respected'          framework including an            with elections
             Equitable           and polling through           elections                    impartial, independent            commission on
             Elections           2015                          commission                   mechanism for resolving           registration, outreach,
                                                                                            electoral complaints              fraud mitigation, etc.




             Governance          5                              6                           7
             Rule of Law         Collect and publish            Follow international        Prepare inter-ministry report
                                 asset declarations             standards for appointment   on application of Elimination
             and Human           from high-ranking              of human-rights             of Violence Against Women
               Rights            officials                      commissioners               Law




            Integrity of         8                              9                           10                                11                          12
                                 Take action on                 Implement and follow        Implement                         Raise transparency of       Implement
           Public Finance        recommendations to             government finance          public-finance                    public funds measured       international
                and              improve banking                program supported by        management plan                   by Open Budget              recommendations
            Commercial           system and recover             International               and improve                       Initiative                  to fight money
                                                                Monetary Fund               accountability score                                          laundering and
              Banking            stolen assets
                                                                                                                                                          terrorist financing



            Government           13
          Revenues, Budget       Develop provincial
           Execution and         budgeting process with
            Subnational          input to ministries and
                                 consultation
            Governance


                                 14                            15                           16                                17
            Inclusive and        Analyze FY 1392               Plan for accession           Establish road                    Approve international-
              Sustained          budget allocations            to World Trade               and civil aviation institutions   standard mining law to
             Growth and          re health, gender,            Organization by                                                encourage extractive-
                                 education, environment,       end of 2014                                                    industry investment
            Development          and food security




        Source: SIGAR summary of 2012 Tokyo Mutual Accountability Framework.




                                                                     (DAB)—since early 2011, but was rebuffed upon DAB’s learning the assis-
             SIGAR Audit                                             tance was conditioned. A SIGAR audit released this quarter concluded that
             This quarter SIGAR published an audit                   without U.S. assistance, and only limited World Bank and IMF involvement,
             of the Afghan banking sector. For more                  the banking sector remains unstable and at risk of further instability, threat-
             information, see Section 2, page 23.                    ening sustainable economic and financial growth.484
                                                                        According to Treasury, many banks are undercapitalized and lending
                                                                     is concentrated in a small number of sectors with loans largely to related
                                                                     parties—outside businesses that are controlled by the same individuals or
                                                                     groups that own the bank. This can create a conflict of interest and risk that
                                                                     the bank may incur losses to benefit the businesses. The banking sector is
                                                                     also highly dollarized, which may expose Afghan financial institutions to




                                                                        154                         Special inspector general             I   Afghanistan reconstruction




Jan2014_QR.indb 154                                                                                                                                                             1/24/2014 11:08:30 AM
           Economic and Social Development




                      currency risks.485 The banking sector’s loan-to-deposit ratio dropped from
                      56.8% in 2010 to 23% in 2012.486                                                    Money Center Banks: banks that raise
                         Few Afghan banks operate in accordance with international standards.             most of their funds from the domestic and
                      Audits of major banks in Afghanistan conducted in the wake of the Kabul             international money markets relying less
                      Bank scandal have revealed “systemic fragility and vulnerability in all areas       on depositors for funds.
                      of banking governance and operations,” according to a 2013 World Bank
                      report.487 State said Afghanistan’s banks also suffer from political interfer-      Loan-to-Deposit Ratio: is used to assess
                      ence and lack of oversight.488 In addition, Afghanistan’s controls against          a bank’s liquidity (short-term viability) by
                      money laundering and terrorist financing are widely viewed as deficient.489         dividing its total loans by its total deposits,
                         Consequently, on November 30, 2013, several of Afghanistan’s banks               expressed as a percentage. It is used to
                                                                                                          calculate the financial institution’s ability to
                      lost U.S. dollar correspondent banking relationships with German-based
                                                                                                          cover customer demands to withdraw funds.
                      Commerzbank. This major money-center bank ended its dealings with
                                                                                                          If the ratio is too high, the bank may have
                      Afghan banks to reduce risk and exposure to heightened regulatory scrutiny
                                                                                                          insufficient liquidity to cover unforeseen
                      in the wake of huge fines several British banks agreed to pay to settle U.S.        requirements. If it is too low, banks may not
                      money laundering accusations against them. According to Treasury, it is             be earning as much as they could.
                      possible that other banks could also sever their correspondent relationships
                      with Afghan banks.490                                                               Correspondent Accounts: Accounts
                         The general Afghan population distrusts banks, preferring to borrow and          maintained by foreign financial institutions
                      save with family and friends, and transfer money through informal, trust- or        at U.S. banks in order to gain access to the
                      honor-based hawala networks.491 Afghans also prefer to use foreign currency         U.S. financial system and take advantage
                      rather than their national currency, the afghani (AFN), which is depreciat-         of services and products that may not
                      ing against the dollar. In early January 2012, a U.S. dollar cost about 49 AFN;     be available in the foreign financial
                                                                                                          institution’s jurisdiction.
                      now it costs about 56 AFN, according to the Afghan central bank.492 Treasury
                      said that both depreciation and the level of dollarization may be a function of
                      the public’s preference for borrowing and keeping deposits in dollars, while
                      depreciation is likely a cause for that preference.493                            Sources: NASDAQ, “Money Center Banks Definition,” accessed
                                                                                                        1/14/2014; Investopedia, “Loan-To-Deposit Ratio,” http://
                                                                                                        www.investopedia.com/terms/l/loan-to-deposit-ratio.asp,

                      Banking Law                                                                       accessed 9/30/2013; Finance Formulas, “Loan to Deposit
                                                                                                        Ratio,” http://www.financeformulas.net/Loan-to-Deposit-Ratio.
                                                                                                        html, accessed 9/30/2013; Federal Financial Institutions
                      The Council of Ministers approved the Banking Law on January 28, 2013,            Examination Council Bank Secrecy Act/Anti-Money Laundering
                      but a year later it remains pending before parliament. The legislation            InfoBase, “Correspondent Accounts (Foreign)—Overview,”
                                                                                                        accessed 10/1/2013.
                      strengthens corporate governance provisions, regulates capital require-
                      ments and large exposures, enhances bank supervision, and facilitates bank
                      resolution. If enacted, the law will help prevent, mitigate, and respond to
                      the problems in the financial sector, according to Treasury. Failure to enact
                      it will likely lead to weaker financial-sector governance and supervision.
                      DAB will have less authority to enforce banking regulations, key existing
                      vulnerabilities will remain in the banking sector, and bank supervisors will
                      have less protection and authority in the conduct of their duties. In the
                      event of another bank collapse, there would still not be a clear legal frame-
                      work in place for the resolution process for that troubled bank.494

                      The Kabul Bank
                      The case against two individuals charged with fraud in the Kabul Bank case
                      remains pending before the Kabul Appellate Court. The case stems from




                      Report to the united states congress   I   January 30, 2014             155



Jan2014_QR.indb 155                                                                                                                                     1/24/2014 11:08:30 AM
                      Economic and Social Development




                      Exhibitors tend their booth at the second Access to Finance Exhibition in Kabul.
                      Thousands of business representatives from across Afghanistan attended the exhibition
                      promoting branchless banking and electronic payments. (USAID photo)

                      a decision by Afghanistan’s Attorney General last year to appeal an earlier
                      verdict that, while finding the bank ex-chairman Sherkhan Farnood and
                      ex-CEO Khalillullah Ferozi guilty of fraud, carried modest five-year prison
                      sentences and required only partial restitution.
                         According the U.S. Department of Justice (DOJ), the court held at least
                      two hearings this quarter; at least one was with the defendants, but pros-
                      ecutors were not invited.495
                         According to DOJ, Afghan prosecutors are receptive to discreet inter-
                      national assistance with their appeal. Additionally, both the court and the
                      prosecutors have accepted the involvement of Kroll & Associates auditors,
                      who have submitted an evidence binder for the court’s consideration. Kroll
                      conducted the forensic audit of Kabul Bank in the wake of the scandal. It
                      also provided an asset recovery strategy for the receivership in 2012 and
                      assisted with a liquidation plan.496
                         Before its near-collapse in 2010, the Kabul Bank had been Afghanistan’s
                      largest private bank, distributing most civil salaries on behalf of the
                      Afghan government. Over 92% of $935 million that was stolen from the
                      bank went to 19 individuals and companies associated with the bank.
                      Afghanistan’s central bank, DAB, covered these losses, equivalent to 5–6%
                      of Afghanistan’s GDP at that time.497
                         Afghanistan’s Attorney General’s Office (AGO) launched no new inves-
                      tigations, filed no new charges, and indicted no additional defendants
                      this quarter, despite the March 2013 order by the Supreme Court’s special
                      tribunal on Kabul Bank that it do so. However, the court ordered that the
                      uncharged shareholders—together with ex-chairman Farnood and ex-CEO
                      Ferozi—appear at a meeting between the defendants, the prosecutors,




                        156                  Special inspector general    I   Afghanistan reconstruction




Jan2014_QR.indb 156                                                                                           1/24/2014 11:08:30 AM
           Economic and Social Development




                      and the Kabul Bank receiver to resolve disputes over defendants’ mon-             In March 2013, the special tribunal
                      etary liabilities. Farnood and Ferozi insist they are not liable for the entire   ordered the arrest and prosecution of 16
                      monetary judgment against them—$279 million and $531 million, respec-             individuals with existing warrants—many
                      tively—since some funds have been paid back by shareholders or by sales           of whom have since fled the country—and
                      of real property.498                                                              the investigation and prosecution of 16
                                                                                                        others as recipients of illegal loans. DOJ
                         According to DOJ, the court’s order implied that the uncharged share-
                                                                                                        has repeatedly discussed this inaction with
                      holders had also violated the law, describing them as being “on the same
                                                                                                        various AGO representatives, to no avail.
                      page” as Farnood and Ferozi. DOJ is unsure whether this is an order to
                                                                                                        Source: DOJ, response to SIGAR data call, 9/30/2013 and
                      the AGO to charge the shareholders—a move within the appellate court’s            6/29/2013.
                      authority—or merely an attempt to include them in a civil recovery.499

                      Cash and Asset Recoveries
                      During this reporting period, U.S. implementing agencies reported no new
                      information on recoveries of money stolen from the Kabul Bank.500 DAB—
                      Afghanistan’s central bank recorded $6.13 million in cash recoveries from
                      June 30–September 30, 2013, bringing total recoveries to $174.5 million.
                      This includes $16 million in Kabul Bank transfers that were scheduled,
                      but not made after Kabul Bank went into conservatorship, as well as a
                      $1.49 million court ordered deposit and a $0.45 million loan adjustment.501
                         As noted last quarter, the Senior Officials Meeting Joint Report on
                      the Tokyo Mutual Accountability Framework Implementation recorded
                      $173.2 million as of July 3, 2013, while Afghanistan’s Independent Joint
                      Anti-Corruption and Monitoring and Evaluation Committee’s (MEC) lat-
                      est six-month report (January 1–June 30, 2013) has cash recoveries at
                      $172.9 million.502 Whatever the precise number may be, each reported num-
                      ber amounts to less than 20% of the stolen funds.503

                      New Kabul Bank
                      On December 29, 2013, the MOF announced preliminary decisions on two
                      bids to take over New Kabul Bank (NKB). The NKB’s privatization evalu-              New Kabul Bank (NKB): a temporary
                      ation committee gave top score to the United Arab Emirate-based KRU                 “bridge bank” containing the good assets
                      Capital Partners, which offered $28.5 million ($20 million regulatory capital       and deposits from Kabul Bank. Privatizing
                      plus $8.5 million for the purchase of NKB). The Constellation Business              NKB, which provides salary payment and
                      Group Inc. came in second.                                                          direct deposit services to hundreds of
                         The Afghan Cabinet must approve the final decision and Afghanistan’s             thousands of government employees, is an
                                                                                                          ECF benchmark.
                      central bank must evaluate whether the winner satisfies “fit-and-proper”
                      criteria.504 The IMF defines “a fit and proper bidder” as one who is subject
                      to high standards of corporate governance, including risk management and
                      internal controls; is in a sound financial and risk-management state; and         Source: IMF, “Islamic Republic of Afghanistan-First Review
                                                                                                        Under the Extended Credit Facility Arrangement, Request
                      controls adequate resources and has the necessary capital and capability to       for Waiver of Nonobservance of a Performance Criterion,
                                                                                                        Modification of Performance Criteria, and Rephasing of
                      ensure ongoing salary-payment services.505                                        Disbursements,” 6/19/2012, accessed 1/3/2014.

                         Grant Thornton LLP’s calendar-year 2012 financial audit of NKB
                      expressed unqualified concern regarding the bank’s ability to continue busi-
                      ness without successful privatization. NKB lost an average of $1.85 million




                      Report to the united states congress   I   January 30, 2014              157



Jan2014_QR.indb 157                                                                                                                                       1/24/2014 11:08:31 AM
                                                                    Economic and Social Development




                                                                    per month in 2012.506 Last quarter, Treasury quoted an Afghan govern-
                                                                    ment official as saying NKB losses are running at $500,000 per month.507
                                                                    According to the IMF and Treasury, NKB’s lack of a lending portfolio,
                                                                    restrictions on developing lending before being offered for sale, and the
                                                                    need to maintain a conservative asset-management strategy mean it will
                                                                    continue to suffer modest operating losses prior to sale.508 After an initial
                                                                    privatization effort failed, the Afghan government decided to allow potential
                                                                    investors to bid for 50% to 100% of the bank.509


                                                                    Development of Natural Resources
                                                                    The United States, the Afghan government, and the international donor
                                                                    community count on developing Afghanistan’s natural resources to under-
                                                                    pin future economic growth in the face of declining external aid. Although
                                                                    mining has contributed less than 2% to the country’s GDP to date, the
                                                                    Afghan government expects to eventually receive significant revenues from
                                                                    large-scale investments in the Aynak (copper) and Hajigak (iron-ore) mines,
                                                                    and from oil and gas fields in the Afghan-Tajik basin.510
        “Working on behalf of the Department                            DOD maintains that Afghanistan’s mineral resources could generate
        of Defense and with concurrence of the                      significant revenue and create large numbers of jobs. However, SIGAR
        Department of State, TFBSO identifies and                   has long cautioned that the Afghan government may not be able to earn
        develops strategic economic opportunities                   substantial revenues from Afghanistan’s natural resources any time soon
        in conflict and post-conflict environments                  because of the considerable infrastructure investment required to develop
        that enable the expansion of the private                    them, especially given the difficult security environment.511
        sector, thus setting conditions for long-                       This quarter, State said it does not expect the mining sector to contribute
        term economic growth that is critical to                    significantly to the Afghan budget until after the mining law is passed and
        sustainable stability.”                                     implemented.512 TFBSO also warned that the global mining economy is lim-
        Source: TFBSO, “Task Force for Business and Stability       iting new investment, and many companies and financiers view Afghanistan
        Operations Fiscal Year 2013 Transition Plan and Report on
        Transition Implementation,” 8/19/2013, p. 1.                as too risky.513

                                                                    Ministerial Transition
                                                                    On December 25, 2013, Mohammad Akbar Barakzai was confirmed by
                                                                    the Wolesi Jirga, the lower house of parliament, as the new Minister of
                                                                    Mines and Petroleum.514 Minister Barakzai replaced Wahidullah Shahrani,
                                                                    who resigned in order to run for first vice president on Qayum Karzai’s
                                                                    ticket.515 TFBSO reported no major shift in the minister’s strategy or in his
                                                                    willingness to accept U.S. government support, although that may change.
                                                                    According to TFBSO, Minister Barakzai said a new minerals law is one of
                                                                    his priorities, although he stopped short of saying he will push to address
                                                                    international investor concerns about aspects of its current draft.516

                                                                    TFBSO Transition
                                                                    TFBSO, which will cease its activities in Afghanistan by the end of 2014,
                                                                    will turn over all of its projects to an Afghan ministry, a private business,




                                                                     158                  Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 158                                                                                                                                    1/24/2014 11:08:31 AM
           Economic and Social Development




                      or another U.S. government agency.517 In anticipation, Congress required in
                      the FY 2013 National Defense Authorization Act that DOD develop a plan
                      for transitioning TFBSO programs to either State or USAID to be reviewed,
                      revised, and signed by the Secretary of Defense every 90 days. While no
                      TFBSO programs have yet been proposed for transfer to USAID or any
                      other U.S. government agency, transition reports are being prepared for
                      many of its larger, non-mining programs.518

                      New Minerals Law
                      This quarter, the long-delayed draft of the new minerals law passed
                      through the Natural Resources Committee of the lower house and as of
                      December 23, awaits consideration by the full parliament. Parliamentarians
                      continue to seek clarification on components of the law from Ministry of
                      Mines and Petroleum (MOMP) officials.519 TFBSO’s advisory team held an
                      information session for interested members of parliament to help them
                      better understand the law’s provisions.520 Once passed by both the lower
                      and upper houses, the law will be sent to the president for final approval.521
                      TFBSO is not aware of any changes to the law this reporting period,
                      although State reported that parliamentary discussions are ongoing.522

                      Impediments to Investment
                      Proposed revisions to the minerals law are meant to better protect Afghan
                      resources, encourage investors, and align regulations to international best
                      practices. Passing a new law is an important Tokyo Mutual Accountability
                      Framework benchmark to improve Afghanistan’s revenues and overall fis-
                      cal and external sustainability.523 Submitting amendments to the law and
                      to the Ministry of Justice in order to develop a transparent fiscal regime
                      for natural resources is an outstanding IMF structural benchmark.524
                      DOD’s TFBSO warns that without legislative reform that includes link-
                      ing investor exploration with extraction rights, and institutes a formal
                      and fixed royalty rate, many companies will not bid on new tenders. The
                      current draft law does not include that linkage.525 The law also requires
                      mining companies to use Afghan labor exclusively and to prioritize pur-
                      chasing Afghan, rather than foreign, goods. These provisions are unlikely
                      to comply with World Trade Organization rules and could deter private
                      investment, according to State.526
                         State and TFBSO differ on the ramifications of the delayed new miner-
                      als law. TFBSO said it has significantly hindered private-sector investment,
                      but not the existing contracts still under negotiation, which will be signed
                      under the current minerals law.527 Unsigned contracts include Hajigak
                      (iron ore, awarded in November 2011);528 Shaida (copper, November 2012);
                      Badakhshan (gold, November 2012); Balkhab (copper, November 2012); and
                      Zarkashan (copper, gold, December 2012).529 In contrast, State said that the




                      Report to the united states congress   I   January 30, 2014             159



Jan2014_QR.indb 159                                                                                    1/24/2014 11:08:31 AM
                                                      Economic and Social Development




                                                      delay in passing a new mining law has impeded these existing contracts, but
                                                      not private-sector investment.532
                                                         In addition to the uncertainty about the mining law, State said private
                                                      companies also saw the uncertainty caused by the security and political
                                                      transitions underway as major obstacles to investment. However, TFBSO
                                                      said investors are more concerned about the global mining economy and
                                                      limited available capital than about an uncertain security environment
                                                      post-2014.533

                                                      Assistance to the Ministry of Mines and Petroleum,
                                                      Afghanistan Petroleum Authority, and the Afghanistan
        TFBSO has fully obligated its $17.2 million   Geological Survey
        total for mining-sector development in        The United States continued to provide technical assistance this quarter
        FY 2013, and $7.5 million in FY 2014,         to the MOMP, the ministry’s Afghanistan Petroleum Authority (APA), and
        as of December 27, 2013.530 After more        the Afghan Geological Survey (AGS), largely through TFBSO and the U.S.
        than three years of TFBSO engagement in       Geological Survey (USGS). These organizations are supporting mineral and
        Afghanistan TFBSO reported this quarter       hydrocarbon tenders as well as oil-and-gas data management. In addition,
        that it created a metrics system to measure   TFBSO and the USGS are supporting programs to build capacity at the
        the microeconomic impacts of their            MOMP and AGS through hands-on training and classroom modules in mod-
        assistance programs. However, the data        ern data collection techniques.534
        contained in the system is limited, only          TFBSO and USAID provides subject-matter-expert support to the
        going back an average of six months, and
                                                      APA. This includes technical (oil and gas engineering), legal (contract
        the metrics criteria can vary by project.
                                                      implementation), and financial (accounting and analysis) to assist in the
        TFBSO is also creating an economic impact
        assessment of its efforts that will collect   oversight of the Amu Darya Exploration and Production Sharing Contract.
        data on a macroeconomic level, which can      TFBSO helped develop APA’s organizational chart, and is advising its
        be transferred to USAID or their Afghan       human-resources department on recruiting processes.535 Additionally, a
        partners. TFBSO’s authority is scheduled to   TFBSO-funded legal and geology team is working with the MOMP to iden-
        expire at the end of 2014.531                 tify and tender new areas of interest.536

                                                      Mining Investment and Development for Afghan Sustainability
                                                      The Mining Investment and Development for Afghan Sustainability
                                                      (MIDAS), USAID’s only mining program, is an $86.6 million program
                                                      with on- and off-budget components. The $41.6 million off-budget Phase
                                                      I is focusing on legal and regulatory reform, technical assistance to the
                                                      MOMP, small and medium-size enterprise development, and assistance
                                                      in geo-science field investigation. It will provide other support as needed.
                                                      The $45 million on-budget Phase II has not yet begun, but is designed
                                                      to strengthen the MOMP so it can procure, implement, and monitor
                                                      completion of mining tender packages. As of December 10, 2013, USAID
                                                      had obligated $6 million and disbursed $1.74 million to begin off-budget
                                                      implementation.537
                                                          USAID expects to achieve the following results from MIDAS:
                                                       •	 improve capacity at MOMP in governance, internal controls,
                                                          procurement procedures, and financial management




                                                       160                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 160                                                                                                                     1/24/2014 11:08:31 AM
           Economic and Social Development




                      •	 improve capacity of Afghan small-to-medium enterprises to provide
                         support services to the mining sector
                      •	 establish communications between the MOMP, the private sector, and
                         local communities
                      •	 implement programs for small-to-medium Afghan enterprises to
                         participate in research, development, and management of mines
                      •	 create a system for effective monitoring of on-budget funding538

                         USAID will measure MIDAS’s success against the following metrics:
                      the political will to foster a business-friendly environment for foreign and
                      domestic investment in the mining sector; a business-friendly regulatory
                      environment, aligned with international standards to attract investment;
                      transparency in tendering and awarding contracts; and gender equality in
                      the extractives industries sector.539

                      Capacity of the Ministry of Mines and Petroleum
                      TFBSO’s strategy for promoting economic growth in Afghanistan rests
                      largely on developing Afghanistan’s natural resources. In its transition
                      report to Congress, TFBSO claimed that, as a result of its strategy to part-
                      ner with Afghans at every stage of project planning and execution, “Afghans
                      will have the capability to handle on-going project requirements.”540 TFBSO
                      said the MOMP has either taken or is close to taking the lead in tender
                      evaluation and award, and contract negotiation and award. At the same
                      time, TFBSO acknowledged weaknesses in the ministry, especially in the
                      areas of capacity, monitoring, and oversight. TFBSO said the MOMP’s lack
                      of capable employees leaves most of the work in the hands of a small group
                      of knowledgeable and capable, yet overworked, employees.541
                         A SIGAR audit this quarter of assessments of Afghan ministries found
                      that USAID/Afghanistan identified 16 risks and 33 corresponding mitigation
                      measures needed for the MOMP before it receives U.S. direct-assistance
                      funds. Despite USAID’s own conclusion that MOMP controls are inadequate
                      to mitigate the risk of corruption, USAID obligated $30 million for one active
                      direct-assistance program. USAID also committed $45 million for a proposed
                      mining investment and development project, as of August 1, 2013.542

                      Mine Security
                      It is uncertain who is providing mine security and in what numbers. Mine
                      security was supposed to be the responsibility of Afghan Mines Protection
                      Units (MPUs), which still have only 1,500 personnel, according to the
                      MOMP website.543
                          However, this quarter, State reported that the Afghan Public Protection
                      Force (APPF) is responsible for mine security, and that the Ministry of
                      Interior (MOI) and APPF recruit and train security personnel after a con-
                      tract is signed with the MOMP. As of this reporting period, the MOMP has




                      Report to the united states congress   I   January 30, 2014             161



Jan2014_QR.indb 161                                                                                    1/24/2014 11:08:31 AM
                      Economic and Social Development




                      only contracted APPF services for Mes Aynak, the northern Amu Darya
                      Basin, and the Sheberghan gas fields.544
                         Both State and TFBSO said they do not record attacks on mining inter-
                      ests beyond tracking open-source news. Radio Free Europe/Radio Liberty
                      (RFE/RL) reported that workers came under attack from local militia in the
                      Amu Darya Basin in September 2013 (presumably with APPF assigned to
                      secure the area), halting oil production. The news report also highlighted
                      disputes between local leaders over control of gold and precious stones,
                      as well as fights between the central government and provincial and tribal
                      leaders in resource-rich areas. Furthermore, RFE/RL said natural resources
                      are being used by armed groups to fund conflict, while the security environ-
                      ment at major mining operations such as Hajigak, Aynak, and Amu Darya is
                      becoming increasingly unstable due to militant activity.545
                         TFBSO said because no major mining sites are active, little mining
                      security is currently needed.546 However, as shown in Figure 3.37, former
                      MOMP Minister Shahrani prepared a list of potential sites that would
                      be tendered between 2012 and 2014 and the number of APPF personnel
                      needed for each.547

                      Aynak Copper Mine
                      The Afghan government awarded the contract for extraction rights at the
                      Mes Aynak copper mine in Logar province to Metallurgical Corporation
                      of China (MCC) in 2008.548 The contract’s details have never been fully
                      disclosed, but according to the MOMP’s published summary, MCC’s total
                      investment is to be $2.9 billion. Afghanistan is to receive $808 million upon
                      approval of a feasibility study, $565.6 million upon commencement of com-
                      mercial production, and a 19.5% maximum royalty rate.549 Last quarter,
                      Afghan media reported MCC’s intention to exercise its option to renegotiate
                      the contract.550
                         Development of the Mes Aynak copper mine remains delayed by the
                      discovery of cultural relics in the area, difficulties in land acquisition,
                      lack of primary infrastructure, and security concerns.551 TFBSO suspects
                      other contributing factors include unwieldy contract terms, continuing
                      volatility in the minerals market, and China’s penchant for arranging
                      mineral projects, then “shelving” them for the future use.552 Despite these
                      problems, the Afghan government is counting on Aynak to meet its future
                      revenue predictions.553

                      North Aynak Drilling
                      TFBSO’s $4.5 million North Aynak drilling exploration program, which
                      began in November 2012, ended in spring 2013. It was to be followed by a
                      MOMP tender. However, the MOMP decided not to tender the area at this
                      time even though it has a completed technical report, according to TFBSO.
                      No explanation or timeline was forthcoming.554




                       162                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 162                                                                                     1/24/2014 11:08:31 AM
           Economic and Social Development




                      Figure 3.37


                      APPF PERSONNEL REQUIREMENTS FOR EXTRACTIVE SECTOR SECURITY


                                                                    UZBEKISTAN
                                                                                                                      TAJIKISTAN          CHINA

                                                                                           Afghan Tajik
                                                               Sherberghan Gas                 600      Badakhshan
                                        TURKMENISTAN                 250                                   150
                                                         Amu Darya
                                                           600
                                                                                       Qara Zaghan
                                                                       Balkhab              50
                                        Kushka                         200-300
                                         300                                     Hajigak
                                                                                  600           Kabul
                                                                                            Aynak
                               Shaida                                                       1750
                                200                                                                                        Hydrocarbons
                                                                             Zarkashan
                                                                                                                           Minerals
                                                                                450



                                                                                                           PAKISTAN
                        IRAN




                      Note: APPF = Afghan Public Protection Force
                      Source: State, response to SIGAR data call, 12/29/2013.




                         In November 2013, 35 Afghan Geological Survey (AGS) employees com-
                      pleted a three-month drilling and maintenance training program facilitated
                      by TFBSO. It combined classroom-based modules and hands-on drill train-
                      ing with AGS-owned equipment that had been sitting dormant since its
                      purchase in 2009. The training sought to continue training AGS employees
                      on operating their own equipment and drilling in their own country, and
                      to demonstrate Afghan capability to the international minerals industry.
                      TFBSO said a variety of exercises and tests were used to track participants’
                      progress, but did not share the results.555

                      Hajigak Iron-Ore Mine
                      Contract negotiations for the Hajigak iron-ore concessions continued
                      this quarter. The MOMP awarded three blocks to Afghan Iron and Steel
                      Consortium (AFISCO), a seven-member consortium led by state-owned
                      Steel Authority of India Ltd. in November 2011, and one block to Canadian
                      Kilo Iron Ore, a subsidiary of Kilo Goldmines.556




                      Report to the united states congress                       I   January 30, 2014                                 163



Jan2014_QR.indb 163                                                                                                                               1/24/2014 11:08:31 AM
                                                                  Economic and Social Development




                                                                      AFISCO is considering cutting its initial investment from $11 billion to
                                                                  $1.5 billion, according to a news report, due to uncertainty about security
                                                                  once U.S. troops leave in 2014.557 Kilo Iron Ore has consented in principle to
                                                                  all contract-negotiation terms. Both firms continue to await parliamentary
                                                                  approval of the new minerals law before signing contracts.558

                                                                  Hydrocarbons
                                                                  Afghanistan’s efforts to develop its oil and gas reserves focus on the Amu
                                                                  Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan. Even
                                                                  with two newly operational refineries, Afghanistan lacks adequate refin-
                                                                  ing capacity, and remains heavily import-dependent for fuels. The country
                                                                  imports 10,000 tons of oil products a day from Turkmenistan, Uzbekistan,
                                                                  Russia, Pakistan, and Iran.559

                                                                  Amu Darya Basin
        The latest available data provided to                     The three blocks of the Amu Darya Basin awarded to the China National
        SIGAR showed that CNPCI-W produced                        Petroleum Corporation Watan Energy Afghanistan (CNPCI-W) in 2011 are
        approximately 14,916 barrels of crude as                  estimated to contain 87 million barrels of crude oil, according to State and
        of August 31, 2013, missing its minimum                   TFBSO.560 State and TFBSO reported little to no production this quarter
        production requirements for FY 2013 of                    because CNPCI-W is still waiting for the Afghan government to negotiate
        1.65 million barrels. From that, the Afghan               cross-border transit agreements so it can export its crude to a neighboring
        government received $4.67 million in royalty
                                                                  country to be refined. Without such agreement, buyers are not interested.
        and surface rental fees.
                                                                  According to State, the Afghan government is negotiating an agreement
        Sources: TFBSO, response to SIGAR data call, 9/30/2013;
        TFBSO, response to SIGAR data call, 7/3/2013; TFBSO,
                                                                  with Uzbekistan.561 In the meantime, the MOMP announced a tender on
        response to SIGAR vetting, 7/17/2013.                     December 31, 2013, for the sale of 230,000 tons minimum per annum of
                                                                  CNPCI-W crude oil.562
                                                                     On January 7, 2014, the MOMP officially opened a new tender for explo-
                                                                  ration, development, and production in the Totimaidan block, comprising
                                                                  7,131 square kilometers in the Amu Darya Basin.563 The contract area
                                                                  contains 28 billion cubic meters of reserves in two known gas fields and
                                                                  50 proven and prospective subsurface structures. Expressions of interest
                                                                  are due February 8, 2014.564 TFBSO will follow up on its tender prepara-
                                                                  tion assistance to the MOMP and provide technical, legal, commercial, and
                                                                  transparency advisory services, as it did with the Afghan-Tajik tender.565
                                                                  Afghan-Tajik tender assistance included subject-matter experts to advise
                                                                  the MOMP Contract Evaluation Team and the Inter-Ministerial Commission
                                                                  during the qualification and bid-evaluation processes; transparency consul-
                                                                  tants; and funding for a MOMP bidder-information conference.566


                                                                  Agriculture
                                                                  Agriculture continues to be the main source of employment and subsis-
                                                                  tence for the Afghan population. Only 12% of the land is arable and less
                                                                  than 6% is cultivated, yet the sector accounts for 31% of GDP and, according




                                                                   164                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 164                                                                                                                                 1/24/2014 11:08:31 AM
           Economic and Social Development




                      to the latest World Bank report, provides employment to about 59% of
                      the labor force.567 Given its importance, agriculture could be a catalyst
                      for GDP growth, improved food security, and more stable employment
                      opportunities.568
                          Between FY 2002 and FY 2012, USAID has appropriated approximately
                      $2.46 billion for agricultural and alternative development funding to
                      improve production, increase access to markets, and provide alternatives
                                                                                                                                   SIGAR Alert Letter
                      to poppy cultivation.569 Of that, USAID has obligated about $29 million and                                  SIGAR last quarter alerted USAID
                      disbursed $29 million in direct assistance to build capacity at the Ministry of                              that it had not used 27 watershed
                      Agriculture, Irrigation, and Livestock (MAIL).570                                                            assessments—for which it paid $3.5
                          USAID is currently providing on- and off-budget assistance to the agri-                                  million—that were intended to guide
                      culture sector through several programs. USAID’s three highest-priority                                      its future water sector development in
                      programs, worth more than $350 million total, are:                                                           Afghanistan.
                       •	 Agricultural Development Fund (ADF) and Agricultural Credit
                          Enhancement (ACE)
                       •	 Incentives Driving Economic Alternatives-North, East, and West
                          (IDEA-NEW)
                       •	 Commercial Horticulture and Agricultural Marketing Program
                          (CHAMP)

                      Agricultural Credit Enhancement and Agricultural
                      Development Fund
                                                                                      Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date           Cost ($)        as of 12/31/2013
                       Agricultural Credit
                                                      7/15/2010        1/15/2015     $75,175,296              $61,542,072
                       Enhancement
                       Agriculture Development
                                                      7/18/2010        12/31/2014 $74,407,662                 $29,000,000
                       Fund
                      Source: USAID, response to SIGAR data call, 1/7/2014.


                      The Agricultural Development Fund and Agricultural Credit Enhancement
                      (ADF-ACE), a $150 million agricultural-credit project, has two complemen­
                      tary activities that aim to support MAIL’s efforts to provide loans and build
                      ADF staff capacity to manage them. ADF was established to provide loans
                      across the agricultural value chain through banks, farm stores, leasing com­
                      panies, and food processors, which in turn provide agricultural credits to
                      farmers. ACE is the technical assistance component that manages all ADF
                      lending activities and helps build MAIL capacity.571
                         This quarter, ACE-ADF finalized loan applications and disbursed $2 mil-
                      lion to six clients. It organized an agricultural credit shura on lending
                      opportunities and value chain assistance for 43 farmers. Seventeen ADF cli-
                      ent agribusinesses also participated in the Kabul International Agricultural
                      Exhibition. Despite these successes, USAID noted that Afghan political and
                      legal obstacles delayed ADF legal registration and access to lending funds,




                      Report to the united states congress                    I   January 30, 2014                       165



Jan2014_QR.indb 165                                                                                                                                                 1/24/2014 11:08:31 AM
                                                                      Economic and Social Development




                                                                      which, in turn, reduced the number of loans approved and the number of
                                                                      beneficiaries of its programs.572

                                                                      Incentives Driving Economic Alternatives-North, East, and West
                                                                                                                                    Total Estimated   Cumulative Disbursement,
                                                                       Project Title                  Start Date       End Date         Cost ($)        as of 12/31/2013
                                                                       Incentives Driving
                                                                       Economic Alternatives-         3/2/2009         3/1/2014     $159,878,589           $138,072,218
                                                                       North, East, and West
                                                                      Source: USAID, response to SIGAR data call, 1/7/2014.


                                                                      Incentives Driving Economic Alternatives-North, East, and West (IDEA-
                                                                      NEW) is a five-year, $160 million, cooperative-agreement project that
                                                                      provides agricultural assis­tance and economic alternatives to growing
                                                                      poppies in select provinces in eastern Afghanistan and in poppy regions in
                                                                      the northern and western parts of the country. IDEA-NEW is supposed to
                                                                      help farmers shift from growing poppies to legal agricultural production by
                                                                      increasing commercial opportunities, extending access to financial services,
                                                                      and promoting value-chain development for key regional industries and
                                                                      trade corridors. It also facilitates connections between producers, traders,
        A USAID Office of Inspector General audit                     and buyers through mar­ket-information activities and sales promotion.573
        of IDEA-NEW in June 2012 found a number                          USAID reported this quarter that 14,000 hectares are under alternative
        of problems, concluding that: the program                     crop cultivation due to IDEA-NEW.574 In addition, USAID said thousands of
        was unfocused, program directives were not                    people have benefitted from agricultural productivity and business skills
        followed, program goals were deleted from                     training, as well as program-supported agricultural inputs. However, USAID
        the performance management plan, and                          also acknowledged low crop production, limited food processing oppor-
        evidence of progress could not be produced.                   tunities, and shifting security conditions as challenges to IDEA-NEW.575
        Source: USAID OIG, Audit of USAID/Afghanistan’s Incentives    Afghanistan had 209,000 hectares of opium under cultivation in 2013, a 36%
        Driving Economic Alternatives for the North, East, and West
        Program, Audit report No. F-306-12-004-P, 6/29/2012.          increase over 2012.576

                                                                      Commercial Horticulture and Agricultural Marketing Program
                                                                                                                                    Total Estimated   Cumulative Disbursement,
                                                                       Project Title                  Start Date       End Date         Cost ($)        as of 12/31/2013
                                                                       Commercial Horticulture
                                                                       and Agricultural Marketing     2/1/2010         12/30/2014    $40,320,139           $30,522,754
                                                                       Program
                                                                      Source: USAID, response to SIGAR data call, 1/7/2014.


                                                                      The Commercial Horticulture and Agricultural Marketing Program
                                                                      (CHAMP), a $40 million program begun in 2010, aims to help farmers
                                                                      plant and operate more profitable orchards and vineyards by enhancing
                                                                      crop quality and promoting export and trade corridors. The pro­gram also
                                                                      works with traders to improve harvesting, packing, cool storage, and
                                                                      shipping methods.577




                                                                        166                           Special inspector general          I   Afghanistan reconstruction




Jan2014_QR.indb 166                                                                                                                                                              1/24/2014 11:08:31 AM
           Economic and Social Development




                      Kabul International Agricultural Fair attendees display products from a company
                      assisted by IDEA-NEW. (USAID photo)


                         As CHAMP approaches the 2014 transition, USAID said it will shift
                      focus to post-harvest commercialization of high-value crops. The pro-
                      gram seeks to increase exports through marketing and to promote import
                      substitution. However, USAID said insecurity con­tinues to challenge full
                      implementation of CHAMP. Insurgent groups threaten both CHAMP staff
                      and farmers, particularly in Kandahar, Helmand, Zabul, Wardak, Logar,
                      and Ghazni provinces.578

                      Kandahar Food Zone
                                                                                      Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date           Cost ($)        as of 12/31/2013
                       Kandahar Food Zone             7/31/2013        7/30/2015       $19,695,804             $990,000
                      Source: USAID, response to SIGAR data call, 1/7/2014.


                      This quarter, USAID announced it was launching the Kandahar Food
                      Zone (KFZ) program with two major components: capacity building at the
                      Ministry of Counter Narcotics (MCN) and alternative livelihood projects.
                      The capacity-building component seeks to build up the MCN’s ability to
                      design, implement, and manage alternative livelihood projects. The alter-
                      native-livelihood component aims to improve community infrastructure
                      and increase legal economic opportunities. As of December 8, 2013, KFZ
                      had not yet begun any community-level projects. The initial cooperative
                      agreement has an estimated value of $19.7 million, of which $611,000 was
                      disbursed as of December 8, 2013.579
                         Although it is partly modeled on the Helmand Food Zone (HFZ), USAID
                      said the KFZ program is taking a different approach. The HFZ program




                      Report to the united states congress                    I   January 30, 2014                        167



Jan2014_QR.indb 167                                                                                                                1/24/2014 11:08:32 AM
                      Economic and Social Development




                      implementers focused on crop substitution and eradication, an input-
                      driven and unsustainable approach, according to USAID. In contrast, the
                      KFZ program engages with communities to identify the social, political,
                      and economic drivers of poppy cultivation, and then tailor appropriate
                      projects to them. Finally, unlike HFZ, KFZ was designed to treat the MCN
                      as an active partner.580

                      Afghan Agriculture Research and Extension
                      Development Program
                                                                                   Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date        Cost ($)        as of 12/31/2013
                       Afghan Agricultural
                       Research and Extension         7/7/2012         7/16/2017    $23,638,611            $3,227,399
                       Development (AGRED)
                      Source: USAID, response to SIGAR data call, 1/7/2014.


                      Afghan Agriculture Research and Extension Development (AGRED) is an
                      on-budget program (with an off-budget mechanism) in partnership with
                      MAIL designed to increase agricultural production and benefit rural liveli-
                      hoods through the use of improved agricultural technologies. AGRED is
                      rehabilitating research and extension centers for MAIL and the Directorate
                      of Agriculture, Irrigation, and Livestock (DAIL) and across seven provinces
                      and 50 districts. AGRED also provides training to MAIL and DAIL person-
                      nel so that they can, in turn, provide technology and advisory services to
                      Afghan farmers and herders.581
                         After a slow start that required shifting some funding off-budget due to
                      MAIL’s limited capacity, USAID reported that AGRED now has a detailed
                      budget, implementation benchmarks, and means of verification approved
                      by MAIL. In addition, AGRED has conducted inventories of targeted
                      research and extension facilities and completed 21 trainings for 504 MAIL/
                      DAIL personnel.582


                      Essential Services/Development
                      Since 2002, the United States has provided reconstruction funds to increase
                      electricity, build roads and bridges, and improve health and education. This
                      section addresses key developments in U.S. efforts to improve the govern-
                      ment’s ability to deliver essential services such as electricity, transportation,
                      health, and education.

                      Energy
                      The latest World Bank report noted that Afghanistan has one of the low-
                      est rates of electric-service connection in the world, with only 28% of its




                        168                           Special inspector general         I   Afghanistan reconstruction




Jan2014_QR.indb 168                                                                                                             1/24/2014 11:08:32 AM
           Economic and Social Development




                      population connected to the power grid. Of those who are connected, an
                      estimated 77% live in urban areas.583
                          Because electricity is critical to Afghanistan’s development, the United
                      States, in collaboration with the Afghan government and the international
                      community, has made developing an integrated energy sector one of its
                      top reconstruction priorities since 2002.584 In 2002–2011, USAID alone
                      provided close to $2 billion from the ESF to build generators, substations,
                      and transmission lines, and provide technical assistance to the sector. It
                      plans to spend at least $500 million more over the next few years.585 In addi-
                      tion, DOD has provided approximately $292 million for electricity projects
                      through the Commander’s Emergency Response Program (CERP) and
                      roughly $700 million through the Afghanistan Infrastructure Fund (AIF),
                      which is jointly managed by DOD and State.586
                          Afghanistan currently has nine separate power systems. The primary             NEPS: brings imported electricity from the
                                                                                                         Central Asian Republics to provide power to
                      two are the Northeast Power System (NEPS) and the Southeast Power
                                                                                                         Kabul and the communities north of Kabul.
                      System (SEPS). USAID has three projects to connect and increase the
                      electricity supply in both systems— Sheberghan; the Kandahar-Helmand               SEPS: draws most of its power from the
                      Power Project, which includes Kajaki Dam hydropower; and the Power                 Kajaki Dam and from diesel generators
                      Transmission Expansion and Connectivity Program. DOD is contributing to            in Kandahar City. It provides power in the
                      both NEPS and SEPS through AIF projects. The Afghan government, coordi-            Helmand and Kandahar areas.
                      nating closely with USAID and DOD, prioritized these programs to increase
                      the availability of affordable, grid-based power. Connecting the power grids
                      is intended to promote the best use of lowest-cost generation, reduce the
                                                                                                       Source: DOD, Report on Progress Toward Security and
                      need for duplicative generating reserves, and improve system reliability.587     Stability in Afghanistan, 11/2013, accessed 12/29/2013.



                      Sheberghan Program
                      Afghanistan currently imports more than 70% of the energy it needs,
                      according to USAID.588 Together with the ADB, the Overseas Private
                      Investment Corporation, and the MOMP, USAID is supporting the
                      Sheberghan project to help Afghanistan identify and manage gas resources
                      to be used for power generation.589
                         USAID is implementing its part of the Sheberghan Program through two
                      mechanisms: the $90 million, on-budget Sheberghan Gas Development
                      Project (SGDP), and the $35 million, off-budget Sheberghan Gas Generation
                      Activity (SGGA).590 USAID will pay $30 million on-budget through SGDP for
                      the rehabilitation of two wells and the drilling of one well in the Juma and
                      Bashikurd field in the Amu Darya Basin. An additional $7 million will come
                      from Afghanistan’s national budget. The National Petroleum Company of
                      Turkey signed a contract with the MOMP on December 14, 2013, to perform
                      the work. Gas reserves are expected to be confirmed in August/September
                      2014. If, in the end, the wells have sufficient capacity to run a 200 MW
                      gas-fired power plant, USAID will fund a gas gathering system and gas pro-
                      cessing plant to fuel it with its remaining $60 million, on-budget through
                      SGDP. No disbursements have yet been made.591




                      Report to the united states congress   I   January 30, 2014            169



Jan2014_QR.indb 169                                                                                                                                1/24/2014 11:08:32 AM
                                                        Economic and Social Development




                                                           The off-budget SGGA component is being implemented under a contract
                                                        task order with Advanced Engineering Associates International to provide
                                                        technical assistance to the MOMP for the drilling portion of this project
                                                        and to help the MOMP tender the Engineering/Procurement/Construction
                                                        contract for the gas-gathering system and gas-processing plant. As of
                                                        December 18, 2013, approximately $23 million has been obligated, of which
                                                        more than $10 million was disbursed.592
                                                           USAID is funding 21% of the Sheberghan program; the Overseas Private
                                                        Investment Corporation is expected to back financ­ing of a $300 million pri-
                                                        vately funded 200 MW gas-fired power plant (52% of total funding); the ADB
                                                        will support construction of the associated transmission lines (22% of total
                                                        funding); and the MOMP will cover the remaining 5%.593

                                                        Kandahar-Helmand Power Project
                                                        The Kandahar-Helmand Power Project (KHPP) is intended to increase
                                                        power supply and reliability in Kandahar and Helmand provinces. It was
                                                        designed to support interim diesel power for critical needs, increase long-
                                                        term sustainable hydro power, and reduce losses while strengthening the
                                                        SEPS transmission and distribution system.594
                                                           On October 29, 2010, USAID signed a $266 million contract with Black
                                                        & Veatch to rehabilitate and build power substations, upgrade the medium-
                                                        voltage distribution system in Kandahar City, install, test, and commission a
                                                        third turbine at the Kajaki Dam, and design and install new die­sel-powered
                                                        generators for interim power supply until lower cost, more sustainable
                                                        power becomes available from the Kajaki Dam and/or the NEPS-SEPS
                                                        connector.595 The turbine parts, transported to the power station by a U.S.-
                                                        British military mission that had to fight its way to the dam site in 2008,
                                                        have remained unassembled in containers and under tarps ever since.596
                                                           On April 22, 2013, USAID signed a bilateral, on-budget implementation
                                                        letter with the Afghan government, and sub-obligated $75 million for install-
                                                        ing, testing, and commissioning the third turbine at the Kajaki hydropower
             SIGAR Alert Letter                         station, which had not occurred under the Black & Veatch KHPP contract,
                                                        as required.597 The turbine installation requirement contained within the
             This quarter, SIGAR issued a letter to
                                                        Black & Veatch KHPP contract has been descoped.598
             USAID alerting them about possible
                                                           Afghanistan’s national utility, Da Afghanistan Breshna Sherkat (DABS),
             weaknesses in oversight provisions in
                                                        has assumed responsibility for carrying out the terms and conditions of the
             their agreement for providing direct
                                                        Implementation Letter.599 On December 9, 2013, DABS signed a $6 million
             assistance funds to Afghanistan’s
                                                        contract with Dubai-based GFA Consulting for the up-front engineer-
             national utility, Da Afghanistan Breshna
                                                        ing, procurement, and tendering services pertaining to the installation of
             Sherkat (DABS), for the installation of
                                                        Kajaki’s third turbine, in addition to security and site support services.600
             an additional turbine at Kajaki Dam.
                                                        Meanwhile, on December 17, 2013, USAID announced that it intends to
             For more information, see Section 2,
                                                        negotiate a sole-source contract extension of KHPP with Black & Veatch for
             page 48.
                                                        technical support services to DABS and USAID in support of the third tur-
                                                        bine installation. Black & Veatch would provide project documentation and




                                                         170                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 170                                                                                                                       1/24/2014 11:08:32 AM
           Economic and Social Development




                      Kajaki hydropower plant design support. USAID based its decision on Black
                      & Veatch’s experience with the Kajaki hydropower plant.601
                         DOD is funding fuel for the U.S. Army Corps of Engineers-installed
                      generators in Kandahar City through 2014 using AIF. DABS is providing
                      fuel for other existing generators in the area. The U.S. fuel subsidy may be
                      extended, but USAID expects it to decrease as DABS takes the required
                      steps to secure revenue needed to sustain the fuel costs. One step is
                      contracting for the installation of Kajaki’s third turbine, which when opera-
                      tional should generate additional power and revenues.602
                         Improving revenue collection will be challenging. A SIGAR audit found
                      that despite USAID investments that resulted in some commercialization
                      successes for DABS-Kabul, including increasing cash collections by 60%,
                      the Afghan utility is still operating at a financial loss. Also, DABS may not be
                      able to pay its bills without continued government subsidies that are set to
                      expire in 2014.603 As of December 18, 2013, USAID had obligated $229.6 mil-
                      lion of ESF funds for the KHPP, and of that, approximately $209.3 million
                      had been disbursed, an increase of $17.9 million from last quarter.604

                      Power Transmission Expansion and Connectivity Program
                      The U.S.-funded Power Transmission Expansion and Connectivity (PTEC)
                      program was designed to strengthen and expand the power-generation,
                      trans­mission, and distribution systems. This program directly supports the
                      National Energy Supply Program of the Afghanistan National Development
                      Strategy, which calls for improving the collection rate against energy bill-
                      ings and increasing the supply of power.605
                         In addition to strengthening and expanding NEPS, a key component
                      of PTEC is funding 304 miles of the 329-mile transmission line between
                      Kabul and Kandahar to connect NEPS with SEPS. The NEPS-SEPS con-
                      nector will include eight substations located at major population centers
                      along the way. This con­nection, together with the rehabilitation of the
                      Kajaki Hydropower Plant, was identified in 2010 as the only viable,
                      long-term solution to displace costly and unsustainable diesel-power gen-
                      eration in Kandahar.606
                         Connecting NEPS to SEPS is a multi-donor effort. The ADB is respon-
                      sible for the first 25-mile section from Kabul to Arghandi.607 USAID will
                      fund construction of the next 75 mile section from Arghandi to Ghazni,
                      which includes $101 million of DOD’s AIF that was transferred to USAID.
                      USAID, the MOF, and DABS formalized the bilateral agreement for this seg-
                      ment in February 2013.608 USAID plans to contribute $417.6 million from its
                      $814 million PTEC project to ADB’s Afghanistan Infrastructure Trust Fund
                      (AITF) with a portion used to construct the remaining 230-mile section of
                      transmission line from Ghazni to Kandahar connecting NEPS with SEPS.
                      Completion of the NEPS-SEPS connector will be delayed by two years to
                      2017/2018. Of USAID’s contribution to AITF, approximately $290 million




                      Report to the united states congress   I   January 30, 2014              171



Jan2014_QR.indb 171                                                                                      1/24/2014 11:08:32 AM
                      Economic and Social Development




                      will be used to construct the remaining transmission line from Ghazni to
                      Kandahar to complete the NEPS to SEPS connection.609
                         The ADB established the AITF in December 2010, to allow bilateral,
                      mul­tilateral, and individual contributors to partner with the ADB in financ-
                      ing infrastructure investments. AITF will fund projects on-budget through
                      DABS or other Afghan government ministries. Current contributors to AITF
                      also include the UK’s Department for International Development and the
                      Japanese Embassy.610
                         As of December 31, 2013, USAID has obligated $180.3 million to AITF
                      and disbursed $105 million of which $45 million was disbursed concurrently
                      with the signing of the Program Contribution Agreement in March 2013 and
                      $60 million was disbursed in December 2013 pursuant to an ADB request.
                      USAID has also obligated $263.3 million in on-budget assistance to the MOF
                      and DABS for PTEC, but disbursed no funds in the last two quarters.611 That
                      is because USAID set 12 conditions for DABS to fulfill. In an implementa-
                      tion letter dated December 5, 2013, USAID declared that DABS recently
                      met the conditions for funds disbursal, so DABS is submitting contracts to
                      USAID for approval.612

                      DOD-Funded Programs
                      DOD has viewed establishment of reliable and sustainable power genera-
                      tion, transmission, and distribution as the linchpins to security, stability, and
                      economic growth in Afghanistan. This quarter, DOD continued implement-
                      ing several priority energy-sector projects using FY 2012 and FY 2013 AIF
                      money. These included:613
                       •	 Kandahar Power Bridging Solution
                       •	 Kandahar–Durai Junction transmission lines
                       •	 Charikar–Bazirak and Charikar –Mahmood Raqi transmission lines and
                          power substations
                       •	 Kajaki Dam to Musa Qalah transmission lines

                      Kandahar Power Bridging Solution
                      This project is providing fuel for the diesel generators in Kandahar City
                      until affordable, sustainable power becomes available through the joint
                      DOD-USAID effort to expand and connect NEPS and SEPS systems.614 The
                      generators at Shorandam Industrial Park and Bagh-e-Pol have a combined
                      average output of 8–13 MW. Funding levels have not changed from last
                      quarter. FY 2012 funding remains at $79.8 million for fuel and operations
                      and maintenance (O&M). The estimated FY 2013 cost is $100 million, which
                      includes $90 million for fuel and $10 million for O&M.615
                         Based on the president’s FY 2014 budget request of $279 million for AIF,
                      DOD proposed to spend $100 million for the diesel power generators and
                      to integrate prior DOD and USAID power projects. DOD will reevaluate this
                      plan based on the final FY 2014 appropriation.616 This will improve overall




                       172                  Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 172                                                                                       1/24/2014 11:08:32 AM
           Economic and Social Development




                      power management in Kandahar by consolidating Kandahar’s “power
                      islands” into an integrated grid. DOD plans to continue purchasing fuel and
                      providing O&M support into FY 2015, but intended to transfer the genera-
                      tors to DABS in December 2013, along with six months of spare parts. DOD
                      said it will provide technical support for one year following the transition.617
                      It sees this electricity as critical to the counterinsurgency strategy to help
                      stabilize Kandahar by supporting economic development and improving
                      citizens’ quality of life. DOD said the Kandahar Bridging Solution is central
                      to the Afghanistan Electrification Plan and the State Department’s develop-
                      ment plan for Afghanistan.618

                      Kandahar to Durai Junction Transmission Lines
                      Part of the effort to expand SEPS, this project continues earlier efforts to
                      install or repair transmission lines from Kandahar City to Durai Junction
                      and to construct or repair substations at Maiwand and Pashmul. The
                      cost for this project, which began in 2012, remains $40 million in FY 2012
                      funds. This transmission line constitutes a key element for the larger
                      PTEC project linking SEPS and NEPS and addresses the need for reliable
                      electricity in Afghanistan’s south and southeast. DOD’s goal is to promote
                      economic growth, security, stability, and capacity-building efforts within
                      DABS to help it generate sufficient revenues to fund capital improvements
                      to the grid. Completion of this project is essential to distribute power gen-
                      erated by the third turbine awaiting installation at Kajaki Dam, according
                      to DOD.619

                      Charikar–Bazirak and Charikar–Mahmood Raqi Transmission
                      Lines and Power Substations
                      This project will install 52 miles of transmission lines from Charikar to
                      Bazirak and from Charikar to Mahmood Raqi. It will also build three power
                      substa­tions to expand NEPS. DOD has allocated $38 million in FY 2012
                      funds and $33 million in FY 2013 funds for the project, for a total estimated
                      cost of $71 million, according to a DOD notification to Congress last quar-
                      ter. Annual estimated O&M costs for the transmission lines and substations
                      are $580,000.620
                         DOD told Congress the project will bring reliable electricity to 1.15 mil-
                      lion Afghans across three provinces and help fuel pri­vate-sector growth,
                      especially in the agriculture, processing, manufacturing, and mining sectors.
                      Consistent with all AIF-funded projects, and by formal agreement, this proj-
                      ect will be transferred to the Afghan government upon completion. DABS
                      will assume responsibility for O&M. Increased revenue from an expanded
                      customer base and improved collection capabilities will help DABS provide
                      long-term sustainment, according to DOD.621 However, SIGAR has raised
                      questions about DABS’s capac­ity, and other audits have said Afghanistan
                      lacks the resources necessary to pay for O&M.622




                      Report to the united states congress   I   January 30, 2014              173



Jan2014_QR.indb 173                                                                                      1/24/2014 11:08:32 AM
                      Economic and Social Development




                      Kajaki Dam to Musa Qalah Transmission Lines
                      This project is building new transmission lines from the Kajaki Dam
                      hydropower plant to Musa Qalah in Helmand Province. The $12 million in
                      FY 2013 funds allocated for Phase I of the project will construct approxi-
                      mately 9 miles of new 110kV transmission line from Kajaki to a new
                      substation that will join with the existing 20kV transmission line. Phase
                      II plans to use $49 million in FY 2014 funds to build 23 miles of 110kV
                      transmission line from the substation to Musa Qalah, build a new 110kV
                      substation, and rehabilitate the existing 20kV substation at Musa Qalah.
                      The project aims to benefit the approximately 60,000 residents of Musa
                      Qalah, according to DOD.623
                          Other components of the project are designed to help integrate SEPS
                      projects into a single, interconnected system. Consistent with all AIF-
                      funded projects, and by formal agreement, this project will be transferred
                      to the Afghan government upon completion. DABS will assume responsi-
                      bility for O&M. Increased revenue from an expanded customer base and
                      improved collection capabilities will help DABS provide long-term sus-
                      tainment, according to DOD.624 As noted above, SIGAR audits have raised
                      concerns about DABS’ capacity and resources.


                      Private-Sector Development
                      The United States is supporting private-sector development through the
                      ESF, TFBSO, and CERP. From FY 2002 to FY 2012, USAID appropriated
                      $1.06 billion for economic growth in Afghanistan.625 USAID’s top ongoing
                      economic-growth project, funded through the ESF, is Assistance in Building
                      Afghanistan by Developing Enterprises (ABADE).

                      Assistance in Building Afghanistan by Developing Enterprises
                                                                                  Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date       Cost ($)        as of 12/31/2013
                       Assistance in Building
                       Afghanistan by Developing      10/16/2012 10/15/2016       $104,997,656           $12,515,789
                       Enterprises
                      Source: USAID, response to SIGAR data call, 1/7/2014.


                      USAID’s $105 million Assistance in Building Afghanistan by Developing
                      Enterprises (ABADE) program focuses on helping produc­tive, Afghan-
                      registered, small-to-medium enterprises add jobs, increase investment, and
                      improve sales of domestic products and services through public-private alli-
                      ances. It does so through three components: implementing public-private
                      alliances once they are approved; identifying, selecting and supporting the
                      alliances; and working with the Afghan government to improve the environ-
                      ment for business.626




                        174                           Special inspector general        I   Afghanistan reconstruction




Jan2014_QR.indb 174                                                                                                            1/24/2014 11:08:32 AM
           Economic and Social Development




                         Since ABADE’s launch in February 2013, USAID reported that 25 pub-
                      lic-private alliances—compared to five reported seven months ago—and
                      16 applications are awaiting approval, as of January 14, 2014. Additionally,
                      business-outreach and government capacity-building efforts continued
                      this quarter.627
                         ABADE implementation continues to face restrictions from Presidential
                      Decree 62, which requires the use of APPF and Risk Management
                      Companies for security. The APPF is unable to provide adequate mobile
                      escort units or vehicles, making it difficult for ABADE staff to travel across
                      the region, according to USAID.628


                      Transportation
                      Afghanistan’s lack of transportation infrastructure hinders internal com-
                      merce, foreign trade, and economic growth. The World Bank said restoring
                      the transportation sector is imperative for economic recovery and develop-
                      ment.629 Afghanistan’s infrastructure shortcomings particularly constrain the
                      service and agriculture sectors, which currently contribute most to GDP.
                      They also hold back the mining industry, whose future revenues the Afghan
                      government and international donor community are counting on to supple-
                      ment declining aid.630 This quarter, the United States continued its efforts
                      to assist Afghanistan in developing ministry capacity, sustaining operations
                      and maintenance, and complying with inter­national standards.631

                      Roads
                      USAID approved its Road Sector Sustainability (RSS) project design on
                      July 14, 2013. The project has four main activities:632
                      •	 Activity 1 - Emergency O&M. This is in the RFP development phase.
                      •	 Activity 2 - Technical Assistance to the Ministry of Public Works
                         (MOPW). Firms were pre-qualified to bid in September/October
                         2013, the RFP was released on November 27, 2013 and proposals are
                         expected January 15, 2014.
                      •	 Activity 3 - Capacity Building for the MOPW. The Statement of
                         Work is being finalized and a Request for Task Order Proposal is in
                         development.
                      •	 Activity 4 - Road O&M Activity. USAID is continuing discussions with
                         ADB’s AITF to determine funding options and proposed activities.

                         USAID’s technical assistance to the MOPW is focused on Activity 2, help-
                      ing the MOPW establish a Road Authority, Road Fund, and Transportation
                      Institute. USAID said the primary challenge for establishing a road author-
                      ity is political. The president and the cabinet finally approved establishing
                      a Road Authority and Road Fund on August 12, 2013. Maintaining political




                      Report to the united states congress   I   January 30, 2014            175



Jan2014_QR.indb 175                                                                                    1/24/2014 11:08:32 AM
                                                     Economic and Social Development




                                                     support will be challenging given the country’s political and security uncer-
                                                     tainties in 2014.633

                                                     Rail
                                                     In November 2013, the Afghan Rail Authority (ARA) received the final
                                                     U.S. Central Command (CENTCOM) rail study and is reviewing the docu-
                                                     ment along with rail master plans developed by other international donors.
                                                     According to the U.S. Department of Transportation, ARA’s immediate pri-
                                                     orities are to finalize its legal and regulatory framework legislation and have
                                                     parliament approve it so that its roles and responsibilities in developing
                                                     Afghanistan’s rail sector are clearly defined.634
                                                        Currently, Afghanistan has no meaningful railroad development, opera-
                                                     tional experience, or capacity. Only one completed rail line exists—a
                                                     47-mile line from Hairatan, on the border with Uzbekistan, to Mazar-e-
                                                     Sharif.635 The country needs to expand the 47-mile line if it is to further the
        For a detailed discussion on CENTCOM’s       U.S. government’s New Silk Road vision of regional and economic connec-
        national railway plan, see pp. 164–166 in    tivity. Development of an interlinking 249-mile line between Afghanistan,
        SIGAR’s July 2013 Quarterly Report.          Turkmenistan, and Tajikistan was inaugurated in June 2013.636


                                                     Education
                                                     According to the data available to USAID last quarter from the Ministry of
                                                     Education’s (MOE) Information Management System (EMIS), Afghanistan
             SIGAR Inspection                        had a total of 13,562 primary, lower secondary, and upper secondary schools
             A SIGAR inspection this quarter of      in solar year (SY) 1390 (March 2011–March 2012). The same data showed
             the Balkh Education Facility found      more than 185,255 teachers employed across all education programs in
             that it has not been completed or       Afghanistan, and approximately 7.5 million students enrolled in primary, gov-
             constructed in accordance with          ernment lower secondary, and government upper secondary schools.637
             contract requirements and technical         However, USAID said it was concerned about the reliability of the
             specifications; it cannot be turned     MOE/EMIS, which is the only database tracking education metrics at the
             over to Afghan authorities five years   MOE. USAID relies primarily on EMIS for its information, but told SIGAR
             after construction began; and Afghan    it cannot verify the data. With more USAID assistance now going on-
             faculty and students were using the     budget, USAID is working to support the MOE to improve the reliability
             facility although it was not approved   of EMIS data. USAID said it also uses internal reports from its officers,
             for occupancy. For more information,    the International Security Assistance Force (ISAF), other donors, and
             see Section 2, page 40.                 implementing partners to help verify and check information.638 SIGAR is
                                                     concerned that U.S. government agencies and international donors are
                                                     unable to verify Afghanistan’s oft-cited gains in education.
                                                         A SIGAR audit this quarter of assessments of ministries receiving
                                                     direct bilateral assistance from the U.S. government found that USAID/
                                                     Afghanistan identified 12 risks and 39 corresponding mitigation measures
                                                     needed for the MOE before it receives U.S. direct assistance. Despite
                                                     USAID’s own conclusion that the U.S. government cannot rely on MOE
                                                     internal controls to manage donor funds, USAID disbursed $11.8 million for




                                                      176                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 176                                                                                                                    1/24/2014 11:08:32 AM
           Economic and Social Development




                      one active direct-assistance program. USAID also committed $206.1 million
                      for two planned basic-education and workforce-development programs, as
                      of August 1, 2013.639
                                                                                                                                        SIGAR Audit
                         Since 2002, USAID has supported education through aid for building and                                         In an ongoing audit, SIGAR is
                      refurbishing schools, developing curricula, and conducting teacher training.                                      examining the U.S. government’s efforts
                      USAID’s ongoing priority programs in the education sector funded through                                          to assist and improve the education
                      the ESF this quarter include:                                                                                     sector in Afghanistan.
                      •	 Basic Education, Literacy and Technical-Vocational Education and
                         Training (BELT)
                      •	 Higher Education Project (HEP)
                      •	 American University of Afghanistan (AUAF)

                      Basic Education, Literacy, and Technical-Vocational
                      Education and Training
                                                                                        Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date             Cost ($)        as of 12/31/2013
                       Basic Education, Literacy,
                       and Technical-Vocational       11/16/2011 12/31/2014              $43,296,813           $18,829,265
                       Education and Training
                       BELT-Community Based
                                                      10/29/2013 10/28/2017              $56,000,000                    $0
                       Education
                      Source: USAID, response to SIGAR data call, 1/7/2014.



                      Basic Education, Literacy, and Technical-Vocational Education and Training
                      (BELT) aims to improve access to quality basic education in communi-
                      ties typically beyond the reach of the government. The program provides
                      textbooks, technical-vocational education, and training, as well as commu-
                      nity-based education programs.640
                         BELT has five separate components: capacity building for the MOE,
                      teacher training, Technical Vocational Education and Training (TVET) to
                      meet unmet labor-market needs, procurement of MOE textbooks for grades
                      1–6, and community-based education.641
                         For BELT CBE, Implementation Letter Number 39-01 was signed with
                      the MOE and MOF on September 18, 2013, and spells out substantive mat-
                      ters such as student targets, performance milestones, means of verification,
                                                                                                                                     A U.S. Navy chaplain helps an Afghan girl
                      and funding levels. BELT TVET is currently being redesigned to focus on
                                                                                                                                     with an English lesson at Bagram Airfield.
                      youth development and aims to provide quality basic skills, workforce read-                                    (DOD photo)
                      iness and TVET training for out-of-school youth.642

                      Higher Education Project
                                                                                        Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date             Cost ($)        as of 12/31/2013
                       Higher Education Project       2/23/2011        2/28/2014         $21,216,813           $16,499,985
                      Source: USAID, response to SIGAR data call, 12/31/2013.




                      Report to the united states congress                      I   January 30, 2014                       177



Jan2014_QR.indb 177                                                                                                                                                      1/24/2014 11:08:32 AM
                                                       Economic and Social Development




                                                       Since the Higher Education Project (HEP) project began in 2006, it has sup-
                                                       ported the Ministry of Higher Education in executing its National Higher
                                                       Education Strategic Plan. HEP’s latest phase, extended to February 28,
                                                       2014, provides technical assistance to increase ministry capacity through
                                                       professional training, quality assurance and accreditation, curriculum
                                                       review, university partnerships, academic policies, and regulation.644 This
                                                       quarter, the Wolesi Jirga did not approve the Higher Education Law, which
                                                       grants, in part, public universities the autonomy to generate and manage
                                                       revenues and donations. However, an associate-degree program for Kabul
                                                       Polytechnic University was finalized with HEP’s assistance and the first
                                                       class convened in January 2014.645

                                                       American University of Afghanistan
                                                                                                                    Total Estimated   Cumulative Disbursement,
                                                        Project Title                  Start Date       End Date        Cost ($)        as of 12/31/2013
                                                        American University of
                                                                                       8/1/2013         8/31/2018    $40,000,000            $2,054,928
                                                        Afghanistan
                                                       Source: USAID, response to SIGAR data call, 1/7/2014.



                                                       USAID’s second, five-year cooperative agreement is designed to continue
                                                       support for developing the American University of Afghanistan’s (AUAF)
                                                       English-language undergraduate and continuing-education programs.
                                                       Support will come from USAID’s forthcoming STEP-UP program and will
                                                       help introduce new science, education, and management curricula, as well
                                                       as a new master’s program, distance learning, and on-line resources. The
                                                       four components of this agreement aim to strengthen academic and profes-
                                                       sional development programs, enhance program quality, expand programs
                                                       for women, and increase financial self-sufficiency.646

                                                       Other Active USAID Education Programs
                                                                                                                    Total Estimated   Cumulative Disbursement,
                                                        Project Title                  Start Date       End Date        Cost ($)        as of 12/31/2013
             SIGAR Audit                                Global Partnership for
                                                        Education
                                                                                       10/11/2012 3/31/2015          $2,500,000             $290,158

             A SIGAR audit of MOPH capacity to          Afghanistan Reads              6/30/2013        5/31/2015      $625,000             $150,000
             account for U.S. direct assistance         Afghanistan Technical
                                                                                       6/15/2013        1/14/2015    $1,000,000             $355,000
             found that despite financial-              Vocational Institute
             management deficiencies at the            Source: USAID, response to SIGAR data call, 1/7/2014.

             MOPH, USAID continues to provide
             millions of U.S. taxpayer dollars in
             direct assistance with little assurance   Health
             that the ministry is using these funds    Afghanistan has experienced significant improvements in its health indi-
             as intended.643                           cators since 2002, according to USAID. Although the country still has
                                                       some of the highest maternal- and child-mortality rates in the world, the




                                                         178                           Special inspector general         I   Afghanistan reconstruction




Jan2014_QR.indb 178                                                                                                                                              1/24/2014 11:08:33 AM
           Economic and Social Development




                      USAID-funded Afghanistan Mortality Survey 2010 found that life expec-
                      tancy has increased by as much as 20 years to an average of 62–64 years.647
                      However, other institutions have cited more modest gains. The CIA World
                      Factbook gives the Afghan life expectancy from birth as 50 years, while the
                      World Bank calculated life expectancy at 48.648
                         From FY 2002 through FY 2012, U.S. on- and off-budget assistance to
                      Afghanistan’s health sector totaled $1.06 billion.649 On-budget assistance to
                      the MOPH includes salary payments to workers in U.S.-funded facilities,
                      medical and non-medical sup­plies, in-service training, minor renovations of
                      facilities, medical equipment, and monitoring and supervision. Off-budget
                      assistance includes activities to strengthen health systems, engage the pri-
                      vate sector, and procure pharma­ceuticals and contraceptives.650
                         USAID’s highest-priority programs in the health sector this quarter include:
                      •	 Partnership Contracts for Health (PCH) Services
                      •	 Health Policy Project (HPP)
                      •	 Leadership, Management, Governance Project (LMG)

                      Partnership Contracts for Health Services
                                                                                      Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date           Cost ($)        as of 12/31/2013
                       Partnership Contracts for
                                                      7/20/2008        1/31/2015      $236,455,840           $151,913,665
                       Health Services
                      Source: USAID, response to SIGAR data call, 1/7/2014.



                      The host-country contract Partnership Contracts for Health (PCH) pro-
                      gram supports the MOPH’s efforts to provide the Basic Package of Health
                      Services (BPHS) and the Essential Package of Hospital Services (EPHS)
                      in 13 provinces. The United States supports 553 of these health facili-
                      ties—26.4% of total health facilities in Afghanistan—including:651
                       •	 5 Provincial Hospitals
                       •	 27 District Hospitals
                       •	 13 Comprehensive Health Centers+ (“+” indicates expanded services)
                       •	 157 Comprehensive Health Centers
                       •	 271 Basic Health Centers
                       •	 64 Health Sub-Centers
                       •	 10 Prison Health Facilities

                          USAID also supports 6,402 health posts throughout Afghanistan—48.5% of
                      all health posts. On average, over 1.3 million patients are served each month.652
                          PCH delivers health care ranging from primary care to highly special-
                      ized diag­nostic and treatment services. It also supports the Community
                      Midwifery Education program, which helps to increase the number of
                      female health-care workers and contributes to reducing maternal and
                      child mortality.653




                      Report to the united states congress                    I   January 30, 2014                       179



Jan2014_QR.indb 179                                                                                                                1/24/2014 11:08:33 AM
                                                          Economic and Social Development




                                                             USAID reports the growing health demands of communities cannot be
                                                          addressed through existing BPHS and EPHS. Furthermore, turnover of
             SIGAR Inspection                             PCH staff within the Grants and Contracts Management Unit, as well as
             A SIGAR inspection this quarter found        deteriorating security conditions, have temporarily closed health facilities,
             that CERP-funded Salang Hospital was         delayed management activities, staff deployment, monitoring, and supervi-
             not built in accordance with contract        sion activities.654
             requirements and suffered from                  PCH reports semi-annually to USAID.655 Yet, SIGAR’s audit of the MOPH
             significant safety issues; the deficien-     found that USAID provides advance, incremental funding to cover operational
             cies identified earlier by U.S. Forces-Af-   expenses every 45 days. These and other MOPH internal-control deficiencies
             ghanistan were not corrected; and the        put U.S. funds provided under the PCH program at risk of fraud, waste, and
             hospital was not providing many of its       abuse. The audit also noted that USAID officials said they have not verified
             intended services. For more informa-         what, if any, actions the MOPH has taken to address these deficiencies.656
             tion, see Section 2, page 41.
                                                          USAID Oversight
                                                          USAID funds a team within MOPH’s Grants and Contracts Management
                                                          Unit (GCMU), which is responsible for monitoring USAID-funded facilities
                                                          through regular site visits and monthly reports from implementing NGOs.
                                                          USAID reported that the GCMU team conducted 55 field monitoring visits in
                                                          FY 2013, visiting 242 (44%) health facilities supported by the PCH program.
                                                          The NGOs are supposed to provide routine monitoring of each health facility
                                                          and their monthly reports are supposed to document the number of active
                                                          health facilities, and the number of staff on hand.657 The numbers of patients
                                                          present, the type, quality, or outcome of health services were not included.
                                                             For now USAID relies on the MOPH’s Health Management Information
                                                          System (HMIS) for Afghan health data, as it does for the MOE’s EMIS.
                                                          Unlike with EMIS, USAID, through its Leadership, Management, and
                                                          Governance (LMG) project is assisting the MOPH implement a data-quality
                                                          assessment tool to better ensure that HMIS data is more complete, timely,
                                                          and accurate. USAID also helped the MOPH conduct a data-quality assur-
                                                          ance sampling survey this quarter. Data collection was completed in
                                                          October 2013; results are forthcoming.658 For more information about the
                                                          LMG program, see page 181.

                                                          Health Policy Project
                                                                                                                            Total Estimated       Cumulative Disbursement,
                                                           Project Title                  Start Date      End Date              Cost ($)            as of 12/31/2013
                                                           Health Policy Project          6/2012          10/2014            $28,000,000                 $13,700,000
                                                          Source: USAID, response to SIGAR data call, 12/31/2013; USAID, response to SIGAR vetting, 10/13/2013.




                                                          The Health Policy Project (HPP) is building MOPH capacity to address
                                                          basic health needs through design, negotiation, and management of hospi-
                                                          tal public-private partnerships (PPPs). The project also aims to build the
                                                          capacity of local private-sector organizations to partner with the Afghan




                                                            180                           Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 180                                                                                                                                                          1/24/2014 11:08:33 AM
           Economic and Social Development




                      government in generating demand for and delivery of high-quality health
                      services through social-media marketing.659
                         USAID said MOPH and other stakeholders have a poor understanding
                      of market economies, and there is insufficient political support for private
                      health-sector initiatives, which is a major barrier for private health-sector
                      investment. Limited availability of qualified international consultants to help
                      support hospital PPPs; lack of office space within MOPH to house a central
                      PPP unit; insecurity; and a lengthy legislative process to reform private
                      health sector price fixing regulations are delaying PPP activities.660
                                                                                                                                   An Afghan family waits to receive care
                         Despite these challenges, HPP continued its training programs this
                                                                                                                                   from Afghan National Army (ANA) medics
                      quarter, including on the correct use of socially marketed health products                                   at an ANA aid center in Kandahar Province.
                      aimed at reducing maternal and child mortality, and gender-based-violence                                    (DOD photo)
                      training for health providers. Also, MOPH’s Directorate of Private Sector
                      Coordination, with HPP assistance, established a commission to streamline
                      the medicine licensing process, which aims to reduce transaction costs and
                      encourage private health sector growth.661

                      Leadership, Management, and Governance Project
                                                                                      Total Estimated   Cumulative Disbursement,
                       Project Title                  Start Date       End Date           Cost ($)        as of 12/31/2013
                       Leadership, Management,
                                                      9/25/2011        9/24/2016       $26,000,000           $13,612,927
                       and Governance
                      Source: USAID, response to SIGAR data call, 1/7/2014.



                      The Leadership, Management, Governance (LMG) Project works with the
                      MOPH and the MOE at the provincial and central levels to build lead­ership,
                      management, and governance capacity within Afghanistan’s health and
                      education systems. It also aims to improve transparency and account­ability
                      within the MOPH and helps both ministries manage on-budget assistance.662
                         This quarter, with LMG help, two data-quality analyses were conducted,
                      the results of which will be forthcoming next quarter; the Financial
                      Management Information System (FMIS) was introduced at four Kabul-area
                      hospitals so expenditure information can be uploaded directly to the MOF
                      system; and a community-shura guide was finalized and is being presented
                      to MOPH leadership for endorsement.663
                         Despite advances at 14 national hospitals, USAID said hospital staff
                      currently has poor capacity to operate autonomously. USAID hopes that
                      human-resources autonomy—the right to hire and fire staff—will pave
                      the way for additional reforms. This quarter, the MOPH agreed to delegate
                      human-resource authority to a Kabul-based hospital. A proposal to the Civil
                      Service Commission is awaiting approval.664 Last quarter, USAID reported
                      that LMG efforts to provide technical assistance to the hospitals specifi-
                      cally for human resources autonomy were challenged by social and political
                      interference affecting hospitals’ internal staffing decisions.665




                      Report to the united states congress                    I   January 30, 2014                       181



Jan2014_QR.indb 181                                                                                                                                                  1/24/2014 11:08:33 AM
                                                                  Economic and Social Development




                                                                     Additionally, the MOPH technical departments and implementing LMG
                                                                  partners are having difficulty aligning their respective roles to respond to
                                                                  Community-Based Health Care needs throughout Afghanistan, making it a
                                                                  challenge to LMG to help the ministry ramp up health initiatives nationwide.
                                                                  Increasing insecurity and limited air transportation options are also reduc-
                                                                  ing LMG efforts in the field.666

                                                                  Other Active USAID Health Programs
                                                                                                                               Total Estimated   Cumulative Disbursement,
                                                                   Project Title                  Start Date       End Date        Cost ($)        as of 12/31/2013
                                                                   Strengthening
                                                                                                  8/29/2011        8/27/2015    $24,499,936            $10,951,500
                                                                   Pharmaceutical System
                                                                   Polio Eradication Activities   7/20/2008        1/31/2014    $10,750,000             $9,415,102
                                                                   TB = Field Support             9/29/2010        9/28/2015      $4,600,000              $600,000
                                                                   University Research =
                                                                                                  9/30/2009        9/29/2013    $13,950,000            $12,950,000
                                                                   Field Support
                                                                  Source: USAID, response to SIGAR data call, 1/7/2014.




                                                                  Communications
                                                                  Building an adequate national telecommunications infrastructure has been
                                                                  a top priority for the Afghan government since 2002. Over the past few
                                                                  years, the Information and Communication Technology (ICT) sector has
                                                                  grown to become one of the largest revenue-generating sectors for the
                                                                  Afghan government, contributing roughly $140 million annually in revenue
                                                                  and accounting for nearly 12% of total government revenues.667
        The U.S. Defense Information Systems                          A SIGAR audit this quarter of assessments of ministries receiving direct
        Agency (DISA) supports Afghanistan’s                      bilateral assistance from the U.S. government found that USAID/Afghanistan
        telecommunications efforts through its                    identified 13 risks and 56 corresponding mitigation measures needed for the
        support to the Afghanistan Telecom Advisory               Ministry of Communications and Information Technology (MCIT) before
        Team (ATAT). The total cost of this support               it receives U.S. direct-assistance funds. Yet despite the auditing firm’s 2012
        for DISA in Q1 FY 2014 was $930,116,
                                                                  conclusion that MCIT is a high-risk entity and USAID’s own conclusion
        which was funded with FY 2013 funds.
                                                                  that the U.S. government cannot rely on MCIT systems operation and inter-
        $866,166 was for contractor support;
        $64,000 was used for government/military                  nal controls to manage donor funds, USAID committed $3.9 million for a
        travel and overtime.                                      planned on-budget E-Government program, as of August 1, 2013.668
                                                                      ATAT primarily helps develop the fiber-optic network used by U.S.
        Source: TFBSO, response to SIGAR data call, 12/30/2013.
                                                                  forces, which in turn supports Afghanistan’s ICT sector. This benefits
                                                                  governance, stability, and social development, according to DOD. Goals
                                                                  include improving cyber security, spectrum, support to government
                                                                  regulatory authorities and the ANSF, mobile-money implementation, and
                                                                  emergency calling services.669
                                                                      While the lack of a skilled ICT workforce and insufficient training are
                                                                  challenges, inadequate cyber security threatens the entire ICT sector,
                                                                  according to TFBSO. Moreover, fiber-optic network access is monopolized




                                                                    182                           Special inspector general         I   Afghanistan reconstruction




Jan2014_QR.indb 182                                                                                                                                                         1/24/2014 11:08:33 AM
           Economic and Social Development




                      by Afghan Telecom, which struggles to meet reliability, responsiveness, and
                      availability demands.670
                          Afghan Telecom is 100% owned by the MCIT. Afghan Telecom’s manage-
                      ment responds to the company’s board of directors, which is chaired by
                      MCIT Minister Amirzai Sangin and composed of MCIT and MOF officers,
                      as well as representatives of other Afghan corporations. According to
                      State, Afghan Telecom operates in line with its commitments under its
                      business license and all applicable Afghan laws. It owns and operates
                      all infrastructure transferred to it by the MCIT, including networks con-
                      structed with donor funding and infrastructure it acquired through its own
                      financial means. It is also profitable, and receives no subsidies from the
                      Afghan Government.671
                          State did not respond to SIGAR on whether Afghan Telecom’s relation-
                      ship with the MCIT constituted a conflict of interest or whether its sole
                      national unified license gave it an unfair advantage over other telecom oper-
                      ators.672 It is unsurprising that Afghan telecom is profitable while using and
                      setting prices on networks built and funded by donors. DOD cited Afghan
                      telecom’s fiber monopoly as a challenge and risk to the ICT sector, and the
                      World Bank said Afghan Telecom’s management of the national backbone
                      network (tying together interconnecting networks) helped keep internet
                      prices artificially high compared to regional countries. At least one internet
                      service provider has expressed concerns to SIGAR about the lack of fair          SIGAR Audit
                      competition in the ICT sector.673
                                                                                                       This quarter SIGAR initiated a sector-
                          According to State, Afghan Telecom offers managed-bandwidth services
                                                                                                       wide audit of U.S. government efforts
                      to Mobile Network Operators (MNOs), Internet Service Providers (ISPs),
                                                                                                       to assist in the reconstruction and
                      and other organizations on commercial terms. State also said MNOs and
                                                                                                       commercialization of Afghanistan’s
                      ISPs can, and often do, use alternative transmission infrastructure (based on
                                                                                                       information and communication
                      satellite and their own terrestrial microwave networks). Additionally, MNOs
                                                                                                       technology (ICT) sector. For more
                      are allowed to build and operate their own fiber networks where there is
                                                                                                       information, see Section 2, page 29.
                      no Afghan Telecom fiber.674 This does not, however, address the advantage
                      Afghan Telecom currently enjoys from its official-monopoly status.




                      Report to the united states congress   I   January 30, 2014            183



Jan2014_QR.indb 183                                                                                                                      1/24/2014 11:08:33 AM
Jan2014_QR.indb 184   1/24/2014 11:08:33 AM
                      4   Other Agency
                          Oversight




                              185



Jan2014_QR.indb 185                      1/24/2014 11:08:34 AM
                                                      Other Agency Oversight




                                                      Contents
                                                      Other Agency Oversight Contents

                                                      Completed Oversight Activities	                            175
                                                      Ongoing Oversight Activities	                              177




        Photo on previous page
        CH-47 Chinook helicopters of the U.S. Army’s 10th Combat Aviation Brigade
        wait for a mission at Bagram Airfield, Afghanistan. (U.S. Army photo)




                                                        186                  Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 186                                                                                                                       1/24/2014 11:08:34 AM
                                              Other Agency Oversight




                      Other Agency Oversight
                      SIGAR’s enabling legislation requires it to keep the Secretary of State
                      and the Secretary of Defense fully informed about problems relating to
                      the administration of reconstruction programs, and to submit a report to
                      Congress on SIGAR’s oversight work and on the status of the U.S. recon-
                      struction effort no later than 30 days after the end of each fiscal quarter.
                      Each quarter, SIGAR requests updates from other agencies on completed
                      and ongoing oversight activities. This section contains these updates.
                         The descriptions appear as submitted, with minor changes to maintain
                      consistency with other sections of this report: acronyms and abbreviations in
                      place of full names; standardized capitalization, hyphenation, punctuation, and
                      preferred spellings; and third-person instead of first-person construction.
                         These agencies perform oversight activities in Afghanistan and provide
                      results to SIGAR:
                      •	 Department of Defense Office of Inspector General (DOD OIG)
                      •	 Department of State Office of Inspector General (State OIG)
                      •	 Government Accountability Office (GAO)
                      •	 U.S. Army Audit Agency (USAAA)
                      •	 U.S. Agency for International Development Office of Inspector General
                         (USAID OIG)


                      Completed Oversight Activities
                      Table 4.1 lists the four oversight projects related to reconstruction that par-
                      ticipating agencies reported as completed this quarter.

                      Table 4.1	


                      recently completed oversight activities of other U.S. agencies, as of December 30, 2013
                      Agency           Report Number           Date Issued          Project Title
                                                                                    Planning for the Effective Development and Transition of Critical ANSF Enablers to Post-2014 Capabilities Part II-Cross-Cutting
                      DOD OIG          DODIG-2014-027          12/23/2013
                                                                                    Issues of Afghan National Army Enabler Development
                      DOD OIG          DODIG-2014-020          12/5/2013            U.S. Army Contracting Command Did Not Obtain Fair and Reasonable Prices for Communications Equipment
                      DOD OIG          DODIG-2014-010          11/22/2013           U.S. Army Corps of Engineers Transatlantic District North Needs To Improve Oversight of Construction Contractors in Afghanistan	
                      State OIG        AUD-MERO-14-05          12/2013              Audit of the Department of State Transition Planning for a Reduced Military Presence in Afghanistan
                      Sources: DOD OIG, response to SIGAR data call, 12/23/2013; State OIG, response to SIGAR data call, 12/5/2013; GAO, response to SIGAR data call, 12/24/2013; USAAA, response to SIGAR
                      data call 1/6/2014; USAID OIG, response to SIGAR data call, 12/18/2013.




                      Report to the united states congress                     I   January 30, 2014                                   187



Jan2014_QR.indb 187                                                                                                                                                                                       1/24/2014 11:08:34 AM
                      Other Agency Oversight




                      U.S. Department of Defense Office of Inspector General
                      During this quarter, DOD OIG issued three reports related to Afghanistan
                      reconstruction.

                      Planning for the Effective Development and Transition of
                      Critical ANSF Enablers to Post-2014 Capabilities Part II-Cross-
                      Cutting Issues of Afghan National Army Enabler Development
                      (Report No. DODIG-2014-027, issued December 23, 2013)
                      This report is classified.

                      U.S. Army Contracting Command Did Not Obtain Fair and
                      Reasonable Prices for Communications Equipment
                      (Report No. DODIG-2014-020, Issued December 5, 2013)
                      This report is For Official Use Only.

                      U.S. Army Corps of Engineers Transatlantic District North
                      Needs To Improve Oversight of Construction Contractors
                      in Afghanistan
                      (Report No. DODIG-2014-010, Issued November 22, 2013)
                      U.S. Army Corps of Engineers (USACE) Transatlantic District-North
                      (Bagram Area Office) Quality Assurance (QA) and contracting officials’
                      oversight of two Special Operations Forces military construction projects at
                      Bagram Airfield, valued at $37.6 million, was not conducted in accordance
                      with the Federal Acquisition Regulation and USACE guidance. Since 2010,
                      when the projects were initiated, area and resident engineers did not pro-
                      vide project engineers and construction representatives with a Statement of
                      Understanding and Compliance; project engineers did not always follow con-
                      tract oversight responsibilities, were working with incomplete contractors’
                      quality controls plans, did not prepare QA plans, and could not substanti-
                      ate that contractors fully executed the three-phase inspection process; and
                      USACE TAN technical inspections of contractors’ construction efforts were
                      limited. This occurred because current QA officials did not always have criti-
                      cal QA documents available before their arrival and could not explain why
                      QA requirements were not fully executed from the projects’ start. However,
                      the area engineer stated that documenting the QA process was secondary
                      and that completing the Special Operations Forces military construction
                      projects was the top priority. As a result, there is an increased risk that,
                      although the two Special Operations Forces military construction projects
                      will get completed, the projects may not meet contract requirements.

                      U.S. Department of State Office of Inspector General–Middle
                      East Regional Office
                      During this quarter, State OIG issued one report related to Afghanistan
                      reconstruction.




                        188                   Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 188                                                                                        1/24/2014 11:08:34 AM
                                      Other Agency Oversight




                      Audit of the Department of State Transition Planning for a
                      Reduced Military Presence in Afghanistan
                      (Report No. AUD-MERO-14-05, Issued December 2013)
                      State OIG determined that the Department’s planning for the transition from
                      a predominantly military to a civilian-led mission in Afghanistan was gener-
                      ally effective and incorporated lessons learned from Iraq. The report has no
                      recommendations.

                      Government Accountability Office
                      During this quarter, GAO issued no reports related to Afghanistan
                      reconstruction.

                      U.S. Army Audit Agency
                      The USAAA did not complete any audits related to Afghanistan reconstruc-
                      tion this quarter.

                      U.S. Agency for International Development Office of
                      Inspector General
                      During this quarter, USAID OIG completed no reports related to
                      Afghanistan reconstruction.


                      Ongoing Oversight Activities
                      As of December 30, 2013, the participating agencies reported 22 ongoing over-
                      sight activities related to reconstruction in Afghanistan. The activities reported
                      are listed in Table 4.2 and described in the following sections by agency.

                      Table 4.2


                      ongoing oversight activities of other U.S. agencies, as of December 30, 2013
                      Agency         Project Number          Date Initiated   Project Title
                                                                              Assessment of U.S. Government Efforts to Transition Security Cooperation and Assistance
                      DOD OIG        D2013-D00SPO-0181.000   6/13/2013        Activities Supporting the Government of the Islamic Republic of Afghanistan from Department of
                                                                              Defense Authority to Department of State Authority
                                                                              Assessment of the U.S. Military and Coalition Efforts to Develop Effective and Sustainable
                      DOD OIG        D2013-D00SPO-0154.000   4/26/2013
                                                                              Healthcare Capability for the Afghan National Police
                      DOD OIG        D2013-D000AS-0097.000   2/8/2013         Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                                              Price Reasonableness Determinations for Datron World Communications, Inc. Contracts Awarded
                      DOD OIG        D2013-D000AT-0083.000   1/3/2012
                                                                              by the U.S. Army Contracting Command for the Afghan National Security Forces
                                                                              Assessment of Planning for the Effective Development and Transition of Critical Afghanistan
                      DOD OIG        D2013-D00SPO-0087.000   12/18/2012
                                                                              National Security Forces Enablers to Post-2014 Capabilities
                                                                              Examination of Department of Defense Execution of North Atlantic Treaty Organization Contributing
                      DOD OIG        D2013-D000FL-0056.000   12/3/2012        Countries Donations to Afghanistan National Army Trust Fund for Approval Sustainment Projects
                                                                              as of September 30, 2012
                      DOD OIG        D2013-D000AS-0052.000   11/1/2012        Shindand Training Contracts
                      DOD OIG        D2013-D000AS-0001.000   10/5/2012        Surveillance Structure on Contracts Supporting the Afghanistan Rotary Wing Program for the U.S.
                                                                              Transportation Command




                      Report to the united states congress   I   January 30, 2014                          189



Jan2014_QR.indb 189                                                                                                                                                 1/24/2014 11:08:34 AM
                                                                       Other Agency Oversight




        Table 4.2 (Continued)


         ongoing oversight activities of other U.S. agencies, as of December 30, 2013
         Agency               Project Number                    Date Initiated       Project Title
         DOD OIG              D2012-D000JA-0221.000             9/28/2012            Contract Management and Oversight of Military Construction Projects for the Special Operation
                                                                                     Forces Complexes at Bagram Airfield, Afghanistan
         State OIG-MERO       13AUD082                          6/13/2013            Audit of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics
                                                                                     Assistance to Afghanistan
         State OIG-MERO       13AUD52                           2/2013               Audit of Bureau of Diplomatic Security Worldwide Protective Services Contract Task Orders 2, 9,
                                                                                     and 11 for Movement and Static Security Services in Jerusalem and Afghanistan
         State OIG-MERO       12AUD79                           12/2012              Audit of the Department of State Transition Planning for a Reduced Military Presence in
                                                                                     Afghanistan
         GAO                  351851                            8/16/2013            Drawdown of DOD Contractors in Afghanistan
         GAO                  320985                            6/26/2013            Use of Foreign Labor Contractors Abroad
         GAO                  351819                            5/9/2013             Costs of DOD’s Transition to the Afghan Public Protection Force
         GAO                  121119                            3/6/2013             Department of State and U.S. Agency for International Development Contingency Contracting
         GAO                  351798                            1/18/2013            Afghanistan Equipment Reduction and Base Closures
         USAID OIG            FF100113                          4/1/2013             Audit of USAID/Afghanistan’s Elections Assistance Program
         USAID OIG            FF100712                          11/28/2012           Audit of USAID/Afghanistan’s Transition Plans (suspended)
         USAID OIG            FF100612                          10/9/2012            Audit of USAID/Afghanistan’s Management Controls over Premium Pay
         USAID OIG            FF101712                          10/25/2012           Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
                                                                                     Selected Projects
        Sources: DOD OIG, response to SIGAR data call, 12/23/2013; State OIG, response to SIGAR data call, 12/5/2013; GAO, response to SIGAR data call, 12/24/2013; USAAA, response to SIGAR
        data call 1/6/2014; USAID OIG, response to SIGAR data call, 12/18/2013.



                                                                       Department of Defense Office of Inspector General
                                                                       The Department of Defense continues to face many challenges in executing its
                                                                       Overseas Contingency Operations (OCO). The Department of Defense Office
                                                                       of Inspector General (DOD OIG) has identified priorities based on those chal-
                                                                       lenges and high-risks. In FY 2014, DOD OIG oversight focuses on overseas
                                                                       contingency operations with a majority of the OIG’s resources supporting
                                                                       operations in Afghanistan. The DOD OIG focus in Afghanistan primarily
                                                                       continued in the areas of the management and execution of the Afghanistan
                                                                       Security Forces Fund, military construction, safety of personnel, and the
                                                                       administration and oversight of contracts supporting coalition forces. In addi-
                                                                       tion, DOD OIG oversight in Afghanistan includes focus on matters pertaining
                                                                       to the drawdown of forces in Afghanistan and transition of operations.
                                                                          As billions of dollars continue to be spent in Afghanistan, in addition
                                                                       to drawdown efforts, a top priority continues to be the monitoring and
                                                                       oversight of acquisition and contracting processes focused on training,
                                                                       equipping, and sustaining Afghanistan Security Forces (ASF). The DOD
                                                                       OIG planned oversight efforts address the administration and oversight of
                                                                       contracts for equipping ASF, such as rotary wing aircraft, airplanes, ammu-
                                                                       nition, radios, and night vision devices. The DOD OIG will also continue to
                                                                       review and assess the Department’s efforts in managing and executing con-
                                                                       tracts to train the Afghan National Police.
                                                                          The DOD OIG-led Southwest Asia Joint Planning Group assists in
                                                                       the coordination and deconfliction of Federal and DOD OCO related
                                                                       oversight activities. The DOD OIG, working with the SIGAR as well as




                                                                          190                           Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 190                                                                                                                                                                            1/24/2014 11:08:34 AM
                                       Other Agency Oversight




                      fellow Inspectors General and Defense oversight community members,
                      have finalized the Fiscal Year (FY) 2014 strategic audit plan for the over-
                      sight community working in Afghanistan and plans to issue the FY 2014
                      Comprehensive Oversight Plan for Southwest Asia in October 2013. A key
                      theme in the FY 2014 plan development is the anticipated force restructur-
                      ing/drawdown of operations in Afghanistan.
                         DOD OIG’s ongoing OEF related oversight addresses accountability of
                      property; improper payments; contract administration and management
                      including construction projects; transition planning; logistical distribution
                      within Afghanistan; retrograde operations, health care; and acquisition plan-
                      ning and controls over funding for ASF.

                      Assessment of U.S. Government Efforts to Transition
                      Security Cooperation and Assistance Activities Supporting
                      the Government of the Islamic Republic of Afghanistan
                      from Department of Defense Authority to Department of
                      State Authority
                      (Project No. 2013-D00SPO-0181.000, Initiated June 13, 2013)
                      DOD OIG is assessing plans and activities that have been accomplished or
                      implemented thus far to transfer the security cooperation and assistance
                      activities in Afghanistan from DOD to State Department authority, and
                      to make recommendations to facilitate or improve the transition of these
                      functions to the State Department in accordance with existing security
                      cooperation guidance and security assistance regulations that may pertain.
                      Specific objectives are to determine whether:
                          a.	 U.S. government goals, objectives, plans, and guidance are
                              sufficient, issued and operative for the transition of the Combined
                              Security Transition Command-Afghanistan (CSTC-A) security
                              assistance activities in Afghanistan from DOD authority to a security
                              cooperation organization under Department of State authority.
                          b.	 Ongoing efforts by U.S. forces to provide security assistance to
                              the Government of Afghanistan are adversely impacted by the
                              implementation of drawdown plans for U.S. Forces-Afghanistan
                              (USFOR-A) and the transition of International Security Assistance
                              Force (ISAF) and ISAF Joint Command (IJC) to a command
                              organization under NATO authority.

                      Assessment of the U.S. Military and Coalition Efforts to
                      Develop Effective and Sustainable Healthcare Capability for
                      the Afghan National Police
                      (Project No. D2013-D00SPO-0154.000, Initiated April 26, 2013)
                      DOD OIG is assessing the progress of U.S. and Coalition efforts to develop
                      effective and sustainable healthcare capability in support of the Afghan
                      National Police (ANP). Specifically, the assessment will determine whether:




                      Report to the united states congress    I   January 30, 2014          191



Jan2014_QR.indb 191                                                                                   1/24/2014 11:08:35 AM
                      Other Agency Oversight




                      •	 plans to develop effective and sustainable healthcare services to the
                         ANP are sufficiently comprehensive, coordinated with the Government
                         of Afghanistan, and being implemented so as to meet the timeline for
                         transition goals,
                      •	 advisory resources are sufficient and appropriate in order to develop the
                         healthcare services necessary to support the medical needs of the ANP, and
                      •	 developmental efforts are on schedule and effective in ensuring there is
                         adequate medical capability to provide proper medical support to ANP
                         personnel from the point of injury to the next required level of care.

                      Mi-17 Cockpit Modifications under Task Order
                      W58RGZ-09D-0130-0102
                      (Project No. D2013-D000AS-0097.000, Initiated February 8, 2013)
                      DOD OIG is conducting a follow-on audit to the Audit of Task Orders
                      for Mi-17 Overhauls and Cockpit Modifications (Project No. D2012-
                      D000AS-0075.000). In this follow-on audit, DOD OIG is determining whether
                      DOD officials properly awarded and administered indefinite-delivery,
                      indefinite-quantity contract W58RGZ-09-D-0130, Task Order 0102, for the
                      modification of DOD-owned Mi-17 variant aircraft in accordance with fed-
                      eral and DOD regulations and policies. Under the prior project, DOD OIG
                      reviewed the procurement of overhaul services and parts for Pakistan-
                      owned Mi-17 variant aircraft, awarded by modification to Task Order 0102.

                      Examination of Department of Defense Execution of North
                      Atlantic Treaty Organization Contributing Countries Donations
                      to Afghanistan National Army Trust Fund for Approval
                      Sustainment Projects as of September 30, 2012
                      (Project No. D2013-D000FL-0056.000, Initiated December 3, 2012)
                      The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DOD
                      [USD(C)/CFO] requested this examination. The USD(C)/CFO plans to assert
                      that the following schedules are fairly presented in all material respects:
                      •	 Schedule of Contributing Country Donations to Afghanistan National Army
                         Trust Fund Approved Sustainment Projects as of September 30, 2012
                      •	 Schedule of Financial Status of Contributing Country Donations to
                         Afghanistan National Army Trust Fund Transferred to the United States
                         of America for Approved Sustainment Projects as of September 30, 2012

                         DOD OIG is determining whether the USD(C)/CFO fairly presented
                      receipts and expenditures of funds contributed to the Afghanistan National
                      Army Trust Fund and transferred to DOD for execution under the terms of
                      the Memorandum of Understanding Among the United States of America
                      and North Atlantic Treaty Organization and Supreme Headquarters Allied
                      Powers-Europe Regarding Management and Administration of Trust Fund
                      Donations for Support and Sustainment of the Afghanistan National Army. In




                        192                 Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 192                                                                                      1/24/2014 11:08:35 AM
                                      Other Agency Oversight




                      addition, DOD OIG will review internal controls over financial reporting and
                      compliance with laws and regulations as it relates to its engagement objec-
                      tive. The USD(C)/CFO is responsible for the aforementioned schedules.
                      DOD OIG’s responsibility is to express an opinion based on its examination.

                      Shindand Training Contracts
                      (Project No. D2013-D000AS-0052.000, Initiated November 1, 2012)
                      DOD OIG is determining whether pilot-training contracts for fixed-wing and
                      rotary-wing aircraft at Shindand Air Base are properly managed and admin-
                      istered in accordance with federal and DOD requirements. Specifically,
                      DOD OIG will determine whether contract requirements are being met and
                      evaluate the effectiveness of contract oversight.

                      Surveillance Structure on Contracts Supporting the Afghanistan
                      Rotary Wing Program for the U.S. Transportation Command
                      (Project No. D2013-D000AS-0001.000, Initiated October 5, 2012)
                      DOD OIG is conducting its second in a series of audits on the Afghanistan
                      rotary-wing transport contracts. The overall objective is to determine
                      whether U.S. Transportation Command and U.S. Central Command officials
                      have adequate oversight of processes and procedures for the contracts. The
                      first audit was “Afghanistan Rotary Wing Transport Contracts for the U.S.
                      Transportation Command” (D2012-D000AS-0031.000).

                      Department of State Office of Inspector General–Middle
                      East Regional Office
                      State OIG has two ongoing projects this quarter related to Afghanistan
                      reconstruction.

                      Audit of Bureau of International Narcotics and Law Enforcement
                      Affairs Counternarcotics Assistance to Afghanistan
                      (Project No. 13AUD082, Initiated June 2013)
                      The audit objective is to evaluate the management and oversight of the
                      Bureau of International Narcotics and Law Enforcement Affairs (INL)
                      counternarcotics program for Afghanistan, including whether INL has
                      achieved intended and sustainable outcomes and whether INL has applied
                      adequate internal controls over the administration of direct assistance for
                      the Afghanistan counternarcotics program.

                      Audit of Bureau of Diplomatic Security Worldwide Protective
                      Services Contract Task Orders 2, 9, and 11 for Movement and
                      Static Security Services in Jerusalem and Afghanistan
                      (Project No. 13AUD52, Initiated February 2013)
                      The overall audit objective is to determine the effectiveness of the
                      Department’s management and oversight of the Worldwide Protective




                      Report to the united states congress   I   January 30, 2014            193



Jan2014_QR.indb 193                                                                                  1/24/2014 11:08:35 AM
                      Other Agency Oversight




                      Services Contract Task Orders 2, 9, and 11. Specifically, the audit team will
                      determine whether the contractor is performing in accordance with con-
                      tract terms and conditions, the contractor’s work is adequately monitored,
                      and invoice review and approval procedures are in place to ensure accuracy
                      and completeness of costs.

                      Government Accountability Office
                      GAO has six ongoing projects this quarter related to Afghanistan reconstruction.

                      U.S. Civilian Presence in Afghanistan
                      (Project No. 320997, Initiated October 22, 2013)
                      U.S. civilian agencies in Afghanistan are in the process of planning for the
                      transition by the end of 2014 from a predominantly military presence in
                      Afghanistan to a civilian presence led by the Department of State. This
                      report will examine (1) how U.S. civilian agencies have planned for the
                      transition, including post-transition programs and the staffing, security,
                      and logistics needed to support them, (2) the estimated costs to maintain a
                      civilian presence in Afghanistan after the transition, and (3) the factors that
                      could affect these plans and any associated cost estimates.

                      Drawdown of DOD Contractors in Afghanistan
                      (Project No. 351851, Initiated August 16, 2013)
                      The key objectives are to determine (1) the extent to which DOD is apply-
                      ing operational contract support lessons learned as it begins its drawdown
                      of contractors and their equipment in Afghanistan; (2) the processes
                      established by DOD and USFOR-A to drawdown its contractor workforce
                      and associated equipment and whether this process is consistent with
                      established guidance; (3) the extent to which DOD is using cost and other
                      information to help ensure it is making cost-effective operational contract
                      support decisions, including decisions on the disposition of contractor-man-
                      aged government-owned equipment; (4) actions the Department has taken
                      to ensure that there are sufficient oversight personnel in place to oversee
                      contractors as it reduces the number of military forces in Afghanistan;
                      and (5) the extent to which DOD and USFOR-A have begun planning for
                      the use of contractors after December 2014. In addition, GAO will identify
                      the factors that are being considered as DOD begins to plan its post-2014
                      contractor requirements and what actions DOD is taking to ensure that the
                      operational contractor support needed to support the post-2014 footprint is
                      being provided in the most cost-effective manner possible.

                      Use of Foreign Labor Contractors Abroad
                      (Project No. 320985, Initiated June 26, 2013)
                      The United States relies on contractors to provide diverse services over-
                      seas. Despite prohibiting the use of trafficked labor for all U.S. government




                        194                  Special inspector general   I   Afghanistan reconstruction




Jan2014_QR.indb 194                                                                                       1/24/2014 11:08:35 AM
                                       Other Agency Oversight




                      contracts, concerns remain about the protections afforded to foreign work-
                      ers recruited by U.S. contractors because prevailing practices in some host
                      countries diverge from U.S. standards. Key questions: (1) What are the
                      practices of U.S. government contractors in recruiting foreign workers for
                      work outside the United States? (2) What legal and other authorities do U.S.
                      agencies identify as providing protection to foreign workers employed by
                      U.S. government contractors outside the United States? (3) To what extent
                      do federal agencies provide oversight and enforcement of such authorities?

                      Costs of DOD’s Transition to the Afghan Public Protection Force
                      (Project No. 351819, Initiated May 9, 2013)
                      The Afghan Public Protection Force (APPF) began assuming security
                      responsibilities in March 2012. Private security contractors (PSCs), used
                      to secure military bases, were to have been replaced by either the APPF or
                      military personnel by March 2013. Key questions: To what extent has: (1)
                      DOD implemented the transition of security services from private security
                      contractors to the APPF; (2) DOD developed cost estimates related to the
                      transition to the APPF and what actions are being taken to minimize these
                      costs; and (3) DOD assessed the current and potential security risks to U.S.
                      personnel and logistics as a result of the transition to the APPF and taken
                      measures to minimize these risks?

                      Department of State and U.S. Agency for International
                      Development Contingency Contracting
                      (Project No. 121119, Initiated March 6, 2013)
                      The Department of State and USAID have relied extensively on contractors
                      in Iraq and Afghanistan. While the use of contractors in such contingency
                      operations is not new, GAO and others have found that State and USAID
                      experienced challenges managing contracts in these operations. The project
                      will ask, to what extent have State and USAID: (1) assessed their organi-
                      zational structures related to contracting for contingency operations and
                      determined whether related changes are needed; (2) assessed their contract
                      award and management policies for contingency operations and deter-
                      mined whether changes to those policies are needed; and (3) assessed their
                      workforces, including reliance on contractors, for contingency operations
                      and determined whether changes are needed?

                      Afghanistan Equipment Reduction and Base Closures
                      (Project No. 351798, Initiated January 18, 2013)
                      DOD has stated that it will cost at least $5.7 billion to draw down an esti-
                      mated 90,000 containers of material and 50,000 vehicles from Afghanistan.
                      Given the large number of bases and difficult conditions in Afghanistan,
                      an efficient and cost-effective drawdown will likely depend on DOD know-
                      ing how much equipment it has in Afghanistan and making cost-effective




                      Report to the united states congress     I    January 30, 2014         195



Jan2014_QR.indb 195                                                                                  1/24/2014 11:08:35 AM
                      Other Agency Oversight




                      decisions about its disposition. Key questions: To what extent (1) has DOD
                      implemented base-closure procedures, including the accountability of
                      equipment, to meet command-established objectives and timelines? (2) Are
                      command-established objectives and timelines for the Afghanistan equip-
                      ment drawdown supported by DOD facilities and processes? (3) Is DOD
                      using cost and other information to help ensure it is making cost-effective
                      disposition decisions?

                      U.S. Army Audit Agency
                      This quarter, the USAAA has no ongoing audits related to reconstruction
                      initiatives.

                      U.S. Agency for International Development Office of
                      Inspector General
                      This quarter, USAID OIG has eight ongoing audits related to reconstruction
                      initiatives. Two projects included in the list below have been suspended.

                      Review of USAID/Afghanistan’s Activities and Sustainability
                      of Operations at Tarakhil Power Plant
                      (Project No. FF100914, Initiated December 18, 2013)
                      Review Objectives:
                      •	 Does the Tarakhil Power Plant currently have the resources in place
                         to ensure the sustainability of its operations and protect USAID’s
                         investment?

                      Review of USAID/Afghanistan’s Basic Education, Literacy, and
                      Technical-Vocational Education and Training (BELT) Project
                      (Project No. FF100314, Initiated November 14, 2013)
                      Review Objective:
                      •	 Is USAID/Afghanistan improving access to quality basic education,
                         literacy, technical-vocational education, and training for girls and other
                         marginalized populations?
                      (This review is currently suspended to de-conflict with SIGAR and GAO
                      oversight activities.)

                      Audit of USAID/Afghanistan’s Financial Assistance for
                      Investing in the Development of Afghanistan (FAIDA)
                      (Project No. FF100513, Initiated October 21, 2013)
                      Audit Objective:
                      •	 Is the FAIDA project building a sustainable, diverse, and inclusive financial
                         sector that can generate and sustain quality employment to meet the needs
                         of micro, small, and medium enterprises throughout the country?




                        196                 Special inspector general      I   Afghanistan reconstruction




Jan2014_QR.indb 196                                                                                         1/24/2014 11:08:35 AM
                                       Other Agency Oversight




                      Audit of USAID/Afghanistan’s Afghan Civilian Assistance
                      Program (ACAP II)
                      (Project No. FF100114, Initiated October 16, 2013)
                      Audit Objective:
                      •	 Is USAID/Afghanistan’s assistance through the Afghan Civilian
                         Assistance Program II reaching its intended beneficiaries and having its
                         intended impact?

                      Review of USAID/Afghanistan’s Elections Assistance Program
                      (Project No. FF100113, Initiated April 2, 2013)
                      Review Objectives:
                      •	 To determine whether USAID’s assistance strengthened the ability of the
                         Government of the Islamic Republic of Afghanistan institutions, Afghan
                         civil society, and other organizations to enable credible, inclusive, and
                         transparent presidential and provincial council elections in 2014.
                      •	 To determine if USAID’s assistance contributed to Afghan solutions to
                         the longer-term issues identified in the OIG’s previous audit of elections
                         assistance (Report No. F-306-11-003-P, June 19, 2011).

                      Audit of USAID/Afghanistan’s Transition Plans
                      (Project No. FF100712, Initiated November 29, 2012)
                      Audit Objective:
                      •	 Does USAID/Afghanistan have plans to address contingencies related
                         to the U.S. Government’s transition in Afghanistan? (Note: this audit is
                         currently suspended).

                      Audit of USAID/Afghanistan’s Management Controls over
                      Overtime Compensation
                      (Project No. FF100612, Initiated October 9, 2012)
                      Audit Objective:
                      •	 To determine if USAID/Afghanistan is following adequate control
                         procedures for overtime compensation.

                      Follow-up on DOD Audit of Commander’s Emergency Response
                      Program (CERP) Funds Provided to USAID/Afghanistan
                      (Project No. FF101712, Initiated October 25, 2011)
                      Audit Objective:
                      •	 To determine whether the CERP funds provided by DOD to USAID for
                         specific projects were used for their intended purposes, and were in
                         compliance with applicable laws and regulations.




                      Report to the united states congress     I   January 30, 2014          197



Jan2014_QR.indb 197                                                                                   1/24/2014 11:08:35 AM
                                                           Appendices and Endnotes Contents

                                                           Appendix A 	                                                  202
                                                           Appendix B 	                                                  206
                                                           Appendix C	                                                   208
                                                           Appendix D	                                                   212
                                                           Appendix E	                                                   217
                                                           Endnotes	222




                                                                                                     The Official Seal of SIGAR
                                                              The Official Seal of SIGAR represents the coordination of efforts
                         between the United States and Afghanistan to provide accountability and oversight of reconstruction
                      activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
                                           along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                                              198                  Special inspector general     I   Afghanistan reconstruction




Jan2014_QR.indb 198                                                                                                                               1/24/2014 11:08:35 AM
                      appendices
                      and Endnotes




                             199



Jan2014_QR.indb 199                  1/24/2014 11:08:35 AM
                                                         Appendices




                                                         appendix a
                                                         cross-reference of report to
                                                         statutory requirements
                                                         This appendix cross-references the pages of this report to the quarterly
                                                         reporting and related requirements under SIGAR’s enabling legislation, the
                                                         National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181,
                                                         § 1229 (Table A.1).

                                                         Table A.1

                      cross-reference to sigar quarterly reporting requirements under p.l. 110-181, § 1229
                      Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
                      Purpose
                      Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                                              the Secretary of State and the Secretary of Defense fully and
                                              currently informed about problems and deficiencies relating to the
                                              administration of such programs and operations and the necessity
                                              for and progress on corrective action.
                      Supervision
                      Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                                              to, and be under the general supervision                               and the Secretary of Defense
                                              of, the Secretary of State and the Secretary of Defense
                      Duties
                      Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                                              It shall be the duty of the Inspector General to conduct, supervise,   available funds
                                              and coordinate audits and investigations of the treatment,
                                              handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                                              made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                                              programs, operations, and contracts carried out utilizing such         available funds
                                              funds, including subsections (A) through (G) below.
                      Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                                              such funds                                                             expenditures of appropriated/      Funding
                                                                                                                     available funds
                      Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                                              such funds                                                             funded by appropriations and
                                                                                                                     donations
                      Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                                                     appropriated and available
                                                                                                                     funds
                      Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                                              associated information between and among departments,                  transfers of appropriated/
                                              agencies, and entities of the United States, and private and           available funds
                                              nongovernmental entities
                      Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                                              future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                                        Appendix D
                      Section 1229(f)(1)(F)   The monitoring and review of the effectiveness of United States        Monitoring and review              Audits
                                              coordination with the Governments of Afghanistan and other donor       as described
                                              countries in the implementation of the Afghanistan Compact and
                                              the Afghanistan National Development Strategy



                                                            200                          Special inspector general            I   Afghanistan reconstruction




Jan2014_QR.indb 200                                                                                                                                                       1/24/2014 11:08:35 AM
                                                                                          Appendices




                      Table A.1 (Continued)


                      cross-reference to sigar quarterly reporting requirements under p.l. 110-181, § 1229
                      Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
                      Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                                      or duplicate billing and any potential unethical or illegal actions     investigations as described
                                                      of Federal employees, contractors, or affiliated entities, and the
                                                      referral of such reports, as necessary, to the Department of Justice
                                                      to ensure further investigations, prosecutions, recovery of further
                                                      funds, or other remedies.
                      Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                                      The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                                      such systems, procedures, and controls as the Inspector General         and controls
                                                      considers appropriate to discharge the duties under paragraph (1)
                      Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                                      OF 1978 —                                                               General Act
                                                      In addition,. . .the Inspector General shall also have the duties and
                                                      responsibilities of inspectors general under the Inspector General
                                                      Act of 1978
                      Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                                      The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                                      cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                                      of the Department of Defense, (B) the Inspector General of the
                                                      Department of State, and (C) the Inspector General of the United
                                                      States Agency for International Development
                      Federal Support and Other Resources
                      Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                                      Upon request of the Inspector General for information or                requested
                                                      assistance from any department, agency, or other entity of the
                                                      Federal Government, the head of such entity shall, insofar as is
                                                      practicable and not in contravention of any existing law, furnish
                                                      such information or assistance to the Inspector General, or an
                                                      authorized designee
                      Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                                      Whenever information or assistance requested by the Inspector
                                                      General is, in the judgment of the Inspector General, unreasonably
                                                      refused or not provided, the Inspector General shall report the
                                                      circumstances to the Secretary of State or the Secretary of
                                                      Defense, as appropriate, and to the appropriate congressional
                                                      committees without delay.
                      Reports
                      Section 1229(i)(1)              QUARTERLY REPORTS —                                                     Report – 30 days after the         Full report
                                                      Not later than 30 days after the end of each fiscal-year quarter,       end of each calendar quarter       Appendix B
                                                      the Inspector General shall submit to the appropriate commit-
                                                      tees of Congress a report summarizing, for the period of that           Summarize activities of the
                                                      quarter and, to the extent possible, the period from the end of         Inspector General
                                                      such quarter to the time of the submission of the report, the
                                                      activities during such period of the Inspector General and the          Detailed statement of all
                                                      activities under programs and operations funded with amounts            obligations, expenditures, and
                                                      appropriated or otherwise made available for the reconstruction of      revenues
                                                      Afghanistan. Each report shall include, for the period covered by
                                                      such report, a detailed statement of all obligations, expenditures,
                                                      and revenues associated with reconstruction and rehabilitation
                                                      activities in Afghanistan, including the following –




                      Report to the united states congress              I   January 30, 2014                                 201



Jan2014_QR.indb 201                                                                                                                                                               1/24/2014 11:08:35 AM
                                                          Appendices




                      Table A.1 (Continued)


                      cross-reference to sigar quarterly reporting requirements under p.l. 110-181, § 1229
                      Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                    Report Section
                      Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures    Appendix B
                                                                                                                       of appropriated/donated
                                                                                                                       funds
                      Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and          Funding
                                              costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-     Note 1
                                              together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                                              the Department of State, and the United States Agency for                funds for each project or
                                              International Development, as applicable, of the costs to com-           program
                                              plete each project and each program
                      Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and      Funding
                                              foreign nations or international organizations to programs and           expenditures of donor funds
                                              projects funded by any department or agency of the United States
                                              Government, and any obligations or expenditures of
                                              such revenues
                      Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and      Funding
                                              frozen that contribute to programs and projects funded by any            expenditures of funds from
                                              U.S. government department or agency, and any obligations or             seized or frozen assets
                                              expenditures of such revenues
                      Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of           Funding
                                              appropriated or otherwise made available for the reconstruction          agencies or any organization    Appendix B
                                              of Afghanistan                                                           receiving appropriated funds
                      Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details       Note 1
                                              mechanism described in paragraph (2)* —
                                              (i) The amount of the contract or other funding mechanism;
                                              (ii) A brief discussion of the scope of the contract or other funding
                                              mechanism;
                                              (iii) A discussion of how the department or agency of the United
                                              States Government involved in the contract, grant, agreement,
                                              or other funding mechanism identified and solicited offers from
                                              potential contractors to perform the contract, grant, agreement, or
                                              other funding mechanism, together with a list of the potential indi-
                                              viduals or entities that were issued solicitations for the offers; and
                                              (iv) The justification and approval documents on which was based
                                              the determination to use procedures other than procedures that
                                              provide for full and open competition
                      Section 1229(i)(3)      PUBLIC AVAILABILITY —                                                    Publish report as directed at   Full report
                                              The Inspector General shall publish on a publicly available              www.sigar.mil
                                              Internet website each report under paragraph (1) of this subsec-
                                                                                                                       Dari and Pashtu translation
                                              tion in English and other languages that the Inspector General
                                                                                                                       in process
                                              determines are widely used and understood in Afghanistan
                      Section 1229(i)(4)      FORM —                                                                   Publish report as directed      Full report
                                              Each report required under this subsection shall be submitted
                                              in unclassified form, but may include a classified annex if the
                                              Inspector General considers it necessary




                                                             202                          Special inspector general             I   Afghanistan reconstruction




Jan2014_QR.indb 202                                                                                                                                                     1/24/2014 11:08:36 AM
                                                                                                        Appendices




                      Table A.1 (Continued)


                      cross-reference to sigar quarterly reporting requirements under p.l. 110-181, § 1229
                      Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
                      Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                                               subsection (i) to the Secretary of State and the Secretary of
                                                               Defense.
                      Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
                      reviewed, analyzed, and organized for all future SIGAR purposes.

                      * Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

                      “any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
                      of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
                      or rebuild physical infrastructure of Afghanistan.

                      To establish or reestablish a political or societal institution of Afghanistan.

                      To provide products or services to the people of Afghanistan.”




                      Report to the united states congress                         I   January 30, 2014                               203



Jan2014_QR.indb 203                                                                                                                                                                                    1/24/2014 11:08:36 AM
                                                                     Appendices



                                                                     appendix B
                                                                     U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                                     Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                                     per year, as of January 17, 2014.
                                                                     Table B.1

                                                                      U.S. Funding Sources                                            agency            Total     FY 2002
                                                                      SECURITY
                                                                        Afghanistan Security Forces Fund (ASFF)                       DOD             57,503.41       0.00
                                                                        Train & Equip (DOD)                                           DOD                440.00       0.00
                                                                        Foreign Military Financing (FMF)                              State            1,059.14      57.26
                                                                        International Military Education and Training (IMET)          State               13.32       0.18
                                                                        NDAA Section 1207 Transfer                                    Other                9.90       0.00
                                                                      Total - Security                                                               59,025.77      57.44
                                                                      GOVERNANCE & DEVELOPMENT
                                                                        Commander's Emergency Response Program (CERP)                 DOD              3,669.00       0.00
                                                                        Afghanistan Infrastructure Fund (AIF)                         DOD              1,223.00       0.00
                                                                        Task Force for Business and Stability Operations (TFBSO)      DOD                783.39       0.00
                                                                        Economic Support Fund (ESF)                                   USAID           16,686.22     117.72
                                                                        Development Assistance (DA)                                   USAID              885.55      18.30
                                                                        Afghanistan Freedom Support Act (AFSA)                        DOD                550.00       0.00
                                                                        Child Survival & Health (CSH + GHAI)                          USAID              554.58       7.52
                                                                        Commodity Credit Corp (CCC)                                   USAID               31.65       7.48
                                                                        USAID (other)                                                 USAID               49.26       0.00
                                                                        Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State              606.29      44.00
                                                                        Provincial Reconstruction Team Advisors                       USDA                 5.70       0.00
                                                                        Treasury Technical Assistance                                 Treasury             4.45       0.90
                                                                      Total - Governance & Development                                               25,049.09     195.92
                                                                      COUNTER-NARCOTICS
                                                                        International Narcotics Control & Law Enforcement (INCLE)     State            4,181.80      60.00
                                                                        Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD              2,941.45       0.00
                                                                        Drug Enforcement Administration (DEA)                         DOJ                200.97       0.58
                                                                      Total - Counter-Narcotics                                                       7,324.22      60.58
                                                                      HUMANITARIAN
                                                                        P.L. 480 Title I                                              USDA                 5.00       0.00
        Notes: Numbers have been rounded. DOD reprogrammed              P.L. 480 Title II                                             USAID              903.69     159.50
        $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion
        from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from         Disaster Assistance (IDA)                                     USAID              521.33     197.09
        FY 2012 ASFF. DOD transferred $101 million from FY 2011         Transition Initiatives (TI)                                   USAID               36.49       8.07
        AIF to FY 2011 ESF to fund an infrastructure project to be
        implemented by USAID.                                           Migration & Refugee Assistance (MRA)                          State              845.22     135.47
        a	Includes amounts appropriated in the Consolidated
          Appropriations Act, 2014.                                     Voluntary Peacekeeping (PKO)                                  State               69.33      23.93
                                                                        Emergency Refugee & Migration Assistance (ERMA)               State               25.20      25.00
        Sources: DOD, responses to SIGAR data call, 1/22/2014,
        1/2/2014, 12/30/2013, 10/22/2012, 10/14/2009,
                                                                        Food for Progress                                             USDA               109.49       0.00
        and 10/1/2009; State, responses to SIGAR data call,             416(b) Food Aid                                               USDA                95.18      46.46
        1/13/2014, 1/9/2014, 6/27/2013, 10/5/2012 and
        6/27/2012; Treasury, response to SIGAR data call,               Food for Education                                            USDA                50.49       0.00
        1/2/2014; OMB, responses to SIGAR data call, 7/19/2013          Emerson Trust                                                 USDA                22.40       0.00
        and 1/4/2013; USAID, responses to SIGAR data call,
        1/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009;               Total - Humanitarian                                                            2,683.81     595.52
        DOJ, response to SIGAR data call, 7/7/2009; USDA,
        response to SIGAR data call, 4/2009; CRS, response
                                                                      INTERNATIONAL AFFAIRS OPERATIONS
        to SIGAR data call, 1/8/2014; DFAS, “AR(M) 1002               Oversight                                                                          281.60       0.00
        Appropriation Status by FY Program and Subaccounts
        December 2013,” 1/18/2014; H.R. 3547, “Consolidated           Other                                                                            7,764.91     155.60
        Appropriations Act, 2014,” 1/17/2014; P.L. 113-6,             Total - International Affairs Operations                                        8,046.50     155.60
        3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
        4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,            TOTAL FUNDING                                                                 102,129.39    1,065.06
        12/19/2009; FY 2010 Defense Explanatory Statement.




                                                                       204                        Special inspector general             I     Afghanistan reconstruction




Jan2014_QR.indb 204                                                                                                                                                          1/24/2014 11:08:36 AM
                                                                                    Appendices




                       FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008                          FY 2009 FY 2010          FY 2011      FY 2012 FY 2013 FY 2014a

                            0.00       0.00       995.00    1,908.13     7,406.40    2,750.00     5,606.94    9,166.77    10,619.28    9,200.00     5,124.17    4,726.72
                            0.00     150.00       290.00        0.00         0.00        0.00         0.00        0.00         0.00        0.00         0.00        0.00
                          191.00     414.08       396.80        0.00         0.00        0.00         0.00        0.00         0.00        0.00         0.00        0.00
                            0.39       0.67         0.95        0.98         1.19        1.66         1.40        1.76         1.56        1.18         1.42        0.00
                            0.00       0.00         0.00        0.00         0.00        9.90         0.00        0.00         0.00        0.00         0.00        0.00
                         191.39     564.75     1,682.75    1,909.11     7,407.59    2,761.56     5,608.34    9,168.53    10,620.84    9,201.18     5,125.59    4,726.72

                            0.00       40.00      136.00     215.00        209.00      488.33       550.67    1,000.00       400.00       400.00      200.00      30.00
                            0.00        0.00        0.00       0.00          0.00        0.00         0.00        0.00       299.00       400.00      325.00     199.00
                            0.00        0.00        0.00       0.00          0.00        0.00        14.44       59.26       239.24       241.82      137.40      91.24
                          223.79      906.97    1,283.00     473.39      1,224.24    1,399.51     2,083.18    3,346.00     2,168.51     1,836.76    1,623.15       0.00
                           42.54      153.14      169.21     185.08        166.81      149.43         0.40        0.30         0.00         0.35        0.00       0.00
                          300.00      150.00      100.00       0.00          0.00        0.00         0.00        0.00         0.00         0.00        0.00       0.00
                           49.68       33.40       38.00      41.45        100.77       63.07        58.23       92.30        69.91         0.00        0.25       0.00
                            1.33        0.00        0.00       0.00          0.00       10.77         4.22        4.22         3.09         0.55        0.00       0.00
                            0.50        5.00        0.00       0.00          0.00       20.00         2.81        4.90         6.26         7.18        1.84       0.77
                           34.70       66.90       40.65      35.72         36.72       29.72        59.92       70.74        69.30        65.32       52.60       0.00
                            0.00        0.00        0.00       0.00          0.00        0.00         5.70        0.00         0.00         0.00        0.00       0.00
                            1.00        0.06        0.95       0.19          0.13        0.75         0.47        0.00         0.00         0.00        0.00       0.00
                         653.54    1,355.47    1,767.80     950.83      1,737.67    2,161.57     2,780.04    4,577.72     3,255.30     2,951.98    2,340.23     321.02

                            0.00     220.00      709.28      232.65       251.74      307.57       484.00       589.00       400.00      358.75      568.81        0.00
                           0.00       71.80      224.54      108.05       290.97      192.81       230.06       392.27       379.83      422.96      307.37      320.79
                            2.87       3.72       16.77       23.66        20.38       40.59        18.80        19.20        18.70       18.70       17.00        0.00
                           2.87     295.52      950.59      364.36       563.09      540.97       732.86     1,000.47       798.53      800.41      893.17      320.79

                            5.00       0.00        0.00        0.00         0.00        0.00         0.00        0.00          0.00        0.00         0.00        0.00
                           46.10      49.20       56.60       60.00        60.00      177.00        65.41       58.13        112.55       59.20         0.00        0.00
                           85.53      11.39        4.23        0.04         0.03       16.90        27.13       29.73         66.68       56.33        22.21        4.06
                           11.69      11.22        1.60        0.00         0.00        0.00         0.75        0.87          1.10        0.64         0.42        0.13
                           61.50      63.30       47.10       41.80        53.80       44.25        76.79       80.93         64.65       99.56        76.07        0.00
                            9.90      20.00       15.50        0.00         0.00        0.00         0.00        0.00          0.00        0.00         0.00        0.00
                            0.00       0.00        0.00        0.00         0.00        0.00         0.20        0.00          0.00        0.00         0.00        0.00
                            4.96       9.08       30.10       23.24         9.47       20.55        12.09        0.00          0.00        0.00         0.00        0.00
                           14.14      34.58        0.00        0.00         0.00        0.00         0.00        0.00          0.00        0.00         0.00        0.00
                            9.27       6.12       10.02       25.08         0.00        0.00         0.00        0.00          0.00        0.00         0.00        0.00
                            0.00       0.00        0.00        0.00         0.00       22.40         0.00        0.00          0.00        0.00         0.00        0.00
                         248.08     204.89      165.15      150.16       123.30      281.10       182.37      169.66        244.98      215.73        98.70        4.18

                            0.00       0.00        0.00        0.00         2.50       14.30         25.20       34.40        37.20       59.00        58.70       50.30
                           35.30     212.44      136.29      131.90       207.80      435.51      1,060.70    1,761.70       905.10    1,433.58     1,288.90        0.08
                          35.30     212.44      136.29      131.90       210.30      449.81      1,085.90    1,796.10       942.30    1,492.58     1,347.60       50.38
                        1,131.18   2,633.07    4,702.57    3,506.37 10,041.96       6,195.01    10,389.51 16,712.47      15,861.94    14,661.88    9,805.30    5,423.08




                      Report to the united states congress        I    January 30, 2014                      205



Jan2014_QR.indb 205                                                                                                                                            1/24/2014 11:08:37 AM
                      Appendices




                      Appendix C
                      SIGAR WRITTEN PRODUCTS
                      SIGAR AUDITS
                      Completed Performance Audits
                      SIGAR completed four performance audits during this reporting period.

                      completed SIGAR Performance Audits as of January 30, 2014
                      Report Identifier       Report Title                                                          Date Issued
                                              Direct Assistance: USAID Has Taken Positive Action to Assess Afghan
                      SIGAR Audit 14-32-AR                                                                          1/2014
                                              Ministries’ Ability to Manage Donor Funds, but Weaknesses Remain
                                              Afghan National Security Forces: Despite Reported Successes,
                      SIGAR Audit 14-30-AR    Concerns Remain about Literacy Program Results, Contract              1/2014
                                              Oversight, Transition, and Sustainment
                                              Support for Afghanistan’s Justice Sector: State Department
                      SIGAR Audit 14-26-AR                                                                          1/2014
                                              Programs Need Better Management and Stronger Oversight SIGAR
                                              Afghanistan’s Banking Sector: The Central Bank’s Capacity to
                      SIGAR Audit 14-16-AR                                                                          1/2014
                                              Regulate Commercial Banks Remains Weak

                      New Performance Audits
                      SIGAR initiated four performance audits during this reporting period.

                      new SIGAR performance Audits as of January 30, 2014
                      Audit Identifier       Project Title                                                          Date Initiated
                                             Audit of U.S. Government Efforts to Develop and Strengthen the
                      SIGAR 091A             Capacity of the Counternarcotics Police of Afghanistan’s (CNPA)        12/2013
                                             Provincial Units
                      SIGAR 090A             Audit of ANA National Engineer Brigade’s Engineering Equipment         11/2013
                      SIGAR 089A             Audit of U.S. Support for Development of the Afghan Air Force          11/2013
                                             Audit of U.S. Government Efforts to Assist in Reconstruction and
                      SIGAR 088A             Commercialization of Afghanistan’s Information and Communication       11/2013
                                             Technology Sector



                      Ongoing Performance Audits
                      SIGAR had 10 audits in progress during this reporting period.

                      ongoing SIGAR performance Audits as of January 30, 2014
                      Audit Identifier          Project Title                                                       Date Initiated
                      SIGAR 087A                Women’s Initiatives                                                 8/2013
                      SIGAR 086A                Education Sector                                                    8/2013
                      SIGAR 085A                Mobile Strike Force Vehicles for the Afghan National Army           7/2013
                                                U.S. Agency for International Development (USAID) and
                                                Department of Homeland Security Customs and Border Protection
                      SIGAR 083A                                                                                    7/2013
                                                (CBP) Efforts to Develop and Strengthen Afghanistan’s Capacity to
                                                Assess and Collect Customs Revenue




                       206                       Special inspector general             I   Afghanistan reconstruction




Jan2014_QR.indb 206                                                                                                                  1/24/2014 11:08:37 AM
                                                                                               Appendices




                      ongoing SIGAR Performance Audits as of January 30, 2014
                      Audit Identifier           Project Title                                                             Date Initiated
                                                 U.S. Efforts to Develop and Strengthen the Capacity of
                      SIGAR 082B                                                                                           6/2013
                                                 Afghanistan’s Central Bank
                                                 Reliability of Afghan National Security Forces Commanders Unit
                      SIGAR 079A                                                                                           2/2013
                                                 Assessment Tool
                      SIGAR 079B                 Reliability of Afghan National Security Forces Personnel Data             2/2013
                                                 Accountability of Weapons and Equipment Provided to the Afghan
                      SIGAR 078A                                                                                           5/2013
                                                 National Security Forces (ANSF)
                      SIGAR 080A                 U.S. Government Reconstruction Transition Plan                            3/2013
                      SIGAR 077A                 USAID Assistance to Afghanistan’s Water Sector                            2/2013


                      Completed Financial Audit
                      SIGAR completed eight financial audits during this reporting period.

                      Completed SIGAR financial Audit as of January 30, 2014
                      Report Identifier       Report Title                                                                 Date Issued
                      SIGAR Financial Audit   USAID’s Food Insecurity Response for Urban Populations: Audit of Costs
                                                                                                                     1/2014
                      14-29-FA                Incurred by CARE International
                      SIGAR Financial Audit   USAID’s Food Insecurity Response for Urban Populations: Audit of Costs
                                                                                                                     1/2014
                      14-23-FA                Incurred by World Vision, Inc.
                      SIGAR Financial Audit   USAID’s Community Development Program: Audit of Costs Incurred by
                                                                                                                           1/2014
                      14-20-FA                Central Asia Development Group, Inc.
                      SIGAR Financial Audit   USAID’s Community Development Program: Audit of Costs Incurred by
                                                                                                                           1/2014
                      14-19-FA                Mercy Corps
                                              USAID’s Building Education Support Systems for Teachers and
                      SIGAR Financial Audit
                                              Community Based Stabilization Grants Projects: Audit of Costs Incurred       1/2014
                      14-18-FA
                                              by Creative Associates International, Inc.
                      SIGAR Financial Audit   USAID’s Initiative to Promote Afghan Civil Society Project: Audit of Costs
                                                                                                                           1/2014
                      14-15-FA                Incurred by Counterpart International, Inc.
                      SIGAR Financial Audit   USAID’s Rural Finance and Cooperative Development Project: Audit of
                                                                                                                           1/2014
                      14-14-FA                Costs Incurred by World Council of Credit Unions, Inc.
                      SIGAR Financial Audit   Department of State’s Demining Activities in Afghanistan: Audit of Costs
                                                                                                                           12/2013
                      14-11-FA                Incurred by Afghan Technical Consultants



                      New Financial Audits
                      SIGAR initiated three financial audits during this reporting period.

                      New SIGAR FINANCIAL AUDITS AS OF January 30, 2014
                      Audit Identifier         Project Title                                                               Date Initiated
                                               U.S Army Contract with A-T Solutions for support to Freedom of
                      F-040                                                                                                12/2013
                                               Maneuver
                                               U.S Army Contract with Jorge Scientific Corp for support to Legacy
                      F-039                                                                                                12/2013
                                               East
                                               U.S. Army Contract with CACI Technologies, Inc. for technical engi-
                      F-038                                                                                                12/2013
                                               neering, logistical engineering and fielding efforts




                      Report to the united states congress                  I   October 30, 2013                               207



Jan2014_QR.indb 207                                                                                                                         1/24/2014 11:08:37 AM
                      Appendices




                      Ongoing Financial Audits
                      SIGAR had 17 financial audits in progress during this reporting period.

                      Ongoing SIGAR FINANCIAL AUDITS AS OF January 30, 2014
                      Audit Identifier   Project Title                                                            Date Initiated
                                         USAID Task Order with Tetra Tech ARD for technical support to the Rule
                      F-037                                                                                     9/2013
                                         of Law Stabilization Program–Formal
                                         State Grant with Sayed Majidi Architecture and Design (SMAD) for
                      F-036              project management services for architectural and engineering design 9/2013
                                         of the new national museum in Kabul
                                         State Cooperative Agreement and Grant with CETENA Group for
                      F-035              support to the Afghan TV Content Production Manager project and the 9/2013
                                         Nationwide Adult Literacy project
                                         State Grants with the Mine Clearance Planning Agency to provide
                      F-034                                                                                       9/2013
                                         support for the removal of land mines and unexploded ordnance
                                         State Task Order with PAE for technical support to the Civilian Police
                      F-033                                                                                       9/2013
                                         Program
                                         USAID Task Order with IRG (now part of Engility) for technical support
                      F-032                                                                                       9/2013
                                         to the Afghan Clean Energy Program (ACEP)
                                         USAID Cooperative Agreement with ICMA for technical support to the
                      F-031                                                                                       9/2013
                                         Afghanistan Municipal Strengthening Program (AMSP)
                                         USAID Task Order with Tetra Tech DPK for technical support to the Rule
                      F-030                                                                                     9/2013
                                         of Law Stabilization Program–Formal
                                         USAID Cooperative Agreement with CARE International for technical
                      F-029              support to the Partnership for Advancing Community-based Education 9/2013
                                         in Afghanistan (PACE-A)
                                         USAID Task Order with AECOM for technical support to the Afghanistan
                      F-028                                                                                   9/2013
                                         Social Outreach Program (ASOP)
                                         USAID Cooperative Agreement with PACT to strengthen the
                      F-027                                                                                       9/2013
                                         independent media sector in Afghanistan
                                         USAID Task Order with ARD (now part of Tetra Tech) to provide
                      F-026              technical support to the Sustainable Water Supply and Sanitation         9/2013
                                         (SWSS) project
                                         USAID Cooperative Agreement with IRD to implement the Afghanistan
                      F-025                                                                                       9/2013
                                         Vouchers for Increased Production in Agriculture (AVIPA) program
                                         USAID Contract with Chemonics for Afghanistan Stabilization Initiative
                                         to Support Counterinsurgency Operations by Improving Economic and
                      F-024                                                                                     7/2013
                                         Social Conditions in Afghanistan (Southern Region) & Accelerated
                                         Sustainable Agriculture Program (ASAP)
                                         USAID Contract with Development Alternatives Inc for Afghan Small
                      F-023              and Medium Enterprise Development (ASMED) Project & Afghanistan          7/2013
                                         Stabilization Initiative
                                         USAID Cooperative Agreement with JHPIEGO Corporation for support
                      F-016                                                                                       4/2013
                                         to the Health Service Support Project (HSSP)
                                         USAID Cooperative Agreement with International Relief and
                      F-012              Development Inc for the Strategic Provincial Roads Project in            12/2012
                                         Southern and Eastern Afghanistan




                       208                  Special inspector general                I   Afghanistan reconstruction




Jan2014_QR.indb 208                                                                                                                1/24/2014 11:08:37 AM
                                                                                            Appendices




                      SIGAR INSPECTIONS
                      Completed Inspections
                      SIGAR completed three inspections during this reporting period:

                      COMPLETED SIGAR INSPECTIONS AS OF January 30, 2014
                      Report Identifier       Report Title                                                         Date Issued
                                              Salang Hospital: Lack of Water and Power Severely Limits Hospital
                      SIGAR Inspection
                                              Services, and Major Construction Deficiencies Raise Safety           1/2014
                      14-31-IP
                                              Concerns
                      SIGAR Inspection        Balkh Education Facility: Building Remains Unfinished and Unsafe
                                                                                                                   1/2014
                      14-24-IP                to Occupy After Nearly Five Years
                                              Forward Operating Base Sharana: Poor Planning and Construction
                      SIGAR Inspection
                                              Resulted in $5.4 Million Spent for Inoperable Incinerators and       12/2013
                      14-13-IP
                                              Continued Use of Open-Air Burn Pits

                      SIGAR SPECIAL PROJECTS
                      Completed Special Projects
                      SIGAR completed five Special Project reports this reporting period.

                      COMPLETED SIGAR Special Projects AS OF January 30, 2014
                      Report Identifier       Report Title                                                         Date Issued
                      SIGAR Special Project   Geospatial Fact Sheet: Oversight Access for Selected U.S. Army
                                                                                                                   1/2014
                      14-28-SP                Corps of Engineers Projects and the Kajaki Dam Project
                      SIGAR Special Project   USAID Assistance to Afghanistan Reconstruction: $13.3 Billion
                                                                                                                   1/2014
                      14-27-SP                Obligated Between 2002 and 2013
                      SIGAR Special Project
                                              Unoccupied 64,000-Square-Foot Building                               1/2014
                      14-25-SP
                      SIGAR Special Project
                                              Commanders Emergency Response Program Funding Inquiry Letter         1/2014
                      14-22-SP
                                              Comprehensive Risk Assessments of MOD and MOI Financial
                      SIGAR Special Project
                                              Management Capacity Could Improve Oversight of Over $4 Billion in    12/2013
                      14-12-SP
                                              Direct Assistance Funding


                      Special Project Alert Letter
                      SIGAR completed one Special Project alert letter this reporting period.

                      NEW SIGAR TESTIMONY AS OF JANUARY 30, 2014
                      Letter Identifier       Letter Title                                                        Date Issued
                      Alert Letter 14-27-AL   Kajaki Dam Turbine Installation                                     12/31/2013


                      OTHER SIGAR WRITTEN PRODUCTS
                      The Special Inspector General for Afghanistan Reconstruction, John F.
                      Sopko, testified before the Congress once this reporting period.

                      NEW SIGAR TESTIMONY AS OF JANUARY 30, 2014
                      Testimony Identifier    Testimony Title                                                     Testimony Date
                      SIGAR 14-21-TY          Future U.S. Counternarcotics Efforts in Afghanistan                 1/15/2014




                      Report to the united states congress                I   October 30, 2013                         209



Jan2014_QR.indb 209                                                                                                                1/24/2014 11:08:37 AM
                                                                Appendices




                                                                appendix D
                                                                sigar investigations and hotline
                                                                SIGAR Investigations
         Figure D.1                                             This quarter, SIGAR opened 51 new investigations and closed 39, bringing
                                                                the total number of open investigations to 318. Of the new investiga-
         NEW SIGAR INVESTIGATIONS,
                                                                tions, most involved money laundering and procurement fraud, as shown
         OCTOBER 1–DECEMBER 31, 2013
                                                                in Figure D.1. Of the closed investigations, most were closed due to
                                                                unfounded allegations, as shown in Figure D.2.
                                 Total: 51
                                                                Figure D.2

                                   Money                        SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, OCTOBER 1–DECEMBER 31, 2013
                                   Laundering
                                   20

                      Corruption                Other/
                      7                         Miscellaneous
                                                9                  Unfounded Allegations                                                                 18
                             Theft
                             7
                                                                Lack of Investigative Merit                                               11
                                             Procurement/
                                             Contract Fraud
                                             8
                                                                             Administrative                           6

         Source: SIGAR Investigations Directorate, 1/10/2014.

                                                                                Conviction                    3



                                                                               Exoneration          1


                                                                                              0                   5           10                15            20

                                                                                                                          Total: 39

                                                                SIGAR Investigations Directorate, 1/9/2014.




                                                                SIGAR Hotline
                                                                Of the 101 Hotline complaints received this quarter, most were received elec-
                                                                tronically, as shown in Figure D.3. In addition to working on new complaints,
                                                                the Investigations directorate continued its work this quarter on complaints
                                                                received prior to October 1, 2013. This quarter, the directorate processed 141
                                                                complaints, most of which were closed, as shown in Figure D.4.




                                                                  210                             Special inspector general           I   Afghanistan reconstruction




Jan2014_QR.indb 210                                                                                                                                                    1/24/2014 11:08:37 AM
                                                                                                     Appendices




                      Figure D.4                                                                                                           Figure D.3


                      STATUS OF SIGAR HOTLINE COMPLAINTS: OCTOBER 1–DECEMBER 31, 2013                                                      SOURCE OF SIGAR HOTLINE COMPLAINTS,
                                                                                                                                           OCTOBER 1–DECEMBER 31, 2013

                           Under Review (Open)                                       35
                                                                                                                                                                  Total: 101
                      Under Investigation (Open)            5

                            Referred Out (Open)         3

                       Closed after Investigation                13                                                                                            Electronic
                                                                                                                                                               (email, web, or fax)
                           Referred Out (Closed)        1                                                                                                      93
                         Closed Administratively                                                                              84
                                                    0                 20                40                60             80          100
                                                                                             Total: 141
                                                                                                                                                                                Phone
                      Source: SIGAR Investigations Directorate, 1/6/2014.                                                                                                       8
                      Note: 101 complaints received during quarter; total includes complaints made in earlier periods.


                                                                                                                                           Source: SIGAR Investigations Directorate, 1/8/2014.
                      Suspensions and Debarments From SIGAR Referrals
                      SIGAR’s referrals for suspension and debarment as of December 31, 2013
                      are shown in chronological order in Table D.1.

                      Table D.1


                       SUSPENSIONS AND DEBARMENTS AS OF December 31, 2013
                        Suspensions                                                  Debarments
                        Al-Watan Construction Company                                Farooqi, Hashmatullah
                        Basirat Construction Firm                                    Hamid Lais Construction Company
                        Brophy, Kenneth                                              Hamid Lais Group
                        Naqibullah, Nadeem                                           Lodin, Rohullah Farooqi
                        Rahman, Obaidur                                              Bennett & Fouch Associates, LLC
                        Campbell, Neil Patrick                                       Brandon, Gary
                        Borcata, Raul A.                                             K5 Global
                        Close, Jarred Lee                                            Ahmad, Noor
                        Logistical Operations Worldwide                              Noor Ahmad Yousufzai Construction Company
                        Robinson, Franz Martin                                       Ayeni, Sheryl Adenike
                        Taylor, Zachery Dustin                                       Cannon, Justin
                        Aaria Group Construction Company                             Constantino, April Anne
                        Aaria Group                                                  Constantino, Dee
                        Aaria Herai General Trading                                  Constantino, Ramil Palmes
                        Aaria M.E. General Trading LLC                               Crilly, Braam
                        Aaria Middle East                                            Drotleff, Christopher
                        Aaria Middle East Company LLC                                Fil-Tech Engineering and Construction Company
                        Aaria Middle East Company Ltd.–Herat                         Handa, Sidharth
                        Aaria Supplies Company LTD                                   Jabak, Imad




                      Report to the united states congress                       I   October 30, 2013                              211



Jan2014_QR.indb 211                                                                                                                                                                      1/24/2014 11:08:38 AM
                      Appendices




                      Table D.1 (Continued)


                      SUSPENSIONS AND DEBARMENTS AS OF December 31, 2013
                       Suspensions                                    Debarments
                       Aaria Supply Services and Consultancy          Jamally, Rohullah
                       Aftech International                           Khalid, Mohammad
                       Aftech International Pvt., Ltd.                Khan, Daro
                       Alam, Ahmed Farzad                             Mariano, April Anne Perez
                       Albahar Logistics                              McCabe, Elton Maurice
                       American Aaria Company LLC                     Mihalczo, John
                       American Aaria LLC                             Qasimi, Mohammed Indress
                       Barakzai, Nangialai                            Radhi, Mohammad Khalid
                       Formid Supply and Services                     Safi, Fazal Ahmed
                       Greenlight General Trading                     Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
                       Kabul Hackle Logistics Company                 Espinoza-Loor, Pedro Alfredo
                       Sharpway Logistics                             Campbell, Neil Patrick*
                       United States California Logistics Company     Navarro, Wesley
                       Yousef, Najeebullah                            Hazrati, Arash
                       Rahimi, Mohammad Edris                         Midfield International
                       Wooten, Philip Steven                          Moore, Robert G.
                       Domineck, Lavette Kaye                         Noori, Noor Alam, a.k.a. “Noor Alam"
                       Markwith, James                                Northern Reconstruction Organization
                       All Points International Distributors, Inc.    Shamal Pamir Building and Road Construction
                                                                      Company
                       Cipolla, James                                 Wade, Desi D.
                       Hercules Global Logistics                      Blue Planet Logistics Services
                       Schroeder, Robert                              Mahmodi, Padres
                       AISC LLC                                       Mahmodi, Shikab
                       American International Security Corporation    Saber, Mohammed
                       Brothers, Richard S.                           Watson, Brian Erik
                       David A Young Construction & Renovation Inc.   All Points International Distributors, Inc
                       Force Direct Solutions LLC                     Hercules Global Logistics
                       Harris, Christopher                            Schroeder, Robert
                       Hernando County Holdings LLC                   Helmand Twincle Construction Company
                       Hide-A-Wreck LLC                               Waziri, Heward Omar
                       Panthers LLC                                   Zadran, Mohammad
                       Paper Mill Village, Inc                        Afghan Mercury Construction Company, d.b.a. “Afghan
                                                                      Mercury Construction & Logistics Company”
                       Shrould Line LLC                               Mirzali Naseeb Construcion Company
                       Spada, Carol                                   Montes, Diyana
                       Taylor, Michael                                Naseeb, Mirzali
                       Welventure LLC                                 Robinson, Franz Martin*
                       World Wide Trainers LLC                        Smith, Nancy
                       Young, David                                   Sultani, Abdul Anas a.k.a. “Abdul Anas”
                       Espinoza, Mauricio                             Faqiri, Shir
                       Long, Tonya                                    Hosmat, Haji
                       Peace Thru Business                            Jim Black Construction Company




                        212                        Special inspector general    I   Afghanistan reconstruction




Jan2014_QR.indb 212                                                                                                         1/24/2014 11:08:38 AM
                                                                                      Appendices




                      Table D.1 (Continued)


                      SUSPENSIONS AND DEBARMENTS AS OF December 31, 2013
                       Suspensions                                      Debarments
                       Pudenz, Adam Jeff Julias                         Arya Ariana Aryayee Logistics, d.b.a. “AAA Logistics,”
                                                                        d.b.a. “Somo Logistics”
                       Elham, Yaser, a.k.a. “Najibullah Saadullah”      Garst, Donald
                       Everest Faizy Logistics Services                 Mukhtar, Abdul a.k.a. “Abdul Kubar”
                       Faizy Elham Brothers, Ltd.                       Noori Mahgir Construction Company
                       Faizy, Rohullah                                  Noori, Sherin Agha
                       Hekmat Shadman General Trading LLC               Long, Tonya*
                       Hekmat Shadman, Ltd., d.b.a. “Hikmat Shadman,    Isranuddin, Burhanuddin
                       Ltd.”
                       Hikmat Shadman Construction and Supply Company   Rahimi, Mohammad Edris
                       Hikmat Shadman Logistics Services Company,       Matun, Navidullah, a.k.a. “Javid Ahmad”
                       d.b.a. “Hikmat Shadman Commerce Construction
                       and Supply Company,” d.b.a. “Hikmat Shadman
                       Commerce Construction Services”
                       Saif Hikmat Construction Logistic Services and   Matun, Wahidullah
                       Supply Co.
                       Shadman, Hikmatullah, a.k.a. “Hikmat Shadman,”   Navid Basir Construction Company
                       a.k.a. “Haji Hikmatullah Shadman,” a.k.a.
                       “Hikmatullah Saadulah”
                                                                        Navid Basir JV Gagar Baba Construction Company
                                                                        NBCC & GBCC JV
                                                                        Noori, Navid
                                                                        Asmatullah, Mahmood, a.k.a. "Mahmood"
                                                                        Khan, Gul
                                                                        Khan, Solomon Sherdad, a.k.a. "Solomon"
                                                                        Mursalin, Ikramullah, a.k.a. "Ikramullah"
                                                                        Musafer, Naseem, a.k.a. "Naseem"
                                                                        Gul, Ghanzi
                                                                        Luqman Engineering Construction Company, d.b.a.
                                                                        “Luqman Engineering”
                                                                        Wazir, Khan
                                                                        Gurvinder, Singh
                                                                        Jahan, Shah
                                                                        Shahim, Zakirullah a.k.a. “Zakrullah Shahim”, a.k.a.
                                                                        “Zikrullah Shahim”
                                                                        Alyas, Maiwand Ansunullah a.k.a. “Alyas Maiwand,”
                                                                        a.k.a. “Maiwand Allias,” a.k.a. “Maiwand Aliass,” a.k.a.
                                                                        “Engineer Maiwand Alyas”
                                                                        BMCSC
                                                                        Maiwand Haqmal Construction and Supply Company
                                                                        New Riders Construction Company, d.b.a. “Riders
                                                                        Construction Company, ” d.b.a. “New Riders
                                                                        Construction and Services Company”
                                                                        Riders Constructions, Services, Logistics and
                                                                        Transportation Company
                                                                        Riders Group of Companies




                      Report to the united states congress          I   October 30, 2013                               213



Jan2014_QR.indb 213                                                                                                                1/24/2014 11:08:38 AM
                      Appendices




                      Table D.1 (Continued)


                      SUSPENSIONS AND DEBARMENTS AS OF December 31, 2013
                       Suspensions                                                 Debarments
                                                                                   Domineck, Lavette Kaye
                                                                                   Markwith, James
                                                                                   Martinez, Rene
                                                                                   Abbasi, Shahpoor*
                                                                                   Amiri, Waheedullah*
                                                                                   Atal, Waheed*
                                                                                   Daud, Abdulilah*
                                                                                   Dehati, Abdul Majid*
                                                                                   Fazli, Qais*
                                                                                   Hamdard, Mohammad Yousuf*
                                                                                   Kunari, Haji Pir Mohammad*
                                                                                   Mushfiq, Muhammad Jaffar*
                                                                                   Mutallib, Abdul*
                                                                                   Nasrat, Sami*
                                                                                   Passerly, Ahmaad Saleem*
                                                                                   Rabi, Fazal*
                                                                                   Rahman, Atta*
                                                                                   Rahman, Fazal*
                                                                                   Roshandil, Mohammad Ajmal*
                                                                                   Safi, Azizur Rahman*
                                                                                   Safi, Matiullah*
                                                                                   Sahak, Sher Khan*
                                                                                   Shaheed, Murad*
                                                                                   Shirzad, Daulet Khan*
                                                                                   Uddin, Mehrab*
                                                                                   Alam, Ahmed Farzad
                                                                                   Greenlight General Trading
                                                                                   Aaria Middle East Company LLC
                                                                                   Aaria Middle East Company Ltd. - Herat
                                                                                   Aaria M.E. General Trading LLC
                                                                                   Aaria Middle East
                                                                                   Barakzai, Nangialai
                                                                                   Formid Supply and Services
                                                                                   Aaria Supply Services and Consultancy
                                                                                   Kabul Hackle Logistics Company
                                                                                   Yousef, Najeebullah
                                                                                   Aaria Group
                                                                                   Aaria Group Construction Company
                                                                                   Aaria Supplies Company LTD
                                                                                   Abbasi, Shahpoor*
                      Note: * indicates previously in suspended status following criminal indictment. Final debarment imposed following
                      criminal conviction in U.S. federal district court.




                        214                           Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 214                                                                                                                       1/24/2014 11:08:38 AM
                                                                                     Appendices




                      Appendix E
                      Abbreviations and Acronyms
                      Acronym or
                      Abbreviation      Definition
                      4A                Assistance to Afghanistan's Anti-Corruption Authority
                      AAN               Afghanistan Analysts Network
                      ABADE             Assistance in Building Afghanistan by Developing Enterprises
                      ABP               Afghan Border Police
                      ACE               Agricultural Credit Enhancement
                      ACU               Anti-Corruption Unit
                      ADB               Asian Development Bank
                      ADF               Agricultural Development Fund
                      ADS               Automated Directives System
                      AERCA             Afghanistan Electoral Reform and Civic Advocacy
                      AFISCO            Afghan Iron and Steel Consortium
                      AFN               Afghanis (currency)
                      AGO               Attorney General’s Office
                      AGS               Afghan Geological Survey
                      AIF               Afghanistan Infrastructure Fund
                      AIHRC             Afghanistan Independent Human Rights Commission
                      AIRP              Afghanistan Infrastructure and Rehabilitation Program
                      AITF              Afghanistan Infrastructure Trust Fund
                      ALBA              Assistance to Legislative Bodies of Afghanistan
                      ALP               Afghan Local Police
                      ANA               Afghan National Army
                      ANCOP             Afghan National Civil Order Police
                      ANP               Afghan National Police
                      ANSF              Afghan National Security Forces
                      APPF              Afghan Public Protection Force
                      APRP              Afghanistan Peace and Reintegration Plan
                      AR                Army Regulation
                      ARTF              Afghanistan Reconstruction Trust Fund
                      ASF               Afghan Security Forces
                      ASFF              Afghanistan Security Forces Fund
                      ASIA              Afghanistan Investment Support Agency
                      ATC               Afghan Technical Consultants
                      AUAF              American University of Afghanistan
                      AUP               Afghan Uniform Police
                      AWOL              Absent Without Leave
                      BELT              Basic Education, Literacy, and Technical-Vocational Education and Training
                      BSA               Bilateral Security Agreement
                      CCI               Community Cohesion Initiative
                      CENTCOM           U.S. Central Command




                      Report to the united states congress          I   January 30, 2014                             215



Jan2014_QR.indb 215                                                                                                        1/24/2014 11:08:38 AM
                      Appendices




                      Acronym or
                      Abbreviation   Definition
                      CERP           Commander’s Emergency Response Program
                      CHAMP          Commercial Horticulture and Agricultural Marketing Program
                      CIGIE          Council of the Inspectors General on Integrity and Efficiency
                      CJ8            CSTC-A's Comptroller Directorate
                      CJIATF         Combined Joint Interagency Task Force
                      CM             Capability Milestone
                      CNJC           Counternarcotics Justice Center
                      CNPA           Counternarcotics Police of Afghanistan
                      CNPCI-W        China National Petroleum Corporation Watan Energy Afghanistan Ltd.
                      COR            Contracting Officer's Representative
                      CRIP           Community Recovery Intensification and Prioritization
                      CSTC-A         Combined Security Transition Command-Afghanistan
                      CUAT           Commander’s Unit Assessment Tool
                      DAB            Da Afghanistan Bank
                      DABS           Da Afghanistan Breshna Sherkat
                      DCIS           Defense Criminal Investigative Service (U.S.)
                      DEA            Drug Enforcement Administration (U.S.)
                      DISA           Defense Information Systems Agency (U.S.)
                      DOD            Department of Defense (U.S.)
                      DOD CN         Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
                      DOD OIG        Department of Defense Office of Inspector General
                      DOJ            Department of Justice (U.S.)
                      ECC            Electoral Complaints Commission
                      ECF            Extended Credit Facility
                      ELECT          Enhancing Legal and Electoral Capacity for Tomorrow program
                      EMIS           Ministry of Education's Information Management System (Afghan)
                      ESF            Economic Support Fund
                      EVAW           Elimination of Violence Against Women law
                      FBI            Federal Bureau of Investigation (U.S.)
                      FOB            Forward Operating Base
                      FSD            Financial Supervision Division of DAB (Afghan)
                      FY             Fiscal Year
                      G2G            government-to-government
                      GAGAS          Generally Accepted Government Auditing Standards
                      GAO            Government Accountability Office (U.S.)
                      GDP            Gross Domestic Product
                      GDPDC          General Directorate of Prisons and Detention Centers
                      GFC            Ground Forces Command (Afghan)
                      GLE            Governor-Led Eradication
                      GPI            Good Performer's Initiative
                      HEP            Higher Education Program
                      HFZ            Helmand Food Zone
                      HOO            High Office of Oversight for Anti-Corruption (Afghan)




                       216               Special inspector general              I    Afghanistan reconstruction




Jan2014_QR.indb 216                                                                                                    1/24/2014 11:08:38 AM
                                                                                       Appendices




                      Acronym or
                      Abbreviation      Definition
                      HPP               Health Policy Project
                      ICC               International Coordinating Committee
                      ICG               International Crisis Group
                      ICRC              International Committee of the Red Cross
                      ICT               Information and Communications Technology Sector (Afghan)
                      IDEA-NEW          Incentives Driving Economic Alternatives-North, East, and West
                      IDLG              Independent Directorate of Local Governance (Afghan)
                      IDLO              International Development Law Organization
                      IEC               Independent Election Commission (Afghan)
                      IED               Improvised Explosive Device
                      IJC               International Security Assistance Force Joint Command
                      IMF               International Monetary Fund
                      INCLE             International Narcotics Control and Law Enforcement (U.S.)
                      INL               Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
                      IOCC              Interagency Operations Coordination Center
                      IP                ARTF Incentive Program
                      IPA               Independent Public Accountants
                      IPACS             Initiative to Promote Afghan Civil Society
                      IRD               International Relief and Development Inc.
                      ISAF              International Security Assistance Force
                      ISP               Internet Service Provider
                      JCIP              Justice Center in Parwan
                      JCMB              Joint Coordination and Monitoring Board
                      JSSP              Justice Sector Support Program (U.S.)
                      JTTP              Justice Training Transition Program
                      KCI               Kabul City Initiative
                      KFZ               Kandahar Food Zone
                      KHPP              Kandahar-Helmand Power Project
                      LMG               Leadership, Management, Governance Project
                      LOTFA             Law and Order Trust Fund for Afghanistan
                      MACU              Military Anti-Corruption Unit
                      MAIL              Ministry of Agriculture, Irrigation, and Livestock (Afghan)
                      MCC               Metallurgical Corporation of China
                      MCN               Ministry of Counternarcotics (Afghan)
                      MCTF              Major Crimes Task Force
                      MEC               Monitoring and Evaluation Committee (Afghan)
                      MIDAS             Mining Investment and Development for Afghan Sustainability
                      MNO               Mobile Network Operator
                      MOD               Ministry of Defense (Afghan)
                      MOF               Ministry of Finance (Afghan)
                      MOI               Ministry of Interior (Afghan)
                      MOMP              Ministry of Mines and Petroleum (Afghan)
                      MOPH              Ministry of Public Health (Afghan)




                      Report to the united states congress           I   January 30, 2014                      217



Jan2014_QR.indb 217                                                                                                  1/24/2014 11:08:38 AM
                      Appendices




                      Acronym or
                      Abbreviation   Definition
                      MORE           Ministry of Women's Affairs Organizational Restructuring and Empowerment Project
                      MOWA           Ministry of Women's Affairs (Afghan)
                      MPU            Afghan Mines Protection Units
                      MRRD           Ministry of Rural Rehabilitation and Development
                      NABDP          National Area Based Development Program
                      NATO           North Atlantic Treaty Organization
                      NDAA           National Defense Authorization Act
                      NEB            National Engineer Brigade of the ANA
                      NEPS           Northeast Power System
                      NGO            Nongovernmental Organization
                      NKB            New Kabul Bank
                      NPP            National Priority Program
                      NTM-A          NATO Training Mission-Afghanistan
                      O&M            Operations and Maintenance
                      OCO            Overseas Contingency Operations
                      OHCHR          Office of the High Commissioner for Human Rights
                      OMB            Office of Management and Budget
                      OSD            Office of the Secretary of Defense
                      PBGF           Performance Based Governance Fund
                      PCH            Partnership Contracts for Health Services
                      PGO            Provincial governor's office
                      PJST           Provincial Joint Secretariat Teams
                      PM/WRA         Bureau of Political-Military Affairs-Office of Weapons Removal and Abatement (U.S.)
                      PPP            Public-Private Partnership
                      PROMOTE        Promoting Gender Equality in the National Priority Program
                      PSC            Private Security Contractor
                      PTEC           Power Transmission Expansion and Connectivity
                      RAMP-UP        Regional Afghan Municipalities Program for Urban Populations
                      RASR           Regional Command ANSF Assessment Report
                      RC             Recurrent Cost
                      RDL            Ratings Definition Level
                      RFE/RL         Radio Free Europe/Radio Liberty
                      RFL-F          Rule of Law-Formal (Afghan)
                      RFL-I          Rule of Law-Informal (Afghan)
                      RSS            Rail Sector Sustainability
                      SCC            Special Cases Committee (Afghan)
                      SDO            Suspension and Debarment Official
                      SEPS           Southeast Power System
                      SGDP           Sheberghan Gas Development Program
                      SIGAR          Special Inspector General for Afghanistan Reconstruction
                      SIKA           Stability in Key Areas
                      SMW            Special Mission Wing (Afghan)
                      SPECS          Supporting Political Entities and Civil Society program




                       218               Special inspector general               I   Afghanistan reconstruction




Jan2014_QR.indb 218                                                                                                        1/24/2014 11:08:38 AM
                                                                                      Appendices




                      Acronym or
                      Abbreviation      Definition
                      S-RAD             Southern Regional Agricultural Development Program
                      State OIG         Department of State Office of the Inspector General
                      STEP-UP           Strengthening Tertiary Education Program-University Partnerships
                      SY                Solar Year
                      TAC               Transparency and Accountability Committees
                      TAWG              Transparency & Accountability Working Group
                      TFBSO             Task Force for Business and Stability Operations in Afghanistan
                      TVET              Technical Vocational Education and Training
                      UN                United Nations
                      UNAMA             United Nations Assistance Mission in Afghanistan
                      UNDP              United Nations Development Programme
                      UNODC             UN Office on Drugs and Crime
                      USAAA             U.S. Army Audit Agency
                      USACE             U.S. Army Corps of Engineers
                      USACE-TAN         USACE Afghanistan Engineer District North
                      USAID             U.S. Agency for International Development
                      USAID OIG         USAID Office of the Inspector General
                      USFOR-A           U.S. Forces-Afghanistan
                      USGS              United States Geological Survey
                      USIP              U.S. Institute for Peace
                      VSO               Village Stability Operations




                      Report to the united states congress             I   January 30, 2014                219



Jan2014_QR.indb 219                                                                                              1/24/2014 11:08:38 AM
                                                                     Endnotes




           1	     DOD, American Forces Press Service, “Thousands of U.S.              16	 Pauline Baker, “Picking Up the Pieces: Unraveling Afghanistan,”
                  Personnel Serve Overseas During the Holidays,” 12/23/2013,              The American Interest, 12/19/2013, http://www.the-american-
                  http://www.defense.gov/news/newsarticle.aspx?id=121390,                 interest.com/articles/2013/12/19/unraveling-afghanistan/,
                  accessed 1/5/2014. Troop counts are declining. As of 1/15/2014,         accessed 1/5/2014.
                  the NATO-led International Security Assistance Force tallied        17	 The Fund for Peace, “The 9th Failed States Index–2013,” http://
                  38,000 U.S. troops among the 57,000 ISAF total in Afghanistan.          ffp.statesindex.org/rankings, accessed 01/05/2014. (The top
                  The United Kingdom had the second-largest among the 49                  seven states: Iceland, Ireland, Australia, Canada, Netherlands,
                  foreign contingents, with 5,200 personnel. ISAF, “Key Facts             Austria, and Germany; the United States ranks 13th.)
                  and Figures,” http://www.isaf.nato.int/images/stories/File/2014-    18	 World Bank Report 80996-AF, Afghanistan: Public Financial
                  01-15%20isaf%20placemat-final.pdf.                                      Management and Accountability Assessment, August 2013,
           2	     Congressional Research Service Report R43196, “Summary,”                pp. 1, 5.
                  War in Afghanistan: Campaign Progress, Political Strategy,          19	 SIGAR, Audit Report 14-16: Afghanistan’s Banking Sector:
                  and Issues for Congress, 1/2/2014, [ii].                                The Central Bank’s Capacity to Regulate Commercial Banks
           3	     CBS News, “Gen. Martin Dempsey: Afghanistan pullout could               Remains Weak, 1/2014.
                  reverse gains against Taliban,” 12/11/2013.                         20	DOD, Report on Progress Toward Security and Stability in
           4	     Marie Harf, Deputy Spokesperson, Department of State, Daily             Afghanistan, November 2013 Report to Congress In accor-
                  Press Briefing transcript, 01/2/2014, http://www.state.gov/r/           dance with sections 1230 and 1231 of the National Defense
                  pa/prs/dpb/2014/01/219269.htm#AFGHANISTAN, accessed                     Authorization Act (NDAA) for Fiscal Year 2008 (P.L. 110-
                  1/5/2014.                                                               181), as amended, pp. 7, 36. This semiannual document series
           5	     Reuters, “NATO says Karzai failure to sign pact would end               is commonly known as the “1230 report.”
                  Afghan mission,” 12/2/2013.                                         21	 UN Office on Drugs and Crime, Afghanistan Opium Survey
           6	     CBS News, “Gen. Martin Dempsey: Afghanistan pullout could               2013: Summary Findings, November 2013, p. 3.
                  reverse gains against Taliban,” 12/11/2013.                         22	 Statement of John F. Sopko, “Future U.S. Counternarcotics
           7	     Anders Fogh Rasmussen, NATO, Quarterly Report to the                    Efforts in Afghanistan,” before the Senate Caucus on
                  Security Council on the Operations of the International                 International Narcotics Control, 1/15/2014.
                  Security Assistance Force, 12/13/2013, annex to UN Secretary-       23	 SIGAR, Special Project Report13-9-SP: U.S. Anti-Corruption
                  General letter of 12/18/2013 to the UN Security Council, p. 3.          Efforts: A Strategic Plan and Mechanisms to Track Progress
           8	     Vanda Felbab-Brown, “Afghan After ISAF: Prospects for Afghan            are Needed in Fighting Corruption in Afghanistan, 9/2013.
                  Peace and Security,” Harvard International Review, Fall 2013,       24	DOD, Report on Progress Toward Security and Stability in
                  p. 65.                                                                  Afghanistan, November 2013 Report to Congress In accor-
           9	     SIGAR, Ongoing Audit 079A: Reliability of Afghan National               dance with sections 1230 and 1231 of the National Defense
                  Security Forces Commanders Unit Assessment Tool.                        Authorization Act (NDAA) for Fiscal Year 2008 (P.L. 110-
           10	    SIGAR, Audit Report 14-30-AR: Afghan National Security                  181), as amended, November 2013, pp. 93–94.
                  Forces: Despite Reported Successes, Concerns Remain About           25	 Central Intelligence Agency, The World Factbook, December
                  Literacy Program Results, Contract Oversight, Transition,               2013 pages for Afghanistan and United States (2012 estimates).
                  and Sustainment, 1/2014.                                            26	 City of Baltimore, Maryland, Citizens’ Guide to the Fiscal 2013
           11	    SIGAR, Special Project Report SIGAR-14-12-SP: Comprehensive             Budget, n.d. [presumably 2012], p. 2.
                  Risk Assessments of MOD and MOI Financial Management                27	CIA World Factbook, “Afghanistan,” 2013.
                  Capacity Could Improve Oversight of Over $4 Billion in              28	 Claudia Nassif, “Afghanistan in Transition: Building the founda-
                  Direct Assistance Funding, November 2013, p. 2.                         tions for future economic growth and stability,” Georgetown
           12	    See the “SIGAR Oversight” section, pp. 46-47 of SIGAR’s                 Journal of International Affairs 14:2 (Summer-Fall 2013),
                  October 2013 Quarterly Report to the United States Congress             pp. 165–166.
                  for a discussion, with illustrative maps, of the increasing over-   29	 Asian Development Bank, Outlook 2013 Update: Governance
                  sight-access challenge as U.S. military forces in Afghanistan are       and Public Service Delivery, 2013, p. 106.
                  withdrawn. DOD recently confirmed to SIGAR by letter that           30	 Statement of James R. Clapper, “Worldwide Threat Assessment
                  “There will be locations in Afghanistan that will not be easily         of the U.S. Intelligence Community,” before the Senate Select
                  accessible by U.S. personnel,” but noted that the specific areas        Committee on Intelligence, 03/12/2013, p. 17.
                  affected will depend on U.S. basing decisions yet to be made.       31	 Nader Nadery, “Economic Downturn Threatens Social Gains,”
           13	    Seth G. Jones, essay, “Presidential Candidates Need Multiethnic         essay in DefenseOne compilation, “Predictions for Afghanistan
                  Consensus,” in DefenseOne compilation, “Predictions for                 in 2014,” 12/23/2013, http://www.defenseone.com/ideas/2013/12/
                  Afghanistan in 2014,” 12/23/2013, http://www.defenseone.com/            predictions-afghanistan-2014/75950/.
                  ideas/2013/12/predictions-afghanistan-2014/75950/.                  32	 Reuters, “If U.S. troops leave Afghanistan, much civilian aid
           14	    U.S. Institute of Peace, Special Report 338, 2014 Presidential          may go too,” 12/26/2013.
                  and Provincial Council Elections in Afghanistan, November           33	 The World Bank, Afghanistan in Transition: Looking beyond
                  2013, pp. 1–2.                                                          2014, 2013, pp. 2–3, 48, 52.
           15	    Clare Lockhart, essay in DefenseOne compilation, “Predictions       34	 The World Bank, Afghanistan in Transition: Looking beyond
                  for Afghanistan in 2014,” 12/23/2013, http://www.defenseone.            2014, 2013.
                  com/ideas/2013/12/predictions-afghanistan-2014/75950/.




                                                               220                    Special inspector general       I   Afghanistan reconstruction




Jan2014_QR.indb 220                                                                                                                                          1/24/2014 11:08:39 AM
                                                                               Endnotes




                      35	 Ministry of Foreign Affairs (Japan), Annex: Tokyo Mutual              48	   See Appendix B of this report.
                          Accountability Framework, 7/8/2012.                                   49	   DOD, response to SIGAR data call, 1/22/2014; OMB, response to
                      36	 The ARTF is the primary funding mechanism for on-budget                     SIGAR data call, 7/19/2013; OSD Comptroller, “Department of
                          assistance to the Afghan operational and development budgets.               Defense Budget Amendment to the Fiscal Year 2014 President’s
                          The Afghan government uses these funds to pay recurrent costs               Budget Request for Overseas Contingency Operations (OCO):
                          such as salaries and O&M, as well as for national development               Operation and Maintenance Programs (O-1) Revolving and
                          programs. LOTFA supports the Afghan National Police, primar-                Management Funds (RF-1),” 5/2013, pp. 1-3; “Consolidated
                          ily by funding salaries. The United states is the lead contributor          Appropriations Act, 2014, Joint Explanatory Statement
                          to both funds. See the “Status of Funds” part of Section 3 of this          (Division K, Section 7044),” 1/13/2014, pp. 54–55.
                          report for financial details.                                         50	   P.L. 111-32, 6/24/2009.
                      37	 The recurring “Status of Funds” portion of Section 3 of each          51	   DOD, response to SIGAR vetting, 7/20/2009.
                          SIGAR quarterly report to Congress describes the various funds        52	   See Appendix B of this report.
                          and the amounts appropriated, obligated, and disbursed for            53	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                          each. Reports are online at http://www.sigar.mil.                           Subaccounts December 2013,” 1/18/2014; DOD, response to
                      38	 Ecorys Netherlands research consultancy, Putting Aid ‘on budget,’           SIGAR data call, 10/9/2013.
                          research study commissioned by the German Federal Ministry for        54	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                          Economic Cooperation and Development, the German Foreign                    Subaccounts December 2013,” 1/18/2014; DOD, response to
                          Office, and the German embassy in Kabul, 2/18/2013, pp. 21–22.              SIGAR data call, 10/9/2013.
                      39	 Department of State, “Memorandum of Justification for                 55	   DOD OIG, Distribution of Funds and the Validity of Obligations
                          Certification Related to Funds Provided as Government-to-                   for the Management of the Afghanistan Security Forces Fund -
                          Government Assistance to Afghanistan Under the Department                   Phase I, Report No. D-2008-012, 11/5/2007, p. 2.
                          of State, Foreign Operations, and Related Programs                    56	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                          Appropriations Act 2010 (Div. F, P.L. 111-117),” p. 1 of enclosure          Subaccounts December 2013,” 1/18/2014; DOD, response to
                          to State legislative-affairs letter to chairmen of congressional            SIGAR data call, 10/9/2013.
                          committees of jurisdiction, 7/14/2011.                                57	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                      40	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has                  Subaccounts December 2013,” 1/18/2014; DOD, response to
                          Taken Positive Action to Assess Afghan Ministries’ Ability to               SIGAR data call, 10/9/2013.
                          Manage Donor Funds, but Weaknesses Remain, 1/2014.                    58	   DOD, “Commanders’ Emergency Response Program (CERP),”
                      41	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has                  DOD Financial Management Regulation Vol. 12, Ch. 27, 1/2009,
                          Taken Positive Action to Assess Afghan Ministries’ Ability to               p. 27-3.
                          Manage Donor Funds, but Weaknesses Remain, 1/2014.                    59	   USFOR-A, “Commander’s Emergency Response Program
                      42	 Statement of John F. Sopko, Special Inspector General for                   (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74,
                          Afghanistan Reconstruction, “Challenges Affecting U.S. Foreign              12/23/2011.
                          Assistance to Afghanistan,” before the Committee on Oversight         60	   See Appendix B of this report.
                          and Government Reform, U.S. House of Representatives,                 61	   DOD, response to SIGAR data call, 1/22/2014.
                          4/10/2013, p. 10. The Special IG’s full written statement, as well    62	   U.S. Senate Committee on Armed Services, press release,
                          as the work products he described, are posted at the SIGAR                  “Senate Passes Ike Skelton National Defense Authorization Act
                          website, http://www.sigar.mil.                                              for Fiscal Year 2011,” 12/22/2010.
                      43	 The World Bank, Afghanistan in Transition: Looking beyond             63	   See Appendix B of this report.
                          2014, 2013, p. 89.                                                    64	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                      44	 Anthony H. Cordesman, PhD, The Afghan War in 2013:                          Subaccounts December 2013,” 1/18/2014; DOD, response to
                          Meeting the Challenges of Transition, Volume II, Afghan                     SIGAR data call, 7/22/2013.
                          Economics and Outside Aid, CSIS report, May 2013, p. 28.              65	   TFBSO, “About TFBSO,” accessed 10/20/2011; DOD, response
                      45	SIGAR, Quarterly Report to the United States Congress, 7/30/2013,            to SIGAR data call, 7/22/2011.
                          pp. 6–11. In addition, the U.S. Forces-Afghanistan/Task Force         66	   See Appendix B of this report.
                          2010 Memo USFOR-A-TF 2010-CC, “Operational Contract Support           67	   DOD, response to SIGAR data call, 1/22/2014.
                          Oversight and Management Post-Shura Notes,” 1/31/2012, recorded       68	   DOD, “Drug Interdiction and Counter-Drug Activities,
                          DOD conference participants’ consensus on “poor accountability              Defense FY 2009 Supplemental Request Drug Interdiction and
                          and enforcement of existing standards, policies, and procedures” as         Counterdrug Activities,” accessed 4/13/2010.
                          well as “incomplete documentation” by management and oversight        69	   DOD OIG, Independent Auditor’s Report on the DOD FY 2011
                          personnel (Provided to SIGAR; unpublished).                                 Detailed Accounting Report of the Funds Obligated for National
                      46	 SIGAR, Audit Report 11-10: Despite Improvements in MOI’s                    Drug Control Program Activities, Report No. DODIG-2012-04,
                          Personnel Systems, Additional Actions Are Needed to                         1/30/2012.
                          Completely Verify ANP Payroll Costs and Workforce Strength,           70	   DOD, responses to SIGAR data call, 1/22/2014 and 12/30/2013.
                          1/25/2011.                                                            71	   USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p. 6.
                      47	 The White House Office of the Press Secretary, “Remarks by            72	   USAID, response to SIGAR data call 1/7/2014; State, response to
                          the President at Appropriations Bill Signing,” 1/17/2014; State,            SIGAR data call, 6/27/2013.
                          response to SIGAR data call, 1/22/2014.                               73	   USAID, responses to SIGAR data call, 1/7/2014 and 10/10/2013.




                      Report to the united states congress          I   January 30, 2014                     221



Jan2014_QR.indb 221                                                                                                                                           1/24/2014 11:08:39 AM
                                                                   Endnotes




           74	  State, response to SIGAR data call, 10/13/2009.                     105	 IJC, response to SIGAR data call, 9/30/2013.
           75	  State, response to SIGAR data call, 1/13/2014 and 6/27/2013.        106	 IJC, response to SIGAR data call, 9/30/2013.
           76	  State, responses to SIGAR data call, 1/13/2014 and 10/18/2013.      107	 IJC, response to SIGAR data call, 9/30/2013.
           77	  SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.   108	 SIGAR, Ongoing Audit 079A: Reliability of Afghan National
           78	  World Bank, “ARTF: Administrator’s Report on Financial Status            Security Forces Commanders Unit Assessment Tool.
                as of December 21, 2013 (end of 12th month of FY 1392),” p. 5.      109	 IJC, response to SIGAR data call, 9/30/2013.
           79	 World Bank, “ARTF: Administrator’s Report on Financial Status        110	 IJC, “Regional ANSF Status Report, 12/2013.
                as of December 21, 2013 (end of 12th month of FY 1392),” p. 1.      111	 IJC, response to SIGAR data call, 9/30/2013.
           80	 World Bank, “ARTF: Administrator’s Report on Financial Status        112	 IJC, “Regional ANSF Status Report, 12/2013.
                as of December 21, 2013 (end of 12th month of FY 1392),” p. 5.      113	 NTM-A, “MOD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.
           81	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,         114	 CSTC-A, response to SIGAR data call, 10/1/2013 and 12/30/2013.
                p. 16.                                                              115	 CSTC-A, response to SIGAR data call, 10/1/2013 and 12/30/2013.
           82	 World Bank, “ARTF: Administrator’s Report on Financial Status        116	 CSTC-A, responses to SIGAR data call, 10/1/2013 and
                as of December 21, 2013 (end of 12th month of FY 1392),” p. 7.           12/30/2013.
           83	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,         117	 CSTC-A, responses to SIGAR data call, 10/1/2013 and
                p. 16.                                                                   12/30/2013.
           84	 World Bank, “ARTF: Administrator’s Report on Financial Status        118	 CENTCOM, response to SIGAR data call, 1/8/2014.
                as of December 21, 2013 (end of 12th month of FY 1392),” p. 7.      119	 CENTCOM, response to SIGAR data call, 1/8/2014.
           85	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.     120	SIGAR, Quarterly Report to the United States Congress,
           86	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”                 4/30/2013, p. 90.
                12/31/2013, pp. 80–81; SIGAR analysis of UNDP’s quarterly and       121	 CSTC-A, response to SIGAR data call, 12/30/2013.
                annual LOTFA reports, 1/22/2014.                                    122	 CSTC-A, response to SIGAR data call, 12/30/2013.
           87	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”            123	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                12/31/2013, p. 82; SIGAR analysis of UNDP’s quarterly and                Subaccounts December 2013,” 1/18/2014.
                annual LOTFA reports, 1/22/2014.                                    124	 CSTC-A, response to SIGAR data call, 1/6/2014.
           88	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”            125	 CSTC-A, response to SIGAR data call, 10/1/2013.
                12/31/2013, p. 80–81; SIGAR analysis of UNDP’s quarterly and        126	 CSTC-A, response to SIGAR data call, 1/6/2014.
                annual LOTFA reports, 1/22/2014.                                    127	 SIGAR, analysis of November ANA strength, 1/16/2014; CSTC-A,
           89	 See Appendix B of this report; DFAS, “AR(M) 1002                          response to SIGAR data call, 1/6/2014.
                Appropriation Status by FY Program and Subaccounts                  128	 SIGAR, analysis of November ANA strength, 1/16/2014; SIGAR,
                December 2013,” 1/18/2014.                                               auditor response to vetting draft, 1/17/2014.
           90	 The Washington Post, “Karzai is unlikely to meet deadline on         129	 CSTC-A, response to SIGAR data call, 12/30/2013.
                signing long-term security deal, U.S. envoy says,” 1/9/2014.        130	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
           91	 The Washington Post, “Karzai is unlikely to meet deadline on              Subaccounts December 2013,” 1/18/2014.
                signing long-term security deal, U.S. envoy says,” 1/9/2014.        131	 CSTC-A, responses to SIGAR data call, 12/30/2013.
           92	 Los Angeles Times, “Insurgents could quickly bounce back in          132	 CSTC-A, responses to SIGAR data call, 10/1/2013.
                Afghanistan, analysis warns,” 12/29/2014.                           133	 CSTC-A, responses to SIGAR data call, 12/30/2013.
           93	 CSTC-A, response to SIGAR data call, 1/6/2014.                       134	 CSTC-A, responses to SIGAR data calls, 12/30/2013 and 4/1/2013.
           94	 CSTC-A, response to SIGAR data call, 1/6/2014.                       135	 CSTC-A, response to SIGAR data call, 4/1/2013.
           95	 CSTC-A, response to SIGAR data call, 1/6/2014.                       136	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.
           96	 SIGAR, analysis of November ANA strength, 1/16/2014.                 137	 CSTC-A, response to SIGAR data call, 10/1/2013.
           97	 CENTCOM, response to SIGAR data call, 12/30/2013.                    138	 CSTC-A, response to SIGAR data call, 12/30/2013.
           98	 DOD, Operation Enduring Freedom U.S. Casualty Status, 1/3/2014.      139	 CSTC-A, responses to SIGAR data call, 10/1/2013 and
           99	 CSTC-A, response to SIGAR data call, 12/30/2013.                          12/30/2013.
           100	DOD, Progress Toward Security and Stability in Afghanistan,          140	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                4/2012, p. 4.                                                            Subaccounts December 2013,” 1/18/2014.
           101	DOD, Progress Toward Security and Stability in Afghanistan,          141	 CSTC-A, response to SIGAR data call, 12/30/2013.
                12/2012, p. 56.                                                     142	 CSTC-A, response to SIGAR data call, 10/1/2013.
           102	 IJC, response to SIGAR data call, 9/30/2013; SIGAR, Audit           143	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                Report 10-11: Actions Needed to Improve the Reliability of               Subaccounts December 2013,” 1/18/2014.
                Afghan Security Force Assessments, 6/29/2010, p. 2.                 144	 CSTC-A, response to SIGAR data call, 12/30/2013.
           103	 SIGAR, Audit Report 10-11: Actions Needed to Improve the            145	 CSTC-A, response to SIGAR data call, 12/30/2013.
                Reliability of Afghan Security Force Assessments, 6/29/2010,        146	 CSTC-A, response to SIGAR data call, 12/30/2013.
                p. 2; SIGAR, Ongoing Audit 079A: Reliability of Afghan National     147	 CSTC-A, response to SIGAR data call, 12/30/2013.
                Security Forces Commanders Unit Assessment Tool.                    148	 CSTC-A, response to SIGAR data call, 12/30/2013.
           104	 IJC, response to SIGAR data call, 9/30/2013; SIGAR, Audit           149	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                Report 10-11: Actions Needed to Improve the Reliability of               Subaccounts December 2013,” 1/18/2014.
                Afghan Security Force Assessments, 6/29/2010, p. 2.                 150	 NTM-A, response to SIGAR data call, 12/30/2013.




                                                             222                    Special inspector general       I   Afghanistan reconstruction




Jan2014_QR.indb 222                                                                                                                                        1/24/2014 11:08:39 AM
                                                                              Endnotes




                      151	 NTM-A, response to SIGAR data call, 12/30/2013.                   187	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                      152	 NTM-A, response to SIGAR data call, 12/30/2013.                        Subaccounts December 2013,” 1/18/2014.
                      153	 SIGAR, Audit Report 14-30-AR: Afghan National Security            188	 CSTC-A, response to SIGAR data call, 12/30/2013.
                           Forces: Despite Reported Successes, Concerns Remain about         189	 CSTC-A, response to SIGAR data call, 12/30/2013.
                           Literacy Program Results, Contract Oversight, Transition,         190	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
                           and Sustainment, 1/2014.                                               Subaccounts December 2013,” 1/18/2014.
                      154	 LTG William B. Caldwell IV, “Security, Capacity, and Literacy,”   191	 NTM-A, response to SIGAR data call, 12/30/2013.
                           Military Review, January–February 2011, p. 23.                    192	 CSTC-A, response to SIGAR data call, 12/30/2013.
                      155	 SIGAR, Audit Report 14-30-AR: Afghan National Security            193	 CSTC-A, response to SIGAR data call, 10/12/2012.
                           Forces: Despite Reported Successes, Concerns Remain about         194	 CSTC-A, response to SIGAR data call, 12/30/2013.
                           Literacy Program Results, Contract Oversight, Transition,         195	 CSTC-A, response to SIGAR data call, 12/30/2013.
                           and Sustainment, 1/2014.                                          196	 CSTC-A, response to SIGAR data call, 12/30/2013.
                      156	 NTM-A, response to SIGAR data call, 10/12/2012.                   197	 CSTC-A, response to SIGAR data call, 12/30/2013.
                      157	 SIGAR, Audit Report 14-30-AR: Afghan National Security            198	 CSTC-A, response to SIGAR data call, 10/1/2013.
                           Forces: Despite Reported Successes, Concerns Remain about         199	 CSTC-A, response to SIGAR data call, 12/31/2013.
                           Literacy Program Results, Contract Oversight, Transition, and     200	 CSTC-A, response to SIGAR data call, 12/31/2013.
                           Sustainment, 1/2014.                                              201	 State, PM/WRA, response to SIGAR data call, 12/30/2013.
                      158	 NTM-A, response to SIGAR data call, 12/31/2013.                   202	 State, PM/WRA, response to SIGAR data call, 12/30/2013.
                      159	 CSTC-A, response to SIGAR data call, 9/30/2013.                   203	 State, PM/WRA, response to SIGAR data call, 12/30/2013.
                      160	 NTM-A, response to SIGAR data call, 12/30/2013.                   204	 State, PM/WRA, response to SIGAR data call, 12/30/2013.
                      161	 CSTC-A, response to SIGAR data call, 7/2/2013.                    205	 CSTC-A, response to SIGAR data call, 1/6/2014.
                      162	 NTM-A, response to SIGAR data call, 12/30/2013.                   206	 CSTC-A, response to SIGAR data call, 1/6/2014.
                      163	 NTM-A, response to SIGAR data call, 12/30/2013.                   207	 CSTC-A, response to SIGAR data call, 1/6/2014.
                      164	 CSTC-A, response to SIGAR data call, 12/30/2013.                  208	 CSTC-A, response to SIGAR data call, 1/6/2014.
                      165	 CSTC-A, response to SIGAR data call, 12/30/2013.                  209	 CSTC-A, response to SIGAR data call, 1/6/2014.
                      166	 CSTC-A, response to SIGAR data call, 12/30/2013.                  210	 CSTC-A, response to SIGAR data call, 1/6/2014.
                      167	 CENTCOM, response to SIGAR data call, 12/30/2013;                 211	UNODC, Afghanistan Opium Survey 2013: Summary
                           CENTCOM, response to SIGAR vetting, 1/13/2014.                         Findings, 11/2013, p. 3.
                      168	 CENTCOM, response to SIGAR data call, 12/30/2013;                 212	UNODC, Afghanistan Opium Survey 2013, December 2013.
                           CENTCOM, response to SIGAR vetting, 1/13/2014.                    213	 United Nations Office on Drugs and Crime (UNODC),
                      169	 CENTCOM, response to SIGAR data call, 12/30/2013;                      Afghanistan Opium Survey 2013, Summary Findings, 11/2013.
                           CENTCOM, response to SIGAR vetting, 1/13/2014.                    214	 United Nations Office on Drugs and Crime (UNODC),
                      170	 DOD OIG, Statement of Ms. Lynne M. Halbrooks, Principal                Afghanistan Opium Survey 2013, Summary Findings, 11/2013.
                           Deputy Inspector General, Department of Defense Inspector         215	DOD, Progress Toward Security and Stability in Afghanistan,
                           General, before the Committee on Oversight and Government              4/2010, p. 9.
                           Reform, 3/19/2013, p. 12.                                         216	 See Appendix B.
                      171	 CENTCOM, response to SIGAR data call, 12/30/2013;                 217	 State, INL, response to SIGAR data call, 6/27/2013.
                           CENTCOM, response to SIGAR vetting, 1/13/2014.                    218	 State, INL, response to SIGAR data call, 1/10/2014.
                      172	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and          219	 State, INL, response to SIGAR data call, 1/10/2014.
                           Subaccounts December 2013,” 1/18/2014.                            220	 State, INL, response to SIGAR data call, 1/10/2014.
                      173	 CSTC-A, response to SIGAR data call, 10/1/2013; CENTCOM,          221	 State, INL, response to SIGAR data call, 1/10/2014.
                           response to SIGAR vetting, 1/15/2015.                             222	 State, INL, response to SIGAR data call, 1/10/2014.
                      174	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and          223	 State, INL, response to SIGAR data call, 1/10/2014.
                           Subaccounts December 2013,” 1/18/2014.                            224	 State, INL, response to SIGAR data call, 1/10/2014.
                      175	 CSTC-A, response to SIGAR data call, 12/30/2013.                  225	 State, INL, response to SIGAR data call, 1/10/2014.
                      176	 CSTC-A, response to SIGAR data call, 12/30/2013.                  226	 State, INL, response to SIGAR data call, 1/10/2014.
                      177	 CSTC-A, response to SIGAR data call, 12/30/2013.                  227	 State, INL, response to SIGAR data call, 1/10/2014.
                      178	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and          228	 State, INL, response to SIGAR data call, 1/10/2014.
                           Subaccounts December 2013,” 1/18/2014.                            229	 CSTC-A, response to SIGAR data call, 12/30/2013.
                      179	 CSTC-A, response to SIGAR data call, 12/30/2013.                  230	 CENTCOM, response to SIGAR data call, 1/9/2014.
                      180	 CSTC-A, responses to SIGAR data calls, 7/2/2013 and 10/1/2013.    231	 DEA, response to SIGAR request for information, 11/2013.
                      181	 CSTC-A, response to SIGAR data call, 10/1/2013.                   232	 Department of Defense, Report on Progress Toward Security
                      182	 CSTC-A, response to SIGAR data call, 12/30/2013.                       and Stability in Afghanistan, 11/2013.
                      183	 CSTC-A, response to SIGAR data call, 7/2/2013.                    233	 CENTCOM, response to SIGAR data call, 1/9/2014.
                      184	 CSTC-A, response to SIGAR data call, 10/1/2013.                   234	 DOD, response to SIGAR data call, 12/30/2013.
                      185	 CSTC-A, response to SIGAR data call, 12/30/2013.                  235	 State, INL, response to SIGAR data call, 1/10/2014.
                      186	 CSTC-A, response to SIGAR data call, 12/30/2013.                  236	 DOD, response to SIGAR data call, 12/30/2013.
                                                                                             237	 DOD, response to SIGAR data call, 12/30/2013.




                      Report to the united states congress         I   January 30, 2014                  223



Jan2014_QR.indb 223                                                                                                                                   1/24/2014 11:08:39 AM
                                                                    Endnotes




           238	   State, INL, response to SIGAR data call, 1/10/2014.               261	 National Democratic Institute, “Statement of the NDI Pre-
           239	   DOD, response to SIGAR data call, 12/30/2013.                          Election Delegation to Afghanistan,” 12/9/2013, p. 7.
           240	   State, INL, response to SIGAR data call, 1/10/2014.               262	 Thomas Ruttig, “Some Things Got Better - How Much Got
           241	   See Appendix B in this report.                                         Good? A Review of 12 Years of International Intervention in
           242	   ATR Consulting, Voting Intentions: 2014 Presidential Elections,        Afghanistan,” 12/30/2013, p. 4.
                  12/2013, p. 6; Glevum Associates, “Afghanistan Presidential       263	 USAID, ODG, response to SIGAR data call, 12/30/2013.
                  Election 2014 Poll Results (Wave 1),” 12/2013, p. 15; The New     264	 Thomas Ruttig, “Some Things Got Better - How Much Got
                  York Times, “Polling Comes to Afghanistan, Suggesting Limit            Good? A Review of 12 Years of International Intervention in
                  to Sway of President Karzai,” 12/28/2013, accessed 12/30/2013;         Afghanistan,” 12/30/2013, p. 4.
                  NPR,” Will Afghan Polling Data Help Alleviate Election Fraud?,”   265	 The Associated Press, “Officials: Days before deadline, only a
                  1/6/2014, accessed 1/8/2014; The Asia Foundation, Afghanistan          quarter of eligible Afghans registered for 2014 vote” 11/6/2013,
                  in 2013: A Survey of the Afghan People, 12/2013, p. 121.               accessed 11/7/2013.
           243	   ToloNews, “MPs Approve Five New Ministers to Cabinet,”            266	 The Associated Press, “Afghan election season off to a messy
                  12/25/2013, accessed 12/26/2013.                                       start,” 11/20/2013, accessed 11/21/2013.
           244	   The Washington Post, “Prisoner release threatens U.S.-Afghan      267	 ToloNews, “ECC Bars 10,000 from Election Work,” 12/6/2013,
                  ties,” 1/9/2014, accessed 1/9/2014.                                    accessed 12/7/2013.
           245	   UNAMA, A Way to Go: An Update on Implementation of the            268	 Pajhwok, “Ex-election workers not to be hired: Hotaki,”
                  Law on Elimination of Violence against Women in Afghanistan,           12/15/2013, accessed 12/16/2013.
                  12/2013, pp. 2–3.                                                 269	 UNDP, Enhancing Legal and Electoral Capacity for Tomorrow -
           246	   James Dobbins, “Testimony Before the Senate Foreign                    Phase II Update, 12/20/2013, p. 5.
                  Relations Committee,” 12/10/2013, p. 6.                           270	 National Democratic Institute, “Statement of the NDI Pre-
           247	   United Nations Secretary-General, The Situation in                     Election Delegation to Afghanistan,” 12/9/2013, p. 5.
                  Afghanistan and its Implications for International Peace and      271	 Pajhwok, “FFEFA to hire 10,000 poll observers,” 12/17/2013,
                  Security, 12/6/2013, p. 13.                                            accessed 12/18/2013.
           248	   United Nations Secretary-General, The Situation in                272	 USAID, ODG, response to SIGAR data call, 12/30/2013.
                  Afghanistan and its Implications for International Peace and      273	 UNDP, Enhancing Legal and Electoral Capacity for Tomorrow -
                  Security, 12/6/2013, pp. 2, 13.                                        Phase II Update, 12/20/2013, pp. 3, 5.
           249	   ToloNews, “IEC Announces Final List of Candidates for 2014        274	 State, response to SIGAR data call, 12/30/2013; Independent
                  Election,” 11/20/2013, accessed 11/21/2013.                            Joint Anti-Corruption Monitoring & Evaluation Committee,
           250	   United Nations Secretary-General, The Situation in                     “IEC must develop campaign financing regulations to ensure
                  Afghanistan and its Implications for International Peace and           that candidates do not run illegal campaigns,” 11/4/2013, p. 1.
                  Security, 12/6/2013, p. 13.                                       275	 Independent Joint Anti-Corruption Monitoring & Evaluation
           251	   ToloNews, “War Criminals Among Candidates: ECC,”                       Committee, “IEC must develop campaign financing regula-
                  12/28/2013, accessed 12/29/2013.                                       tions to ensure that candidates do not run illegal campaigns,”
           252	   ToloNews, “ECC to Refer Candidate Criminal Cases to Courts             11/4/2013, p. 1; Da Afghanistan Bank, “Daily Exchange Rate,”
                  Next Week,” 1/2/2014, accessed 1/3/2014.                               1/16/2014, accessed 1/16/2014.
           253	   ToloNews, “Attorney General Drops Candidate Investigations,”      276	 National Democratic Institute, “Statement of the NDI Pre-
                  1/15/2014, accessed 1/16/2014.                                         Election Delegation to Afghanistan,” 12/9/2013, p. 6;Democracy
           254	   National Democratic Institute, “Statement of the NDI Pre-              International, A Review of Suspected Electoral Fraud, 4/2010,
                  Election Delegation to Afghanistan,” 12/9/2013, pp. 1–2.               pp. 25, 28–29.
           255	   National Democratic Institute, “Statement of the NDI Pre-         277	 National Democratic Institute, “Statement of the NDI Pre-
                  Election Delegation to Afghanistan,” 12/9/2013, p. 6.                  Election Delegation to Afghanistan,” 12/9/2013, p. 5.
           256	   ATR Consulting, Voting Intentions: 2014 Presidential              278	 National Democratic Institute, “Statement of the NDI Pre-
                  Elections, 12/2013, p. 6; Glevum Associates, “Afghanistan              Election Delegation to Afghanistan,” 12/9/2013, p. 7.
                  Presidential Election 2014 Poll Results (Wave 1),” 12/2013,       279	 National Democratic Institute, “Statement of the NDI Pre-
                  p. 15; The New York Times, “Polling Comes to Afghanistan,              Election Delegation to Afghanistan,” 12/9/2013, p. 7.
                  Suggesting Limit to Sway of President Karzai,” 12/28/2013,        280	 ToloNews, “More than 90 percent of polling centers will open
                  accessed 12/30/2013; NPR,” Will Afghan Polling Data Help               election day: MoI,” 1/11/2014, accessed 1/12/2014.
                  Alleviate Election Fraud?,” 1/6/2014, accessed 1/8/2014.          281	 Democracy International, A Review of Suspected Electoral
           257	   NPR,” Will Afghan Polling Data Help Alleviate Election Fraud?”         Fraud, 4/2010, pp. 25, 28–29.
                  1/6/2014, accessed 1/8/2014.                                      282	 State, response to SIGAR data call, 12/30/2013.
           258	   The Asia Foundation, Afghanistan in 2013: A Survey of the         283	 United States Institute of Peace, “Electoral Offensive: Taliban
                  Afghan People, 12/2013.                                                Planning for Afghanistan’s 2014 National Elections,” 11/22/2013,
           259	   The Asia Foundation, Afghanistan in 2013: A Survey of the              pp. 2–3.
                  Afghan People, 12/2013.                                           284	 United States Institute of Peace, “Electoral Offensive: Taliban
           260	   The Asia Foundation, Afghanistan in 2013: A Survey of the              Planning for Afghanistan’s 2014 National Elections,” 11/22/2013,
                  Afghan People, 12/2013, p. 121.                                        p. 4.




                                                              224                   Special inspector general       I   Afghanistan reconstruction




Jan2014_QR.indb 224                                                                                                                                         1/24/2014 11:08:39 AM
                                                                              Endnotes




                      285	 ToloNews, “Hikmatyar Looks to Rally Supports for Votes,”           314	 USAID, ODG, response to SIGAR data call, 12/30/2013.
                           1/14/2014, accessed 1/16/2014.                                     315	 U.S. Special Operations Command, Fact Book, 2013, p. 29.
                      286	 State, response to SIGAR data call, 1/2/2014.                      316	 DOD, response to SIGAR data call, 1/8/2014; DOD, response to
                      287	 National Democratic Institute, “Statement of the NDI Pre-               SIGAR data call, 1/7/2014; DOD, Report on Progress Toward
                           Election Delegation to Afghanistan,” 12/9/2013, p. 7.                   Security and Stability in Afghanistan, 7/2013, p. 97; DOD, Report
                      288	 State, response to SIGAR data call, 1/2/2014.                           on Progress Toward Security and Stability in Afghanistan,
                      289	 USAID, U.S. Foreign Assistance for Afghanistan: Post                    11/2013, p. 72.
                           Performance Management Plan 2011–2015, 10/2010, p. 3.              317	 USAID, “Stabilization,” 1/6/2013, accessed 1/7/2014.
                      290	 USAID, U.S. Foreign Assistance for Afghanistan: Post               318	 SIGAR, Stability in Key Areas (SIKA) Programs: After 16
                           Performance Management Plan 2011–2015, 10/2010, p. 123.                 Months and $47 Million Spent, USAID Had Not Met Essential
                      291	 Government of Afghanistan, “Communiqué: Conference                      Program Objectives, 7/2013, p. 7.
                           Outcomes, Contributions and Participants,” 1/28/2010, p. 5; “The   319	 Ministry of Rural Rehabilitation and Development, “The
                           Tokyo Declaration: Partnership for Self-Reliance in Afghanistan         Kandahar Model,” 2010, p. 2.
                           from Transition to Transformation,” 7/8/2012, accessed             320	 SIGAR, Stability in Key Areas (SIKA) Programs: After 16
                           11/5/2013.                                                              Months and $47 Million Spent, USAID Had Not Met Essential
                      292	 United Nations, Letter dated 9 July 2012 from the                       Program Objectives, 7/2013, p. 18; USAID, STAB-U, response to
                           Representatives of Afghanistan and Japan to the United Nations          SIGAR data call, 12/30/2013.
                           addressed to the Secretary-General, 7/12/2012, pp. 5–6, 13.        321	 USAID, STAB-U, response to SIGAR data call, 12/30/2013.
                      293	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has         322	 USAID, STAB-U, response to SIGAR data call, 12/30/2013.
                           Taken Positive Action to Assess Afghan Ministries’ Ability to      323	 USAID, STAB-U, response to SIGAR data call, 12/30/2013.
                           Manage Donor Funds, but Weaknesses Remain, 1/2014.                 324	 Management Systems International, USAID Stabilization M&E
                      294	 USAID, OPPD, response to SIGAR data call, 12/30/2013.                   Summit V, 8/2013, p. 10.
                      295	 USAID, response to SIGAR data call, 12/31/2013.                    325	 USAID, STAB-U, response to SIGAR data call, 12/30/2013.
                      296	 USAID, OPPD, response to SIGAR data call, 12/30/2013.              326	 USAID, OTI, response to SIGAR data call, 12/30/2013.
                      297	 USAID, U.S. Foreign Assistance for Afghanistan: Post               327	 USAID, OTI, response to SIGAR data call, 12/30/2013.
                           Performance Management Plan 2011–2015, 10/2010, p. 124.            328	 USAID, OTI, response to SIGAR data call, 12/30/2013.
                      298	 USAID, OPPD, response to SIGAR data call, 12/30/2013; USAID,       329	 USAID Office of Transition Initiatives, Community Cohesion
                           U.S. Foreign Assistance for Afghanistan: Post Performance               Initiative Annual Report, 9/2013, pp. 6, 8.
                           Management Plan 2011–2015, 10/2010, p. 7.                          330	 USAID, OTI, response to SIGAR data call, 12/30/2013.
                      299	 USAID, OPPD, response to SIGAR data call, 12/30/2013.              331	 USAID, OTI, Community Cohesion Initiative Annual Report,
                      300	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 124.                 9/2013, p. 6.
                      301	 Management Sciences for Health, “Leadership, Management,           332	 Committee on Foreign Relations (Senate), Evaluating U.S.
                           and Governance Project in Afghanistan,” 7/15/2013, accessed             Foreign Assistance to Afghanistan, 6/08/2011, p. 26.
                           1/8/2013.                                                          333	 Committee on Foreign Relations (Senate), Evaluating U.S.
                      302	 USAID, Cooperative Agreement No. AID-306-A-13-00001,                    Foreign Assistance to Afghanistan, 6/08/2011, p. 26.
                           Ministry of Women’s Affairs Organizational Restructuring and       334	 SIGAR Audit 11-08: Afghanistan’s National Solidarity
                           Empowerment (MORE), 12/20/2012, pp. 29–30.                              Program Has Reached Thousands of Afghan Communities,
                      303	 USAID, Contract No. AID-OAA-I-12-00003/AID-306-TO-13-00004,             but Faces Challenges that Could Limit Outcomes, 3/22/2011.
                           3/28/2013, p. 11.                                                  335	 USAID, OPPD, response to SIGAR vetting, 1/14/2014.
                      304	 National Assembly, Legislative Manual, accessed 1/15/2014, p. 6.   336	 World Bank, Emergency Project Paper on a Proposed Grant
                      305	 USAID, Contract No. AID-OAA-I-12-00003/AID-306-TO-13-00004,             in the Amount of SDR 27.2 Million (US$40 Million Equivalent)
                           3/28/2013, p. 9.                                                        to the Islamic Republic of Afghanistan for a Third Emergency
                      306	 DAI, Assistance to Legislative Bodies of Afghanistan                    National Solidarity Project, 6/10/2010, pp. 3, 14.
                           Monthly Report, 10/2013, pp. 11–12. World Bank, Afghanistan        337	 SIGAR Audit 11-08: Afghanistan’s National Solidarity
                           Reconstruction Trust Fund Annual Report: March 20 to                    Program Has Reached Thousands of Afghan Communities,
                           December 20, 2012, 12/2012, p. 4; Da Afghanistan Bank, “Daily           but Faces Challenges that Could Limit Outcomes, 3/22/2011,
                           Exchange Rate,” 12/20/2012, accessed 1/15/2014.                         pp. 23–24.
                      307	 State, response to SIGAR data call, 12/27/2013.                    338	 Ministry of Rural Rehabilitation and Development, NSP
                      308	 State, response to SIGAR data call, 12/27/2013.                         Quarterly Report, 9/22/2013, pp. 12–14.
                      309	 ToloNews, “MPs Approve Five New Ministers to Cabinet,”             339	 Ministry of Rural Rehabilitation and Development, National
                           12/25/2013, accessed 12/26/2013.                                        Solidarity Program Operational Manual Version Six: Annex H -
                      310	 USAID, U.S. Foreign Assistance for Afghanistan: Post                    High Risk Areas Implementation Strategy (HRAIS), 8/14/2012,
                           Performance Management Plan 2011–2015, 10/2010, p. 25.                  pp. 4–7.
                      311	 DOD, response to SIGAR data call, 9/30/2013.                       340	 SIGAR Audit 11-08: Afghanistan’s National Solidarity
                      312	 The last response SIGAR received was from September 2012                Program Has Reached Thousands of Afghan Communities,
                           and was not disaggregated by province or district. See SIGAR,           but Faces Challenges that Could Limit Outcomes, 3/22/2011,
                           Quarterly Report to Congress, 10/30/2012, pp. 108–109.                  p. 22.
                      313	 USAID, ODG, response to SIGAR data call, 12/30/2013.               341	 USAID, OPPD, response to SIGAR data call, 12/30/2013.




                      Report to the united states congress         I   January 30, 2014                    225



Jan2014_QR.indb 225                                                                                                                                          1/24/2014 11:08:39 AM
                                                                 Endnotes




           342	 International City/County Management Association,               367	 United Nations Security Council Committee established pursu-
                “Afghanistan Municipal Strengthening Program,” accessed              ant to resolution 1988, Third report of the Analytical Support
                1/9/2014; International City/County Management Association,          and Sanctions Monitoring Team, submitted pursuant to resolu-
                “Regional Afghan Municipalities Program for Urban                    tion 2082 (2012) concerning the Taliban and other associated
                Populations,” accessed 1/9/2014; USAID, response to SIGAR            individuals and entities constituting a threat to the peace, stabil-
                data call, 1/7/2014.                                                 ity and security of Afghanistan, 11/11/2013, p. 6.
           343	 USAID, “Regional Afghanistan Municipalities Program for         368	 Congressional Research Service, War in Afghanistan: Campaign
                Urban Populations,” 9/3/2013, accessed 1/8/2014.                     Progress, Political Strategy, and Issues for Congress, 12/17/2013,
           344	 Checchi and Company Consulting, Inc., Performance                    p. 9.
                Evaluation: Regional Afghan Municipalities Program for Urban    369	 State, response to SIGAR data call, 12/27/2013.
                Populations, 8/2013, p. 51.                                     370	 The Wall Street Journal, “Pakistan, Afghanistan Leaders Meet
           345	 Checchi and Company Consulting, Inc., Performance                    to Jump-Start Taliban Peace Talks,” 11/30/2013, accessed
                Evaluation: Regional Afghan Municipalities Program for Urban         12/1/2013.
                Populations, 8/2013, p. 51.                                     371	 Afghanistan Analysts Network, “Meeting Mullah Baradar ... or
           346	 World Bank, Intergovernmental Fiscal Relations and                   Maybe Not: Confusion over Taleban Talks,” 12/3/2013, accessed
                Subnational Expenditures in Afghanistan, 8/2008, pp. 4–5, 13,        12/4/2013.
                32.                                                             372	 High Peace Council, Remarks by Mr. Salahuddin Rabbani,
           347	 Checchi and Company Consulting, Inc., Performance                    Chairman of the High Peace Council of the Islamic Republic
                Evaluation: Regional Afghan Municipalities Program for               of Afghanistan at the Security Council’s 1988 Sanctions
                Urban Populations, 8/2013, p. 28.                                    Committee, 12/17/2013, p. 3; The Wall Street Journal, “Pakistan,
           348	 Checchi and Company Consulting, Inc., Performance                    Afghanistan Leaders Meet to Jump-Start Taliban Peace Talks,”
                Evaluation: Regional Afghan Municipalities Program for Urban         11/30/2013, accessed 12/01/2013; United Nations Secretary-
                Populations, 8/2013, p. 28.                                          General, The Situation in Afghanistan and its Implications
           349	 Checchi and Company Consulting, Inc., Performance                    for International Peace and Security, 12/6/2013, p. 16; The Wall
                Evaluation: Regional Afghan Municipalities Program for Urban         Street Journal, “Pakistan, Afghanistan Leaders Meet to Jump-
                Populations, 8/2013, p. 28.                                          Start Taliban Peace Talks,” 11/30/2013, accessed 12/1/2013;
           350	 Checchi and Company Consulting, Inc., Performance                    “HPC Unable to Meet with Baradar,” 11/27/2013, accessed
                Evaluation: Regional Afghan Municipalities Program for Urban         11/28/2013; ToloNews, “AHPC Delegation to Meet Mullah
                Populations, 8/2013, p. 27.                                          Baradar,” 12/10/2013, accessed 12/11/2013.
           351	 Checchi and Company Consulting, Inc., Performance               373	 ToloNews, “HPC Pushing Peace in Saudi Arabia,” 12/28/2013,
                Evaluation: Regional Afghan Municipalities Program for Urban         accessed 12/29/2013.
                Populations, 8/2013, pp. 14–15.                                 374	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 122.
           352	 USAID, ODG, response to SIGAR data call, 12/30/2013.            375	 State, response to SIGAR vetting, 1/14/2014.
           353	 USAID, ODG, response to SIGAR data call, 12/30/2013.            376	 DOD, Report on Progress Toward Security and Stability in
           354	 Checchi and Company Consulting, Inc., Performance                    Afghanistan, 11/2013, p. 29.
                Evaluation: Regional Afghan Municipalities Program for Urban    377	 State, response to SIGAR vetting, 1/14/2014.
                Populations, 8/2013, p. 28.                                     378	 DOD, FRIC, response to SIGAR data call, 12/31/2013; Ronna,
           355	 World Bank, Intergovernmental Fiscal Relations and                   “Mission of the F-RIC,” accessed 1/07/2013.
                Subnational Expenditures in Afghanistan, 8/2008, pp. 4–5.       379	 SIGAR, Interview of NSP facilitating partner management
           356	 USAID, OEGI, response to SIGAR data call, 12/30/2013.                (SIGAR 023A), 8/3/2010, p. 4.
           357	 Ministry of Finance, Provincial Budgeting Pilot Concept Note,   380	 DOD, FRIC, response to SIGAR data call, 12/31/2013.
                02/2012, p. 2.                                                  381	 State, response to SIGAR vetting, 1/14/2014; DOD, FRIC,
           358	 USAID, OEGI, response to SIGAR data call, 12/30/2013.                response to SIGAR data call, 12/31/2013.
           359	 USAID, OEGI, response to SIGAR data call, 12/30/2013.           382	 DOD, FRIC, response to SIGAR data call, 12/31/2013.
           360	 USAID, OPPD, response to SIGAR vetting, 1/14/2014.              383	 DOD, FRIC, response to SIGAR data call, 12/31/2013.
           361	 Ministry of Finance, Tokyo Mutual Accountability Framework      384	 DOD, FRIC, response to SIGAR data call, 12/31/2013; State,
                Status Report on Annex I, 9/2013, p. 10.                             response to SIGAR vetting, 1/14/2014.
           362	 Ministry of Finance, Tokyo Mutual Accountability Framework      385	 Office of the President of the Islamic Republic of Afghanistan,
                Senior Officials Meeting Joint Report, 7/3/2013, p. 12.              “Decree on the execution of content of the historical speech
           363	 Ministry of Finance, Provincial Budgeting Pilot Concept Note,        of June 21, 2012 in the special session of National Assembly,”
                2/2012, p. 2.                                                        6/21/2012, accessed 11/13/2013.
           364	 USAID, OEGI, response to SIGAR data call, 12/30/2013; USAID,    386	 State, response to SIGAR data call, 12/30/2013.
                OPPD, response to SIGAR vetting, 1/14/2014.                     387	 State, response to SIGAR data call, 12/30/2013.
           365	 DOD/State, U.S. Civil-Military Strategic Framework for          388	 State, response to SIGAR data call, 12/30/2013.
                Afghanistan: Revision 2, 8/2013, p. 12.                         389	 The Asia Foundation, Afghanistan in 2013: A Survey of the
           366	 United Nations Secretary-General, The Situation in                   Afghan People, 12/5/2013, pp. 82, 86–87.
                Afghanistan and its Implications for International Peace and    390	 USAID, ODG, response to SIGAR data call, 12/30/2013.
                Security, 12/06/2013, p. 14.                                    391	 USAID, ODG, response to SIGAR data call, 12/30/2013.




                                                           226                  Special inspector general         I   Afghanistan reconstruction




Jan2014_QR.indb 226                                                                                                                                         1/24/2014 11:08:39 AM
                                                                             Endnotes




                      392	 State, INL, response to SIGAR data call, 1/09/2014.               430	 Afghanistan Research and Evaluation Unit, Women’s Economic
                      393	 SIGAR, Audit Report 14-26-AR: Support for Afghanistan’s                Empowerment in Afghanistan, 2002–2012 Information Mapping
                           Justice Sector: State Department Programs Need Better                  and Situational Analysis, 11/2013, pp. 22, 24.
                           Management and Stronger Oversight, 1/2014; State, INL,            431	 The Asia Foundation, Afghanistan in 2013: A Survey of the
                           response to vetting, 1/17/2014.                                        Afghan People, 12/2013, p. 106–107.
                      394	 State, response to SIGAR data call, 12/30/2013; State, response   432	 State, response to SIGAR data call, 12/30/2013.
                           to SIGAR data call, 9/26/2013.                                    433	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 142; State,
                      395	 USAID, ODG, response to SIGAR data call, 12/30/2013.                   response to SIGAR data call, 12/30/2013.
                      396	 State, response to SIGAR data call, 12/30/2013.                   434	 UNHCR, Eligibility Guidelines for Assessing the International
                      397	 State, response to SIGAR data call, 12/30/2013.                        Protection Needs of Asylum-Seekers from Afghanistan,
                      398	 State, response to SIGAR data call, 12/30/2013.                        8/6/2012, p. 27.
                      399	 State, INL, response to SIGAR data call, 1/9/2014.                435	 Human Rights Watch, Unwelcome Guests: Iran’s Violation of
                      400	 State, INL, response to SIGAR data call, 1/9/2014.                     Afghan Refugee and Migrant Rights, 11/2013, pp. 1–2.
                      401	 State, INL, response to SIGAR data call, 1/9/2014.                436	 Human Rights Watch, Unwelcome Guests: Iran’s Violation of
                      402	 State, INL, response to SIGAR data call, 1/9/2014.                     Afghan Refugee and Migrant Rights, 11/2013, pp. 2–3.
                      403	 Transparency International, Corruption Perceptions Index 2013:    437	 Human Rights Watch, Unwelcome Guests: Iran’s Violation of
                           Full Source Description, 2013, pp. 3, 6, 11.                           Afghan Refugee and Migrant Rights, 11/2013, p. 3.
                      404	 The Asia Foundation, Afghanistan in 2013: A Survey of the         438	 State, response to SIGAR data call, 12/30/2013.
                           Afghan People, 12/5/2013, pp. 80–81.                              439	 Office of the UN High Commissioner for Human Rights,
                      405	 Institute for War and Peace Reporting, “Afghan Mayor Accused           “Opening remarks by UN High Commissioner for Human
                           of Grand Theft,” 1/8/2014, accessed 1/9/2014.                          Rights Navi Pillay at a press conference during her visit to
                      406	 State, INL, response to SIGAR data call, 1/9/2014.                     Afghanistan,” 9/17/2013, accessed 9/17/2013; International
                      407	 State, response to SIGAR data call, 1/9/2014.                          Coordinating Committee of National Institutions for the
                      408	 State, INL, response to SIGAR data call, 1/9/2014.                     Promotion and Protection of Human Rights, “Chart of the
                      409	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 137.                Status of National Institutions,” 2/11/2013, accessed 10/7/2013.
                      410	 State, response to SIGAR data call, 1/9/2014.                     440	 State, response to SIGAR data call, 12/30/2013.
                      411	 State, INL, response to SIGAR data call, 1/9/2014.                441	 MOF, “1392 Monthly Fiscal Bulletin, Month 9,” 11/5/2013,
                      412	 Independent Joint Anti-Corruption Monitoring and Evaluation            accessed 12/31/2013.
                           Committee, “AISA’s Ambiguous Legal Status and Lack of             442	 World Bank, “Afghanistan Partnership: Country Program
                           Accountability Lead to Mismanagement of Government                     Snapshot,” 8/29/2013.
                           Resources,” 1/11/2014, pp. 1–2.                                   443	 MOF, “1393 National Budget Approved by WJ,” 1/18/2014; MOF,
                      413	 USAID, ODG, response to SIGAR data call, 12/30/2013.                   “1392 National Budget,” accessed 1/19/2014.
                      414	 USAID, ODG, response to SIGAR data call, 12/30/2013.              444	 Treasury, response to SIGAR data call, 12/30/2013.
                      415	 World Bank, ARTF Incentive Program 1391-1393 Annex 1:             445	 DOJ, response to SIGAR data call, 12/16/2013 and 1/4/2014;
                           Framework for the Incentive Program Under the Recurrent                DAB, Report on Kabul Bank Asset Recovery, 9/30/2013 (pub-
                           Cost Window, 2012, p. 1.                                               lished, after approval, on 11/1/2013).
                      416	 USAID, ODG, response to SIGAR data call, 12/30/2013.              446	 TFBSO, response to SIGAR data call, 9/30/2013.
                      417	 World Bank, ARTF Incentive Program 1391-1393 Annex 1:             447	 World Bank, South Asia Economic Focus, Fall 2013, p. 39,
                           Framework for the Incentive Program Under the Recurrent                accessed 10/10/2013.
                           Cost Window, 2012, p. 10.                                         448	 World Bank “World Development Indicators, World Bank National
                      418	 USAID, ODG, response to SIGAR data call, 12/30/2013.                   Accounts Data, and OECD National Accounts Data Files,”
                      419	 Supreme Audit Office, “Summary of the reports of the Auditor           accessed 1/10/2014; World Bank, Afghanistan Economic Update,
                           General of Compliance Audit of four ministries to fulfill the          10/2013; ADB, Outlook 2013, Update, pp. 107–108, 10/2013; World
                           ARTF-IP benchmarks criteria, 1392 for the Supreme Audit                Bank, “Afghanistan Partnership: Country Program Snapshot,”
                           Office (SAO),” 11/17/2013, accessed 1/5/2014.                          8/29/2013; IMF, World Economic Outlook, 10/2013.
                      420	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 137.           449	 World Bank, Afghanistan Economic Update, p. 17, 4/2013;
                      421	 USAID, ODG, response to SIGAR data call, 12/30/2013.                   World Bank, “Afghanistan Partnership: Country Program
                      422	 USAID, ODG, response to SIGAR data call, 12/30/2013.                   Snapshot,” 8/29/2013.
                      423	 USAID, ODG, response to SIGAR data call, 12/30/2013.              450	 World Bank, Afghanistan Economic Update, 4/2013, pp. 4, 17.
                      424	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.             451	ADB, Outlook 2013, Update, pp. 107–108, 10/2013.
                      425	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.             452	 World Bank, “Afghanistan Partnership: Country Program
                      426	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.                  Snapshot,” 8/29/2013.
                      427	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.             453	 World Bank, Afghanistan Economic Update, 4/2013, pp. 4,
                      428	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.                  17; World Bank, Afghanistan In Transition: Looking Beyond
                      429	 UNAMA, A Way to Go: An Update on Implementation of the                 2014, 2/28/2013, accessed 7/4/2013; ADB, Outlook 2013, Update,
                           Law on Elimination of Violence against Women in Afghanistan,           pp. 107–108, 10/2013; World Bank, Afghanistan Economic
                           12/2013, pp. 2–3.                                                      Update, 10/2013.




                      Report to the united states congress        I   January 30, 2014                    227



Jan2014_QR.indb 227                                                                                                                                        1/24/2014 11:08:40 AM
                                                                   Endnotes




           454	 World Bank, Afghanistan Economic Update, 10/2013; World            479	 State, response to SIGAR data call, 1/2/2014.
                Bank, “Afghanistan Partnership: Country Program Snapshot,”         480	 UN Secretary-General, The Situation in Afghanistan and its
                8/29/2013.                                                              Implications for International Peace and Security, 12/6/2013.
           455	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed       481	 State, response to SIGAR data call, 1/2/2014.
                10/10/2013.                                                        482	 SIGAR, Special Project Report 13-9-SP: U.S. Anti-Corruption
           456	 DOD, Report on Progress Toward Security and Stability in                Efforts: A Strategic Plan and Mechanisms to Track Progress
                Afghanistan, 7/2013, p. 133.                                            Are Needed in Fighting Corruption in Afghanistan, 9/2013.
           457	 World Bank, Afghanistan Economic Update, 10/2013.                  483	 World Bank, Afghanistan Economic Update, 4/2013, p. 11.
           458	 World Bank, “Afghanistan, From Transition to Transformation        484	 SIGAR, Audit 14-16: Afghanistan’s Banking Sector: Central Bank’s
                II, Senior Officials Meeting,” 7/2/2013; DoD, Report on Progress        Capacity to Regulate Commercial Banks Remains Weak, 1/8/2014.
                Toward Security and Stability in Afghanistan, 7/2013, p. 133.      485	 Treasury, response to SIGAR data call, 12/30/2013; Treasury,
           459	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed            responses to SIGAR vetting, 1/14/2014 and 1/16/2014.
                10/10/2013.                                                        486	 World Bank, Afghanistan Economic Update, 4/2013, p. 11.
           460	 MOF, “1393 National Budget Approved by WJ,” 1/18/2014; MOF,        487	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.
                “1392 National Budget,” accessed 1/19/2014.                        488	 State, response to SIGAR data call, 9/26/2013.
           461	 MOF, “1392 National Budget,” accessed 10/17/2013; Da               489	 Treasury, response to SIGAR data call, 12/30/2013; Financial
                Afghanistan Bank, “Daily Exchange Rates of Selected                     Action Task Force, “Improving Global AML/CFT Compliance:
                Currencies to Afghani,” 1/8/2013, accessed 10/17/2013.                  On-going Process, Afghanistan,” 6/21/2013.
           462	 MOF, “1392 Monthly Fiscal Bulletin, Month 9,” 11/5/2013,           490	 Treasury, response to SIGAR data call, 12/30/2013; Treasury,
                accessed 12/31/2013.                                                    response to SIGAR vetting, 1/16/2014; Yaroslav Trofimov,
           463	 World Bank, “Afghanistan Partnership: Country Program                   “Afghan Banks Face New Dollar Troubles,” WSJ, 1/13/2013.
                Snapshot,” 8/29/2013.                                              491	 State, response to SIGAR data call, 9/26/2013.
           464	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed       492	 Da Afghanistan Bank, “Daily Exchange Rates of Selected
                10/10/2013.                                                             Currencies to the Afghani,” 1/5/2014, http://www.centralbank.
           465	 European Commission, Directorate-General for Trade,                     gov.af/foreignexchange.php.
                “European Union, Trade in Goods with Afghanistan,” 7/11/2013,      493	 Treasury, response to SIGAR vetting, 1/14/2014.
                accessed 1/10/2014.                                                494	 Treasury, response to SIGAR data call, 12/30/2013.
           466	 World Bank, Afghanistan Economic Update, 10/2013.                  495	 DOJ, response to SIGAR data call, 12/16/2013 and 1/4/2014.
           467	 Tokyo Conference on Afghanistan, Tokyo Mutual                      496	 Independent Joint Anti-Corruption Monitoring and Evaluation
                Accountability Framework, 7/8/2012, accessed 12/31/2013.                Committee, Report of the Public Inquiry Into the Kabul Bank
           468	 State, response to SIGAR data call, 12/29/2013; State, response         Crisis, 11/15/2012, pp. 54–55.
                to SIGAR vetting, 1/14/2014.                                       497	 Independent Joint Anti-Corruption Monitoring and Evaluation
           469	 IMF, “IMF Executive Board Completes First Review Under the              Committee, Report of the Public Inquiry Into the Kabul Bank
                Extended Credit Facility Arrangement for the Islamic Republic           Crisis, 11/15/2012, p. 2.
                of Afghanistan, Approves US$18.2 Million Disbursement,”            498	 DOJ, response to SIGAR data call, 12/16/2013 and 1/4/2014;
                6/29/2012, accessed 7/3/2013; IMF, Islamic Republic of                  USIP, Kabul Bankrupt? Verdict Portends Broad Consequences
                Afghanistan-First Review Under the Extended Credit Facility             for Afghanistan, 3/11/2013, accessed 12/30/2013.
                Arrangement, Request for Waiver of Nonobservance of a per-         499	 DOJ, response to SIGAR data call, 12/16/2013.
                formance Criterion, Modification of Performance Criteria,          500	 Treasury, response to SIGAR data call, 12/30/2013; State,
                and Rephasing of Disbursements, 6/19/2012, accessed 7/3/2013;           response to SIGAR data call, 12/29/2013.
                Treasury, response to SIGAR vetting, 7/12/2013.                    501	DAB, Report on Kabul Bank Asset Recovery, 9/30/2013 (pub-
           470	 Treasury, response to SIGAR data call, 12/30/2013.                      lished, after approval, on 11/1/2013).
           471	 Treasury, response to SIGAR data call, 12/30/2013; Treasury,       502	GIROA, Report on Kabul Bank Asset Recovery, 6/30/2013;
                response to SIGAR vetting, 1/14/2014.                                   MOF, Senior Officials Meeting Joint Report, 7/3/2013, accessed
           472	 SIGAR, Audit 14-16: Afghanistan’s Banking Sector: Central               7/16/2013; Independent Joint Anti-Corruption Monitoring and
                Bank’s Capacity to Regulate Commercial Banks Remains                    Evaluation Committee, Fourth Six-Month Report (January 1,
                Weak, 1/8/2014.                                                         2013 – June 30, 2013), 9/28/2013.
           473	DOD, Report on Progress Toward Security and Stability in            503	DAB, Report on Kabul Bank Asset Recovery, 9/30/2013 (pub-
                Afghanistan, 11/2013, accessed 12/29/2013.                              lished, after approval, on 11/1/2013).
           474	 State, response to SIGAR vetting, 1/14/2014.                       504	 Treasury, response to SIGAR data call, 12/30/2013; MOF, “The
           475	 USAID, responses to SIGAR data call, 10/10/2013 and 1/7/2014.           Evaluation Committee of New Kabul Bank Privatization
           476	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has              Declared Technical Evaluation Results and Opened Price Bid,”
                Taken Positive Action to Assess Afghan Ministries’ Ability to           12/29/2013, accessed 1/3/2014.
                Manage Donor Funds, but Weaknesses Remain, 1/2014.                 505	IMF, Islamic Republic of Afghanistan-First Review Under the
           477	 State, “U.S. General Statement for the July 3 Tokyo Mutual              Extended Credit Facility Arrangement, Request for Waiver
                Accountability Framework Senior Officials Meeting,” accessed            of Nonobservance of a Performance Criterion, Modification
                1/5/2014.                                                               of Performance Criteria, and Rephasing of Disbursements,
           478	 State, response to SIGAR data call, 1/2/2014.                           6/19/2012, accessed 7/3/2013.




                                                             228                   Special inspector general       I   Afghanistan reconstruction




Jan2014_QR.indb 228                                                                                                                                        1/24/2014 11:08:40 AM
                                                                               Endnotes




                      506	 Grant Thornton, New Kabul Bank Financial Statements and              532	 State, response to SIGAR data call, 9/26/2013.
                           Auditor’s Report, For the Year Ended December 31, 2012,              533	 TFBSO, response to SIGAR data call, 9/30/2013; TFBSO,
                           7/30/2013.                                                                responses to SIGAR data call, 10/11/2013 and 12/30/2013; State,
                      507	 Treasury, e-mail to SIGAR, 9/30/2013.                                     response to SIGAR data call, 12/29/2013.
                      508	 Treasury, response to SIGAR data call, 3/29/2012; IMF,               534	 TFBSO, response to SIGAR data call, 9/30/2013; TFBSO,
                           Islamic Republic of Afghanistan-First Review Under the                    response to SIGAR data call, 7/3/2013; TFBSO, response to
                           Extended Credit Facility Arrangement, Request for Waiver                  SIGAR data call, 4/2/2013.
                           of Nonobservance of a Performance Criterion, Modification            535	 TFBSO, response to SIGAR data call, 9/30/2013; USAID,
                           of Performance Criteria, and Rephasing of Disbursements,                  response to SIGAR vetting, 1/15/2014.
                           6/19/2012, accessed 7/3/2013.                                        536	 TFBSO, response to SIGAR data call, 9/30/2013.
                      509	 Treasury, response to SIGAR data call, 12/30/2013; Pajhwok           537	 USAID, response to SIGAR data call, 12/31/2013; USAID,
                           Afghan News, “Only Bid for Kabul Bank Rejected,” 3/6/2013.                “Contract No: AID-306-I-00-12-00544,” 3/31/2013.
                      510	 World Bank, Afghanistan Economic Update, 4/2013, p. 4; World         538	 USAID, “Contract No: AID-306-I-00-12-00544,” 3/31/2013.
                           Bank, “Competitiveness and Inclusive Growth for Sustainable          539	 USAID, “Contract No: AID-306-I-00-12-00544,” 3/31/2013.
                           Jobs,” 5/7/2013. p. 20; MOF, “H.E. Finance Minister’s Speech for     540	TFBSO, Task Force for Business and Stability Operations
                           Misrano Jirga Regarding Submission of 1392 National Budget,”              Fiscal Year 2013 Transition Plan and Report on Transition
                           11/6/2012, accessed 10/14/2013.                                           Implementation, p. 1, 8/19/2013.
                      511	 TFBSO, “About, Minerals,” accessed 1/2/2014.                         541	 TFBSO, response to SIGAR data call, 12/30/2013.
                      512	 State, response to SIGAR data call, 12/29/2013; State, response      542	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has
                           to SIGAR vetting, 1/14/2014.                                              Taken Positive Action to Assess Afghan Ministries’ Ability to
                      513	 TFBSO, response to SIGAR data call, 12/30/2013.                           Manage Donor Funds, but Weaknesses Remain, 1/2014.
                      514	 Wolesi Jirga, “The Lower House Votes for Nominees Ministers          543	 MOMP, “Frequently Asked Questions: Tenders,” accessed
                           for Foreign Affairs, Electricity and Water, Commerce and                  10/3/2013.
                           Industry, Counter-Narcotic Ministries, including Nominees            544	 State, response to SIGAR data call, 9/26/2013, 10/1/2012 and
                           Member of Supreme Courts,” 12/25/2013, accessed 1/2/2014.                 12/29/2013; TFBSO, response to SIGAR data call, 9/30/2013.
                      515	 Afghanistan Analysts Network, “Political Landscape, The              545	 TFBSO, response to SIGAR data call, 12/30/2013; State,
                           Last Minute Frenzy of Afghanistan’s Candidate Registration,”              response to SIGAR data call, 12/29/2013; RFE/RL, “Mineral
                           10/6/2013.                                                                Wealth Could harm, Not Aid, Afghanistan’s Future,” 10/2/2013.
                      516	 TFBSO, response to SIGAR data call, 12/30/2013.                      546	 TFBSO, response to SIGAR data call, 12/30/2013.
                      517	 TFBSO, response to SIGAR data call, 12/30/2013.                      547	 State, response to SIGAR data call, 12/29/2013.
                      518	 TFBSO, responses to SIGAR data call, 9/30/2013 and 12/30/2013.       548	 State, response to SIGAR data call, 9/26/2013.
                      519	 TFBSO, response to SIGAR data call, 12/30/2013.                      549	 MOMP, “Comparative Table of Bidding Companies for Aynak
                      520	 TFBSO, response to SIGAR data call, 12/30/2013.                           Copper Mine,” accessed 1/3/2014; MOMP, “Executive Summary
                      521	 State, response to SIGAR data call, 9/26/2013.                            Regarding Tender Process of Aynak Copper,” accessed 1/3/2014.
                      522	 TFBSO, response to SIGAR vetting, 1/13/2014; State, response         550	 Tolo News, “Chinese Company Seeks Amendments to Aynak
                           to SIGAR vetting, 1/14/2014.                                              Copper Mine Contract,” 8/22/2013, accessed 9/11/2013.
                      523	 Tokyo Conference on Afghanistan, Tokyo Mutual                        551	 State, response to SIGAR data call, 9/26/2013; MOMP, “Currently
                           Accountability Framework, 7/8/2012, accessed 7/4/2013; MOMP,              There is No Security Problem in Aynak Copper Project,” 12/28/2013.
                           “Ministry of Mines Begins Consultative Process in Support of         552	 TFBSO, response to SIGAR data call, 12/30/2013.
                           Improved Minerals Law,” 5/5/2012, accessed 7/4/2013.                 553	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed
                      524	IMF, Islamic Republic of Afghanistan-First Review Under the                10/4/2013.
                           Extended Credit Facility Arrangement, Request for Waiver of          554	 TFBSO, responses to SIGAR data call, 9/30/2013 and 12/30/2013.
                           Nonobservance of a Performance Criterion, Modification of                 TFBSO, response to SIGAR vetting, 10/11/2013.
                           Performance Criteria, and Rephasing of Disbursements, 6/19/2012,     555	 TFBSO, responses to SIGAR data call, 9/30/2013 and 12/30/2013.
                           accessed 7/3/2013; Treasury, response to SIGAR vetting, 1/14/2014.   556	 MOMP, “Afghanistan Ministry of Mines Announces the Winning
                      525	 TFBSO, responses to SIGAR data call, 9/30/2013 and 12/30/2013.            Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012.
                      526	 State, response to SIGAR data call, 9/26/2013; State, response to    557	 Bloomberg News, “SAIL-led Consortium to Cut Spend on
                           SIGAR data call, 12/29/2013.                                              Afghan Iron-Ore Mine,” 11/11/2013.
                      527	 TFBSO, responses to SIGAR data call, 9/30/2013 and 12/30/2013;       558	 TFBSO, responses to SIGAR data call, 7/3/2013 and 12/30/2013.
                           TFBSO, response to SIGAR vetting, 1/13/2014.                         559	 ACCI, “The First Afghanistan’s Refinery Opened,” 8/25/2013,
                      528	 MOMP, “Afghanistan Ministry of Mines Announces the Winning                accessed 9/12/2013.
                           Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012.         560	 State, response to SIGAR data call, 3/26/2013; TFBSO, response
                      529	 MOMP, “Preferred Bidder for Current Mineral Tenders,”                     to SIGAR vetting, 7/17/2013.
                           12/8/2012; MOMP, “Preferred Bidder for Zarkashan Project,”           561	 State, response to SIGAR data call, 12/29/2013; TFBSO,
                           12/16/2012.                                                               response to SIGAR data call, 12/30/2013.
                      530	 TFBSO, response to SIGAR data call, 1/2/2014 and 9/30/2013.          562	 MOMP, “CNPCI Watan Oil and Gas Afghanistan Ltd.
                      531	 TFBSO, response to SIGAR vetting, 1/13/2014; TFBSO, response              Announcement of a Tender for the Sale of Crude Oil,”
                           to SIGAR data call, 12/30/2013.                                           12/31/2013.




                      Report to the united states congress          I   January 30, 2014                     229



Jan2014_QR.indb 229                                                                                                                                             1/24/2014 11:08:40 AM
                                                                 Endnotes




           563	 MOMP, “Afghanistan Announces Third Oil and Gas Tender            593	 USAID, response to SIGAR data call, 9/30/2013; USAID,
                in Three Years,” 1/7/2014; MOMP, “Request for Expression              response to SIGAR vetting, 1/15/2014.
                of Interest-Oil and Gas Exploration and production Tender,”      594	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
                9/27/2013.                                                            to SIGAR vetting, 1/15/2014.
           564	 MOMP, “Afghanistan Announces Third Oil and Gas Tender in         595	 USAID, response to SIGAR data call, 9/30/2013; USAID,
                Three Years,” 1/7/2014; TFBSO, response to SIGAR data call,           “Contract No. 306-C-00-11-00506-00,” 10/29/2010, p. 18; USAID,
                12/30/2013; MOMP, “Request for Expression of Interest-Oil and         response to SIGAR vetting, 1/15/2014.
                Gas Exploration and production Tender,” 9/27/2013.               596	 SIGAR, Record of Site Visit, Kajaki Dam, Helmand Province,
           565	 TFBSO, response to SIGAR data call, 12/30/2013.                       Afghanistan, 5/23/2013; Afghanistan Analysts Network, Eagle’s
           566	 State, response to SIGAR data call, 9/26/2013; TFBSO, response        Summit Revisited,” 1/2013; USAID, response to SIGAR vetting,
                to SIGAR data call, 9/30/2013.                                        1/15/2014.
           567	 World Bank, “Afghanistan Partnership: Country Program            597	 USAID, “Implementation Letter No. IL-56 for the Installation of
                Snapshot,” 8/29/2013; USDA, “Agriculture in Afghanistan               Turbine Generator Unit 2 at Kajaki Dam Hydropower Plant,”
                Overview,” accessed 6/14/2013.                                        4/22/2013.
           568	NSC, Report in Response to Section 1535(c) of the Ike Skelton     598	 USAID, response to SIGAR vetting, 1/15/2014.
                National Defense Authorization Act for Fiscal Year 2011          599	 USAID, “Implementation Letter No. IL-56 for the Installation of
                (P.L. 111-383), accessed 9/18/2012.                                   Turbine Generator Unit 2 at Kajaki Dam Hydropower Plant,”
           569	 USAID, response to SIGAR vetting, 1/14/2014.                          4/22/2013.
           570	 USAID, response to SIGAR data call, 1/7/2014.                    600	 USAID, “DABS Inks Contract to Install Final Turbine at Kajaki
           571	 USAID, response to SIGAR data call, 9/30/2013;                        Dam,” 12/9/2013, accessed 12/31/2013; USAID, response to
           572	 USAID, response to SIGAR data call, 9/30/2013; USAID,                 SIGAR vetting, 1/15/2014.
                response to SIGAR data call, 12/31/2013.                         601	 USAID, Special Notice, “Kajaki Unit 2 Construction
           573	 USAID, response to SIGAR data call, 12/31/2013.                       Technical Support Services, Solicitation Number: OAA-
           574	 USAID response to SIGAR data call, 12/31/2013.                        BVSPC-2013-00094,” 12/17/2013, accessed 12/31/2013; USAID,
           575	 USAID response to SIGAR data call, 12/31/2013.                        response to SIGAR vetting, 1/15/2014.
           576	 UNODC, “Afghanistan Opium Survey 2013,” 12/2013, p.10.           602	 USAID, response to SIGAR vetting, 4/15/2013; DOD, response to
           577	 USAID, response to SIGAR data call, 9/30/2013; USAID,                 SIGAR vetting, 10/16/2013; USAID, response to SIGAR data call,
                “Commercial Horticulture and Agriculture Marketing Program,           12/31/2013.
                Factsheet,” 1/2013; USAID response to SIGAR data call,           603	 SIGAR, Audit Report 13-7: Afghanistan’s National Utility:
                12/31/2013.                                                           Commercialization Efforts Challenged By Expiring Subsidy
           578	 USAID, responses to SIGAR data call, 9/30/2013 and 12/30/2013.        and Poor USFOR-A and USAID Project Management,
           579	 USAID, response to SIGAR data call, 12/31/2013; USAID,                4/18/2013; SIGAR, Quarterly Report to Congress, 4/2013, p. 26.
                “Cooperative Agreement No. AID-306-A-13-00008, Kandahar          604	 USAID, response to SIGAR data call, 12/31/2013.
                Food Zone,” 7/31/2013; USAID, KFZ Quarterly Report July–         605	 USAID, response to SIGAR vetting, 4/15/2013.
                September 2013, 10/31/2013.                                      606	 USAID, response to SIGAR vetting, 7/15/2013; USAID, response
           580	 USAID, response to SIGAR data call, 12/31/2013.                       to SIGAR vetting, 1/15/2014.
           581	 USAID, response to SIGAR data call, 12/30/2013.                  607	 USAID, response to SIGAR vetting, 1/15/2014.
           582	 USAID, response to SIGAR data call, 12/30/2013.                  608	 USAID, response to SIGAR data call, 12/31/2013; USAID,
           583	 World Bank, “Afghanistan Partnership: Country Program                 response to SIGAR vetting, 1/15/2014.
                Snapshot,” 8/29/2013.                                            609	 USAID, response to SIGAR vetting, 1/15/2014.
           584	DOD, Report on Progress Toward Security and Stability             610	 USAID, response to SIGAR vetting, 7/15/2013.
                in Afghanistan, 11/2013, p. 106; USAID, “Factsheet:              611	 USAID, response to SIGAR data call, 12/31/2013; USAID,
                Infrastructure,” 2/2013, accessed 9/10/2013.                          response to SIGAR data call, 9/30/2013; USAID, response to
           585	 USAID, response to SIGAR vetting, 1/15/2014.                          SIGAR vetting, 1/15/2014.
           586	 USAID, response to SIGAR vetting, 1/15/2014; DOD, response to    612	 USAID, response to SIGAR data call, 12/31/2013; USAID,
                SIGAR vetting, 1/16/2014.                                             “Implementation Letter Number 22-12 for the Power
           587	 USAID, response to SIGAR data call, 7/1/2013; USAID, response         Transmission Expansion and Connectivity (PTEC) Project,
                to SIGAR vetting, 1/15/2014; DOD, response to SIGAR vetting,          Satisfaction of Conditions Precedent by Da Afghanistan
                1/16/2014.                                                            Breshna Sherkat (DABS),” 12/5/2013; USAID, response to
           588	 USAID, response to SIGAR data call, 7/1/2013.                         SIGAR vetting, 1/15/2014.
           589	 USAID, response to SIGAR data call, 9/30/2013.                   613	 DOD, responses to SIGAR data call, 9/30/2013 and 1/13/2014.
           590	 USAID, response to SIGAR data call, 9/30/2013.                   614	 DOD, response to SIGAR vetting, 10/16/2013.
           591	 MOMP, “The Contract for the Rehabilitation and Drilling of       615	 DOD, responses to SIGAR data call, 9/30/2013 and 1/13/2014;
                Gas Wells in Juma and Bashikord Signed,” 12/14/2013; MOMP,            DOD, response to SIGAR vetting, 10/16/2013.
                “Request for Expression of Interest-Oil and Gas Exploration      616	 DOD, response to SIGAR vetting, 1/16/2014.
                and production Tender,” 9/1/2013; USAID, response to SIGAR       617	 DOD, response to SIGAR data call, 9/30/2013; SIGAR, Quarterly
                data call, 12/31/2013.                                                Report to Congress, 4/2013, p. 157; DOD, response to SIGAR
           592	 USAID, response to SIGAR data call, 12/31/2013.                       vetting, 10/16/2013.




                                                           230                   Special inspector general       I   Afghanistan reconstruction




Jan2014_QR.indb 230                                                                                                                                     1/24/2014 11:08:40 AM
                                                                             Endnotes




                      618	 DOD, response to SIGAR data call, 9/30/2013.                      646	 USAID, “USAID Provides $40 Million to Support a New Five-
                      619	 DOD, responses to SIGAR data call, 9/30/2013 and 1/13/2014;            Year Program at American University of Afghanistan,” 8/6/2013;
                           DOD, response to SIGAR vetting, 10/16/2013.                            USAID, response to SIGAR data call, 12/31/2013.
                      620	 DOD, response to SIGAR data call, 6/27/2013; DOD, response        647	 USAID, “Health Programs, Health Snapshot,” accessed 7/6/2013;
                           to SIGAR data call, 9/30/2013; DOD, response to SIGAR vetting,         USAID, Afghanistan Mortality Survey 2010, Key Findings,
                           10/16/2013.                                                            12/2011, accessed 7/6/2013.
                      621	 DOD, response to SIGAR data call, 6/27/2013; DOD, response        648	 CIA, “World Factbook: Afghanistan,” 12/9/2013; World Bank,
                           to SIGAR data call, 9/30/2013; DOD, response to SIGAR vetting,         Afghanistan In Transition: Looking Beyond 2014, 2/28/2013,
                           10/16/2013.                                                            accessed 7/4/2013.
                      622	 SIGAR, Audit Report 12-12: Fiscal Year 2011 Afghanistan           649	 USAID, response to SIGAR data call, 12/31/2013.
                           Infrastructure Fund Projects Are Behind Schedule and Lack         650	 USAID, response to SIGAR data call, 4/11/2013; USAID,
                           Adequate Sustainment Plans, 7/2012.                                    response to SIGAR data call, 4/1/2013; USAID, response to
                      623	 DOD, response to SIGAR data call, 9/30/2013 and 1/13/2014;             SIGAR vetting, 10/13/2013.
                           DOD, response to SIGAR vetting, 10/16/2013.                       651	 USAID, “Partnership Contracts for Health: Fact Sheet,” 1/2013;
                      624	 DOD, response to SIGAR vetting, 10/16/2013.                            USAID, response to SIGAR data call, 12/31/2013; USAID,
                      625	 USAID, response to SIGAR data call, 1/7/2014.                          response to SIGAR vetting, 10/13/2013; MOPH, Annual HIS
                      626	 USAID, response to SIGAR data call, 9/30/2013.                         Report, Year 1391, 2013, accessed 1/7/2014.
                      627	 USAID, response to SIGAR data call, 12/31/2013; USAID,            652	 USAID, response to SIGAR data call, 12/31/2013; MOPH, Annual
                           response to SIGAR vetting 1/15/2014.                                   HIS Report, Year 1391, 2013, accessed 1/7/2014.
                      628	 USAID, response to SIGAR data call, 9/30/2013.                    653	 USAID, “Partnership Contracts for Health: Fact Sheet,” 1/2013;
                      629	 World Bank, Afghanistan Transport Sector, accessed 7/8/2013.           USAID, response to SIGAR data call, 9/30/2013; USAID,
                      630	SIGAR, Quarterly Report to Congress, 10/2013, p. 169; Civil-            response to SIGAR vetting, 10/13/2013.
                           Military Fusion Centre, “The Rise of the Afghan Rails: Regional   654	 USAID, response to SIGAR data call, 12/31/2013.
                           Railway Linkages and Economic Growth in Afghanistan,”             655	 USAID, response to SIGAR data call, 12/31/2013.
                           3/2013, pp. 1, 5.                                                 656	 SIGAR, Audit Report 13-17: Health Services in Afghanistan:
                      631	 DOT, response to SIGAR data call, 12/30/2013.                          USAID Continues Providing Millions of Dollars to the
                      632	 USAID, response to SIGAR data call, 12/31/2013.                        Ministry of Public Health Despite the Risk of Misuse of Funds,
                      633	 USAID, response to SIGAR data call, 12/31/2013.                        9/2013.
                      634	 DOT, response to SIGAR data call, 12/30/2013; DOD, Report         657	 USAID, response to SIGAR data call, 12/31/2013.
                           on Progress Toward Security and Stability in Afghanistan,         658	 USAID, response to SIGAR data call, 12/31/2013.
                           11/2013, accessed 12/29/2013.                                     659	 USAID, response to SIGAR data call, 12/31/2013; USAID,
                      635	 World Bank, “Afghanistan Partnership: Country Program                  “Health Policy Project: Factsheet,” 1/2013; USAID, response to
                           Snapshot,” 8/29/2013.                                                  SIGAR vetting, 10/13/2013.
                      636	 GIROA, “President Karzai Leaves for Turkmenistan to               660	 USAID, response to SIGAR data call, 12/31/2013.
                           Inaugurate Railway Project between Afghanistan, Turkmenistan      661	 USAID, response to SIGAR data call, 12/31/2013.
                           and Tajikistan,” 6/5/2013, accessed 1/5/2014.                     662	 USAID, “Leadership, Management, Governance: Fact Sheet,”
                      637	 USAID, response to SIGAR vetting, 10/13/2013; MOE, 1390                1/2013.
                           (2011/2012) EMIS Statistical Analytical Report, 2012,             663	 USAID, response to SIGAR data call, 12/31/2013.
                           accessed 10/13/2013.                                              664	 USAID, response to SIGAR data call, 12/31/2013.
                      638	 USAID, response to SIGAR data call, 7/1/2013; USAID, response     665	 USAID, response to SIGAR vetting, 10/13/2013.
                           to SIGAR data call, 9/30/2013; USAID, response to SIGAR vet-      666	 USAID, response to SIGAR data call, 12/31/2013; USAID,
                           ting, 1/14/2014.                                                       response to SIGAR data call, 9/30/2013; USAID, response to
                      639	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has             SIGAR vetting, 10/13/2013.
                           Taken Positive Action to Assess Afghan Ministries’ Ability to     667	USAID, The State of Telecommunications and Internet in
                           Manage Donor Funds, but Weaknesses Remain, 1/2014.                     Afghanistan Six Years Later (2006–2012), 3/2012, accessed
                      640	 USAID, “Basic Education, Literacy and Technical-Vocational             1/16/2014.
                           Education and Training,” 8/30/2013.                               668	 SIGAR, Audit Report 14-32-AR: Direct Assistance: USAID Has
                      641	 USAID, response to SIGAR data call, 12/31/2013; USAID,                 Taken Positive Action to Assess Afghan Ministries’ Ability to
                           response to SIGAR vetting, 1/14/2014.                                  Manage Donor Funds, but Weaknesses Remain, 1/2014.
                      642	 USAID, response to SIGAR data call, 12/31/2013; USAID,            669	 TFBSO, response to SIGAR data call, 12/30/2013.
                           response to SIGAR vetting, 1/14/2014.                             670	 TFBSO, response to SIGAR data call, 12/30/2013.
                      643	 SIGAR, Audit Report 13-17: Health Services in Afghanistan:        671	 State, response to SIGAR data call, 12/29/2013.
                           USAID Continues Providing Millions of Dollars to the              672	 World Bank, Afghanistan Diagnostics Trade Integration
                           Ministry of Public Health Despite the Risk of Misuse of Funds,         Study, 11/2012, accessed 1/5/2014.
                           9/2013.                                                           673	 TFBSO, response to SIGAR data call, 12/30/2013; World Bank,
                      644	 USAID, response to SIGAR data call, 7/1/2013; USAID, response          Afghanistan Diagnostics Trade Integration Study, 11/2012,
                           to SIGAR vetting, 10/13/2013.                                          accessed 1/5/2014; SIGAR, Record of Meeting, 5/28/2013.
                      645	 USAID, response to SIGAR data call, 12/31/2013.                   674	 State, response to SIGAR data call, 12/29/2013.




                      Report to the united states congress        I   January 30, 2014                    231



Jan2014_QR.indb 231                                                                                                                                      1/24/2014 11:08:40 AM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:                                                                                      An American machine gunner keeps watch as his helicopter flies over the powerhouse and
                             An armored vehicle of the U.S. 9th Marine Regiment moves through the desert during a patrolling   reservoir of the Kajaki hydropower project about 40 miles northwest of Kandahar, Afghanistan.
                             operation in Helmand Province, Afghanistan, December 20, 2013. (USMC photo)                       (SIGAR photo by Jaryd Bern)




FINAL_Jan2014_Cover.indd 2                                                                                                                                                                                                     1/15/2014 3:15:40 PM
                                                                                                                                                                                               sigar
        SIGAR




                                                                                                                   SIGAR | Quarterly Report to the United States Congress | January 30, 2014
        Special Inspector General                                                                                                                                                                               Special Inspector General for    JAN 30
        for Afghanistan Reconstruction
                                                                                                                                                                                                                Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                                Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By Web Submission: www.sigar.mil/investigations/hotline/report-fraud.aspx
                               www.sigar.mil/investigations/hotline/




                                                                                                                   1
                                                                                    sigar
                                                                                    Report Fraud, Waste or Abuse




FINAL_Jan2014_Cover.indd 1                                                                                                                                                                                                                           1/15/2014 3:15:38 PM
